                                                                United States Air Force
                                                                Fiscal Year 2002
                                                                Annual Financial Statements

Table of Contents

MESSAGE FROM THE SECRETARY OF THE AIR FORCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .ii
MESSAGE FROM THE ASSISTANT SECRETARY OF THE AIR FORCE, FINANCIAL MANAGEMENT AND COMPTROLLER . . . . . . . . . . . . .iii
OVERVIEW
        GENERAL FUNDS
                     Air Force in Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
                     Air Force Organizations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
                     Fiscal Year 2002 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
                 Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
                          Goal 1—Quality People . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
                          Goal 2—Operational Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13
                          Goal 3—Continued Air Force Transformation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15
                          FY 2003 and Beyond . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
          WORKING CAPITAL FUND
                     Working Capital Fund Concept . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23
                                Air Force Materiel Command Intensifies Focus on Warfighter . . . . . . . . . . . . . . . . . . .23
                                Transformation Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23
                                OPERATION NOBLE EAGLE/OPERATION ENDURING FREEDOM . . . . . . . . . . . . . . .24
                                Improvement in Logistics Support to the Warfighter . . . . . . . . . . . . . . . . . . . . . . . . . .24
                     Air Force Working Capital Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .27
                              Funding Authority . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .27
                              Cash Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .28
                              Air Force Working Capital Fund Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .28
                              Depot Maintenance Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29
                              Supply Management Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32
                              Information Services Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .36
FINANCIAL STATEMENTS
         GENERAL FUNDS
                                Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41
                                Footnotes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49
                                Consolidating and Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .91
                                Required Supplementary Stewardship Information . . . . . . . . . . . . . . . . . . . . . . . . . .103
                                Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .111
                                Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .119
          WORKING CAPITAL       FUND
                                Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .127
                                Footnotes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .137
                                Consolidating and Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .173
                                Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .185
                                Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .189




                                                                              United States Air Force FY 2002 Financial Statements > Table of Contents
                                                                                                                                                              i
     United States Air Force


                                                         S E C R E T A R Y OF T H E A I R F O R C E
                                                                      WASHINGTON




                                                                     January 2003



                                                      Message from the Secretary of the Air Force




     Throughout Fiscal Year 2002, the United States Air Force performed magnificently amidst an era of new national
     security challenges. We served our great nation in the global war on terrorism from OPERATION NOBLE EAGLE at
     home to OPERATION ENDURING FREEDOM abroad. At the same time, we remained committed to investing wisely in
     our highly skilled airmen and transformational weapon systems. The Air Force demonstrated that it is truly an expedi-
     tionary force, capable of projecting power globally, with great precision, and faster than at any other time in our 55-
     year history.

     Conquering these new challenges involved the skillful management and execution of our financial resources. Besides
     managing a budget in FY 2002 of approximately $96.1 billion, the Assistant Secretary for Financial Management has a
     vision of a world-class team with enhanced skills that utilizes efficient processes and fully integrated, compatible, and
     interconnected flow-through systems, enabling them to perform highly valuable analysis that our Commanders want
     and need to support the warfighter. As these pages will attest, the Air Force Financial Management team is making
     progress to achieve that goal and ensure that its financial services are every bit as sophisticated as the warfighting
     concepts and weapon systems it supports.

     Finally, the Air Force Financial Management team is leading the employment of new business technologies in processes
     and systems to substantially improve the accuracy and efficiency of Air Force and Defense-wide management. These
     efforts will be Chief Financial Officer (CFO) Act compliant and ultimately will produce auditable financial statements.

     This statement fulfills the requirements of the CFO Act and documents the expenditures devoted to our General Funds
     and Working Capital Fund activities. The statement also briefly reviews selected performance measures established as
     part of the Government Performance and Results Act.

     The Air Force remains ready to execute in this era of new challenges and threats. Through the expert management,
     control, and accountability of our finances, the Air Force will continue to provide the world’s finest-equipped and
     best-trained air and space force to our combatant commanders and to the United States of America.




ii      Message from the Secretary of the Air Force
                                                                                  2002 Annual Financial Statements


                           D E P A R T M E N T OF T H E A I R F O R C E
                                       WASHINGTON DC
                                OFFICE OF THE ASSISTANT SECRETARY




                                         January 2003

                    Message from the Assistant Secretary of the Air Force,
                         Financial Management and Comptroller




This has been an extraordinary year in many respects. First and foremost we supported the war effort by effectively
managing approximately $96.1 billion during Fiscal Year 2002 and pushing resources down to the warfighter on a
real-time 24/7 basis. At the same time, we took steps to shape our future by launching an effort to transform how we
do business in Financial Management. By continuing to up-skill and upgrade our people, redesign our processes, and
fix and/or replace our antiquated systems, we move our organization from a transactional focus to a strategic focus,
ultimately increasing decision support and reducing the cost of delivering our services.

One of the first things we formally did to kick off our metamorphosis this year was to stand up the Financial
Transformation Program Management Office. This assures we have the discipline and commitment in place to help
us focus on being a creative, innovative, effective, and efficient operation.

But while organizational changes can be helpful, we advance the cause when we assess and redesign our core
processes. We are looking at budget systems to be sure they are part of an overall strategy and structure that promotes
improved processes and wise investment of limited resources. We are actively engaging with the programming and
acquisition communities so that the procurement process is, as practicable, a seamless enterprise.

We have made progress toward transforming our financial systems to employ more cost effective and efficient uses of
both human and technical resources to improve program results and mission accomplishment. We are directly involved
in the work of the Defense-wide Financial Management Modernization Program (FMMP), a comprehensive project to
redesign enterprise business processes and apply the right information technology solutions. We in the Air Force
Financial Management Community, and our business support colleagues, will benefit from this ambitious program to
significantly change and improve the way we do business, reach Chief Financial Officer (CFO) Act Compliance and
produce accurate financial statements.

This statement also fulfills the requirements of the CFO Act and documents the expenditures devoted to our General
Funds and Working Capital Fund activities and briefly reviews selected performance measures established as part of the
Government Performance and Results Act.

Finally, while organization, processes, and systems are important, human resources are the most vital. My strategic
goal for human resources is to recruit, prepare, and retain a well-trained and highly educated financial management
professional team for today and tomorrow as we continue to beat the drums of change to achieve our shared vision of
becoming strategic partners providing high-quality, customer-focused decision support and financial services.




                                           Assistant Secretary of the Air Force
                                       (Financial Management and Comptroller)


                                                                             Message from the Assistant Secretary of the Air Force
                                                                                                                                     iii
                                                                                      2002 Annual Financial Statements




General Funds Overview
       The promises of the American dream—freedom,
        prosperity, and the pursuit of happiness—offer
       great hope to people across our nation. As your
        U.S. Air Force, we exist to defend these values.
                                                          —Dr. James G. Roche
                                                        Secretary of the Air Force


Air Force in Action                         The remarkable performances of
                                            OPERATION NOBLE EAGLE and
The Air Force decisively reaffirmed its     ENDURING FREEDOM demonstrate
unassailable and unmatched value,           the significance of Air Force contribu-
flexibility, and promise of air and         tion to the defense of this nation.
space power during FY 2002. Air             Indeed, the use in Afghanistan of
Force efforts ranged from combat            special operations air controllers on
operations and homeland defense             horseback, directing strikes of preci-
in the war against international            sion-guided munitions, underscored
terrorism, to actions that guaranteed       the type of versatility and flexibility
the readiness, health, security, and        already endemic to the Air Force’s
morale of its warfighters.                  Transformation efforts.

In FY 2002, the Air Force participat-       These transformational efforts
ed in the direct defense of the             continue as new Air Force initiatives
American homeland, OPERATION                are developed to harness global
NOBLE EAGLE. This operation com-            reconnaissance and strike assets
prised combat air patrols and alert         for the conduct of effective and
aircraft to enhance the security of         persistent air-to-ground operations
U.S. airspace as well as to protect         beyond the range of enemy defenses
civil population centers, critical infra-   under adverse weather conditions,
structure, and special events.              24 hours a day, seven days a week.

The Air Force also conducted                Throughout FY 2002, the Air Force
offensive operations under OPERA-           honed its edge, enabling it to remain
TION ENDURING FREEDOM during                expeditionary and responsive to the
FY 2002. Impressively, the combat           needs of the United States and to
operations were conducted primarily         continue to provide a full spectrum of
by air and included reconnaissance,         air and space capabilities that deliver
aerial refueling, and strike missions,      unprecedented firepower, mobility,
as well as simultaneous humanitari-         awareness, and deterrence.
an air drop missions by C-17s.




                                                                                            General Funds > Air Force in Action
                                                                                                                                  1
    United States Air Force




    Air Force Organizations
                                                  If strategic planning is the brain of any successful
                                                  organization, and a talented workforce the heart,
                                                  then superb financial management is the lifeblood
                                                  of a dynamic, world-class enterprise. Whether
                                                  our financial professionals are conducting essential
                                                  accounting and budgeting tasks or broader
                                                  value-added management innovations, their
                                                  efforts will enable the Air Force to achieve its
                                                  transformational goals and remain the best
                                                  managed entity in government.
                                                                                                    —Dr. James G. Roche
                                                                                                 Secretary of the Air Force




                                                 In FY 2002, tens of thousands of       alignment and configuration of per-
                                                 Air Force Active Duty members, Air     sonnel to preserve and optimize
                                                 National Guardsmen, Reservists,        combat capability.
                                                 and Civilians ensured air and space
                                                 security over America.                 Major Commands,
                                                 These integrated components of the     Direct Reporting Units,
                                                 Air and Space Expeditionary Force      and Field Operating
                                                 were involved in major operations
                                                 in FY 2002. Despite arduous
                                                                                        Agencies
                                                 demands, these various organiza-
                                                 tions contributed mightily to the      Major Commands
                                                 manning, equipping, and training       The Air Force is organizationally
                                                 of the dedicated forces at the front   aligned into constituent groups that
                                                 lines of the campaigns. Equally, the   start with major commands. A major
                                                 new homeland security mission and      command represents a subdivision
                                                 the requirements of fighting a new     of the Air Force assigned one or
                                                 kind of war require the proper         more elements of the Air Force




2      Air Force Organizations < General Funds
                                                                                      2002 Annual Financial Statements




mission, and is subordinate to
                                            Air Force Major Command Respective Strength
Headquarters Air Force (HAF).
Bases or installations fall under
MAJCOMs.                               Air Combat Command                                                             101,174

Air Force Space Command (AFSPC)        Air Education and Training Command                                           87,009
assumed command this year of the
Space and Missile Systems Center       Air Force Material Command                                                80,417
(SMC) from Air Force Materiel
                                       Air Force Space Command                        25,422
Command (AFMC). The SMC
transfer was one of several recom-     Air Force Special Operations Command   9,793
mendations made by the United
States National Security Space         Air Mobility Command                                             60,121
Management and Organization
Commission to consolidate and          Pacific Air Forces                                      41,630
improve the management focus
on Air Force space programs.           U.S. Air Force in Europe                          31,332
AFSPC acquired approximately
                                       Air Force Reserves Command                                                     90,636
$4.8 billion in FY 2002 budget
authority and more than $55 billion    Air National Guard                                                                 112,075
in previous-year and expired-year
funding from AFMC. AFSPC is now
responsible for the second largest
budget in the entire Air Force.


Direct Reporting Units
Direct Reporting Units (DRUs) report
directly to Headquarters Air Force,
owing to singular mission responsi-
bilities.


Field Operating Agencies
Field Operating Agencies (FOAs)
execute responsibilities under the
organizational aegis of a functional
manager at Headquarters Air Force.




                                                                                          General Funds > Air Force Organizations
                                                                                                                                    3
    United States Air Force




    Fiscal Year 2002 Results
                                                   American people look to their men and women in
                                                   uniform as symbols of America’s strength, power,
                                                   and determination.
                                                                                                   —General John P. Jumper
                                                                                                     Air Force Chief of Staff




                                                  The FY 2002 budget of approxi-          Budget by
                                                  mately $96.1 billion increased
                                                  slightly over FY 2001. This amount
                                                                                          Appropriation
                                                  includes Operations and                 Categories
                                                  Maintenance (O&M); Military
                                                                                          Six major appropriation categories
                                                  Personnel (MILPERS); Procurement
                                                                                          comprised the Air Force FY 2002
                                                  (PROC); Research, Development,
                                                                                          budget. The appropriation
                                                  Test, and Evaluation (RDT&E);
                                                                                          categories included:
                                                  Military Construction (MILCON);
                                                  and Military Family Housing (MFH).      O&M—pays the salaries and
                                                  These funds do not include revenue      benefits of civilian employees and
                                                  received from the working capital       other day-to-day operating costs
                                                  fund, other Services, DoD agencies,     (e.g., fuels and spare parts)
                                                  or other Federal agencies.
                                                                                          MILPERS—finances the salaries and
                                                  The trend in increased budget           benefits of uniformed personnel
                                                  authority will likely continue due to
                                                                                          PROC—finances major system
                                                  the global war against terrorism.
                                                                                          purchases

                                                                                          RDT&E—funds system development

                                                                                          MILCON—pays for facilities
                                                                                          construction

                                                                                          MFH—provides for the operation,
                                                                                          maintenance, and construction of
                                                                                          housing units.




4      Fiscal Year 2002 Results < General Funds
                                                                   2002 Annual Financial Statements




           FY 2002 Budget—Major Appropriations

                           MILCON
                               1%
                                            MFH
                                            1%

                        RDT&E
                         14%


                                                              O&M
                                                               36%




             PROC
              22%




                                       MILPERS
                                         26%




           FY 2001/2 in FY 2002 $B Major Appropriations

35



30



25



20
                                                                                                2001
                                                                                                2002
15



10



 5



 0
     O&M      MILPERS           PROC         RDT&E             MILCON            MFH




                                   General Funds > Fiscal Year 2002 Results > Budget by Appropriation Categories
                                                                                                                   5
    United States Air Force




            Performance Measures
                                                            America’s Air Force is built on the solid foundation
                                                            of our intelligent, professional, and dedicated
                                                            people. Our airmen are a national treasure.
                                                                                                                    —Dr. James G. Roche
                                                                                                                  Secretary of the Air Force




                                              In FY 2002, the Air Force continued                      they develop strategic goals, per-
                                              to measure its performance under                         form essential tasks, and measure
                                              select, strategically established                        their performance.
                                              goals. These Air Force metrics have
                                              been aligned in direct support of                        Goal 1—Quality People
                                              the corresponding, overarching
                                                                                                       The foundation of the United States
                                              goals of the Department of
                                                                                                       Air Force is its people. They are the
                                              Defense, and in turn support the
                                                                                                       Air Force’s single most crucial
                                              Government Performance and
                                                                                                       readiness component. The people
                                              Results Act (GPRA) of 1993.
                                                                                                       who fight and win America’s air
                                              Collectively, the USAF goals estab-
                                                                                                       wars must be skilled, motivated,
                                              lish a common organizational
                                                                                                       and dedicated.
                                              direction for subordinate units as




                                                                                               Active Military
                                                                     600
                                                                             535

                                                                     500
                                              Numbers in Thousands




                                                                     400
                                                                                       361                                         368
                                                                                                      356           353


                                                                     300


                                                                     200


                                                                     100


                                                                      0
                                                                           FY 1990   FY 1999        FY 2000       FY 2001        FY 2002




6      Performance Measures < General Funds
                                                                                                     2002 Annual Financial Statements




The Air Force relies on a highly
skilled, educated, and technologi-
cally superior force to function as
an effective warfighting team. The
total force includes Active, Reserve,
Guard, Civilian, and contractor
personnel.

Force structure drawdowns and a
mounting demand for U.S. military
presence around the globe contin-
ues to increase deployed and non-
deployed personnel commitments.
Still, Air Force members stand proud
to serve their country. Senior Air
Force leaders value their service                           FY 1990. Due to personnel draw-             with the requisite skills to fill the
and readily undertake the obligation                        downs in the past decade, new hires         positions. The reserve component
to care for them and their families.                        have been limited. Moreover, many           consists of the Air Force Reserve
                                                            experienced employees have moved            and the Air National Guard. These
The Active Military chart shows a
                                                            on to other jobs or have taken              personnel are integrated into all
leveling trend over the last four
                                                            advantage of early retirement               mission areas, and nearly half of
years, although active strength has
                                                            options. As a result, 42 percent of         the mission-oriented squadrons in
declined approximately 31 percent
                                                            Air Force civilian personnel will be        the total Air Force are in the reserve
from 1990 levels.
                                                            eligible to retire in the next five         components. In October 2002, the
The Active Civilian chart shows                             years. The Air Force is taking neces-       Air Force stood up its first blended
that civilian population trends in                          sary steps to reshape the civilian          wing, operating the E-8C Joint
the active Air Force have declined                          force to ensure future availability of      Stars, composed of both Air
by more than 30 percent since                               sufficient and experienced personnel        National Guardsmen and Active
                                                                                                        Duty members. Further, a majority
                                                    Active Civilian                                     of the Air Force’s total aerial refuel-
                                                                                                        ing and tactical airlift capabilities
                          300
                                                                                                        are in the Air National Guard and
                          250
                                  249                                                                   Air Force Reserve.

                                                                                                        In concert with the proper emphasis
   Numbers in Thousands




                          200
                                                                                                        on personnel, the USAF ranks qual-
                                            166                           162
                                                            161                         160
                                                                                                        ity of life (QoL) as one of its top
                          150
                                                                                                        priorities. USAF QoL initiatives
                                                                                                        acknowledge the intense demands
                          100
                                                                                                        placed on the mission-focused total
                          50                                                                            force. The Air Force will, with the
                                                                                                        continued support of Congress,
                           0                                                                            pursue adequate manpower;
                                FY 1990   FY 1999         FY 2000       FY 2001       FY 2002




                                                                                          General Funds > Performance Measures > Quality People
                                                                                                                                                  7
    United States Air Force




    improve workplace environments;                activities they need. Additionally,         requirements. The Air Force also
    seek fair and competitive compen-              Family Support Centers continue to          exceeded its FY 2002 recruiting
    sation and benefits; balance                   enhance recruiting and retention ini-       goal of 37,283, while sending
    deployments and exercise sched-                tiatives by meeting individual and          36,396 people to basic training.
    ules; provide safe, affordable, and            family needs for information con-           Further, the Air Force enters FY
    adequate housing; enhance com-                 cerning deployment, reunion, finan-         2003 with the strongest Delayed
    munity and family programs;                    cial readiness, life skills education,      Entry Program bank in recent years.
    improve educational opportunities;             relocation, transition, spouse              Over half of the FY 2003 accession
    and provide quality health care.               employment, and AF Crossroads.              needs are already under contract
                                                                                               and scheduled to enter active duty
    Efforts to compensate the mission-
                                                   Recruiting                                  during the next year.
    focused total force continued to
    progress with the FY 2002 National             As FY 2002 ended, the Air Force             The Air Force exceeded its FY 2002
    Defense Authorization Act (NDAA).              slightly exceeded its end-strength          recruiting goal not by lowering stan-
    As a result, key legislation directly
    impacting total force pay and com-
    pensation, travel and transportation
                                                                               Recruits with High School Diploma
                                                          120%
    entitlements, retirement, and educa-
    tion programs, were authorized and                    100%
                                                                                                                         Goal—100%

    implemented over this past year.                                  99%           99%        99%          99%           99%

                                                           80%
    Enhancing community and family
    programs is a crucial link between                     60%
    members, families, and leadership,
    creating the necessary support to                      40%
    optimize retention. In 2001, the Air
    Force began taking a more collabo-                     20%

    rative approach to community and
                                                               0%
    family service delivery by creating                             FY 1998       FY 1999    FY 2000      FY 2001      FY 2002
    Community Action Information
    Boards (CAIBs) and Integrated                                             Recruits in Top Half of Entrance Test
    Delivery System (IDS) working                         90%
                                                                                                                         Goal—80%
    groups at the Air Staff, MAJCOM,                      80%

    and Installation levels. The CAIB                     70%
                                                                      78%           76%        73%           75%           75%
    brings together senior leaders to
                                                          60%
    review and resolve individual, fami-
                                                          50%
    ly, and installation community issues
                                                          40%
    that impact military readiness and
    quality of life. The IDS working                      30%

    group brings together all community                   20%
    and family agencies to ensure our                     10%
    military members and their families
                                                           0%
    have access to the services and                                 FY 1998       FY 1999    FY 2000      FY 2001       FY 2002




8      Quality People < Performance Measures < General Funds
                                                                                                                   2002 Annual Financial Statements




dards, but by intensifying efforts to                            year of national television
promote the benefits of the Air                                  advertising
Force. This success, in the face of                        ◗     Kept pace in cyberspace, mod-
stiff competition from the private                               ernizing the innovative and
sector and an increased propensity                               artistically designed USAF web
to pursue college opportunities, is                              site to promote a better under-
                                                                 standing of the Air Force over-
the result of hard work and
                                                                 all, thereby effectively reaching
new approaches.                                                  the Internet generation.
Such success reflects a combination                        The need to recruit qualified and
of measures—more recruiters on                             diverse men and women, both mili-
the street, a focused television                           tary and civilian, to serve in the U.S.
advertising campaign, and higher                           Air Force remains as important                               sailors, and marines) to return to
enlistment bonuses. These are all                          today as it was when the service                             active duty in FY 2003. The service
important to manning the force, and                        was established. A service popula-                           actively recruited these experienced
the Air Force will continue to make                        tion reflective of the strengths of a                        military professionals, returning
recruiting a top priority.                                 diverse America will provide the                             1,571 veterans to uniform in
                                                           necessary new talent required for                            FY 2002. In FY 2003, the Air Force
In support of its recruiting mission,
                                                           today’s unique challenges. If the Air                        hopes to bring at least 1,500 former
the Air Force:
                                                           Force succeeds in propagating its                            members into the active duty ranks.
◗   Increased the number of pro-
                                                           message to young people across
    duction recruiters from 1,085 at                                                                                    In terms of quality, more than
                                                           the nation, then it is confident in a
    the beginning of FY 1999 to                                                                                         99 percent of those enlisting are
    1,650 by the end of FY 2002                            positive response.
                                                                                                                        high school graduates.
◗   Instituted an aggressive adver-                        The Air Force hopes to attract more
    tising campaign to include a full                      former airmen (as well as soldiers,

                                                               Enlisted Retention
    100%
                   94%                   93%                                                                                     95%
                                                               91%                   91%                   90%
     90%
                                                                                                                                       80%
     80%
                         71%                                                                                                                73%
                                               69%                   69%                   70%                   69%
     70%

     60%
                             56%                   54%                                                               56%                                Career Goal
                                                                                               53%
                                                                         49%                                                                            2nd Term Goal
     50%
                                                                                                                                                        1st Term Goal
     40%

     30%

     20%

     10%

       0%
                    FY 1997               FY 1998               FY 1999                FY 2000               FY 2001               FY 2002
      Note: Enlisted retention rates for FY2002 are largely distorted due to the effects of Stop Loss. Stop Loss is the term that refers to Title 10,
      section 12305, Presidential authority, that when implemented, suspends separations and retirements from the Active Duty, Air National
      Guard, and Reserve components. The data does not give an accurate picture of retention health. The Air Force will publish monthly
      FY2003 data that provides a more accurate picture of current retention trends.




                                                                                                      General Funds > Performance Measures > Quality People
                                                                                                                                                                        9
     United States Air Force




     Education and Training
     Recruiting good people into the Air
     Force is just the beginning. They
     need training to perform highly
     technical work—the basis of the Air
     Force’s record of military success.

     The Air Force continues to offer pro-
     fessional military education (PME)
     programs that span the careers of
     both officers and enlisted members.
     From Airman Leadership School to
     the Air War College, PME provides
     opportunities to all Air Force per-
     sonnel, granting them the skills and
                                                                      active-duty, Guard and Reserve offi-                          (CCAF) offers numerous courses
     knowledge they need to manage Air
                                                                      cers, and selected civilian interns.                          leading to an Associates degree
     Force resources and to operate
                                                                                                                                    and had awarded 229,552 degrees
     weapons systems.                                                 Technical training courses are a vital
                                                                                                                                    at the close of FY 2002.
                                                                      part of the broader training system.
     The newest PME course, the Air and
                                                                      For example, the 51-day Security                              In FY 2002, for the first time ever,
     Space Basic Course (ASBC) offered
                                                                      Forces Apprentice course teaches                              eight enlisted members were
     at Maxwell Air Force Base, Alabama,
                                                                      airmen all aspects of their multi-                            admitted to the Air Force Institute of
     is designed to meet the needs of
                                                                      faceted career field missions. The                            Technology (AFIT) in highly technical
     newly commissioned line, non-line,
                                                                      Community College of the Air Force                            areas to pursue a master’s degree.
                                                                                                                                    Given the greater emphasis on a
                                                                                                                                    more technical Air Force, enlisted
                                                                                                                                    members will share in the responsi-
            Pilot Retention—Cumulative Continuation Rates
                                                                                                                                    bility to meet the many challenges in
     100%
               87%
                                                                                                                                    the immediate years ahead.
     90%

     80%
                              77%                                                                                                   In FY 2002, a Secretary of the Air
                                                                                                                            75%
                                              71%                                                                                   Force study was completed to
     70%
                                                                                                                                    rationalize the Naval Postgraduate
     60%
                                                                                                                                    School and AFIT. While specific rec-
                                                             46%                                            49%
     50%                                                                                     45%                                    ommendations are still in process,
                                                                             41%
     40%                                                                                                                            better cooperation, exchange of
     30%                                                                                                                            professors, and a common board of
     20%
                                                                                                                                    governance have all been approved
                                                                                                                                    as initial steps for commonality in
     10%
                                                                                                                                    DoD science and engineering
       0%
                                                                                                                                    advanced academic degree needs.
            FY 1995 FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002
             Note: CCR rates for FY2002 are largely distorted due to the effects of Stop Loss. The data does not give an accurate
             picture of rated health. FY2003 trends will be closely monitored to provide a more accurate trend.




10      Quality People < Perrformance Measures < General Funds
                                                                                         2002 Annual Financial Statements




                                   Pilot Shortage                                          Retention
1400                                                                                       Enlisted retention rates were unchar-
                            1200                                                           acteristically high in FY 2002 due
1200
                                                                                           to Stop Loss.
1000
                                                900                                        In April 2002, the Air Force com-
 800                                                                                       pleted its initial re-recruiting for the
                                                                               FY 2001
                                                                               FY 2002
                                                                                           force test program. The program
 600                                                                                       concentrated on development engi-
                                                                                           neers entering critical decision
 400
                                                                                           points. The Air Force is seeking to
 200                                                                                       institutionalize the re-recruiting pro-
                                                                                           gram as a retention initiative and
   0
                                                                                           expand the program to other critical
                                                                                           Air Force specialties.
                               Bonus Take Rate
                       Best Indicator of Pilot Retention
                                                                                           The Air Force will soon announce
70%
                                                                                           the Critical Skill Retention Bonus
                                                              58%
60%                                                                                        (CSRB) program for three of the five
                                                                                           designated critical officer skills.
                           47%
50%                                                                                        Payment of CSRB is viewed as an
                                                     37%                                   important retention tool for these
40%
                                                                               FY 2001     career fields—all of which have had
                 30%                                                           FY 2002
30%                                                                                        the lowest retention rates in the Air
                                                                                           Force for several years. Payment to
20%
                                                                                           all critical officer skills will not occur
10%                                                                                        in FY 2003 due to funding limits.

 0%
                                                                                           The Air Force Reserve met its
              Long-Term Bonus                       New Pilot Bonus                        end-strength goal by reaching
                “Take Rate”                          “Take Rate”
                                                                                           100 percent.

A new officer education development         First placements in specific educa-            Rated Retention
paradigm was developed to better            tion opportunities could begin as
                                                                                           A special subset of the retention
educate officers based on specific          early as January 2003.
                                                                                           challenge is maintaining the health
career phases and AF needs. The
                                                                                           of the rated force in order to pre-
model will permit short modular             Pilot Training
                                                                                           serve the warfighting capability of
course completion, specific technical       Pilot training is of particular concern        the U.S. Air Force. The Air Force
training needs, and PME at appropri-        to the Air Force, considering the              boasts the world’s most efficient and
ate sequenced points for individual         number and quality of trained pilots           talented support force, combined
and Air Force needs. This model par-        correlate directly to the ability of the       with technologically superior, inte-
allels best-business practices in using     service to accomplish its mission.             grated air and space systems.
resources when and where needed.
                                                                                           However, retention of skilled pilots,




                                                                             General Funds > Performance Measures > Quality People
                                                                                                                                        11
     United States Air Force




                                                                                               missions and aircraft. To help allevi-
                                                                                               ate these shortfalls, senior naviga-
                                                                                               tors are being used to backfill empty
                                                                                               pilot positions on the headquarters
                                                                                               staff. By efficiently using navigators’
                                                                                               rated expertise, the Air Force has
                                                                                               raised overall rated HQ-level staff
                                                                                               manning to 76 percent (pilot rated
                                                                                               staff positions are currently manned
                                                                                               at only 58 percent). However, nearly
                                                                                               50 percent of the current navigator
                                                                                               force will be eligible to retire within
                                                                                               the next four years.

     navigators, and Air Battle Managers             pilot retention trends) was approxi-      The Air Force’s integrated focus on
     (ABMs) remains crucial to accom-                mately 47 percent. This is an             retention initiatives will continue to
     plishing operational missions.                  increase from the 30 percent “take        emphasize long-term rather than
     Further, at a cost of several million           rate” during FY 2001. The total           short-term retention. To date, initia-
     dollars to train and season, a veter-           take rate for initially eligible pilots   tive options implemented include:
     an pilot is the Air Force’s most                was also up for FY 2002 at 58 per-        increasing active duty service com-
     expensive personnel asset.                      cent compared to 37 percent in FY         mitment, increased compensation,
                                                     2001. However, because there are          managing operations tempo, and
     Prior to September 11, 2001, a                                                            enhancing quality of life programs.
                                                     fewer initially eligible pilots in this
     strong economy and unprecedented
                                                     year group (due to production in the
     airline hiring, along with a contin-
                                                     mid-1990s), significant retention
     ued high operations tempo, con-
                                                     challenges remain. In fact, Air Force
     tributed to an end of FY 2001
                                                     inventory forecasts estimate pilot
     shortage of approximately 1,200
                                                     shortfalls of 600-900 pilots through
     pilots, 9 percent of the requirement.
                                                     FY 2010. Thus, pilot retention will
     By the end of FY 2002, the pilot
                                                     continue to be a significant issue for
     shortfall dropped to 7 percent of the
                                                     the long-term health of the USAF
     requirement. This short-term inven-
                                                     warfighting capability.
     tory increase is attributable to the
     short-term decline in airline pilot hir-        ABM shortfalls are no less acute as
     ing combined with the positive                  ABM inventory is estimated to be
     retention effects of Air Force initia-          approximately 13 percent short of
     tives such as Aviator Continuation              requirements, during a time when
     Pay (ACP) in addition to the                    the demand for their expertise at
     Permanent Rated Recall and Rated                home and abroad is greatest. ABMs
     Retired Recall programs. In FY                  are a resource critical to Air Force
     2002, the pilot long-term bonus                 warfighting capabilities as they
     “take rate” (a telling indicator of             operate in low-density/high-demand




12       Quality People > Performance Measures < General Funds
                                                                                       2002 Annual Financial Statements




Goal 2—Operational
Performance
Two objectives of operational per-
formance are: (1) to improve mis-
sion effectiveness and readiness
while minimizing risk, and (2) to
enable joint force commanders to
respond to a full spectrum of opera-
tions by furnishing appropriately
sized, trained, mobile, ready forces
and equipment to successfully exe-
cute USAF mission tasks.


Air Force Flying Hour
Program                                     required courses of action may be              Capital Fund hours, foreign nation-
The Air Force flying hour program           determined. Additionally, these evalu-         al reimbursable training hours,
was developed to provide training           ations provide insight into possible           Special Operations hours, and
opportunities to prepare units to sup-      future-year requirements.                      RDT&E hours. The flight suspension
port their mission to the warfighting                                                      of the T-3A significantly impacted
                                            FY 2002 flying hour program execu-
commanders. The execution of the                                                           FY 1998-1999 budget execution. If
                                            tion significantly increased com-
President’s Budget (PB) flying hour                                                        the congressional program is
                                            pared to the FY 2002 PB, particular-
program is impacted by contingency                                                         adjusted to account for this ground-
                                            ly in the fighters, bombers, and
operation support, maintenance                                                             ing action, the execution percent-
                                            tankers. The execution was impacted
issues, fact-of-life impacts, aircraft                                                     age for FY 1998 and FY 1999
                                            by the support of contingencies—
flight operation suspensions, aircraft                                                     would be 96.5 percent and 95
                                            OPERATION ENDURING FREEDOM
delivery delays, weapon system                                                             percent, respectively.
                                            and OPERATION NOBLE EAGLE.
retirements, and approved program
changes. Though the execution of            The hours shown in the Flying                  Mission Capable Rates
the flying hour program does not            Hour Program Execution table                   A measure of aircraft readiness
define unit readiness, it can be a for-     are the Congressionally funded                 is mission capable (MC) rates.
ward indicator of possible readiness        O&M hours. They do not include                 Expressed in percentages, MC rates
issues. The MAJCOMs determine the           incrementally funded contingency               are the number of times USAF
reasons for execution deviations so         hours, Transportation Working                  aircraft are ready to perform an
                                                                                           assigned mission. According to
                                                                                           aggregate and by-aircraft mission
                        Flying Hours Program Execution                                     capable rates for FY 2001 and
                                                                                           2002, Air Force readiness for
 Hours in Millions         FY96    FY97    FY98    FY99    FY00     FY01    FY02
                                                                                           FY 2002 stands at 75.7 percent
 Programmed                1.327   1.286   1.290   1.324   1.315   1.320    1.324          in the aggregate and reflects the
 Actual                    1.243   1.179   1.194   1.194   1.273   1.303    1.398          second consecutive yearly increase
 Percentage Executed        93.7    91.7   92.5    90.2    96.8     98.7    105.5          in mission capability.




                                                                   General Funds > Performance Measures > Operational Performance
                                                                                                                                    13
     United States Air Force




                                     Mission Capable Rates                                          Similarly, cannibalization rates are
                                                                                                    down to 9.4 cannibalizations per
     78%
                                  76.5%                                              76.7%          100 sorties, a 24 percent improve-
                  75.7%
     76%                                                                                            ment from its FY 1997 high.
                                                                             74.4%
              73.5%          73.8%
     74%
                                                                                                    Behind the four major readiness
     72%                                                                                            indicators are corollary metrics that
                                                                     70.8%
                                                    70.5%
                                                                                             2001
                                                                                                    provide even more evidence of the
     70%
                                                             69.1%                           2002   major improvements seen in parts
                                            67.3%
     68%                                                                                            support. Parts backorders are down
                                                                                                    from a high of 615,000 backorders
     66%
                                                                                                    in December 1998 to an average of
     64%                                                                                            210,000 in FY 2002. Furthermore,
                                                                                                    Mission Capable (MICAP) incidents
     62%
              Aggregate        Fighter        Bomber          Strategic        Other                and hours are both significantly
                                                                                                    down, with MICAP hours down
                                                                                                    21 percent since the beginning of
     While the aggregate MC rate stands                     in FY 2001 to 70.8 percent
                                                                                                    this fiscal year. Beginning in
     at 75.7 percent, specific MC rates                     in FY 2002.
                                                                                                    FY 2002, the Air Force also budget-
     vary according to aircraft type, as
                                                       ◗    The MC rates for aircraft in            ed and paid for Readiness Spares
     shown above:
                                                            the “Other” category also               Package (RSP) kits for both strategic
     ◗     Fighter MC rates increased                       improved, increasing 2.3 per-           airlift and fighters, improving the
           from FY 2001’s rate of 73.8                      centage points over FY 2001.            deployability and supportability of
           percent to 76.5 percent in                                                               expeditionary aerospace forces.
           FY 2002, while Bomber MC                    Non-Mission Capable Rates                    These examples highlight the
           figures also increased from                                                              improved supply support the field is
                                                       As described in the working capital
           67.3 percent in FY 2001 to                                                               experiencing, and all these
                                                       fund (WCF) section of this overview,
           70.5 percent in FY 2002.                                                                 improvements occurred while the
                                                       there have been significant
                                                                                                    Air Force engaged in multiple
     ◗     Strategic Airlift MC rates                  improvements in logistics support
                                                                                                    contingency operations.
           improved from 69.1 percent                  for the warfighter.
                                                                                                    Equally telling is the improvement
                                                       Total Non-Mission Capable for
                                                                                                    witnessed in engines. The total
                                                       Maintenance (TNMCM) rates
                                                                                                    Engine Non-Mission Capable for
                                                       improved to 19.4 percent fleet-
                                                                                                    Supply (ENMCS) rate for AF engines
                                                       wide—the best rate in four years.
                                                                                                    dropped to 13.2 percent, well
                                                       Total Non-Mission Capable for
                                                                                                    below the 19.7 percent rate in
                                                       Supply (TNMCS) rates improved
                                                                                                    FY 1998. That 6.5-percentage-point
                                                       to 11.7 percent from a high of
                                                                                                    decrease contributed to the Air
                                                       14.3 percent in FY 2000, which
                                                                                                    Force having an additional 215
                                                       represents an 18-percent improve-
                                                                                                    engines in war readiness stocks
                                                       ment in supplying critical aircraft
                                                                                                    since FY 1998. Several engines
                                                       parts to the flightline mechanic.
                                                                                                    have seen improvements far beyond




14       Operational Performance < Performance Measures < General Funds
                                                                                     2002 Annual Financial Statements




those represented by the aggregate
rate. Since FY 1998, C-5 engines
experienced a 75 percent improve-
ment in parts support, with its
ENMCS rate dropping from 10.9
percent in FY 1998 to just 2.9 per-
cent. Additionally, the A-10 experi-
enced a significant four percentage
point improvement in ENMCS, with
25 additional war readiness engines
since last year. Other aircraft
engines had remarkable improve-
ments in reliability as well. In Pacific
Air Forces (PACAF), the conversion
of the F-16 engines at 3 wings from
the F110-100A to the F110-100B             making more aircraft available to             aircraft in depot status—87 more
resulted in a 35-percent reduction         the warfighter is also vital to our           aircraft on the ramp since October
in unscheduled engine removals.            customer. While programmed depot              2000. In just two years, KC-135
The conversion of KC-135Es to              maintenance and fleet moderniza-              flowdays have been reduced by
KC-135Rs, where the TF33 engine            tion will always be part of the force,        50 percent.
is replaced by the F108, has also          the Service strives to make the
                                                                                         The Air Force’s logistics readiness
demonstrated Reliability and               process more effective and more
                                                                                         indicators provide a snapshot of the
Maintainability (R&M) paybacks—80          efficient to increase the number of
                                                                                         gains made by “effects-based
percent fewer unscheduled engine           aircraft available to fly primary mis-
                                                                                         resourcing,” by enhancing process-
removals and an 83-percent lower           sions. Depot production is above
                                                                                         es and focusing on the needs of the
ENMCS rate with the new engine—            target, and on-time due date per-
                                                                                         warfighter. No doubt much work is
all of which translates into more          formance is trending upwards. At
                                                                                         unfinished, but given the proper
combat capability and less strain on       the same time, defect rates, quality
                                                                                         resources, the path is set for
the professional maintainers.              defects, and depot-possessed air-
                                                                                         continued success.
                                           craft are down. For example, in
Improving mission capable rates for        October 2000, there were 176 KC-
aircraft and engines is merely one         135 “depot status” aircraft. At the           Goal 3—Continued Air
method to enhance combat power;            end of FY 2002, there are only 89             Force Transformation to
                                                                                         Address Future
                                                                                         Challenges
                                                                                         The objective of Goal 3 is to pre-
                                                                                         pare for and anticipate uncertainties
                                                                                         by providing a transformation pro-
                                                                                         gram that implements the fullest
                                                                                         range of technological, process,
                                                                                         and people innovation and




                                                                General Funds > Performance Measures > Address Future Challenges
                                                                                                                                   15
     United States Air Force




                   The greatest element of transformation
                   being employed is the ingenuity of our
                   young people.
                                                                 —General John P. Jumper
                                                                   Air Force Chief of Staff


     advancement, geared to qualita-                  threats, they now have a valued
     tively superior warfighting and                  partner: responsive, agile, flexible,
     business capabilities.                           horizontally integrated business
                                                      processes that encourage and
     Transformation represents a process
                                                      reward innovation, are responsive to
     of change devoted to maintaining
                                                      customer needs, empower employ-         from the current labor-intensive,
     and advancing Air Force superiority
                                                      ees, and maximize resources avail-      transaction-focused customer serv-
     in its myriad missions. By its nature,
                                                      able to the warfighters (people,        ice system to a more valued “strate-
     transformation is ongoing and con-
                                                      time, money, and material).             gic partner” role. Financial
     tinuous to thwart any potential
                                                                                              Management now already occa-
     adversary’s asymmetrical efforts. Air            Fundamentally transforming Air
                                                                                              sions the application of tools, tech-
     Force personnel used innovation to               Force application of technology,
                                                                                              niques, training, and technology to
     transform battle space engage-                   concepts, and organizational struc-
                                                                                              reduce the time and expense of
     ments, while others worked tirelessly            tures has already produced dra-
                                                                                              processing transactions and to shift
     improving the way weapons and                    matic results. This paradigm shift—
                                                                                              focus toward vastly superior
     weapons platforms are designed,                  a departure from business as
                                                                                              decision support.
     acquired, and maintained.                        usual—is no longer a luxury, but
                                                      an operational necessity. Although      In April 2002, the Air Force Financial
     Air Force Transformation is not
                                                      the Air Force is not a business,        Management Transformation Vision
     focused solely on end-user or oper-
                                                      many of the challenges it faces can     Statement was released and, as a
     ational considerations. Indeed,
                                                      benefit from the adoption of best-      result, the Financial Management
     while warfighting concepts and
                                                      business practices—effectively “de-     Transformation Program Manage-
     employment skills remain superior in
                                                      layering” the organization, pushing     ment Office (SAF/FMT) was created
     this era of dynamic, ever-changing
                                                      decisions down to the level best        to help make it a reality. To bring the
                                                      optimized for decision-making, and      fight to the field, SAF/FMT conducted
                                                      managing for results.                   a series of Financial Management
                                                                                              Transformation Workshops for Major
                                                      Financial Management                    Command representatives as well as
                                                      Transformation                          for financial managers in Acquisition.
                                                      The Air Force is in the midst of a      FMT has also played a key role in
                                                      profound, exciting, and critical        drafting and/or coordinating the
                                                      transformation. Without question,       Office of the Secretary of Defense
                                                      sound financial management is at        Transformation Planning Guidance,
                                                      the core. Air Force Financial           the Air Force Transformation Flight
                                                      Management will accordingly shift       Plan, the Air Force Business




16       Address Future Challenges < Performance Measures < General Funds
                                                                                    2002 Annual Financial Statements




Transformation Plan, and the              that will support all internal systems
Customer Service Integration Plan.        and will also provide a single inter-
These plans are also action- and          face point with the various external
results-oriented, ensuring financial      information technology efforts that
management relevance in the               relate to financial management. The
21st century.                             resulting holistic perspective will
                                          facilitate sound financial manage-
Correspondingly, Air Force Financial
                                          ment and the modernization of the
Management senior leaders have
                                          supporting technical infrastructure.
selected a set of transformation ini-
                                          This new organization will be
tiatives to realize the benefits of
                                          created in FY 2003.
transformational financial manage-
ment. When implemented, they will         Establish a Workforce Management              education and training, and to per-
produce an Air Force where every          Office. As a result of current and            form additional workforce analysis
dollar expended correlates to the         future challenges facing our finan-           and evaluation. The mission of the
correct balance between supporting        cial management workforce, an                 office is to effectively and efficiently
the mission, maintaining the infra-       office will be established to address         manage the Air Force financial
structure, and taking care of the         those specific needs. A Human                 management workforce to attain
people. Major new initiatives to be       Resources (HR) Task Force was                 goals set forth in the April 2002 Air
accomplished by the Secretary of          established with representatives from         Force Financial Management Vision
the Air Force for Financial               the Cost, Budget, and Financial               Statement. This new organization will
Management and Comptroller                Operations communities, including             be created in FY 2003.
(SAF/FM) follow.                          both the military and civilian mem-
                                          bers of our workforce. In July 2002,          Air Force Customer Service
Establish an Information Technology                                                     Concept, Phase I—Military Pay.
                                          the HR Task Force recommended an
Directorate. SAF/FM is responsible                                                      Customer service has been frag-
                                          office organizational structure to
for many of the financial manage-                                                       mented across various functional
                                          support workforce management and
ment systems used at headquarters                                                       communities such as personnel,
                                          development, as well as professional
and by the Major Commands and
bases. In addition, it plays a signifi-
cant role in a variety of important
OSD systems initiatives, including the
Financial Management Modern-
ization Program (FMMP) and the
Defense Integrated Military Human
Resources System (DIMHRS). To opti-
mize performance related to these
initiatives, an analysis was accom-
plished to determine how financial
management Information Technology
could be used most effectively. The
analysis supported the creation of an
Information Technology Directorate




                                                               General Funds > Performance Measures > Address Future Challenges
                                                                                                                                   17
     United States Air Force




     financial management, logistics,
     medical, family support, etc. The
     delivery of these services is not suffi-
     ciently responsive to Air Force per-
     sonnel and is time- and labor-inten-
     sive. The goal is customer-focused,
     mission-driven service leveraged by
     technology. The service concept is
     integrated “people” services for
     “one-stop shopping” 24/7, anytime,
     anywhere customer service to active
     duty, civilian, ANG, reserve, retirees,
     and family members. Phase I is
     focused on military personnel/mili-
     tary pay customer service using a
                                                      invoice, the requesting activity to        interest penalties are incurred, and
     tiered concept: first, to offer web
                                                      receive and accept the goods, and          billing costs are reduced to a mini-
     access and multi-functionality; sec-
                                                      the paying office to make payment          mum amount.
     ond, telephone contact and service;
                                                      on the invoice. Miscellaneous pay-
     and finally, face-to face expert assis-                                                     Reengineer Wing/Unit-Level
                                                      ments require the requesting activity
     tance as needed.                                                                            Resource Management Process. The
                                                      to be issued funding authority to
                                                                                                 wing and unit level financial deci-
     Vendor/Commercial Pay Concept.                   authorize a miscellaneous service
                                                                                                 sion support process resides prima-
     The current process for vendor pay-              contract, the vendor to provide the
                                                                                                 rily within the Financial Analysis
     ment is complex and fragmented,                  requested service and submit an
                                                                                                 Branch of the Comptroller
     with multiple stakeholders.                      invoice, the requesting activity to
                                                                                                 Squadrons. These offices provide a
     Contractual payments require the                 receive and accept the services, and
                                                                                                 full spectrum of services, including
     requesting activity to submit a pur-             the paying office to make payment
                                                                                                 developing financial plans, manag-
     chase request, the contracting func-             on the invoice. This process requires
                                                                                                 ing budget execution, and coordi-
     tion to award the contract, the ven-             unnecessary certified invoices, and
                                                                                                 nating requirements. They provide
     dor to fill the order and submit an              miscellaneous obligations and pay-
                                                                                                 recommendations to the command-
                                                      ments require extensive manual
                                                                                                 er on funding alternatives based on
                                                      input (approximately 60 percent of
                                                                                                 external input and internal analyses.
                                                      workload). Excessive interest pay-
                                                                                                 The ultimate goal of this
                                                      ments and lost discounts result from
                                                                                                 Transformation initiative is the appli-
                                                      paying office, receiving report, and
                                                                                                 cation of tools, techniques, training,
                                                      certified invoice delays. The exces-
                                                                                                 and technology to reduce the time
                                                      sive billing costs are primarily attrib-
                                                                                                 spent loading targets, collecting
                                                      utable to manual processing. The
                                                                                                 data, preparing financial plans, and
                                                      envisioned end state is an automat-
                                                                                                 guiding the work of outside
                                                      ed vendor payment environment
                                                                                                 resource advisors. The additional
                                                      (e-commerce) where a minimum
                                                                                                 time will be directed toward more
                                                      amount of discounts are lost, no
                                                                                                 sophisticated, performance-based




18       Address Future Challenges < Performance Measures < General Funds
                                                                                  2002 Annual Financial Statements




analysis of base resources using the
latest technologies such as the
Financial Information Resource
SysTem (FIRST), the Commander’s
Resources Integration System (CRIS),
and other systems. The results of an
end-to-end review of resource man-
agement at the wing/unit level will
be enhanced decision support
through output-based budgets and
a better analysis of similar and dis-
similar alternatives resulting in more
cost-effective solutions for the wing.

Reengineer Acquisition Cost
Process. Consistent with the             risk considerations that appropriate-        MAJCOM/Headquarters levels, with
Secretary’s goal of reducing             ly address schedule, technical, pro-         emphasis placed on organizational
acquisition cycle time (i.e., getting    grammatic, and performance risk;             roles and responsibilities in support
weapons to the warfighter in a more      (3) the impact of capabilities-based         of Milestone Reviews, annual
accelerated manner), the impor-          requirements on system trade-off             Program Objective Memorandum
tance of improving the accuracy          decisions; and (4) workforce train-          (POM)/budget submissions, Analysis
and timeliness of financial manage-      ing, development, experience levels,         of Alternatives (AoAs), and Source
ment support to systems acquisitions     and attrition concerns. To address           Selections. The end state will be a
is being addressed. Issues include:      these issues, a multi-phase                  financial management capability
(1) the integration of cost and          approach will be used. Phase I will          that provides enhanced support for
budget considerations early in the       be to reengineer the acquisition cost        acquisition decisions based on
planning cycle; (2) realism in cost      process at the Product Center/               analysis that correctly balances
estimates with emphasis given to                                                      warfighting requirements, available
                                                                                      resources, and risk considerations.

                                                                                      Combat Comptroller Concept.
                                                                                      Financial Management personnel
                                                                                      currently support deployed opera-
                                                                                      tions providing contract support,
                                                                                      cost tracking, and bill paying. They
                                                                                      perform their work during contin-
                                                                                      gencies and war as well as in
                                                                                      peacetime. Financial Management
                                                                                      responsibilities, tasks, and workload
                                                                                      increase during contingencies and
                                                                                      war, most noticeably during the ini-
                                                                                      tial deployment and bed-down of
                                                                                      forces stage. Lessons learned from




                                                             General Funds > Performance Measures > Address Future Challenges
                                                                                                                                19
     United States Air Force




                                                                                              through all stages of accounting
                                                                                              are optimized.

                                                                                              Financial Management Knowledge
                                                                                              Management Concept. The Air
                                                                                              Force’s professional financial man-
                                                                                              agers must deal with information
                                                                                              fragmented in many locations. This
                                                                                              initiative is to build a comprehensive
                                                                                              knowledge management tool for
                                                                                              financial management that is acces-
                                                                                              sible through a single source website.
                                                                                              A “financial management desk-
                                                                                              book” would include a reference
                                                                                              library, a keyword search, descrip-
     prior deployments tend to be the                Services that has DFAS record            tions of discretionary practices, policy
     same each time with little progress             obligations. This initiative will        and procedures, an “ask a profes-
     to fix the process. The goal is to              evaluate all hand-offs between AF        sor” feature, wisdom and advice,
     provide world-class, relevant, accu-            and DFAS, reevaluate processes,          software tools, forms, and website
     rate resource management support                and determine optimal roles for          links. By transforming from a manual
     and financial services to deployed              each organization throughout all         and “surf the web” system of obtain-
     U.S. warfighters. The goal is a                 stages of accounting and disburs-        ing knowledge, professionals’ jobs
     focused plan that leverages new                 ing. By organizing better and solv-      will be enriched and they will be
     technology, new concepts, doctrine,             ing recurring issues, the desired out-   encouraged to become strategic
     and lessons learned to regain                   come/return on investment would          partners for commanders and senior
     comptroller wartime focus and                   be one where all hand-offs between       managers at all organizational levels.
     preparation—in-theater support                  AF and DFAS, processes, and roles,
     should mirror the same superior
     home station support provided by
     financial management personnel.

     Reengineer Air Force—DFAS
     Relationship. The lines of manage-
     ment accountability between the Air
     Force and the Defense Finance and
     Accounting Service (DFAS) are often
     unclear and sometimes unsuitable.
     The Air Force financial management
     community is working on behalf of
     members, vendors, and commanders
     to fix accounting problems without
     the necessary resources. The Air
     Force is the only one of the three




20      Address Future Challenges < Performance Measures < General Funds
                                                                                  2002 Annual Financial Statements




Ongoing Evolution of
Financial Management
Processes
Air Force Financial Management is
working with the National Recon-
naissance Office, in the wake of the
recent reorganization of space-
related functions, to develop and
implement financial best practices
including an integrated Space Cost
Estimating capability. Air Force
Financial Management is also
looking at budget systems to be
sure they are part of an overall
strategy and structure that promotes
                                        decision process. Analysis also               methodology to consider the impact
improved processes and wise
                                        guided the Joint Strike Fighter (JSF),        of “aging” aircraft on the funding
investment of limited resources.
                                        the largest and most influential DoD          requirements. The model resulted in
Designing a performance-based
                                        program ever, toward a successful             the identification and correct pric-
budget is part of that effort, and
                                        source selection and development              ing of this $6 billion program, criti-
actively participating in a Defense
                                        decision. The Air Force Cost Analysis         cal to Air Force readiness and
Planning Guidance-directed study
                                        Agency provided crucial F/A-22 esti-          combat capability.
of the Planning Programming and
                                        mating insight to the JSF Cost
Budgeting System will examine
                                        Integrated Product Team, which con-           Ongoing Evolution of
whether this process, or some alter-
                                        tributed significantly to the program’s       Financial Management
native to it, best meets the require-
                                        ability to prepare and defend its life-       Performance Metrics
ment for responsive resourcing and
                                        cycle estimates. As a result, there           FY 2002 witnessed the introduction
decision-making at the senior levels
                                        were no major issues concerning the           of performance metrics. Metrics
of the Department.
                                        JSF cost estimate during the source           provided insights into financial
To leverage scarce dollars, Air         selection and the milestone process.          management reform initiatives,
Force Financial Management is           The F/A-22 and JSF are two more               under the Transformation rubric,
developing innovative ways to pro-      examples of the opportunities we had          that collectively heralded and docu-
cure weapons systems. The leasing       this year to assist decision makers in        mented heightened, more beneficial
agreement for the Boeing 737 VIP        making the best choices to equip              financial management services for
Transport plane is a notable example.   our warfighters.                              the entire U.S. Air Force. A sample
                                        Finally, Air Force Financial                  metric is problem disbursements.
Cost analyses have been successfully
completed for more high-visibility      Management directed the most                  Air Force Problem Disbursements.
programs this year than any other. In   comprehensive and creative analysis           This metric records Air Force prob-
particular, analysis helped lead the    of funding requirements for the               lem disbursements resulting from
budget-capped F/A-22 through its        annual flying hour program for the            problem accounting transactions.
contentious and challenging Low         Air Force. For the first time ever, the       Negative unliquidated obligations
Rate Initial Production and Lot 2       analysis included an innovative




                                                             General Funds > Performance Measures > Address Future Challenges
                                                                                                                                21
     United States Air Force




     occur when a payment is made                                                                   Current Status

     from a funding line that does not                                   450

     exist. Unmatched disbursements                                      400
                                                                                                                     388

     also result from payments from the
                                                                         350
     wrong source, but there are funds to




                                                   Dollars in Millions
                                                                         300
     support the error.                                                             277

                                                                         250
                                                                                                                                               FY 1998

     FY 2003 and Beyond                                                  200
                                                                                                                                               FY 2002


     The transformation of the Air Force,                                150
     in many respects, parallels the trans-
                                                                         100
     formation of America. As the Air
                                                                                              34                               33
                                                                          50
     Force explores new capabilities and
     concepts of operations to engage                                      0
                                                                               Unmatched Disbursements     Negative Unliquidated Obligations
     threats, America collectively experi-
     ences a new and heightened appre-
     ciation for the cost of freedom.                       cision, stand-off, space, and infor-               meet and exceed challenges and
                                                            mation technology.                                 tests by relying on the tenets of its
     The Air Force is up to the challenge.
                                                                                                               resounding success—Readiness,
     Assessing adversaries’ capabilities                    The Air Force remains at the forefront
                                                                                                               Transformation, and the most indis-
     against its own, the Service is devel-                 of DoD transformation. The Service
                                                                                                               pensable resource—its People. Air
     oping Task Forces for a range of                       ensures the freedom to operate
                                                                                                               Force Financial Management will
     mission requirements, from strategic                   around the globe, and in the sky and
                                                                                                               help lead this transformation by pro-
     response to homeland security. The                     space above, under any circum-
                                                                                                               viding world-class financial services
     Air Force will continue to exploit this                stances and for whatever mission the
                                                                                                               that are every bit as sophisticated as
     nation’s technical dominance to ele-                   nation requires. Maintaining this
                                                                                                               the warfighting concepts and
     vate advantages against potential                      advantage is absolutely paramount,
                                                                                                               systems it supports.
     adversaries. Among other transfor-                     and represents a constant challenge.
     mational elements, this involves har-                  In the Air Force flight plan of the
     nessing the attributes of stealth, pre-                future, the United States Air Force will




22       FY 2003 and Beyond < Performance Measurement < General Funds
                                                                                             2002 Annual Financial Statements




Working Capital Fund Concept
          The Defense Working Capital Fund (DWCF) is a
         revolving fund financial structure used to provide
  necessary goods and services for the armed forces. A
        revolving fund, including the WCF revolving fund,
              derives its name from the cyclic nature of the
     “cash” flow. The income (or financial resources) of
  organizations financed through DWCF is derived from
      their level of operations and is available to finance
             their continuing operations without fiscal year
   limitation. Organizations financed through DWCF, as
         business area providers, sell goods or services to
 “customers” with the intent of recovering the total cost
            of providing those goods and services. DWCF
               business area providers use the income from
                    these sales to replace or buy additional
              inventory or otherwise finance the production
            of goods and services. The cycle continues for
                  the life of their revolving fund. A business
                            area provider, unlike commercial
                           businesses, is not profit-oriented.1
                                              —Air Force Materiel Command
                                “Home” of the Air Force Working Capital Fund


Air Force Materiel                        September 11 terrorist attacks.
                                          Strategically, AFMC invested signifi-
Command Intensifies                       cant resources in ensuring warfighter
Focus on the Warfighter                   support levels were positioned to fully
Air Force Materiel Command                support the Air Force’s evolving com-
(AFMC) logistics elements necessari-      bat response. These prudent invest-
ly shifted from in-garrison or expedi-    ments in readiness, readily apparent
tionary support to sustained wartime      within attained measures of perform-
operations as FY 2002 began.              ance outlined in this section, power-
AFMC, along with the rest of DoD,         fully underscore AFMC’s unyielding
stalwartly embraced the formidable        commitment to the warfighter.
task of defending this nation and its
interests abroad, conducted in the       1. The DWCF Handbook
then-recent shadow of the                (http://www.dtic.mil/comptroller/icenter/dwcf/dhintro.htm)




                                                                                          Working Capital Fund > Air Force Materiel Command
                                                                                                                                              23
     United States Air Force
                       Force




     Transformation Efforts
     The terrorist attacks of September 11,
     2001, renewed Air Force commit-
     ment to continue transformational
     efforts in finding new approaches to
     accomplish its vital missions.
     Successfully addressing the evolving
     geopolitical environment is only
     possible through the harnessing of
     new and innovative ideas—transfor-
     mation. Clearly, the Air Force is
     transforming today to meet the chal-
     lenges of tomorrow.                               and delivered. Additionally, transfor-   OPERATION NOBLE
                                                       mation of selected AFMC business
     Transformation extends into every                                                          EAGLE/OPERATION
     aspect of the Air Force—be it                     systems is currently being embraced
                                                       to take advantage of new technolo-
                                                                                                ENDURING FREEDOM
     warfighting or support capabilities.
                                                       gies and processes already proven        In the aftermath of September 11,
     In FY 2002, AFMC continued its
                                                       in commercial industry.                  2001, Air Force Working Capital
     pioneering efforts in transformation,
                                                                                                was geared up to support the
     taking significant steps to maximize              AFMC has also been at the fore-          warfighter. Organic and contract
     the Air Force’s warfighting capabili-             front of related transformation          maintenance increased production
     ties. AFMC transformation is not just             efforts. Noteworthy examples             to meet the increased need for air-
     about creating new systems, but                   include the technique of enterprise      craft, engines, and components the
     also about taking current systems                 management applied to each of the        air campaign would require.
     and using them in novel, more                     AFMC enterprises, and elsewhere          Contracts and depot support were
     effective ways. AFMC personnel use                within the Command, the systematic       accelerated to provide the needed
     innovation to transform the way                   divestiture of those non-value           parts, and inventory levels were
     weapons systems materiel and relat-               added activities that pull               increased to provide immediate
     ed support equipment are acquired,                resources away from achieving            support. Correspondingly, the num-
     repaired, maintained, sustained,                  transformation goals.                    ber of aircraft in the depots
                                                       Collectively, the ideas and products     decreased by 20 percent; aircraft
                                                       fostered by AFMC transformation          deliveries achieved 86 percent on-
                                                       efforts will enhance AFMC and Air        time performance; and the quality
                                                       Force efficiency, and increase the       of aircraft, engines, and compo-
                                                       flow of knowledge across the             nents remained high. Inventory
                                                       Service. Air Force Materiel              backorders have been reduced by
                                                       Command will continue to adapt           10 percent. Concerted efforts were
                                                       and innovate in order to “push the       made to provide maintenance per-
                                                       envelope” of its capabilities.           sonnel the parts needed, with the
                                                                                                stated goal to expedite supply of
                                                                                                needed parts to operational units,
                                                                                                ready for immediate issue.




24       Transformation Efforts < Air Force Materiel Command < Working Capital Fund
                                                                                   2002 Annual Financial Statements




Improvement in Logistics
Support to the Warfighter
Logistics support to the warfighter
has improved dramatically over the
last fiscal year. After nine consecutive
years of declining readiness trends,
the AF has sustained its second
straight year of improvements across
the four major readiness indicators.
Mission capable rates are at their
highest point since FY 1997, while
Total Non-Mission Capable for
Maintenance rates improved to
their best levels in the last four years.
Total Non-Mission Capable for               Behind the four major readiness                 AF engines dropped significantly
Supply rates improved 18 percent            indicators are corollary metrics that           from the FY 1998 rate. This trans-
from FY 2000, which represents              provide even more evidence of the               lates into fewer engines sitting on
a significant improvement in                major improvements AFMC has                     shop floors waiting for parts. Several
supplying critical aircraft parts to        seen in parts support. Parts backo-             engines such as the C-5 and the
the flightline mechanic. Similarly,         rders are a third of what we experi-            A-10 have seen improvements far
cannibalization rates posted                enced in December 1998.                         beyond those represented by the
24 percent improvement from its             Furthermore, Mission Capable                    aggregate rate. The conversion of
FY 1997 high, further illustrating our      (MICAP) incidents and hours are                 aircraft, through engine replace-
improved supply posture.                    both significantly down, with MICAP             ment, has also demonstrated
                                            hours down 21 percent since the                 Reliability and Maintainability pay-
                                            beginning of this fiscal year.                  backs. The bottom-line: more com-
                                            Beginning in FY 2002, AFMC also                 bat capability and less strain on
                                            budgeted and paid for Readiness                 professional maintainers.
                                            Spares Package (RSP) kits for both
                                                                                            Improving mission capable rates for
                                            strategic airlift and fighters, improv-
                                                                                            aircraft and engines is not the only
                                            ing the deployability and supporta-
                                                                                            way to enhance combat power;
                                            bility of expeditionary aerospace
                                                                                            making more aircraft available to
                                            forces. These examples highlight
                                                                                            the warfighter is also vital to the
                                            the improved supply support the
                                                                                            customer. While programmed depot
                                            field is experiencing, and all these
                                                                                            maintenance and fleet moderniza-
                                            improvements occurred while the
                                                                                            tion will always be part of our
                                            Air Force engaged in multiple con-
                                                                                            force, AFMC strives to make the
                                            tingency operations.
                                                                                            process more effective and more
                                            Equally telling is the improvement in           efficient to increase the number of
                                            engines. The total Engine Non-                  aircraft available to fly primary mis-
                                            Mission Capable for Supply rate for             sions. Depot production is above




                                                        Working Capital Fund > Air Force Materiel Command > Improvement in Logistics
                                                                                                                                       25
     United States Air Force
                       Force




                                                                                             and master plan calls for major
                                                                                             transformation in processes, finan-
                                                                                             cials, and in frastructure
                                                                                             capitalization to ensure that Air Force
                                                                                             equipment is safe and ready to oper-
                                                                                             ate across the operational spectrum,
                                                                                             from training to rapidly deploying
                                                                                             and sustaining forces that can
                                                                                             decisively defeat any adversary. To
                                                                                             support the plan, the Air Force fund-
                                                                                             ed an additional $150 million per
                                                                                             year beginning in FY 2004 for
                                                                                             depot facilities and equipment mod-
                                                                                             ernization. In addition to facility
                                                                                             improvements, the AF created a new
     target, and on-time due date per-                service to the warfighter. Congress,   “Depot Modernization” appropriation
     formance is trending upwards. At                 along with the SECAF and CSAF,         line to fund new technology and
     the same time, defect rates, quality             identifies depot capability as a       equipment to modernize the depots.
     defects, and depot-possessed air-                priority necessary to support readi-   This new line provides the visibility
     craft are down.                                  ness and sustainability requirements   needed to ensure a corporate, enter-
                                                      for contingency scenarios. To main-    prise-wide approach to supporting
     The Air Force Depot Maintenance
                                                      tain a ready and controlled source     depot capabilities.
     Activity Group is responsible for
                                                      of depot maintenance, the Air Force
     maintenance and repair of systems                                                       The Air Force’s logistics readiness
                                                      published a Depot Strategy and
     and spare parts with a program                                                          indicators provide a snapshot of the
                                                      Master Plan and sent it to Congress
     value of $6.7 billion (FY 2002), and                                                    gains made by “effects-based
                                                      on August 30, 2002. This strategy
     the group provides an invaluable                                                        resourcing,” by enhancing logistics
                                                                                             processes and by focusing on the
                                                                                             needs of the warfighter.
                                                                                             Considerable work remains, but
                                                                                             with the proper resources, the path
                                                                                             is set for continued success.




26      Improvement in Logiistics < Air Force Materiel Command < Working Capital Fund
                                                                             2002 Annual Financial Statements




Air Force Working Capital Fund

                 All of our achievements—whether in
  combat or in the laboratory—are made possible by
       the single greatest competitive advantage we
        have…the men and women of our Air Force.
                                                       —Dr. James G. Roche
                                                     Secretary of the Air Force

The Air Force Materiel Command            Working capital funds (WCFs) allow
(AFMC) accounts for more than 95          the Air Force to accomplish the
percent of Air Force working capital      following:
fund (AFWCF) revenue and expense
                                          ◗   Ensure readiness through
activity (excluding the transportation        reduced support costs, stabilized
working capital fund, which is man-           rates, and customer service
aged by the United States
                                          ◗   Focus management attention on
Transportation Command). The
                                              net results, including costs and
AFWCF consists of three functions:            performance
Depot Maintenance, Supply
                                          ◗   Identify the total cost of
Management, and Information
                                              providing support products
Services. These functions, referred to
                                              and services
as activity groups, supply their singu-
lar goods and services to United          ◗   Establish strong customer/
                                              provider relationships
States Air Force and DoD customers.
Depot Maintenance provides eco-
nomical and responsive repair, over-      Funding Authority
haul, and modification of aircraft,       The Office of the Under Secretary of
missiles, engines, other major end        Defense (Comptroller) (OUSD(C)),
items, and their associated compo-        through the Assistant Secretary of the
nents. Supply Management provides         Air Force (Financial Management
inventory management for spare            and Comptroller) (SAF/FM), allocates
parts and associated logistics support    to activity groups their annual cost
services to fulfill USAF needs during     authority. Specific capital investment
war and peacetime. Information            targets are established to support the
Services provides maintenance and         replacement and modernization of
development of automated informa-         equipment and other capital assets
tion systems for information-related      through the budget, obligation, and
activities of the Air Force, DoD, and     procurement processes.
certain other Government agencies.




                                                                        Working Capital Fund > Air Force Working Capital Fund
                                                                                                                                27
     United States Air Force
                       Force




     Cash Management                                                                       AF Working Capital Fund
                                                                                          Cash Performance Measure
     DoD cash management policy rec-
     ommends maintaining the minimum                Activity Group                 FY 2002 Goal*              FY 2002 Result**              FY 2003 Goal*

     cash balance necessary to meet               DMAG                               $362.7 M                          $309.5 M                $387.6 M
     both operational requirements and            SMAG                                $(2.9) M                           $92.3 M               $132.4 M
     disbursements in support of the cap-         ISAG                                $55.1 M                            $47.4 M               $59.6 M
     ital program. Cash generated from            Transportation                     $384.1 M                          $859.9 M                $449.4 M
     operations is the primary means of           Other                               $11.0 M                            $14.1 M               $11.0 M
     maintaining adequate cash levels.
                                                  Total                              $810.0 M                       $1,323.2 M               $1,040.3 M
     The ability to generate cash is              Source: *FY03PB, **Cash Wksht Rpt
     dependent on setting rates to recov-
     er full costs, including prior-year
     losses, accurately projecting work-
                                                          Revenue for FY 2002                                               Expenses for FY 2002
     loads, and meeting established
                                                                            ISAG                                                     ISAG
     operational goals.                                                      4%                                                       4%



     Effective cash management is direct-
                                                                                                                                                                  MSD
     ly dependent on the availability of                                                             MSD
                                                                                                     37%                                                          37%

     accurate and timely data on cash
     levels and operational results. Cash        DMAG                                                              DMAG
                                                  45%                                                               44%
     levels should maintain at least seven
     to 10 days of operational costs as
     well as cash adequate to meet six
                                                                                            GSD                                                   GSD
     months of capital disbursements.                                                       14%                                Academy
                                                                Academy                                                           0%     Med-Dent 15%
     The recommended cash range for                               0%           Med-Dent
                                                                                 0%
                                                                                                                                           0%


     FY 2002, the FY 2002 result, and
     the FY 2003 goal are shown.

     Cash management efforts continue
                                                 Air Force Working Capital Fund Organization—
     to focus on analyzing data and              Activity Groups and Divisions
     developing tools to identify changes
     in cash. Although available cash                                                         Air Force Working
                                                                                              Capital Fund Areas
     data from the financial systems is
     outdated for current needs, accura-            Information Services
                                                    Activity Group (ISAG)
                                                                                            Depot Maintenance
                                                                                           Activity Group (DMAG)
                                                                                                                                      Supply Management
                                                                                                                                     Activity Group (SMAG)
                                                      AFMC-Managed                            AFMC-Managed
     cy has been improving. AFMC com-
                                                                                                    Oklahoma City
     pleted a statement of sources and                         Materiel Systems
                                                                Group (MSG)                       Air Logistics Center                         Medical-Dental
                                                                                                       (OC-ALC)
     uses of cash and implemented use
                                                                                                      Ogden Air
     of the statements to identify areas of                   Standard Systems
                                                                Group (SSG)
                                                                                                    Logistics Center                          Air Force Academy
                                                                                                      (OO-ALC)
     cash increases and drains. Work is
                                                                                                    Warner-Robins
                                                                                                                                              Materiel Support
     continuing with regard to identifying                                                        Air Logistics Center
                                                                                                       (WR-ALC)
                                                                                                                                              AFMC-Managed

     and correcting processes that cause                                                              Aerospace
                                                                                                   Maintenance and                            General Support
     cash drains.                                                                                 Regeneration Center
                                                                                                       (AMARC)
                                                                                                                                              AFMC-Managed




28      Cash Management < Working Capital Fund
                                                                                 2002 Annual Financial Statements




Depot Maintenance                                                 AFWCF Civilian Personnel
Activity Group                           30,000
                                                                       1,749            2,225            2,175
The Depot Maintenance Activity           25,000
                                                         1,808

Group (DMAG) repairs systems and
                                         20,000
spare parts that support the warfight-
                                                                                                                           SMAG
er in peacetime and provide sustain-     15,000                                                                            DMAG
ment to combat forces in wartime. In                     21,410        20,685          22,265           21,729             ISAG
                                         10,000
peacetime, DMAG enhances readi-
                                          5,000
ness by efficiently and economically
                                                         1,111         1,067            1,144           1,131
repairing, overhauling, and modify-              0
ing aircraft, engines, missiles, com-                 FY 2001 End    FY 2001        FY 2002 End      FY 2002
ponents, and software to meet                           Strength    Work Years        Strength      Work Years

warfighter demands. During wartime
or contingencies, the group shifts to
surge repair operations and realigns                              AFWCF Military Personnel
capacity to support the warfighter’s
                                         1,600
immediate needs.                                                        50
                                         1,400
                                                                                                          59
                                         1,200           49
Mission Statement                                                      462
                                                                                        60
                                         1,000          197                                              298
                                                                                        159                                SMAG
Provide the maintenance capability to     800                                                                              DMAG
support peacetime operations or a                                                                                          ISAG
                                          600
contingency crisis while maintaining                     850           889              862               839
                                          400
the capability to rapidly support
                                          200
another major theater war. Build a
                                             0
professional maintenance work force
                                                     FY 2001 End     FY 2001      FY 2002 End        FY 2002
to lead and support Expeditionary                      Strength     Work Years      Strength        Work Years
Aerospace and Joint Forces.


Customers, Products and
Services                                  Supply Management Activity Group,              Regeneration Center at Davis-
                                          Air Force Major Commands, Air                  Monthan AFB, Arizona.
DMAG provides major overhaul
                                          National Guard, Air Force Reserve
and repair of systems and spare                                                          The Depot Maintenance Activity
                                          Command, and other customers. In
parts while striving to meet or                                                          Group has two principal objectives.
                                          addition to supporting the warfighter
exceed required standards for quali-                                                     The first objective is to provide
                                          with depot-level repair of weapon
ty, timeliness, and cost. Both the Air                                                   organic and contract depot repair
                                          systems, DMAG provides storage,
Force Materiel Command depots                                                            capability for fielded and emerging
                                          reclamation, and regeneration for
and contract operations accomplish                                                       weapon systems, so that warfighters
                                          equipment not currently used by
these goals.                                                                             have mission-essential equipment.
                                          the active forces of all military serv-
                                                                                         Secondly, DMAG’s intent is to
Depot maintenance supports a vari-        ices. This work is done at the
                                                                                         ensure the ability to rapidly respond
ety of customers including the            Aerospace Maintenance and
                                                                                         to warfighter requirements driven by




                                                                         Working Capital Fund > Depot Maintenance Activity Group
                                                                                                                                   29
     United States Air Force
                       Force




                 Support an Expeditionary Aerospace Force by                                       More than 300 inhibitors to depot
                                                                                                   maintenance performance, both
                 providing repair systems and spare parts that
                                                                                                   operational and financial, were
                 ensure readiness in peacetime and provide                                         identified and categorized. While
                 sustainment to combat forces in wartime.                                          these issues spanned a wide range
                                                                                                   of functional areas, the Focus
     contingency operations. To accom-               new methods for efficient use of              Areas included:
     plish this, short- and long-term                resources such as partnering, gov-        ◗     Organizational Structure:
     strategies must be used. The depot              ernment-owned/contractor-operated               Centralize depot maintenance
     maintenance strategic plan guides               facilities, and contract field teams            into a single Directorate in an
     the DMAG in having the right work-              augmenting in-house operations.                 effort to clarify lines of
     load capacity and capability to meet            The group will continue to invest               accountability, responsibility,
     depot maintenance for: (a) peace-               prudently to find innovative ways to            and authority.
     time support, (b) surge requirements,           decrease flow days for systems and
     and (c) core requirements.                      components; increase parts avail-         ◗     Financial Management:
                                                     ability to the repair line; and control         Transition from the existing
     As the Air Force evolves through                                                                budget to a more dynamic
                                                     material costs through process
     current Transformation initiatives,                                                             process, providing management
                                                     reviews, adoption of commercial
     Depot Maintenance will remain a                                                                 with a tool to efficiently size
                                                     practices, and engineered stan-
     fundamental element of both readi-                                                              depot workload by type. Realign
                                                     dards. Several Depot Maintenance
     ness and sustainability by providing                                                            contract depot maintenance
                                                     Reengineering and Transformation
     a cost-effective, rapid repair capa-                                                            from Working Capital Fund to
                                                     initiatives have been approved. The
     bility. DMAG will continue to pro-                                                              appropriated funding and use
                                                     expected results from these initia-
     vide a core Air Force depot mainte-                                                             statistical methods to develop
                                                     tives equate to the following end-
     nance capability to retain an in-                                                               predictive budget models.
                                                     states: improved readiness and sup-
     house source of technical compe-                                                                Eliminate intra-fund inefficien-
                                                     port to the warfighter, improvement
     tence. Depot Maintenance will seek                                                              cies/costs while optimizing sup-
                                                     in execution-year financial results,
                                                     and improved processes.                         port through wholesale supply
                                                                                                     and depot maintenance.
                                                      Transformation Initiatives                     Institutionalize WCF Program
                                                                                                     Objective Memorandum (POM)
                                                     The Depot Maintenance Review
                                                                                                     processes for appropriate cor-
                                                     Team (DMRT) was created to
                                                                                                     porate action on WCF needs.
                                                     improve depot maintenance support
                                                                                                     Exclude Air Force depot mainte-
                                                     to the warfighter and to improve
                                                                                                     nance from the quarterly sur-
                                                     depot maintenance financial per-
                                                                                                     charge requirement.
                                                     formance. After many efforts to
                                                     improve depot maintenance, the AF         ◗     Workforce: Develop a mainte-
                                                     leadership determined that a strate-            nance training organization as a
                                                     gic, integrated approach was need-              single entity for all depot mainte-
                                                     ed. In November 2001, the DMRT                  nance training through the sen-
                                                     became Depot Maintenance                        ior management level.
                                                     Reengineering and Transformation.               Streamline the hiring process,




30      Depot Maintenance Activity Group < Working Capital Fund
                                                                                                            2002 Annual Financial Statements




      employ multi-skilling, and                                 Operations Center Experimental
      become more competitive with                               (CAOC-X).
      private industry in compensa-
                                                             ◗   Metrics: Establish a standard-
      tion and other benefits.
                                                                 ized set of warfighter-focused
◗     Infrastructure: Formalize the                              metrics, balanced and related
      Depot Infrastructure Planning                              to strategic objectives.
      Process by providing infrastruc-
                                                             ◗   Workload/Production:
      ture investment incentives in
                                                                 Implement standard process
      Maintenance and Repair (M&R).
                                                                 improvement (PI) strategies and
      Educate the depot workforce in
                                                                 standardized shop floor metrics                       Customer Support
      Capital Purchase Programs
                                                                 relating to the customer                              Performance Measures
      (CPP) and Economic Analysis
                                                                 shop floor.
      (EA) processes. Improve preven-                                                                                  Customer Support Performance
      tative maintenance programs                            ◗   Material Support: Implement                           Measures for DMAG consist prima-
      and provide flexibility for work-                          actions to improve depot main-                        rily of Production Performance
      load changes.                                              tenance material support.                             Measures, which are used to assess
                                                                 Examine depot maintenance                             cost, schedule, and quality of the
◗     Information Technology (IT):
      Develop an IT Master Plan stan-                            material requirements issues                          DMAG output. The six measures are
      dardizing data system develop-                             and relationships with the                            designed to achieve accountability
      ment/implementation across                                 Defense Logistics Agency (DLA)                        at the appropriate depot mainte-
      Depot Maintenance and Supply                               and the Supply Management                             nance level, the Depot Maintenance
      Maintenance. Develop an IT                                 Mission Area. These include                           Manager. They measure compliance
      Solution to capture data trans-                            the variability and unpre-                            with DMAG goals.
      parently and seamlessly.                                   dictability of requirements,
      Develop the “Depot X”                                      current stock levels, AF policies,
      Initiative, modeled after the                              and policies effecting the total
      Combined Aerospace                                         acquisition cycle.


                                                                  Depot Maintenance
                                                        Customer Support Performance Measures

                                  Measure                                             FY 2002 Goal*                FY 2002 Result**              FY 2003 Goal***

Organic Production Hours (DPSH) 1                                                         22,257K                        23,190K                       22,866K
Aircraft Days Held Index (yr) 2                                                               1.0                           1.1                               1.0
Aircraft Due Date Performance 3                                                           90 percent                    82 Percent                     90 percent
                                                         4
Aircraft Quality Defect Rate (18 mo ave)                                                     0.22                           0.22                   Varies by MDS
Engine Quality Defect-Free Percentage 5                                                  95 Percent                     96 Percent                    95 Percent
Exchangeable Quality Defect Rate (defects per item) 6                                        0.03                           0.02                          0.03
Source: *FY02 Supply Mgnt Mission Area Ops Plan, **30 Sep 02 Center Production, ***FY03 Supply Mgnt Mission Area Ops Plan
1 Organic Production Hours: The maintenance hours necessary to produce a product (i.e., aircraft, engines, spares, software, etc.) or to provide a service.
2 Aircraft Days Held Index: The length of time that the depot or depot maintenance contractor possesses aircraft for maintenance or modifications.
3 Aircraft Due Date Performance: The ability of the depot and depot maintenance contractors to produce aircraft according to schedule.
4 Aircraft Quality Defect Rate: The ability of the depot and depot maintenance contractors to produce detect-free aircraft, ready for use by the customer.
5 Engine Quality Defect-Free Percentage: The ability of the depot to produce engines that are defect-free and ready for use by the customer.
6
  Exchangeable Quality Defect Rate: The ability of the depot to produce components that are defect-free and ready for use by the customer.




                                                                                                    Working Capital Fund > Depot Maintenance Activity Group
                                                                                                                                                                    31
     United States Air Force
                       Force




                                                                       Depot Maintenance
                                                                 Financial Performance Measures

                          Measure                                        FY 2002 Goal*                    FY 2002 Result**                FY 2003 Goal*

     Organic Net Operating Result (NOR) 1                                    $194.4 M                         $237.4 M                           $0.0
     Organic Expense Rate 2                                                  $161.63                           $173.33                         $175.85

     Source: *FY03PB, Jan 02, **Mtly Exec Rpt
     1 Organic Net Operating Result: The profit or loss from annual operations is based on work performed. Revenue includes amounts earned from stabilized sales
       rates and reimbursements. The goal of the fund is to break even over the long run.
     2
       Organic Expense Rate: Estimated cost per hour for work produced including all labor, material, and business operations costs. It provides managers with
       visibility of cost trends.




     Financial Performance                                 provide a more direct relation                         from sales. Operating costs are
     Measures                                              between customers and repair                           paid by funds received from sales.
     Financial Performance Indicators                      contractors.
     assess the financial performance of                                                                          Mission Statement
     the DMAG. They are designed to                        Supply Management                                      Provide policy, guidance, and
     achieve accountability at the appro-                  Activity Group                                         resources to meet Air Force needs
     priate level and measure compli-                                                                             for spare parts. Manage approxi-
                                                           The Supply Management Activity
     ance with DMAG objectives.                                                                                   mately two million items, including
                                                           Group (SMAG) was established to
                                                                                                                  weapon systems spare parts, med-
     The DMAG Financial Performance                        provide inventory management for
                                                                                                                  ical/dental supplies and equip-
     Indicators for Organic work are                       spare parts and associated logistics
                                                                                                                  ment, and items used for
     Organic Net Operating Result and                      support services to fulfill USAF
                                                                                                                  non–weapon systems applications.
     Organic Expense Rate. We are cur-                     needs. SMAG acquires and repairs
                                                                                                                  Materiel procured from vendors
     rently in the process of realigning                   inventory items using funds received
                                                                                                                  held in inventory is for sale to
     the Contract DMAG program to
                                                                                                                  authorized customers.


                                                                                                                  Organization and
                                                                                                                  Responsibilities
                                                                                                                  SMAG consists of four divisions: the
                                                                                                                  Materiel Support Division (MSD),
                                                                                                                  General Support Division (GSD),
                                                                                                                  Medical/Dental Division, and Air
                                                                                                                  Force Academy Cadet Issue
                                                                                                                  Division. The Air Force Materiel
                                                                                                                  Command manages MSD and
                                                                                                                  GSD. The United States Air Force
                                                                                                                  Headquarters (HQ USAF) manages
                                                                                                                  the Medical/Dental Division and Air
                                                                                                                  Force Academy Cadet Issue Division.




32       Supply Management Activity Group < Working Capital Fund
                                                                             2002 Annual Financial Statements




Since the onset of FY 2002,                   Support an Expeditionary Aerospace Force
Headquarters Defense Logistics                       by providing spare parts in a timely
Agency/Defense Energy Service
                                                  manner. Attain this goal by increasing
Center assumed management of
                                                 issue and stockage effectiveness rates,
the Fuels Division.
                                                        reducing logistic response times,
MSD is responsible for Air                                     and reducing backorders.
Force–managed, depot-level
reparable spare parts and consum-
able spares. The principal products       GSD items support installation              The Air Force Academy Cadet Issue
of MSD are serviceable spare parts        maintenance and administrative              Division finances the purchase of
and assemblies unique to Air Force        functions, field and depot mainte-          uniforms, uniform accessories, and
weapon systems. The sale of               nance of aircraft, ground and air-          computers for sale to cadets. The
reparable parts represents about 90       borne communication and elec-               division’s customer base includes
percent of total sales. The remain-       tronic systems, and other sophisti-         more than 4,000 cadets who
der represents sales of non-repara-       cated systems and equipment.                receive distinctive uniforms procured
ble or consumable items within the        These also include individual cloth-        from a number of domestic
MSD. Although most consumable             ing items issued to new recruits            manufacturing contractors.
items have been transferred to the        and organizational clothing items,
Defense Logistics Agency (DLA) for        such as firemen’s protective over-
management, items designated as           garments, air crew helmets, and
design unstable remain on the             chemical warfare protective over-
AFMC product list.                        garments. GSD supports more than
                                          150 Air Force installations through-
The Retail Operations of the Air          out the world.
Force Working Capital Fund are
composed of the General Support,          The Surgeon General of the Air
Medical/Dental, and United States         Force is responsible for the overall
Air Force Academy Divisions.              management of the Medical/Dental
Although each division operates           Division. This peacetime operating
independently, they all purchase          authority provides the effective sup-
large quantities of commodities in        port necessary to maintain estab-
order to sell small quantities directly   lished norms in the health care of
to the ultimate consumer (support-        USAF active military, retirees, and
ing the warfighter). Large bulk buys      their dependents. The war reserve
allow them to take advantage of           materiel (WRM) requirement of this
economies of scale and achieve sig-       division is to provide medical
nificant cost savings. Additionally,      supplies and equipment vital to
each division concentrates its efforts    support forces in combat and con-
in a specific area of expertise.          tingency operations.




                                                                      Working Capital Fund > Supply Management Activity Group
                                                                                                                                33
     United States Air Force
                       Force




                                                                                                     reshaping of the internal manage-
                 Provide and deliver reparable and
                                                                                                     ment processes and data systems
                 consumable items (right product—right
                                                                                                     used on a daily basis to buy, repair,
                 place—right time—right price).                                                      and distribute the thousands of dif-
                                                                                                     ferent items needed to maintain
                                                                                                     weapon systems in a mission-capa-
     Customers, Products, and                        Maintenance and Contractors, and
                                                                                                     ble (MC) status. Eight initiatives pro-
     Services                                        the Air National Guard and Air
                                                                                                     vide for a full spares process-
     In addition to the management of                Force Reserve.
                                                                                                     improvement campaign:
     various inventories, SMAG provides              The supply business also provides
     a wide range of logistics support                                                               ◗   Restructure defense logistics
                                                     initial provisioning support to the Air
     services, including requirements                                                                    requirements by setting stable
                                                     Force Acquisition Executive.
     forecasting, item introduction, cata-                                                               prices and allocating costs to
     loging, provisioning, procurement,                                                                  the responsible commands.
                                                     Transformation Initiatives
     repair, technical support, data man-
                                                     The Air Force is in the process of              ◗   Improve spares budgeting by
     agement, item disposal, distribution
                                                     implementing a major redesign of                    establishing a single consoli-
     management, and transportation.
                                                     the spares supply process through a                 dated budgeting process for
     SMAG provides support to a vari-                set of initiatives designed to improve              spares and consumable items,
     ety of customers. During FY 2002,               support to the warfighter. These ini-               thereby meeting all spares
     the customer base consisted prima-              tiatives, known as the Spares                       requirements.
     rily of MAJCOMs, Depot                          Campaign, promise a fundamental
                                                                                                     ◗   Improve financial management
                                                                                                         by tracking the execution of
                                                                                                         weapon-system support against
                                     SMAG Customers                                                      approved requirements and
                                                                                                         budget. Simply put, determine
                                               Other *                                                   whether the Air Force is getting
                      Air Force Surgeon         5%                                                       a MC rate equivalent to the
                           General
                              8%
                                                                                                         amount it is spending.

                                                                                                     ◗   Improve item demand and
                                                                                                         repair workload forecasting.
      Air National Guard                                                                                 This initiative calls for improved
         and Air Force
           Reserves
                                                                            Air Force Major              methods for calculating the
                                                                              Commands
              16%                                                                                        type and timeframe of mainte-
                                                                                  50%
                                                                                                         nance needs for the future; that
                                                                                                         is, commercial technologies
                                                                                                         like advanced planning and
                                                                                                         scheduling systems.
                       AFMC Depot                                 * Other military services within
                     Maintenance and                              the DoD, other agencies within     ◗   Establish a virtual single inven-
                       Contractors                                the Federal Government, and
                                                                  Foreign Military Sales                 tory control point to centrally
                           21%
                                                                  Source: Mtly Exec Rpt                  prioritize spares and funds




34      Supply Management Activity Group < Working Capital Fund
                                                                                                            2002 Annual Financial Statements




        allocation, passing the execu-
        tion phase down to the air
        logistics centers.

◗       Align supply chain manage-
        ment to focus more on weapon
        systems and MC rate goals.

◗       Standardize and expand the
        role of regional supply
        squadrons to support expedi-
        tionary operations.                                 Customer Support                                          MICAP. These indicators provide
                                                            Performance Measures                                      feedback to allow managers to
◗       Adopt improved purchasing                                                                                     assess quality of spares support
                                                            SMAG evaluates customer support
        and supply management
                                                            performance of Air Force–man-                             provided and plan corrective
        practices, thereby reducing
                                                            aged items based on five indica-                          action when needed. The General
        purchasing costs and
                                                            tors—Issue Effectiveness, Stockage                        Support Division reports these indi-
        improving product quality
                                                            Effectiveness, Logistics Response                         cators at the base level, not at the
        and delivery.
                                                            Time, Backorder Reduction, and                            aggregate level.




                                                                   Supply Management
                                                         Customer Support Performance Measures

                        Measure                                       FY 2002 Goal*                    FY 2002 Result**                    FY 2003 Goal***

    Issue Effectiveness (IE) 1                                           63 percent                        63.7 percent                       65.1 percent
                                           2
    Stockage Effectiveness (SE)                                          71 percent                        72.9 percent                       74.4 percent
                                               3
    Logistics Response Time (LRT)                                          36 days                           38.1 days                          35.3 days
    Backorder Reduction 4                                              218,500 units                      219,551 units                      177,281 units
              5
    MICAP                                                            3,935,800 hours                    3,356,396 hours                    3,139,459 hours

    Source: *FY02 Supply Mgnt Mission Area Ops Plan, **Mtly Exec Rpt (Mtly Avg FY02), ***FY03 Supply Mgnt Mission Area Ops Plan
    1
      Issue Effectiveness (IE): IE reflects the percentage of time base supply satisfies base demands with stock off the shelf, irrespective of authorized stock levels.
      The IE supports the AFMC Expeditionary Combat Support Enabling Task to equip and sustain the warfighter with reach-back capability to the latest
      available technology and resources.
    2
      Stockage Effectiveness (SE): SE represents the percentage of the time base supply satisfies base demands with stock off the shelf, for items with
      authorized stock levels only.
    3
      Logistics Response Time (LRT): LRT measures the average time taken to satisfy customer (base supply or depot retail) requisitions for those Air Force-managed
      items that were not immediately available.
    4
      Backorder Reduction: A backorder is a demand placed on the Air Force supply system that cannot be immediately satisfied from existing inventory.
      SMAG strives to reduce backorders by having parts on the shelf for immediate issue, increasing warfighter readiness.
    5
      Mission Capability (MICAP): A MICAP backorder is a demand placed on the supply system that cannot be immediately satisfied from existing
      inventory and has been designated by the customer as affecting mission capability. MICAP hours are accrued until the order is filled. SMAG strives to reduce
      MICAP hours by having parts on the shelf for immediate issue; thus, increasing operational readiness.




                                                                                                   Working Capital Fund > Supply Management Activity Group
                                                                                                                                                                           35
     United States Air Force
                       Force




                                                              ing vital information needed for                          Mission Statement
                                                              accurate budget forecasts.                                Develop, acquire, integrate, imple-
                                                                                                                        ment, protect, and sustain combat
                                                              Information Services                                      support information systems for the
                                                                                                                        United States Air Force and
                                                              Activity Group
                                                                                                                        Department of Defense customers.
                                                              The Information Services Activity
                                                              Group (ISAG) was established to                           Customers, Products, and
                                                              develop and maintain automated                            Services
                                                              information systems for specific Air                      ISAG provides, through the CDA,
                                                              Force, DoD, and other Government                          information products and services
                                                              agencies. Two Air Force entities act                      via two business lines—the informa-
                                                              as one Central Design Activity                            tion technology solutions line and
                                                              (CDA) under the command of the                            the Commercial Information
                                                              Air Force Materiel Command,                               Technology Product Area Directorate
                                                              Electronic Systems Center (ESC), at                       (CITPAD) line.
     Financial Performance                                    Hanscom AFB, Massachusetts.
     Measures                                                 The two entities are the Materiel                         The information technology solu-
     SMAG measures financial perform-                         Systems Group (MSG), located at                           tions business line develops and
     ance based on four indicators—                           Wright-Patterson AFB, Ohio, and                           sustains automated information
     Revenue, Expenses, Net Operating                         the Standard Systems Group (SSG),                         systems in two target markets:
     Result, and Unit Cost Target. These                      located at Maxwell AFB-Gunter                             (1) AFMC-level supply management
     indicators allow effective and effi-                     Annex, Alabama.                                           and depot maintenance information
     cient utilization of funding to sup-                                                                               systems, and (2) Air Force–wide,
     port customer needs, while provid-                                                                                 standardized support systems. This



                                                                     Supply Management
                                                                Financial Performance Measures

                              Measure                                        FY 2002 Goal                     FY 2002 Result                    FY 2003 Goal

       Revenue 1                                                                $8,471.0 M                       $8,770.0 M                        $9,576.8 M
       Expenses 2                                                               $8,380.0 M                       $8,617.2 M                        $9,507.6 M
                                               3
       Net Operating Result (NOR)                                                 $91.0 M                         $152.8 M                           $69.2 M
                                      4
       Unit Cost Target (UCT)                                                      0.989                             0.983                             0.993
       1
         Revenue: Revenues are amounts earned as a result of normal operations and usually result from sale of, or reimbursements for, goods and services provided
         to DoD activities, other federal government agencies, and the public.
       2 Expenses: Expenses are the use of resources during an accounting period in carrying out DoD's mission. They occur from rendering services, delivering or

         producing goods, or carrying out other mission-related activities and relate to normal operating activities.
       3 Net Operating Result (NOR): The NOR is the difference between revenue and expenses, i.e., a bottom-line profit and loss indicator. The NOR objective of

         an activity group is to break even over a two-year budget cycle. Setting rates that effectively offset the prior-year net profit or loss accomplishes this.
       4
         Unit Cost Target (UCT): UCT is a limitation imposed by the Office of the Under Secretary of Defense (Comptroller) on the annual operating budget (AOB),
         restricting obligations to a percentage of gross sales. The AOB is the funding document providing the authority to incur costs. The UCT is determined by
         dividing costs by sales. Another description is the ratio of obligations to gross sales. A definition for costs is an obligation (excluding initial and capital
         expenses) and credit returns.




36         Information Services Activity Group < Working Capital Fund
                                                                            2002 Annual Financial Statements




includes a 24-hour, seven-day help             Air Force professionals providing the
desk for customers to call for hard-         world’s most respected combat support
ware and software support. The
                                         information systems, transforming data into
CDA provides their service upon
                                           knowledge for Air Force decision makers.
entering into service-level agree-
ments (SLAs) with known customers.
The SLAs specify how many direct
billable hours of service per year
will be sold to the customer and at
what cost per billable hour.

The CITPAD business line provides
computer hardware, software,
peripheral equipment and related
services to the Department of the Air
Force, other agencies including
DoD, and private parties (as author-
ized by law) through their web-
based “Virtual Superstore.”
Thousands of customers across the
Air Force and DoD enjoy one-stop
shopping from the online catalog of
computer and computer-related
products and services. For providing    Customer Support                             Financial
this service, the CDA collects a        Performance Measures                         P e r f o r m a n c e Measures
small surcharge on equipment and        ISAG measures the quality of sup-            ISAG measures financial perform-
services when a customer                port to its consumer base using              ance using three indicators—
places an order.                        three performance indicators—                Revenue, Cost of Operations, and
                                        Software Releases, Priority 1                Net Operating Result.
Transformation Initiatives              Deficiency Reports, and Priority 2
Transformation’s foundation of          Deficiency Reports. Critical to the
people, processes, and technology       ISAG customer is the timeliness of
will rely heavily on the AFMC’s         software releases required to either
Information Services expertise.         fix deficiency reports or to make
Having a supporting role in             enhancements to the software. In
development and deployment of           addition, ISAG customers demand
the AFMC Portal, ISAG is leverag-       timely resolution of their software
ing cutting edge technology to          problems or discrepancies.
ensure that the transition of “data
into knowledge for Air Force deci-
sion makers” is tomorrow’s reality.




                                                                     Working Capital Fund > Information Services Activity Group
                                                                                                                                  37
     United States Air Force
                       Force



                                                                   Information Services
                                                          Customer Support Performance Measures

                          Measure                                       FY 2002 Goal*                     FY 2002 Result**                      FY 2003 Goal*

      Software Releases 1                                                  95 percent                          98 percent                          95 percent
      Priority 1 Deficiency Reports 2                                      66 percent                          88 percent                          66 percent
      Priority 2 Deficiency Reports 3                                      75 percent                          82 percent                          75 percent

      Source: *CDA Internal Goal/Metric, **Mtly Exec Rpt
      1
        Software Releases: The percentage of software delivered on time.
      2 Priority 1 Deficiency Reports: Percentage of resolved reported priority 1 software deficiencies within 48 hours. Priority 1 software deficiencies are those

        which, if not resolved, will prevent the accomplishment of an essential mission capability.
      3 Priority 2 Deficiency Reports: Percentage of resolved reported priority 2 software deficiencies within 45 days. Priority 2 software deficiencies are those which,

        if not resolved, will result in technical, cost, and schedule risk to the project or to the lifecycle support of the system, and no workaround is known.




                                                                        Information Services
                                                                  Financial Performance Measures

                             Measure                                          FY 2002 Goal*                  FY 2002 Result**                    FY 2003 Goal*

       Revenue 1                                                                  $600.5 M                         $629.5 M                          $603.5 M
       Cost of Operations 2                                                       $604.0 M                         $632.5 M                          $595.1 M
                                                3
       Net Operating Result (NOR)                                                 ($3.5 M)                          ($3.0 M)                           $8.4 M

       Source: *FY03PB, **Mtly Exec Rpt
       1
         Revenue: Revenue is earned through the sale of direct billable labor hours at the ISAG composite rate, direct reimbursements for pass-through contract
         efforts and extraordinary expenses (e.g., mission-unique travel, equipment, and supplies), and the collection of CITPAD surcharges.
       2
         Cost of Operations: Cost of operations (expenses) measures the resources consumed in filling customer orders. These costs include labor expenses,
         both direct and overhead.
       3
         Net Operating Result (NOR): The NOR is the difference between revenue and expenses, i.e., a bottom-line profit and loss indicator. The NOR objective
         of an activity group is to break even over a two-year budget cycle. Setting rates that effectively offset the prior-year net profit or loss accomplishes this.




38       Information Services Activity Group < Working Capital Fund
                       2002 Annual Financial Statements




United States Air Force
Fiscal Year 2002
Annual Financial Statements



Financial Statements




                                       Financial Statements
                                                              39
     United States Air Force




     Limitations of the Financial
     Statements
     The financial statements have been prepared to report the financial position and results of operations for the entity, pur-
     suant to the requirements of the Title 31, United States Code, Section 3515(b).

     While the statements have been prepared from the books and records of the entity, in accordance with the formats pre-
     scribed by the Office of Management and Budget, the statements are in addition to the financial reports used to moni-
     tor and control budgetary resources which are prepared from the same books and records.

     To the extent possible, the financial statements have been prepared in accordance with federal accounting standards. At
     times, the Department is unable to implement all elements of the standards due to financial management systems limi-
     tations. The Department continues to implement system improvements to address these limitations. There are other
     instances when the Department’s application of the accounting standards is different from the auditor’s application of
     the standards. In those situations, the Department has reviewed the intent of the standard and applied it in a manner
     that management believes fulfills that intent.

     The statements should be read with the realization that they are for a component of the United States Government, a
     sovereign entity. One implication of this is that the liabilities cannot be liquidated without legislation that provides
     resources to do so.

     The Federal Accounting Standards Advisory Board (FASAB) amended the Statement of Federal Financial Accounting
     Standard No. 6 to require the capitalization and depreciation of military equipment (formerly known as National
     Defense Property, Plant and Equipment) for fiscal years (FY) 2003 and beyond, and encouraged early implementation.
     Accordingly, the Department began the process of developing and reporting values for these assets in notes to the
     Balance Sheet, beginning in FY 2002.




40      Limitations of the Financial Statements < Financial Statements
                       2002 Annual Financial Statements




General Funds

Principal Statements




                            General Funds > Principal Statements
                                                                   41
     United States Air Force




                                               This page intentionally left blank.




42      Principal Statements < General Funds
                                                                                         2002 Annual Financial Statements




Consolidated Balance Sheet—General Funds
As of September 30, 2002 and 2001 ($ in Thousands)

                                                                         2002                2001               2001
                                                                      Consolidated         Restated          Consolidated
 ASSETS (Note 2)
      Intragovernmental:
         Fund Balance with Treasury (Note 3)                             47,942,750         44,259,788         44,259,788
         Investments (Note 4)                                                   708              1,088              1,088
         Accounts Receivable (Note5)                                        443,154            394,513            394,513
         Other Assets (Note 6)                                                4,989            351,706            351,706
              Total Intragovernmental Assets                            $48,391,601        $45,007,095        $45,007,095
      Cash and Other Monetary Assets (Note 7)                               140,645            107,530            486,225
      Accounts Receivable (Note 5)                                        1,017,910            561,769            561,769
      Inventory and Related Property (Note 9)                            28,817,564         25,740,625         57,610,355
      General Property, Plant and Equipment (Note 10)                    24,247,152         20,444,148         20,444,148
      Other Assets (Note 6)                                               7,535,914          5,509,604          5,509,604
 TOTAL ASSETS                                                          $110,150,786        $97,370,771       $129,619,196
 LIABILITIES (Note 11)
      Intragovernmental:
         Accounts Payable (Note 12)                                          1,124,733         740,585             740,585
         Debt (Note 13)                                                            134             108                 108
         Other Liabilities (Note 15 & Note 16)                               2,179,087       1,878,473           2,257,168
              Total Intragovernmental Liabilities                           $3,303,954      $2,619,166          $2,997,861
      Accounts Payable (Note 12)                                             6,206,967       4,180,417           4,180,417
      Military Retirement Benefits and Other Employment-
      Actuarial Liabilities (Note 17)                                        1,211,045       1,269,811           1,269,811
      Environmental Liabilities (Note 14)                                    8,454,564       7,312,942           7,312,942
      Other Liabilities (Note 15 and Note 16)                                3,987,188       4,118,979           4,118,979
 TOTAL LIABILITIES                                                         $23,163,718     $19,501,315         $19,880,010
 NET POSITION
     Unexpended Appropriations (Note 18)                                 39,543,850         39,006,789         39,006,789
     Cumulative Results of Operations                                    47,443,218         38,862,667         70,732,397
 TOTAL NET POSITION                                                     $86,987,068        $77,869,456       $109,739,186
 TOTAL LIABILITIES AND NET POSITION                                    $110,150,786        $97,370,771       $129,619,196




The accompanying notes are an integral part of the financial statements.




                                                                                              General Funds > Principal Statements
                                                                                                                                     43
     United States Air Force




     Consolidated Statement of Net Cost—General Funds
     For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                   2002           2001           2001
                                                                Consolidated    Restated      Consolidated
     PROGRAMS COST
        Intragovernmental Gross Costs                              21,820,712    18,672,472     18,672,472
          (Less: Intragovernmental Earned Revenue)                 -2,327,324    -2,211,035     -2,211,035
            Intragovernmental Net Costs                           $19,493,388   $16,461,437    $16,461,437
        Gross Costs With the Public                                72,927,138    69,208,409     73,807,726
          (Less: Earned Revenue From the Public)                     -680,711      -594,928       -594,928
            Net Costs With the Public                             $72,246,427   $68,613,481    $73,212,798
     NET COST OF OPERATIONS                                       $91,739,815   $85,074,918    $89,674,235




     The accompanying notes are an integral part of the financial statements.
     See notes 1 and 19.



44       Principal Statements < General Funds
                                                                                        2002 Annual Financial Statements




Consolidated Statement of Changes in Net Position—General Funds
For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                         2001
                                                     2002                             Cumulative       2001
                                                  Cumulative          2002             Results of   Cumulative            2001
                                                   Results of      Unexpended         Operations     Results of        Unexpended
                                                  Operations      Appropriations       Restated     Operations        Appropriations

BEGINNING BALANCES                                  70,732,397        39,006,789       31,980,779    31,980,779           35,240,415
Prior Period Adjustments (+/-)                     -31,869,730                 0        2,536,283    39,005,325                    0
BEGINNING BALANCES, ADJUSTED                       $38,862,667       $39,006,789      $34,517,062   $70,986,104          $35,240,415
BUDGETARY FINANCING SOURCES
  Appropriations received                                    0         96,952,072               0             0             3,766,374
  Appropriations transferred-in/out (+/-)                    0          5,084,803               0             0                     0
  Other adjustments (rescissions, etc) (+/-)                 0         -2,062,406               0             0                     0
  Appropriations used                               99,437,408        -99,437,408      86,135,105    86,135,105                     0
  Donations and forfeitures of cash/equivalents         12,681                  0           5,872         5,872                     0
  Other budgetary financing sources (+/-)              246,473                  0       2,236,422     2,236,422                     0
OTHER FINANCING SOURCES
  Transfers-in/out without reimbursement (+/-)          26,728                    0       456,260       456,260                     0
  Imputed financing from costs absorbed by others      597,076                    0       586,864       586,864                     0
TOTAL FINANCING SOURCES                           $100,320,366             $537,061   $89,420,523   $89,420,523            $3,766,374

NET COST OF OPERATIONS (+/-)                      $91,739,815                   $0    $85,074,918   $89,674,235                       $0

ENDING BALANCES                                   $47,443,218        $39,543,849      $38,862,667   $70,732,392          $39,006,789




The accompanying notes are an integral part of the financial statements.
See notes 1 and 20.



                                                                                               General Funds > Principal Statements
                                                                                                                                           45
     United States Air Force




     Combined Statement of Budgetary Resources—General Funds
     For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                  Non-                       Non-
                                                             Budgetary          Budgetary    Budgetary     Budgetary
                                                             Financing          Financing    Financing     Financing
                                                              Accounts           Accounts     Accounts      Accounts
                                                               2002               2002         2001          2001
     BUDGETARY RESOURCES
     Budget Authority:
        Appropriations received                               $96,329,855              $0    $87,803,883          $0
        Net transfers (+/-)                                    $4,954,597              $0     $4,913,418          $0
     Unobligated balance:
        Beginning of period                                    $7,203,289              $0     $7,105,053          $0
        Net transfers, actual (+/-)                             $130,206               $0    -$2,130,103          $0
     Spending authority from offsetting collections:
        Earned
           Collected                                             6,551,584              0      4,875,191           0
           Receivable from Federal sources                         274,507              0        312,728           0
        Change in unfilled customer orders
           Advance received                                      106,478                0        -41,657           0
           Without advance from Federal sources                   -1,182                0         64,971           0
        Subtotal                                              $6,931,387               $0     $5,211,233          $0
     Recoveries of prior year obligations                      1,051,593                0      1,272,122           0
     Permanently not available                                -2,062,413                0     -1,996,394           0
     TOTAL BUDGETARY RESOURCES                              $114,538,514               $0   $102,179,212          $0

     STATUS OF BUDGETARY RESOURCES
     Obligations incurred:
        Direct                                                100,622,101               0     89,602,365           0
        Reimbursable                                            7,849,904               0      5,373,560           0
        Subtotal                                              108,472,005               0     94,975,925           0
     Unobligated balance:
        Apportioned                                            5,268,178                0      6,367,908           0
        Exempt from apportionment                                  4,607                0          2,494           0
        Other available                                               -1                0              1           0
     Unobligated Balances Not Available                          793,725                0        832,884           0
     TOTAL STATUS OF BUDGETARY RESOURCES                    $114,538,514               $0   $102,179,212          $0

     RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
     Obligated Balance, Net – beginning of period              37,049,171               0     33,410,761           0
     Obligated Balance, Net – end of period:
        Accounts receivable                                    -1,481,965               0     -1,207,458           0
        Unfilled customer order from Federal sources             -465,207               0       -466,389           0
        Undelivered orders                                     34,030,703               0     32,011,469           0
        Accounts payable                                        9,738,663               0      6,711,552           0
     Outlays:
        Disbursements                                         102,374,064               0     89,687,692           0
        Collections                                            -6,658,063               0     -4,833,534           0
        Subtotal                                               95,716,001               0     84,854,158           0
     Less: Offsetting receipts                                   -121,154               0              0           0
     NET OUTLAYS                                              $95,594,847              $0    $84,854,158          $0




     The accompanying notes are an integral part of the financial statements.
     See notes 1 and 21.



46       Principal Statements < General Funds
                                                                                          2002 Annual Financial Statements




Combined Statement of Financing—General Funds
For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                          2002             2001               2001
                                                                                        Combined         Restated           Combined
RESOURCES USED TO FINANCE ACTIVITIES
Budgetary Resources Obligated
   Obligations incurred                                                                 108,472,005       94,975,926         94,975,926
   Less: Spending authority from offsetting collections and recoveries (-)               -7,982,980       -6,483,355         -6,483,355
Obligations net of offsetting collections and recoveries                                100,489,025       88,492,571         88,492,571
   Less: Offsetting receipts (-)                                                           -121,154                0                  0
Net obligations                                                                         100,367,871       88,492,571         88,492,571
Other Resources
   Transfers in/out without reimbursement (+/-)                                              26,727         -17,417            -17,417
   Imputed financing from costs absorbed by others                                          597,076         586,864            586,864
Net other resources used to finance activities                                              623,803         566,716            566,716
TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                             $100,991,674     $89,059,287        $89,059,287

RESOURCES USED TO FINANCE ITEMS NOT PART OF NET COST OF
OPERATIONS
Change in budgetary resources obligated for goods, services and benefits ordered but
not yet provided
   Undelivered Orders (-)                                                                -2,222,784      -2,402,847         -2,402,847
   Unfilled Customer Orders                                                                 105,295          23,314             23,314
   Resources that fund expenses recognized in prior periods                                -651,941         574,535            574,535
   Resources that Finance the Acquisition of Assets                                     -10,859,967      -9,168,868         -4,569,551
 Total Resources Used to Finance Items Not Part of the Net Cost of Operations           -13,629,397     -10,973,866         -6,374,549
TOTAL RESOURCES USED TO FINANCE THE NET COST OF OPERATIONS                              $87,362,277     $78,085,421        $82,684,738

COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT
REQUIRE OR GENERATE RESOURCES IN THE CURRENT PERIOD:
COMPONENTS REQUIRING OR GENERATING RESOURCES IN FUTURE PERIODS
   Increase in annual leave liability                                                       -71,316                0                  0
   Increase in environmental and disposal liability                                       1,117,408                0                  0
   Other (+/-)                                                                               73,202          467,148            467,148
 Total Components Net Cost of Operations that Will Require or Generate Resources
 in Future Periods                                                                        1,119,294          467,148            467,148
COMPONENTS NOT REQUIRING OR GENERATING RESOURCES
   Depreciation and amortization                                                          1,795,095        2,895,300          2,895,300
   Revaluation of assets or liabilities (+/-)                                             3,715,480          -15,771            -15,771
   Other (+/-)                                                                           -2,252,331        3,642,820          3,642,820
 Total Components Net Cost of Operations Will Not Require or Generate Resources           3,258,244        6,522,349          6,522,349
TOTAL COMPONENTS NET COST OF OPERATIONS THAT WILL REQUIRE OR
GENERATE RESOURCES IN CURRENT PERIOD                                                     $4,377,538       $6,989,497         $6,989,497

NET COST OF OPERATIONS                                                                  $91,739,815     $85,074,918        $89,674,235




The accompanying notes are an integral part of the financial statements.
See notes 1 and 22.



                                                                                                 General Funds > Principal Statements
                                                                                                                                          47
     United States Air Force




                                               This page intentionally left blank.




48      Principal Statements < General Funds
                                                                                 2002 Annual Financial Statements




General Funds
Footnotes to the
Principal Statements
Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the
Department of the Air Force as required by the “Chief Financial Officers (CFO) Act of 1990,” expanded by the
“Government Management Reform Act (GMRA) of 1994” and other appropriate legislation. The financial statements
have been prepared from the books and records of the Air Force in accordance with “Department of Defense Financial
Management Regulation (DoDFMR),” Office of Management and Budget (OMB) Bulletin No. 01-09, “Form and
Content of Agency Financial Statements,” and to the extent possible, Federal Generally Accepted Accounting Principles
(GAAP). The accompanying financial statements account for all resources for which the Air Force is responsible except
that information relative to classified assets, programs, and operations has been excluded from the statement or other-
wise aggregated and reported in such a manner that it is no longer classified. The Air Force’s financial statements are
in addition to the financial reports also prepared by the Air Force pursuant to OMB directives that are used to monitor
and control the Air Force’s use of budgetary resources.

The Air Force is unable to implement fully all elements of Federal GAAP and the OMB Bulletin No. 01-09 due to limi-
tations of its financial management processes and systems, including non-financial feeder systems and processes.
Reported values and information for the Air Force’s major asset and liability categories are derived largely from non-
financial feeder systems, such as inventory systems and logistic systems. These were designed to support reporting
requirements focusing on maintaining accountability over assets and reporting the status of federal appropriations
rather than preparing financial statements in accordance with Federal GAAP. As a result, the Air Force currently cannot
implement every aspect of GAAP and the OMB Bulletin No. 01-09. The Air Force continues to implement process and
system improvements addressing the limitation of its financial and non-financial feeder systems.

There are instances where the Air Force has reviewed the intent of the accounting standard and applied it in a manner
consistent with the intent of the standard, but auditors interpret the standard differently. Financial statement elements
impacted include payments under firm fixed price contracts, operating materials and supplies (OM&S) and disposal lia-
bilities.

A more detailed explanation of these financial statement elements is provided in the applicable footnote.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The National
Security Act Amendments of 1949 established the Department of Defense (DoD) and made the Air Force a department




                                                                                 General Funds > Notes to Principal Statements
                                                                                                                                 49
     United States Air Force




     within DoD. The overall mission of the Air Force is to defend the United States through control and exploitation of air
     and space.

     The accounts used to prepare the statements are classified as entity/nonentity. Entity accounts consist of resources the
     agency has authority to decide how to use or is legally obligated to use to meet entity obligations. Nonentity accounts
     are assets held by an entity but are not available for use in operations.

     The Air Force incorporates into the accounting systems internal controls, reconciliations, management by exception
     reports, and other management control information.

     When possible, the financial statements are presented on the accrual basis of accounting as required by federal
     accounting standards.

     Following is a list of Air Force account numbers and titles (all accounts are entity accounts unless otherwise noted):

     Air Force Account Number                                                     Title

     57   * 0704                                          Military Family Housing (O&M and Construction), Air Force
     57   * 0810                                          Environmental Restoration, Air Force
     57   * 1999                                          Unclassified Receipts and Expenditures, Air Force
     57   * 3010                                          Aircraft Procurement, Air Force
     57   * 3011                                          Procurement of Ammunition, Air Force
     57   * 3020                                          Missile Procurement, Air Force
     57   * 3080                                          Other Procurement, Air Force
     57   * 3300                                          Military Construction, Air Force
     57   * 3400                                          Operation and Maintenance (O&M), Air Force
     57   * 3500                                          Military Personnel, Air Force
     57   * 3600                                          Research, Development, Testing, and Evaluation (RDT&E), AF
     57   * 3700                                          Personnel, Air Force Reserve
     57   * 3730                                          Military Construction, Air Force Reserve
     57   * 3740                                          Operation and Maintenance (O&M), Air Force Reserve
     57   * 3830                                          Military Construction, Air National Guard
     57   * 3840                                          Operation and Maintenance (O&M), Air National Guard
     57   * 3850                                          Personnel, Air National Guard
     57   X 5095                                          Wildlife Conservation, etc., Military Reservations, Air Force
     57   X 8418                                          Air Force Cadet Fund
     57   X 8928                                          Air Force General Gift Fund
     57   * 3XXX                                          Budget Clearing Accounts
     57   * 6XXX (Nonentity)                              Deposit Fund Accounts

     1.C. Appropriations and Funds
     The Air Force’s appropriations and funds are divided into general, working capital (revolving), trust, special, and
     deposit funds. These appropriations and funds are used to fund and report how the resources have been used in the
     course of executing the Air Force’s missions. These notes describe attributes of these funds.

     ◗    General funds are used for financial transactions arising under congressional appropriations, including personnel,
          operation and maintenance, research and development, procurement, and construction accounts.




50        Notes to Principal Statements < General Funds
                                                                                  2002 Annual Financial Statements




◗   Working Capital fund activities are reported in a separate set of audited financial statements and related footnotes.

◗   Trust funds represent the receipt and expenditure of funds held in trust by the Air Force for use in carrying out spe-
    cific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

◗   Special funds account for Air Force receipts earmarked for a specific purpose.

◗   Deposit funds generally are used to: (1) hold assets for which the Air Force is acting as an agent or a custodian or
    whose distribution awaits legal determination, or (2) account for unidentified remittances.

1.D. Basis of Accounting
The Air Force generally records transactions on a budgetary basis and not an accrual accounting basis as is required
by Federal GAAP. For FY 2002, the Air Force’s financial management systems are unable to meet all of the require-
ments for full accrual accounting. Many of the Air Force’s financial and non-financial feeder systems and processes
were designed and implemented prior to the issuance of Federal GAAP for federal agencies and, therefore, were not
designed to collect and record financial information on the full accrual accounting basis as required by Federal GAAP.
The Air Force has undertaken efforts to determine the actions required to bring its financial and non-financial feeder
systems and processes into compliance with all elements of Federal GAAP. One such action is the current revision of its
accounting systems to record transactions based on the United States Government Standard General Ledger (USSGL).
Until such time as all of the Air Force’s financial and non-financial feeder systems and processes are updated to collect
and report financial information as required by Federal GAAP, the Air Force’s financial data will be based on budgetary
transactions (obligations, disbursements, and collections), transactions from non-financial feeder systems, and adjusted
for known accruals of major items such as payroll expenses, accounts payable, and environmental liabilities. However,
when possible, the financial statements are presented on the accrual basis of accounting as required. One example of
information presented on the budgetary basis is the data on the Statement of Net Cost (SONC). Much of this informa-
tion is based on obligations and disbursements and may not always represent all accrued costs.

The Air Force identifies programs based upon the major appropriation groups provided by Congress. The Air Force is
in the process of reviewing available data and attempting to develop a cost reporting methodology that balances the
need for cost information required by the Statement of Federal Financial Accounting Standard (SFFAS) No. 4,
“Managerial Cost Accounting Concepts and Standards for the Federal Government,” with the need to keep the finan-
cial statements from being overly voluminous.

1.E. Revenues and Other Financing Sources
Financing sources for general funds are primarily provided through congressional appropriations received on both an
annual and a multi-year basis. When authorized, these appropriations are supplemented by revenues generated by
sales of goods or services through a reimbursable order process. The Air Force recognizes revenue as a result of costs
incurred or services performed on behalf of other federal agencies and the public. Revenue is recognized when earned
under the reimbursable order process.

Other financing sources reported by the DoD and Air Force do not include non-monetary support provided by U.S.
Allies for common defense and mutual security. The U.S. has agreements with foreign countries that include both direct
and indirect sharing of costs that each country incurs in support of the same general purpose. Examples include coun-
tries where there is a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. fleet
is serviced in a port. DoD is reviewing these types of financing and cost reductions in order to establish accounting




                                                                                  General Funds > Notes to Principal Statements
                                                                                                                                  51
     United States Air Force




     policies and procedures to identify what, if any, of these costs are appropriate for disclosure in the DoD and Air Force
     financial statements in accordance with generally accepted accounting principles. Recognition of support provided by
     host nations would affect both financing sources and recognition of expenses.

     1.F. Recognition of Expenses
     For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred.
     However, because the Air Force’s financial and non-financial feeder systems were not designed to collect and record
     financial information on the full accrual accounting basis, accrual adjustments are made for major items such as pay-
     roll expenses, accounts payable, and environmental liabilities. Expenditures for capital and other long-term assets are
     not recognized as expenses in the Air Force’s operations until depreciated in the case of Property, Plant, and Equipment
     (PP&E) or consumed in the case of Operating Materials and Supplies (OM&S). Net increases or decreases in unex-
     pended appropriations are recognized as a change in the net position.

     Certain expenses, such as annual and military leave earned but not taken, are financed in the period in which payment
     is made.

     Operating expenses were adjusted as a result of the elimination of balances between DoD Components. See Note 19.I
     Intragovernmental Expenses and Revenue for disclosure of adjustment amounts.

     1.G. Accounting for Intra-governmental Activities
     The Air Force, as an agency of the federal government, interacts with and is dependent upon the financial activities of
     the federal government as a whole. Therefore, these financial statements do not reflect the results of all financial trans-
     actions applicable to the Air Force as though the agency was a stand-alone entity.

     The Air Force’s proportionate share of public debt and related expenses of the federal government are not included.
     Debt issued by the federal government and the related costs are not apportioned to federal agencies. The Air Force’s
     financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements
     report the source of public financing whether from issuance of debt or tax revenues.

     Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this financing
     ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since
     the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

     The Air Force’s civilian employees participate in the Civil Service Retirement System (CSRS) and Federal Employees
     Retirement System (FERS), while military personnel are covered by the Military Retirement System (MRS). Additionally,
     employees and personnel covered by FERS and MRS also have varying coverage under Social Security. The Air Force
     funds a portion of the civilian and military pensions. Reporting civilian pension under CSRS and FERS retirement systems
     is the responsibility of the Office of Personnel Management (OPM). The Air Force recognizes an imputed expense for
     the portion of civilian employee pensions and other retirement benefits funded by the OPM in the SONC; and recog-
     nizes corresponding imputed revenue from the civilian employee pensions and other retirement benefits in the
     Statement of Changes in Net Position (SCNP).

     The DoD reports the assets, funded actuarial liability, and unfunded actuarial liability for the military personnel in the
     Military Retirement Fund (MRF) financial statements. The DoD recognizes the actuarial liability for the military retirement




52       Notes to Principal Statements < General Funds
                                                                                  2002 Annual Financial Statements




health benefits in the Other Defense Organization General Fund column of the DoD agency-wide consolidating/com-
bining statements.

To prepare reliable financial statements, transactions occurring between components or activities within the Air Force,
must be eliminated. However, the Air Force, as well as the rest of the federal government, cannot accurately identify all
intragovernment transactions by customer. The Defense Finance and Accounting Service (DFAS) is responsible for elimi-
nating transactions between components or activities of the Air Force. For FY 1999 and beyond seller entities within the
DoD provided summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side
internal DoD accounting offices. In most cases, the buyer-side records have been adjusted to recognize unrecorded
costs and accounts payable. Intra-DoD intra-governmental balances are then eliminated. In the DoD Agency-Wide
Statements, Intra-Air Force transactions (to the extent determinable) are eliminated in the accompanying Balance Sheet
and SONC.

The Department of the Treasury, Financial Management Service (FMS) is responsible for eliminating transactions
between the DoD and other federal agencies. In September 2000, the FMS issued the “Federal Intragovernmental
Transactions Accounting Policies and Procedures Guide.” The DoD was not able to fully implement the policies and
procedures in this guide related to reconciling intra-governmental assets, liabilities, revenues and expenses for non-fidu-
ciary transactions. The Air Force however, was able to implement the policies and procedures contained in the
“Intragovernmental Fiduciary Transactions Accounting Guide,” as updated by the “Federal Intragovernmental
Transactions Accounting Policies and Procedures Guide,” for reconciling intra-governmental transactions pertaining to
investments in federal securities, borrowings from the United States (U.S.) Treasury and the Federal Financing Bank,
Federal Employees’ Compensation Act transactions with the Department of Labor (DoL), and benefit program transac-
tions with the OPM.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the DoD components sell defense articles and services to foreign governments and international organiza-
tions, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD
has authority to sell defense articles and services to foreign countries and international organizations, generally at no
profit or loss to the U.S. Government. Customers may be required to make payments in advance.

1.I. Funds with the U.S. Treasury
The Air Force’s financial resources are maintained in U.S. Treasury accounts. The majority of cash collections, disburse-
ments, and adjustments are processed worldwide at the DFAS, Military Services, and the USACE disbursing stations, as
well as the Department of State financial service centers. Each disbursing station prepares monthly reports which pro-
vide information to the U.S. Treasury on check issues, electronic fund transfers, interagency transfers and deposits.

In addition, the DFAS sites and USACE Finance Center submit reports to the Department of the Treasury, by appropria-
tion, on interagency transfers, collections received, and disbursements issued. The Department of Treasury then records
this information to the applicable Fund Balance with Treasury (FBWT) account maintained in the Treasury’s system.
Differences between the Air Force’s recorded balance in the FBWT accounts and Treasury’s FBWT accounts sometimes
result and are subsequently reconciled. Material disclosures are provided at Note 3. Differences between accounting
offices’ detail-level records and Treasury’s FBWT accounts are disclosed in Note 21.B., specifically, differences caused
by in-transit disbursements and unmatched disbursements (which are not recorded in the accounting offices’ detail-level
records).




                                                                                  General Funds > Notes to Principal Statements
                                                                                                                                  53
     United States Air Force




     1.J. Foreign Currency
     The Air Force conducts a significant portion of its operations overseas. The Congress established a special account to
     handle gains and losses from foreign currency transactions for five general fund appropriations (operation and mainte-
     nance, military personnel, military construction, family housing operation and maintenance, and family housing con-
     struction). Gains and losses are computed as the variance between the exchange rate current at the date of payment
     and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other appro-
     priations require adjustment to the original obligation amount at the time of payment. These currency fluctuations are
     not identified separately. Material disclosures are provided at note 7.

     1.K. Accounts Receivable
     As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds receivable
     from other federal entities or from the public. Allowances for uncollectible accounts due from the public are based
     upon analysis of collection experience by fund type. The Air Force does not recognize an allowance for estimated
     uncollectible amounts from another federal agencies. Claims against other federal agencies are to be resolved between
     the agencies. Material disclosures are provided at Note 5.

     1.L. Loans Receivable
     Not applicable.

     1.M. Inventories and Related Property
     The related property portion of the amount reported on the Inventory and Related Property line includes OM&S. The
     OM&S are reported at approximate historical cost using Standard Price (SP).

     The Air Force uses the SP method because its OM&S systems were designed for material management rather than
     accounting. The systems provide accountability and visibility over inventory items. They do not maintain the historical
     cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property.” Neither can they
     directly produce financial transactions using the USSGL, as required by the Federal Financial Management
     Improvement Act of 1996 (P.L 104-208).

     SFFAS No. 3 distinguishes between “Inventory held for sale” and “Inventory held in reserve for future sale.” There is no
     management or valuation difference between the two USSGL accounts. Further, the DoD manages only military or gov-
     ernment-specific material under normal conditions. Items commonly used in and available from the commercial sector
     are not managed in the DoD material management activities. Operational cycles are irregular, and the military risks
     associated with stock-out positions have no commercial parallel. The Air Force holds material based on military need
     and support for contingencies. Therefore, the Air Force does not attempt to account separately for items held for “cur-
     rent” or “future” sale.

     The OM&S, including munitions not held for sale, are valued at SP. Ammunition and munitions are treated as OM&S.
     For the most part, the Air Force is using the consumption method of accounting for OM&S, expensing material when it
     is issued to the end user.

     The Air Force implemented new policy in FY 2002 to account for condemned material as “Excess, Obsolete, and
     Unserviceable.” The net value of condemned material is zero, because the costs of disposal are greater than the poten-




54      Notes to Principal Statements < General Funds
                                                                                    2002 Annual Financial Statements




tial scrap value. Potentially redistributable material, presented in previous years as “Excess, Obsolete, and
Unserviceable,” is included in “Held for Use” or “Held for Repair” categories according to its condition.

In addition, past audit results identified uncertainties about the completeness and existence of quantities used to pro-
duce the reported values. Material disclosures related to inventory and related property are provided at Note 9.B.

1.N. Investments in U.S. Treasury Securities
Gifts to the Air Force are invested in U.S. Treasury securities. Investments in U.S. Treasury securities are reported at cost,
net of unamortized premiums or discounts. Premiums or discounts are amortized into interest income over the term of
the investment using the effective interest rate method or other method if similar results are obtained. The intent is to
hold investments to maturity, unless needed to finance purchases in accordance with the donor’s intent. Consequently,
a provision is not made for unrealized gains or losses on these securities. Related earnings are allocated to appropriate
Air Force activities to be used in accordance with the directions of the donor. Material disclosures are provided at
Note 4.

1.O. General Property, Plant and Equipment
General PP&E, exclusive of Military Equipment, is capitalized at historical acquisition cost plus capitalized improvements
when an asset has a useful life of two or more years, and when the acquisition cost equals or exceeds the DoD capital-
ization threshold of $100,000. Also, improvement costs over the DoD capitalization threshold of $100,000 for General
PP&E, exclusive of Military Equipment, are required to be capitalized. All General PP&E, other than land, is depreciated
on a straight-line basis. Land is not depreciated. The cost of Military Equipment acquisition programs is depreciated on
a composite or group basis over the estimated useful life of the items in the group. Group depreciation is where an
average rate of depreciation is applied to a number of homogeneous assets, as characterized by similar characteristics
and service lives. Composite depreciation is where an average or composite rate of depreciation is applied to a num-
ber of heterogeneous assets having dissimilar characteristics and service lives.

Prior standards provided for the expensing of Military Equipment when costs were incurred and when the reporting of
such costs as supplementary stewardship information was deemed appropriate. In addition, prior standards provided
for reporting of Military Equipment condition and deferred maintenance information. The Department of Defense has
not reported the cost of Military Equipment in accordance with prior standards due to an absence of detailed cost infor-
mation for Military Equipment acquired over many decades.

In June 2002 the Federal Accounting Standards Advisory Board issued a standard entitled “Eliminating the Category
National Defense Property, Plant, and Equipment (ND PP&E).” In addition to eliminating the category ND PP&E, this
standard rescinded SFFAS No. 11, “Amendment to Property, Plant, and Equipment – Definitional Changes;” amended
SFFAS No. 8, “Supplementary Stewardship Reporting;” and amended SFFAS No. 6, “Accounting for Property, Plant, and
Equipment.” This standard is effective for years ending after September 30, 2002. The standard is currently sitting
before Congress for a 45-day period in accordance with provisions of the Chief Financial Officers Act of 1990.

The standard on eliminating the category of ND PP&E provides for the capitalization of Military Equipment, previously
defined as ND PP&E, and the reporting of such property as General Property, Plant, and Equipment. In recognition of
the absence of detailed historical cost information, this standard provides that “If obtaining initial historical cost is not
practical, estimated historical cost may be used. Other information such as but not limited to budget, appropriation, or




                                                                                    General Funds > Notes to Principal Statements
                                                                                                                                    55
     United States Air Force




     engineering documents and other reports reflecting amounts expended may be used as the basis for estimating histori-
     cal cost.” The standard acknowledges that imprecision may result from the use of estimates or other information.

     The Department of the Air Force is implementing this standard through a “phased” approach. Capitalization of Military
     Equipment, previously defined as ND PP&E, will take several years because of the extensive research needed to develop
     cost estimates for the extensiveness of such inventory. Therefore, the Air Force cannot fully implement the standard on
     its effective date.

     When it is in the best interest of the government, the Air Force provides to contractors government property necessary to
     complete contract work. Such property is either owned or leased by the Air Force, or purchased directly by the contrac-
     tor for the government based on contract terms. When the value of contractor procured General PP&E exceeds the
     DoD capitalization threshold, such PP&E is required to be included in the value of General PP&E reported on the Air
     Force’s Balance Sheet. The DoD completed a study that indicates that the value of General PP&E above the DoD capi-
     talization threshold and not older than the DoD Standard Recovery Periods for depreciation, and that is presently in the
     possession of contractors, is not material to the DoD’s financial statements. Regardless, the DoD is developing new
     policies and a contractor reporting process that will provide appropriate General PP&E information for future financial
     statement purposes. Accordingly, the Air Force currently reports only government property in the possession of contrac-
     tors maintained in the Air Force property systems.

     To bring the Air Force into fuller compliance with federal accounting standards, DoD has issued new property account-
     ability and reporting regulations that require the DoD Components to maintain, in DoD Component property systems,
     information on all property furnished to contractors. This action and other DoD proposed actions are structured to cap-
     ture and report the information necessary for compliance with federal accounting standards.

     Material disclosures are provided at Note 10.

     1.P. Advances and Prepayments
     Payments in advance of the receipt of goods and services are recorded as prepaid and deferred charges at the time of
     prepayment and reported as an asset on the Balance Sheet. Prepaid charges are expensed when the related goods and
     services are received.

     1.Q. Leases
     Generally, lease payments are for the rental of equipment vehicles and operating facilities and are classified as either
     capital or operating leases. When a lease essentially is equivalent to an installment purchase of property (a capital
     lease) and the value equals or exceeds the current DoD capitalization threshold, the applicable asset and liability are
     recorded. The amount recorded is the lesser of the present value of the rental and other lease payments during the
     lease term, excluding that portion of the payments representing executory costs paid to the lessor, or the asset’s fair
     value. Leases that do not transfer substantially all of the benefits or risks of ownership are classified as operating leases
     and are expensed as payments are made over the lease term.

     1.R. Other Assets
     The Air Force conducts business with commercial contractors under two primary types of contracts: fixed price and cost
     reimbursable. In order to alleviate the potential burden on the contractor that long-term contracts can cause, the Air
     Force provides financing payments. One type of financing payment, for real property, is based on the percentage of
     completion. In accordance with the SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” such payments are




56       Notes to Principal Statements < General Funds
                                                                                  2002 Annual Financial Statements




treated as construction in progress and reported on the General PP&E line and in Note 10, General PP&E, Net. In
addition, based on the Federal Acquisition Regulation, the Air Force makes financing payments under fixed price con-
tracts not based on percentage of completion. The Air Force reports these financing payments as advances or prepay-
ments in the “Other Assets” line item. The Air Force treats these payments as advances or prepayments because the Air
Force becomes liable only after the contractor delivers the goods. If the contractor does not deliver a satisfactory prod-
uct, the Air Force is not obligated to reimburse the contractor and the contractor is liable to repay the Air Force for the
full amount of the advance. The DoD has completed a review of applicable federal accounting standards; public laws
on contract financing; Federal Acquisition Regulation Parts 32, 49, and 52; and the OMB guidance in 5 Code of
Federal Regulations Part 1315, “Prompt Payment.” The DoD has concluded that SFFAS No. 1 does not address fully or
adequately the subject of progress payment accounting and is considering what action is appropriate.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government”, defines a contingency as an existing condi-
tion, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the Air Force. The
uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized as a lia-
bility when a past event or exchange transaction has occurred, a future loss is probable and the amount of loss can be
reasonably estimated. Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist, but there is at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss
contingencies include the collectibility of receivables, pending or threatened litigation, possible claims and assessments.
The Air Force’s loss contingencies arising as a result of pending or threatened litigation or claims and assessments
occur due to events such as aircraft and vehicle accidents, medical malpractice, property or environmental damages,
and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for the Air Force’s assets. This type of liability has two
components: non-environmental and environmental. Recognition of an anticipated environmental disposal liability com-
mences when the asset is placed into service, consistent with SFFAS No. 6, “Accounting for Property, Plant, and
Equipment”. Based upon the Air Force’s policies and consistent with SFFAS No. 5, “Accounting for Liabilities of Federal
Government”, a non-environmental disposal liability is recognized for an asset when management makes a decision to
dispose of the asset. Such amounts are developed in conjunction with and not easily identifiable separately from envi-
ronmental disposal costs. Material disclosures are provided at Notes 14 and 15.

1.T. Accrued Leave
Civilian annual leave and military leave that have been accrued and not used as of the balance sheet date are report-
ed as liabilities. The liability reported at the end of the fiscal year reflects current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations
represent amounts of authority which are unobligated and have not been rescinded or withdrawn, and amounts obli-
gated but for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the balances that results from subtracting expenses and losses from financ-
ing, including appropriations, revenue, and gains since inception of the activities. Beginning in FY 1998, this includes
the cumulative amount of donations and transfers of assets in and out without reimbursement.




                                                                                  General Funds > Notes to Principal Statements
                                                                                                                                  57
     United States Air Force




     1.V. Treaties for Use of Foreign Bases
     The DoD Components have the use of land, buildings, and other facilities, which are located overseas and have been
     obtained through various international treaties and agreements negotiated by the Department of State. The DoD capital
     assets overseas are purchased with appropriated funds; however, title to land and improvements is retained by the host
     country. Generally, treaty terms allow the DoD Components continued use of these properties until the treaties expire.
     These fixed assets are subject to loss in the event treaties are not renewed or other agreements are not reached which
     allow for the continued use by the DoD Components. Therefore, in the event treaties or other agreements are terminat-
     ed whereby use of the foreign bases is no longer allowed, losses will be recorded for the value of any non-retrievable
     capital assets after negotiations between the U.S. and the host country have been concluded to determine the amount
     to be paid the U.S. for such capital investments.

     1.W. Comparative Data
     Beginning in FY 2001, the Air Force presents the current and previous year’s financial data for comparative purposes.
     This data is presented in the financial statements, as well as in the notes to the principal statements.

     In FY 2002, the Department modified the financial statement presentation for the Statements of Net Cost, Changes in
     Net Position, and Financing. As a result, the Department’s statements during this reporting period may not always lend
     themselves to comparative analysis. In some instances, amounts on the statements were reported on one financial line
     in FY 2001 and split into multiple financial lines for FY 2002, in accordance with OMB’s guidance.

     1.X. Unexpended Obligations
     The Air Force records obligations for goods and services that have been ordered but not yet received. No liability for
     payment has been established in the financial statements because goods and services have yet to be delivered.




58      Notes to Principal Statements < General Funds
                                                                                         2002 Annual Financial Statements




Note 2. Nonentity and Entity Assets

                                                                          2002                                     2001
As of September 30,                                 Nonentity           Entity                Total

 (Amounts in thousands)
Intra-governmental Assets:
    Fund Balance with Treasury                     $    54,750      $    47,888,000 $        47,942,750       $      44,259,788
    Investments                                                 0                 708                  708                 1,088
    Accounts Receivable                                 10,913              432,242             443,155                  394,513
    Other Assets                                                0                4,989                4,989              351,706
    Total Intra-governmental Assets                $    65,663      $    48,325,939 $        48,391,602       $      45,007,095

Non-Federal Assets:
    Cash and Other Monetary Assets                 $   140,645      $               0 $         140,645       $          486,225
    Accounts Receivable                                711,546              306,364           1,017,910                 561,769
    Inventory & Related Property                             0           28,817,563          28,817,563              57,610,355
    General Property, Plant, and Equipment                      0        24,247,152          24,247,152              20,444,148
    Other Assets                                       125,064            7,410,850           7,535,914                5,509,604
    Total Non-Federal Assets                       $   977,255      $    60,781,929 $        61,759,184       $      84,612,101
Total Assets:                                      $ 1,042,918      $   109,107,868 $       110,150,786       $     129,619,196


Other Information
Relevant Information for Comprehension. Assets are categorized as:

◗   Entity assets consist of resources that the agency has the authority to use, or where management is legally obligat-
    ed to use funds to meet entity obligations.

◗   Nonentity assets are assets held by an entity, but are not available for use in the operations of the entity.

Note Reference. For Additional Line Item discussion, see:

◗   Note 3, Fund Balance with Treasury

◗   Note 4, Investments

◗   Note 5, Accounts Receivable

◗   Note 6, Other Assets.




                                                                                         General Funds > Notes to Principal Statements
                                                                                                                                         59
     United States Air Force




     Note 3. Fund Balance with Treasury

     As of September 30,                                           2002              2001
      (Amounts in thousands)
     Fund Balances:
         Appropriated Funds                                    $   47,889,092   $ 44,245,073
         Revolving Funds                                                    0               0
         Trust Funds                                                   11,746            6,617
         Other Fund Types                                              41,912            8,098
         Total Fund Balances                                   $   47,942,750   $ 44,259,788



     Fund .Balances Per Treasury Versus Agency:
        Fund Balance per Treasury                              $   47,942,751   $ 44,259,786
        Fund Balance per                                           47,942,750       44,259,788
        Reconciling Amount                                     $            1   $           -2


     Other Information Related to Fund Balance with Treasury
     Fluctuations
     The appropriated funds increase of $3,644 million is directly related to the receipt of increased budget authority.

     The trust fund increase of $5.1 million results from Gift Fund Donations. The Increase in Gift Fund FBWT is a build up
     of assets from the difference in timing of receipt of donations, and use of donations. The Air Force Museum Foundation
     is funding construction of a third building at the Air Force Museum. Contributions by the foundation in FY 2002 were
     approximately $11.5 million.

     The increase in the other fund types represents an increase in deposit fund collections primarily in Withheld State and
     Local Taxes, Servicemen’s Group Life Insurance Fund, and other deposit accounts. Timing of collections and disburse-
     ments from these accounts account for the difference.

     The FBWT in appropriations canceling on September 30, 2002 was withdrawn in accordance with Treasury policy. This
     amount was $820 million for FY 2002.
     Other information Related to Fund Balance with Treasury
     ◗   Intragovernmental Paying and Collecting (IPAC). The Intra-governmental Payment and Collection (IPAC) differences
         are reconcilable differences that represent amounts reported by Treasury but not reported by the Organization. As
         of September 30, 2002 and 2001, there were no IPAC differences greater than 180-days old. A majority of the
         differences represent internal DoD transactions and, therefore, do not affect the FBWT at the DoD consolidated
         level. For individual entity level statements, however, these differences would affect the amount reported for FBWT.
         The DoD is working with the DFAS sites, and the Department of Treasury, and a Treasury Department contractor to
         develop an automated tool to aid in reconciling the Treasury’s Statement of Differences. The accounting and pay-
         ing centers established metrics and implemented monthly reporting requirements for FY 2001. These actions will
         aid the Air Force in clearing the old balances and establishing better internal controls over the IPAC process.




60       Notes to Principal Statements < General Funds
                                                                                                2002 Annual Financial Statements




◗    Check Issue Discrepancy. DFAS is in the process of collecting information for all check issue discrepancy data
     unsupportable because: (1) records have been lost during deactivation of disbursing offices; (2) the Treasury will
     not assist in research efforts for transactions over 1-year old; or (3) corrections were processed for transactions that
     Treasury removed from the check comparison report. Transactions that have no supporting documentation due to
     one of the preceding situations shall be provided to the Department of the Treasury with a request to remove them
     from the Treasury Check Comparison Report. The vast majority of the remaining check issue discrepancies are a
     result of timing differences between the Air Force and the Department of the Treasury for processing checks.
     Further, no empirical evidence has been presented that demonstrates check issue discrepancies adversely affect the
     FBWT.
Note Reference
See Note Disclosure 1.I., Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Funds with the U.S. Treasury.


Note 4. Investments

As of September 30,                                                             2002                                                    2001
                                                                       Amortized
                                                        Amortization   (Premium/            Investments,           Market Value    Investments,
(Amounts in thousands)                       Cost         Method        Discount)               Net                 Disclosure         Net

Intra-governmental Securities
    Non-Marketable, Market-Based         $      708                    $            0   $            708       $              0     $       1,074
    Subtotal                             $      708                    $            0   $            708       $              0     $       1,074
    Accrued Interest                     $          0                                   $               0      $              0     $           14
    Total Intragovernmental Securities   $      708                    $            0   $            708       $              0     $       1,088


Other Investments:                       $          0                               0   $               0                      0    $             0


Other Information
Fluctuations
The Air Force Gift Fund cash donations that are not going to be used in the immediate future to fund donor designated
projects are invested in marketable securities with Treasury. The current year decrease in investments were due to invest-
ments being redeemed.
Relevant Information for Comprehension
The Air Force Gift Fund was established to control and account for the disbursement and use of monies donated to the
Air Force along with the interest received from the investment of such donations. The related earnings are allocated to
appropriate Air Force activities to be used in accordance with the directions of the donor. These funds are recorded as
Non-Marketable Market Based U.S. Treasury Securities, which are not traded on any security exchange, but they mirror
the prices of marketable securities with similar terms.
Note Reference
See Note Disclosure 1.N., Investments in U.S. Treasury, for additional Air Force policies governing Investments in U.S.
Treasury Securities.




                                                                                                General Funds > Notes to Principal Statements
                                                                                                                                                      61
     United States Air Force




     Note 5. Accounts Receivable
     As of September 30,                                                        2002                                     2001
                                                                               Allowance for
                                                                                 Estimated           Accounts        Accounts
                                                        Gross Amount Due       Uncollectibles     Receivable, Net Receivable, Net
     (Amounts in thousands)
     Intra-governmental Receivables:                           $ 443,155                    N/A      $ 443,155       $    394,513
     Non-Federal Receivables (From the Public):                $ 1,290,055          $ -272,145       $ 1,017,910     $    561,769
     Total Accounts Receivable:                                $ 1,733,210          $ -272,145       $ 1,461,065     $    956,282

     Allowance Method
     The total allowance is determined at the Air Force departmental level. These department level amounts are derived as
     follows: For closed years receivables, an arbitrary allowance rate of 50 percent results in an estimated allowance of
     $260.8 million. Interest allowance of $3.3 million is calculated using an average percent of write-offs to outstanding
     public accounts receivable over a five-year period. Closed year receivables and interest are payable to the Treasury
     when collected. For For Air Force entity receivables, the allowance is computed each year based on the average per-
     cent of write-offs to outstanding public accounts receivable for the last last five years and results in an estimated
     allowance of $8.0 million.

     Other Information
     Relevant Information for Comprehension
     As presented on the Consolidated Balance Sheet, accounts receivable include reimbursements receivable and refunds
     receivable such as out-of-service debts (amounts owed by former service members), contractor debt, and unused travel
     tickets. It also includes net interest receivable per DoD FMR Vol. 6B guidance. Canceled accounts receivable are
     reported as nonentity receivables because these amounts are deposited into a Treasury miscellaneous receipt account
     when collected. A reconciliation between Report on Receivables Due from the Public and the Balance Sheet was
     accomplished. The differences between the Balance Sheet and Report on Receivables Due From the Public (line 7) are
     $3.5 million and $.9 million for entity and nonentity receivables, respectively. These differences relate to undistributed
     collections that are prorated between public and intragovernmental receivables on the balance sheet at fiscal year-end.
     Gross interest receivables, nonentity, public was $274.9 million with an allowance for estimated uncollectibles of $3.3
     million, resulting in a net reported receivable of $271.6 million.
     Intra-governmental Account Receivable Adjustments
     Increases in nonentity and entity public receivables for FY 2002 are due to Defense Debt Management System –
     Columbus (DDMS/COL) contractor debts. In addition, other debts reported for the first time are the Air Force portion of
     the General Electric debt in litigation of $316 million and the Defense Civilian Pay System (DCPS) reported debts of
     $5.3 million. The reporting of these debts resulted from an OSD initiative to ensure accountability of all debt on all
     Services’ financial statements.

     The increase in intragovernmental accounts receivable relates to an increase in reimbursable budget activity of $2.4
     billion.




62      Notes to Principal Statements < General Funds
                                                                                 2002 Annual Financial Statements




Intra-governmental Receivables Over 180 Days
The amount of public receivables over 180 days is $989.8 million of which $841.8 million represent principal and
interest in a formal appeals process (in litigation). The aging of intragovernmental receivables over 180 days was
reported as $17.3 million. Public refunds receivable represent 78 percent or $793 million of the total net amount of
$1.017 billion.
Elimination Adjustments
Accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading part-
ner aggregations. Therefore, the Air Force was unable to reconcile intragovernmental accounts receivable balances
with its trading partners. The DoD intends to develop long-term systems improvements that will include sufficient con-
trols to eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large
that after-the-fact reconciliation cannot be accomplished with the existing or foreseeable resources.
Note Reference
See Note Disclosure 1.K, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Accounts Receivable.


Note 6. Other Assets

 As of September 30,                                   2002          2001
(Amounts in thousands)
Intra-governmental Other Assets:
    Advances and Prepayments                       $       4,989 $     351,706
   Total Intra-governmental Other Assets           $       4,989 $     351,706


Non-Federal Other Assets:
  Outstanding Contract Financing Payments          $   7,275,852 $   5,358,278
  Other Assets (With the Public)                        260,062        151,326
  Total Non-Federal Other Assets                   $   7,535,914 $   5,509,604


Total Other Assets:                                $   7,540,903 $   5,861,310



Other Information Related to Other Assets
Fluctuations
Other Assets decreased dramatically in FY 02. Advanced billing of $348 million from Depot Maintenance Activity
Group were included and reported in FY 01. No advanced billings were required for FY 02.

Outstanding Contract Financing Payments for FY 2002 shows an increase of about 37% from $5.3 to $7.2 billion. The
increase is predominantly attributed to the start-up cost for the C-17 and F-22 airplanes.

The amount of $260.1 million in other assets (with the public) is composed of $124.7 million in advances to contrac-
tors and suppliers, $100 million in travel advances, and $35.4 million in other non-federal advances. Other assets will
fluctuate from year to year depending on the timing and/or quantity of advances and recoveries of advances.




                                                                                 General Funds > Notes to Principal Statements
                                                                                                                                 63
     United States Air Force




     Relevant Information for Comprehension
     ◗   Other Assets. Advances to contractors as reported on the SF 1219, Statement of Accountability are being reported
         for payments as part of an advance-payment pool agreement made with the Massachusetts Institute of Technology
         and other non-profit institutions. Advance-payment pool agreements are used for the financing of cost-type con-
         tracts with non-profit educational or research institutions for experimental, or research and development work,
         when several contracts or a series of contracts require financing by advance payments.

     ◗   Outstanding Contract Financing Payments. The Air Force has reported outstanding financing payments for fixed
         price contracts as an advance and prepayment because under the terms of the fixed price contracts, the Air Force
         becomes liable only after the contractor delivers the goods in conformance with the contract terms. If the contractor
         does not deliver a satisfactory product, the Air Force is not obligated to reimburse the contractor for it’s cost and
         the contractor is liable to repay the Air Force for the full amount of the outstanding contract finance payments. The
         DoD has completed its review of all applicable federal accounting standards; applicable public laws on contract
         financing; Federal Acquisition Regulation Parts 32, 48, and 52; and the OMB guidance in 5 CFR Part 1315,
         “Prompt Payment.” The DoD has concluded that the SFFAS No. 1, Accounting for Selected Assets and Liabilities
         does not fully or adequately addresses the subject of progress payment accounting and is considering what further
         action is appropriate.
     Note Reference
     See Note Disclosure 1.R, Significant Accounting Policies, for additional discussion on financial reporting requirements
     and DoD policies governing Other Assets.


     Note 7. Cash and Other Monetary Assets

     As of September 30,                                                2002        2001
     (Amounts in thousands)
     Cash                                                           $   116,261 $    463,648
     Foreign Currency (non-purchased)                                    24,384       22,577
     Total Cash, Foreign Currency, and Other Monetary Assets        $   140,645 $    486,225




     Other Information Pertaining to Entity Cash & Other Monetary Assets:
     Definitions
     ◗   Cash—The total of cash resources under the control of the Air Force, which includes coin, paper currency, nego-
         tiable instruments, and amounts on deposit in banks and other financial institutions.

     ◗   Foreign Currency—consists of the total U.S. dollar equivalent of foreign currencies.
     Other Information Related to Cash and Other Monetary Assets
     Relevant Information for Comprehension. Cash and foreign currency reported primarily of cash held by Disbursing
     Officers to carry out their paying, collecting and foreign currency accommodation exchange mission. The primary




64       Notes to Principal Statements < General Funds
                                                                                 2002 Annual Financial Statements




source of the amounts reported is the Standard Form 1219, Statements of Accountability reported by DoD Disbursing
Officers.

In DoD foreign currency is translated to U.S. Dollars utilizing the Department of Treasury Prevailing Rate of Exchange.
This rate is the most favorable rate that would legally be available to the U.S. Government’s acquisition of foreign cur-
rency for its official disbursements and accommodation of exchange transactions.

The nonentity cash of $116.3 million represents Disbursing Officers’ cash of $116.2 million and undeposited collec-
tions of $.05 million.

The $463.7 million reported as cash for FY 2001 has been restated to $85.0 million to correct an error in reporting.
The total correction removes cash of $378.7 million, consisting of $182.6 million of Foreign Military Sales deposits
and $196.1 million of Foreign Military Sales undeposited collections. The restated FY 2001 amount of $85.0 million
consists of $84.3 million of Disbursing Officers’ cash and $.6 million of undeposited collections.

The change in the cash balances shown above from the unrestated FY 2001 balance of $463.6 to the FY 2002 bal-
ance of $116.3 million is due primarily to no Foreign Military Sales amounts being reported in for FY 2002.

The change between fiscal years after the restatement of FY 2001 is an increase in cash of $31.3 million. The increase
consists of an increase of $31.9 million in Disbursing Officers’ cash and a decrease of $.6 million in undeposited col-
lections.
Note Reference
See Note Disclosure 1.J, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Foreign Currency.


Note 8. Direct Loan and/or Loan Guarantee Programs
Direct Loan and/or Loan Guarantee Programs
The entity operates the following direct loan and/or Loan guarantee program(s):

◗   Military Housing Privatization Initiative

◗   Direct Loan Or Loan Guarantee Program Title

Other Information
Not applicable.




                                                                                 General Funds > Notes to Principal Statements
                                                                                                                                 65
     United States Air Force




     Note 9. Inventory and Related Property Operating Materials and Supplies, Net

     As of September 30,                                                     2002                          2001
                                                            OM&S         Revaluation                                     Valuation
                                                        Gross Value       Allowance     OM&S, Net       OM&S, Net         Method
     (Amounts in thousands)
     OM&S Categories:
       Held for Use                                     $   23,779,741   $          0   $ 23,779,741   $ 47,343,430          SP
       Held for Repair                                       5,037,823              0      5,037,823      10,223,991         SP
       Excess, Obsolete, and Unserviceable                     272,694       -272,694             0           42,934        NRV
       Total                                            $   29,090,258   $   -272,694   $ 28,817,564   $ 57,610,355

     Legend for Valuation Methods:
     Adjusted LAC = Latest Acquisition Cost adjusted for holding gains and losses                      NRV = Net Realizable Value
     SP = Standard Price                                                                               O = Other
     AC = Actual Cost



     Restrictions on OM&S
     Not applicable.

     Other Information
     General Composition of Operating Materials and Supplies
     The Air Force’s OM&S includes munitions (bombs, conventional ammunitions) and spare and replacement parts for air-
     craft, missiles and related assets.
     Balances
     The Federal Accounting Standards require disclosure of the amount of OM&S held for future use. Except for an imma-
     terial amount of munitions, the Air Force does not have any items considered held for future use.
     Decision Criteria for Identifying the Category to Which Operating Materials and Supplies Are Assigned
     Managers determine which items are more costly to repair than to replace. Items retained for management purposes
     are coded “condemned.” The net value of these items is zero, and is shown as “Excess, Obsolete, and Unserviceable.”
     Changes in the Criteria for Identifying the Category to Which Operating Materials and Supplies Are Assigned
     The category “Held for Use” includes all issuable material. The Category “Held for Repair” includes all economically
     reparable material. Before FY 2002, the Department showed “Potentially redistributable” material, regardless of condi-
     tion, as Excess, Obsolete, and Unserviceable.
     Relevant Information for Comprehension
     Government Furnished Material (GFM) and Contractor Acquired Material (CAM). Generally, the value of the Air
     Force’s GFM and CAM in the hands of contractors is not included in the OM&S values reported above. The DoD is
     presently reviewing its process for reporting these amounts in an effort to determine the appropriate accounting treat-
     ment and the best method to annually collect and report required information without duplicating information already
     in other existing logistics systems.




66      Notes to Principal Statements < General Funds
                                                                                 2002 Annual Financial Statements




Other Air Force Disclosures. In FY 2002, the Air Force did not receive OM&S financial data from several manually
maintained accounts that reported balances in prior years. Some of these accounts had recently been automated and
the retail OM&S inventories were included in the Standard Base Supply System, but the wholesale inventories were not
included. The account managers thinking that all OM&S for their respective program had been included did not report
the wholesale inventories. To correct this reporting problem, a meeting was held with the Air Force Audit Agency (AFAA)
in November, and a follow-on meeting is scheduled for early December to ensure all accounts properly report all
OM&S inventories for the financial statements first quarter FY 2003. To provide a more realistic picture of ending bal-
ances for OM&S, the Air Force instructed DFAS to use the prior year wholesale account balances for the FY 2002
financial statements.

The Air Force provided only minimal accounting data that could be used to prepare the financial statement at year-end
for OM&S. The data provided consisted of only serviceable and unserviceable ending balances. Without the required
additional data (beginning balances, acquisitions, transfers in, amount used, transfers out and etc.) DFAS could only
report the “net change” between prior years ending balance and the values reported as current year ending balances.
Although, the required additional data is available in some Air Force systems, no electronic interface currently exists
between the Air Force supply systems and DFAS accounting systems to translate and update the general ledger
accounts. To correct this problem, the Air Force and DFAS are working on a hard copy report to provide the additional
data until the electronic interfaces can be developed.

Although, the Air Force OM&S systems, in most cases, capture trading partner data at the transaction level, there are
no electronic interfaces between the Air Force supply systems and DFAS accounting systems that can capture and report
this data for all items transferred in and out. Consequently, intra-governmental transactions (trading partner data) could
not be reconciled. The Air Force is in the process of developing a standard electronic interface that will capture and
report the required data to the General Accounting and Finance System – Rehost, a DFAS system scheduled to be avail-
able in April 2003.

Reversal of FY 2001 Early OM&S Implementation. In accordance with a Department of Defense Inspector General
(DoDIG) directive, FY 2002 and FY 2001 OM&S balances on the Balance Sheet for retail and wholesale guided and
tactical missiles, missile motors, aircraft engines and electronic pods were removed from the Balance Sheet. A Prior
Period Adjustment was prepared in FY 2002 to remove the $31,869.7 million value balance of these items as of
September 30, 2001. The net $2,499.5 million net increase of current year changes for these items, previously record-
ed in FY 2002, has been removed from the Balance Sheet and reclassified as expense. The DoDIG’s opinion is that
these items should not have been reclassified as OM&S from National Defense Property, Plant and Equipment on the
FY 2001 financial statements, but should to be considered Non-reportable National Defense Property, Plant, and
Equipment.

The restatement of FY 2001 numbers brings the Air Force’s report in line with the FY 2001 Government wide financial
statements which did not include amounts for these types of items.
Note Reference
See Note Disclosure 1.M, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Inventory and Related Property.




                                                                                 General Funds > Notes to Principal Statements
                                                                                                                                 67
     United States Air Force




     Note 10. General PP&E, Net
     As of September 30,                                                          2002                                                    2001
                                               Depreciation/                                       (Accumulated
                                               Amortization     Service         Acquisition        Depreciation/       Net Book     Prior FY Net
                                                 Method          Life             Value            Amortization)        Value       Book Value
     (Amounts in thousands)
     Major Asset Classes:
       Land                                        N/A           N/A        $       364,091                 N/A $        364,091    $        346,220
           Buildings, Structures, Facilities        S/L        20 Or 40          38,697,669 $        -22,423,315       16,274,354         15,577,312
           Software                                 S/L        2-5 Or 10             23,806                  -92          23,714              28,521
           Equipment                                S/L         5 Or 10          14,801,533          -10,100,423        4,701,110          1,658,080
                                         [1]
           Assets Under Capital Lease               S/L        lease term           409,498             -206,493         203,005             233,394
           Construction-in-Progress                N/A           N/A              2,679,946                 N/A         2,679,946          2,597,485
           Other                                                                         932                   0             932               3,136
           Total General PP&E                                               $    56,977,475    $     -32,730,323   $   24,247,152       $ 20,444,148

     [1]
       Note 15.B for additional information on Capital Leases
     Legend for Valuation Methods:
     S/L = Straight Line     N/A = Not Applicable


     Other Information
     Fluctuations
     As of September 30, 2002, approximately $1.2 billion of assets (Class E Equipment) had not passed the required edit
     check (missing historical cost, acquisition dates) and therefore had not been included in the values reported by the Air
     Force Equipment Management System (AFEMS). To assure that these “in suspense” assets were included in the financial
     statements, the Air Force used the standard price, where the cost data was missing, and used a historical process to
     arrive at acquisition dates. These equipment assets were then depreciated and reported using a manual process. This
     process may or may not provide a true picture of the class E equipment owned by the Air Force. This “in Suspense”
     data problems is currently being worked by the Air Force to ensure that all assets are properly recorded and reported
     by AFEMS.

     The change in the other line item represents the timing in timber harvesting, and complete data is not always available.

     AFEMS also contributed to the overall increase of about 19%, or $3.8 billion, in the total amount for general PP&E.
     The increase was mainly attributed to increased emphasis being placed on cleaning up old “in suspense” assets, identi-
     fying actual cost rather than using standard price, improved accountability and increased acquisitions of class E equip-
     ment.

     The real property system, Automated Civil Engineering System, which reports construction-in-progress, building and
     structures, also reported an increase by about $1.1 billion. This increase was attributed to current year acquisitions,
     plus several bases cleaning up prior period work order backlogs as identified by the Air Force Audit Agency.
     Relevant Information for Comprehension
     Personal property in the Air Force consists of general equipment, Automated Data Processing (ADP) hardware, medical
     equipment, Special Tools and Special Test Equipment (ST/STE).




68           Notes to Principal Statements < General Funds
                                                                                   2002 Annual Financial Statements




Other Air Force Disclosures
The Air Force reported $162 million in ST/STE, from two systems, on the financial statements. Since neither of the two
systems had actual dates for items placed in service, the Air Force used the “date the first aircraft was delivered” as the
depreciation start date. Using this methodology, most of the ST/STE appeared to be completely depreciated. In addi-
tion, in one of the two systems, the cost data could not be validated. It appeared that many items may have been esti-
mated or that the system could not report items that exceeded $9.9 million. These items, in most cases, were also iden-
tified as being fully depreciated.

The Air Force, in FY 2001, started reporting values for internal used software as required by SFFAS No. 10. Included,
as software assets, are systems where software development budgets exceeded $2 million. In FY 2001 and 2002, the
data for this line item was maintained manually. In FY 2002, the values reported for the account, “Internal-Use soft-
ware in Development,” for five of the 16 systems did not change, although these systems were still under development.
Several Air Force personnel stated that efforts to update these development figures was a constant problem, since no
workable system existed for direct cost updates. Consequently, the financial statements may be understated. The Air
Force recognized the manual process as short-term fix, and is exploring the feasibility of using AFEMS as the system to
track future costs for internal use software. Assuming the availability of funds, the Air Force plans to start capturing and
reporting these assets in AFEMS no later than FY 2004.
Military Equipment (Unaudited Supplementary Information)
In June 2002 the Federal Accounting Standards Advisory Board issued a standard entitled Eliminating the Category
National Defense Property, Plant, and Equipment (ND PP&E). In addition to eliminating the category ND PP&E, this
standard rescinds Statement of Federal Financial Accounting Standards (SFFAS) No. 11, Amendment to Property, Plant,
and Equipment – Definitional Changes; amends SFFAS No. 8, Supplementary Stewardship Reporting; and amends
SFAS No. 6, Accounting for Property, Plant, and Equipment. This standard is effective for years ending after September
30, 2002. The standard is currently sitting before Congress for a 45-day period in accordance with provisions of the
Chief Financial Officers Act of 1990.

Prior standards provide for the expensing of ND PP&E when costs are incurred and the reporting of such costs as sup-
plementary stewardship information. The Department of Defense has not reported the cost of ND PP&E in accordance
with existing standards due to an absence of detailed cost information for property acquired over many decades.

The Standard on eliminating the category of ND PP&E provides for the capitalization of property previously defined as
ND PP&E and the reporting of such property as General Property, Plant, and Equipment. In recognition of the absence
of detailed historical cost information, this standard provides that, “If obtaining initial historical cost is not practical,
estimated historical cost may be used. Other information such as but not limited to budget, appropriation, or engineer-
ing documents and other reports reflecting amounts expended may be used as the basis for estimating historical cost.”
The standard acknowledges that imprecision may result from the use of estimates or other information.

Capitalization of property previously defined as ND PP&E will require extensive research to develop cost estimates for
the property inventory. The DoD initiated the valuation process this fiscal year by conducting detailed reviews of three
selected “pilot” programs including the F-15 Tactical Fighter. The objective of this effort was the development of a valu-
ation methodology and associated business rules, which the Air Force could use to value the balance of its military
equipment. The accompanying information summarizes the results of the review of the F-15 program.




                                                                                   General Funds > Notes to Principal Statements
                                                                                                                                   69
     United States Air Force




     Valuation Basis
     The valuation is based on information derived from reports reflecting amounts expended on this program.

     Included costs—The estimated total program costs include funds expended for procurement, research, development,
     test and evaluation, trainers and simulators, government furnished equipment, and other items included in the cost of
     the acquisition programs. The estimated portion of total program cost attributable to equipment under construction is
     reported as “work-in-process.”

     Useful life and depreciation—The estimated useful life used for the F-15 Tactical Fighter is 20 years. Depreciation is
     calculated on a group basis whereby the depreciation rate is applied to the estimated cumulative cost of the equipment
     “placed in service.”

     Excluded costs—The cost of military construction (MILCON) has been excluded and will be reported as real property.
     The cost of initial spares has also been excluded form the program values.

     Estimated program cost, accumulated depreciation, and net book value for the F-15 Tactical Fighter program are pre-
     sented in the following table.
                                                         Accumulated      Net Book
     (Dollars in Thousands)        Program Cost
                                                         Depreciation      Value
     F-15 Tactical Fighter
     Placed in service               $23,077,316          $19,085,384     $3,991,932
     Work in process                      69,552                    -         69,552


     Note Reference
     See Note Disclosure 1.O, Significant Accounting Policies, for additional discussion on financial reporting requirements
     and DoD policies governing General Property, Plant and Equipment (PP&E).


     Note 10.A. Assets Under Capital Lease
     As of September 30,                                                2002           2001
     (Amounts in thousands)
     Entity as Lessee, Assets Under Capital Lease:
        Land and Buildings                                        $     408,540    $    387,860
        Equipment                                                           958               0
        Accumulated Amortization                                        -206,493       -154,466
        Total Capital Leases                                      $     203,005    $    233,394


     Description of Lease Arrangements
     The Air Force is the leasee in twelve capital leases. Eleven are for Military Family Housing acquired through Section
     801 Family Housing Program, and one is for a piece of medical equipment. The leased items are capitalized and
     reported as an asset when the costs of the items exceed the capitalization threshold. Leased items not meeting the capi-
     talization threshold are expensed. All leases prior to FY 1992 are funded on a fiscal year basis. This correlates to six of
     the Military Family Housing Leases.




70       Notes to Principal Statements < General Funds
                                                                                       2002 Annual Financial Statements




Other Information
Note Reference
See Note Disclosure 1.Q, Significant Accounting Policies, for additional discussion of financial reporting requirements
and DoD policies governing Leases.

The fluctuation in Assets under Capital Leases is due to improved gathering and reporting of information.


Note 11. Liabilities Not Covered and Covered by Budgetary Resources
As of September 30,                                                   2002                                   2001
                                                 Covered by       Not Covered by
(Amounts in thousands)                           Budgetary          Budgetary            Total
                                                 Resources          Resources

Intra-governmental Liabilities:
  Accounts Payable                           $     1,120,777      $          3,956 $     1,124,733     $        740,585
  Debt                                                        0               134                134                 108
  Other                                            1,569,812             609,275         2,179,087            2,257,168
  Total Intra-governmental Liabilities       $     2,690,589      $      613,365 $       3,303,954     $      2,997,861


Non-Federal Liabilities:
 Accounts Payable                            $     6,206,967      $             0 $      6,206,967     $      4,180,417
  Military Retirement Benefits and Other
                                                              0         1,211,045        1,211,045            1,269,811
  Employment-Related Actuarial Liabilities
  Environmental Liabilities                                   0         8,454,564        8,454,564            7,312,942
  Other Liabilities                                1,532,626            2,454,562        3,987,188            4,118,979
  Total Non-Federal Liabilities              $     7,739,593      $    12,120,171 $     19,859,764     $    16,882,149

Total Liabilities:                           $    10,430,182      $    12,733,536 $     23,163,718     $    19,880,010



Other Information
Liabilities Not Covered and Covered by Budgetary Resources
Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by realized budg-
etary resources as of the balance sheet date.

Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity which are covered by real-
ized budget resources as of the balance sheet date. Budgetary resources encompass not only new budget authority, but
also other resources available to cover liabilities for specified purposes in a given year. Available budgetary resources
include: (1) new budget authority, (2) spending authority from offsetting collections (credited to an appropriation or
fund account), (3) recoveries of unexpired budget authority through downward adjustments to prior year obligations,
(4) unobligated balances of budgetary resources at the beginning of the year or net transfers of prior year balances
during the year, and (5) permanent indefinite appropriations or borrowing authority, which have been enacted and
signed into law as of the balance sheet date, provided that the resources may be apportioned by the OMB without fur-
ther action by the Congress or without a contingency first having been met.




                                                                                       General Funds > Notes to Principal Statements
                                                                                                                                       71
     United States Air Force




     Other Information Related to Liabilities Covered by Budgetary Resources
     Other Intra-governmental Liabilities Covered by Budgetary Resources consists of $213.8 million in advances from oth-
     ers, $15.6 million in deposit fund liabilities, $1,007.0 million in resources payable to treasury, $265.3 million in
     Disbursing Officer’s cash liability, $22.1 million in unemployment compensation liabilities, and $46.0 million in civilian
     benefits liability-government portion. The increase over FY 2001 is primarily due to resources payable to treasury.

     Other Non-federal Liabilities Covered by Budgetary Resources consists of $1,166.9 million in accrued payroll and ben-
     efits liabilities for military and civilians, $16.9 million in Temporary Early Retirement Authority liabilities, $216.5 million
     in capital lease liabilities, $93.2 million in advances from others, and $39.1 million in deposit fund liabilities. The
     increase over FY 2001 is primarily due to accrued payroll and benefits liabilities.
     Other Information Related to Liabilities Not Covered by Budgetary Resources
     Other Intra-governmental Liabilities Not Covered by Budgetary Resources consists of $303.6 million in judgement fund
     liabilities, $305.7 million in Federal Employees Compensation Act – Workman’s Compensation (FECA) reimbursement
     to Department of Labor (DoL). The decrease over FY 2001 is primarily due to judgement fund liabilities.

     Other Non-federal Liabilities Not Covered by Budgetary Resources consists of $452.9 million in accounts payable can-
     celed appropriations, $62.6 million in environmental liabilities, $62.9 million in capital lease liabilities, $201.3 million
     in contingent liabilities, $1,674.3 million in accrued annual leave liabilities for military and civilians, and $.5 million in
     accrued interest liability. The decrease over FY 2001 is due to contingent liabilities, capital lease liabilities, accrued
     annual leave liabilities, and nonenvironmental disposal liabilities.
     Note Reference
     For Additional Line Item discussion, see:

     ◗   Note 12, Accounts Payable

     ◗   Note 13, Liabilities Not Covered and Covered by Budgetary Resources

     ◗   Note 14, Environmental Restoration Liabilities, and Environmental Disposal Liabilities

     ◗   Note 15, Other Liabilities

     ◗   Note 16, Commitments and Contingencies

     ◗   Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities




72       Notes to Principal Statements < General Funds
                                                                                   2002 Annual Financial Statements




Note 12. Accounts Payable
As of September 30,                                                    2002                                   2001
                                                                     Interest,
                                                     Accounts     Penalties, and
                                                                                          Total               Total
                                                     Payable      Administrative
(Amounts in thousands)                                                 Fees
Intra-governmental Payables:                     $    1,124,733            N/A      $    1,124,733          $ 740,585
Non-Federal Payables (to the Public):            $    6,206,967   $           0     $    6,206,967          $ 4,180,417
Total                                            $    7,331,700   $           0     $    7,331,700          $ 4,921,002


Other Information
Intra-governmental Accounts Payable consists of amounts owed to other federal agencies for goods or services ordered
and received but not yet paid. Interest, penalties, and administrative fees are not applicable to intra-governmental
payables. Non-Federal Payables (to the Public) are payments to nonfederal governmental entities.
Other Information Related to Accounts Payable
Fluctuations. The increase of $384.1 million in intra-governmental payables is due to the accrual of more payables in
FY 02 than FY 01 to agree with seller data based on elimination entries.

The public accounts payable increase is the result of obligation increases of $11.8 billion in direct and $2.5 billion in
reimbursable obligations incurred.
Relevant Information for Comprehension
Intra-governmental Eliminations. For the majority of buyer-side transactions, the Air Force feeder and DFAS accounting
systems do not capture trading partner data at the transaction level in a manner that facilitates trading partner aggre-
gations. Therefore, the Air Force was unable to reconcile intragovernmental accounts payable balances with its trading
partners. The DoD and Air Force intends to develop long-term systems improvements that will include sufficient up-front
edits and controls to eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions
is so large that after-the-fact reconciliation cannot be accomplished with the existing or foreseeable resources.

The DoD summary level seller accounts receivables were compared to the Air Force accounts payable. An adjustment
was posted to the Air Force accounts payable based on the comparison with the accounts receivable of the DoD com-
ponents providing goods or services to the Air Force. Positive differences were treated as unrecognized accounts
payable and in the case of the Air Force, accounts payable were adjusted upwards in the amount of $1.6 billion.

The DoD and Air Force intends to develop long-term systems improvements that will include sufficient up-front edits and
controls to eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large
that after-the-fact reconciliation cannot be accomplished with the existing or foreseeable resources.
Note Reference
See Note Disclosure 1.G, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing accounting for Intragovernmental Activities.




                                                                                   General Funds > Notes to Principal Statements
                                                                                                                                   73
     United States Air Force




     Note 13. Debt
     As of September 30,                                                  2002                2001
     (Amounts in thousands)                             Beginning       Net      Ending      Ending
                                                         Balance    Borrowings   Balance     Balance
     Agency Debt:
       Debt to Other Federal Agencies                        108            26         134         108
     Total Debt:                                         $   108      $     26   $     134   $     108

     Classification of Debt:
       Intragovernmental Total Debt                                              $     134   $     108


     Other Information
     Other Information Related to Debt
     Relevant Information for Comprehension. Debt—The Intra-governmental debt consists of interest, penalties, and admin-
     istrative fees and results from payments made out of the DoD Education Benefits Fund. Payments to Post-Vietnam Era
     Voluntary and Involuntary Separatees are made in advance of contributions from the services. The DoD Board of
     Actuaries has determined that the services must pay the accumulated interest on this unfunded liability. The increase is
     due to the correction of actuarial estimate for the FY 2001 amount supplied to Air Force.
     Note Reference
     See Note Disclosure 1.G, Significant Accounting Policies, for additional discussion on financial reporting requirements
     and DoD policies governing accounting for Intragovernmental Activities, Public Debt.




74      Notes to Principal Statements < General Funds
                                                                                          2002 Annual Financial Statements




Note 14. Environmental Liabilities and Disposal Liabilities
As of September 30,                                                                        2002                             2001
(Amounts in thousands)                                               Current             Noncurrent
                                                                                                            Total            Total
                                                                     Liability            Liability
Environmental Liabilities:
 Non-Federal:
   Accrued Environmental Restoration (DERP funded) Costs:
     Active Installations—Environmental Restoration (ER)         $    389,773        $    4,847,656    $ 5,237,429      $ 5,038,754
     Active Installations—ER for Closed Ranges                                   0          705,700         705,700                  0


   Other Accrued Environmental Costs (Non-DERP funds)
    Active Installations—Environmental Corrective Action                         0          175,043         175,043          246,189
    Active Installations—Environmental Closure Requirements                      0           65,182          65,182            61,506


   Base Realignment and Closure (BRAC)
    BRAC Installations—Environmental Restoration (ER)                 122,009             1,961,715       2,083,724        1,587,506
    BRAC Installations—Environmental Corrective Action                   2,851              133,347         136,198                  0
    Other                                                                        0                 0                0        329,627


   Environmental Disposal for Weapons Systems Programs
     Other National Defense Weapons Systems                                      0           51,288          51,288            49,360


Total Non-Federal Environmental Liabilities:                     $    514,633        $    7,939,931    $ 8,454,564      $ 7,312,942



Other Information Related to Environmental Liabilities
Relevant Information for Comprehension
Accrued Environmental Restoration (DERP) Active Installations—Environmental Restoration (ER). The total liability of
$5.2 billion for environmental restoration on active installations increased $198.7 million during FY 2002, or 3.94%.
This change basically reflects an inflationary increase. The liability increase from new sites and areas of concern added
during the fiscal year totaled $56.4 million, or 28.4% of the increase in total liabilities. The amount expensed during
FY 2002 amounted to $386.4 million, within 1% of the current liability estimate for the year. Finally, the change in lia-
bility estimates during FY 2002 for sites reported at the end of FY 2001 totaled $528.6 million or approximately 10%
for those sites. The increase in estimated liability in part represents inflation, however, the bulk of the changes repre-
sents better information concerning the site conditions and restoration requirements.

In both cases the changes are due to the addition of new sites discovered during the fiscal year, inflationary expecta-
tions contained in estimates and changes in plans due to better information gained in the process of cleaning up exist-
ing sites. There are no changes due to adjustments for prior periods.

During FY 2002, the Air Force achieved only slightly over half of its projected site investigations primarily due to regula-
tory delays. Because of these delays, the increase in the estimated liability for environmental restoration is smaller than
expected.

Total costs for environmental restoration and non-operational ranges are included in the estimates. Both direct and
indirect costs are captured because the programs are accounted for separately.




                                                                                          General Funds > Notes to Principal Statements
                                                                                                                                          75
     United States Air Force




     Accrued Environmental Restoration (DERP) Active Installations—Environmental Restoration (ER) for Closed Ranges. The
     Air Force conducted an inventory of ranges for the Defense Environmental Restoration Program (DERP). Based on that
     inventory the Air Force identified 241 sites with an established liability of $705.7 million. Currently no appropriation
     exists for these cleanup actions. There is no expectation expenditures will be incurred before FY 2004 at the earliest. Is
     expected this liability will increase as the Air Force continues to refine the inventory and expand investigation of poten-
     tial sites.

     Other Accrued Environmental Costs (Non-DERP) Active Installations—Environmental Corrective Action. The total Non-
     DERP Corrective Actions liability amount of $175.0 million decreased about $71.1 million (13%), during the fiscal year.
     This net change resulted from an increase of almost $12 million in the estimated cost of sites identified during fiscal
     year 2002, a decrease of about $687 thousand that was expensed during the year, and a decline of $82.4 million in
     the cost estimate for sites that were identified at September 30, 2001. The reduction almost totally is due to revalua-
     tions for solid waste management units at one installation. A single reduction of about 70 million in estimated liability
     resulted from discovery that initially suspected contamination was substantially less than indicated through preliminary
     examination of the sites.

     The estimates of Non-DERP Correct Actions liabilities were established in a manner consistent with the prior year.

     Other Accrued Environmental Costs (Non-DERP) Active Installations—Environmental Closure Requirements. The total
     liability of $65.2 million reflects the second year the Air Force has reported environmental disposal liabilities for
     Resource Conservation and Recovery Act (RCRA) regulated facilities. Facilities reported include landfills; treatment, stor-
     age and disposal facilities (TSDFs) for hazardous waste; and underground storage tanks (USTs). The total disposal lia-
     bility increased $3.6 million, almost 6% from September 30, 2001 to September 30, 2002. The change is significantly
     lower than was expected; however, the individual areas showed greater percentage changes. Landfill liabilities
     increased about $4.5 million (37%) and USTs increased $1.3 million (17%), while the TSDF liability declined $2.1 mil-
     lion (5%). The change in landfill liability reflects a greater number of landfills reported as of September 30, 2002 than
     as of September 30, 2001. Changes in TSDFs and USTs reflect changes in cost estimates, largely due to the increased
     use of the Remedial Action Cost Engineering Requirements (RACER) system, which is validated for Air Force estimates
     and now used in all cost estimates where there is not an actual bid and/or contract.

     Landfill liabilities are based on the proportion of the landfill used as of September 30, 2002 and include the cost of
     capping the fill, as well as 30 years of monitoring as required by Federal regulations. The total liability for closing land-
     fills, without disclosure based on use, would be $80 million as of September 30, 2002.

     TSDF closure liabilities are based on an assumed useful life of 30 years and two years of monitoring with closure costs
     estimated for a “clean close”. “Clean close” is defined in the Federal regulations. The total closure liability for TSDF’s
     would be $226.1 million if not disclosed on an annual basis.

     UST closure liabilities are based on an assumed life of 20 years and two years of monitoring with closure costs estimat-
     ed for a “clean close”. The total closure liability for UST’s would be $75.3 million if not recognized on an annual basis.

     Therefore, total closure liabilities on a current basis, without disclosure over time, would amount to $381.4 million as
     of September 30, 2002.




76       Notes to Principal Statements < General Funds
                                                                                    2002 Annual Financial Statements




The Air Force’s reporting of landfill closure liability is not in conformance with the accounting standard. The standard
would recognize all future costs regardless of timing. The Air Force recognizes only the initial closure. A landfill cap typ-
ically requires replacement every 20 to 40 years. An estimation of current costs based on all future costs, regardless of
timing, would result in an infinite liability. This appears meaningless and not the intent of the standard. Therefore, the
Air Force reports only the cost of the initial cap required to close a landfill. The Air Force believes this reporting is more
meaningful. The present value of the future caps, those after the initial cap, would be negligible.

The accounting standard requires full cost be recognized for closure liability. Closure liabilities recognized by the Air
Force cover only direct costs. There is no reliable cost accounting system to determine indirect closure costs. This is not
considered material in the cost estimates because indirect costs incurred would not happen for at least 20 years and in
many cases far beyond 20 years. The present value of such costs would be negligible in recognition of the closure lia-
bilities.

Base Realignment and Closure (BRAC) Installations—Environmental Restoration (ER)/Environmental Corrective Action.
For FY 2002, the Air Force has estimated and reported its BRAC environmental future liabilities. The Air Force Base
Conversion Agency (AFBCA) estimates a $2.1 billion total environmental liability as of September 30, 2002. This
amount includes all cleanup requirements to meet regulatory requirements and to transfer property (including the new
radiological issues at McClellan and program increases at Chanute). However, this amount does not include potential
future cost associated with long-term landfill management for which the Air Force may never be absolved of responsi-
bility due to State laws.

The total BRAC environmental restoration of $2.1 billion increased by $496.2 million. This relates to $259.1 million
from obligations not previously reported and $237.1 million from a change in the method of calculating in the
Remedial Action Cost Engineering and Requirements System (RACER). The amounts reported on line 1.B.3.d., Other, in
FY 01 was reported on the detailed line 1.B.3.c., BRAC Installations Environmental Corrective Action for FY 02. The
FY 02 display is the proper disclosure per Air Force.

The total BRAC environmental corrective action amount of $77.6 million reflects a decrease of $193.4 million due to
revaluations relative to policy changes.

The Air Force Base Conversion Agency (AFBCA) is currently working to identify Military Munitions Response Program
(MMRP) costs. AFBCA is in the process of identifying MMRP sites based on DERP guidance, but have not yet been able
to separate costs. Therefore, as of September 30, 2002 we are unable to reasonably estimate MMRP costs separate
from our ER and Closure costs.

Environmental Disposal for Weapons Systems Programs—Other National Defense Weapons Systems. The September
30, 2002 environmental disposal liability of $51.3 million in Other National Defense Weapon Systems includes strate-
gic, tactical, active, inactive missiles and missile motors. The Air Force identified $48.6 million in environmental liability
for the disposal of Minuteman III and Peacekeeper strategic, inactive missile motors. The estimated environmental dis-
posal liability for tactical, active, inactive missiles and missile motors is $2.7 million.
Note Reference
See Note Disclosure 1.S, Significant Accounting Policies, for additional discussion on financial reporting requirements
and the DoD policies governing accounting for Contingencies and Other Liabilities.




                                                                                    General Funds > Notes to Principal Statements
                                                                                                                                    77
     United States Air Force




     Note 15.A. Other Liabilities
     As of September 30,                                                        2002                         2001
                                                                Current     Noncurrent
                                                                                              Total          Total
     (Amounts in thousands)                                     Liability    Liability
     Intra-governmental:
        Advances from Others                                $   213,843     $         0   $   213,843    $   128,053
        Deposit Funds and Suspense Account Liabilities           15,596               0        15,596          1,265
        Resources Payable to Treasury                         1,006,978               0     1,006,978        604,501
        Disbursing Officer Cash                                 265,295               0       265,295        612,013
        Accounts Payable—Cancelled Appropriations                     0               0             0        131,234
        Judgement Fund Liabilities                               98,800         204,800       303,600        417,309
        FECA Reimbursement to the Department of Labor           134,106         171,569       305,675        299,296
        Other Liabilities                                        68,100               0        68,100         63,497
        Total Intra-governmental Other Liabilities          $ 1,802,718     $   376,369   $ 2,179,087    $ 2,257,168

     Non-Federal:
        Accrued Funded Payroll and Benefits                 $ 1,166,899     $         0   $ 1,166,899    $    994,520
        Advances from Others                                     93,234               0        93,234          58,444
        Deposit Funds and Suspense Accounts                      39,154               0        39,154           7,128
        Temporary Early Retirement Authority                      6,800          10,100        16,900          36,000
        Nonenvironmental Disposal Liabilities:
            Excess/Obsolete Structures                           47,573          15,008        62,581         93,000
        Accounts Payable—Cancelled Appropriations               399,513          53,406       452,919         80,667
        Accrued Unfunded Annual Leave                         1,674,276               0     1,674,276      1,745,592
        Capital Lease Liability                                  30,736         248,682       279,418        462,196
        Other Liabilities                                           530         201,277       201,807        641,432
        Total Non-Federal Other Liabilities                 $ 3,458,715     $   528,473   $ 3,987,188    $ 4,118,979
     Total Other Liabilities:                               $ 5,261,433     $   904,842   $ 6,166,275    $ 6,376,147


     Other Information Pertaining to Other Liabilities
     Intra-governmental
     The increase in advances from others is due to the timing of the receipt and execution of orders which causes variations
     in the end of year balances.

     The change in deposit funds and suspense account liabilities are related to timing differences and collection due dates
     and the disposition of these items.

     Judgement Fund liabilities of $303.6 million result from contractor claims under the Contracts Disputes Act on Air
     Force contracts that have been adjudicated by a court or a board in favor of the contractor. Initially, the Department of
     the Treasury pays the monetary awards to the contractor. However, subsequently the Air Force must reimburse the
     Treasury’s Judgement Fund for the amount that was paid to the contractors.

     The difference in Judgement Fund liabilities is due to Treasury billing the Air Force $17.6 million in new debts during
     FY 2002. In addition, the Air Force paid out $131.3 million during FY 2002.

     The increase in Resources Payable to Treasury is due to an increase in closed year receivables reported from contractor
     debts. Canceled accounts receivables are deposited into a Treasury miscellaneous receipt account when collected.




78      Notes to Principal Statements < General Funds
                                                                                      2002 Annual Financial Statements




The amounts reported as Accounts Payable–Cancelled Appropriations are considered unreliable. No seller data was
matched to Air Force closed account payables. Therefore, all cancelled accounts payables reported as public. Closed
account balances need to be validated. We see very little clean up or changes in these balances. We suspect that most
of the liabilities in cancelled accounts are not valid and should be de-obligated. This issue is currently being worked.
Other Liabilities
The amount of $68.1 million represents $46.0 million of the government contribution of employee benefits and $22.1
million in unemployment compensation liabilities.
Non-Federal
The increase in advances on from others is due to the timing of the receipt and execution of orders that causes varia-
tions in the end of year balances.

The change in deposit funds and suspense account liabilities are related to timing differences and collection due dates
and the disposition of these items.

Accounts Payable-Canceled Appropriations of $452.9 million is from closed years. Although closed appropriation lia-
bility balances are unreliable, it is possible this liability will be liquidated using current year funding at the time of liqui-
dation.

The decrease in Temporary Early Retirement Authority liabilities is due to the termination of the program in fiscal year
2002.

Accrued Funded Payroll and Benefits—The increase is due to the accrual of the military payroll.
Nonenvironmental Disposal Liabilities
The Air Force reduced its disposal liability by $45.4 million throughout FY 2002, in accordance with disposal plans
directed by Defense Reform Initiative Directive No. 36, dated May 5, 1998, which equates to a 48% reduction in the
disposal liability stated in the FY 2001 Audited Financial Statements (AFS). Also, the Family Housing Master Plan was
adjusted in FY 2002; it identified $15.0 million of excess housing units to be disposed of in future years (Noncurrent).
The FY 2002 AFS liability is $62.6 million, of which $47.6 million is a current liability, and $15.0 million is a noncur-
rent liability.

The Active and Inactive Missile Systems maximum nonenvironmental disposal liability increases are due to changes in
program direction. The program previously did not have an approved Demilitarization Plan, and therefore assets were
identified for consumption. Disposition Plans and Demilitarization Plans are now in place with goals to reduce inventory
by 100% over the next four to five years. Inputs based on these plans resulted in an increase to the potential maximum
nonenvironmental disposal liability.
Other Liabilities
The amount of $201.8 million represents legal contingencies of $201.3 million and accrued interest liability of $.5 mil-
lion. The decrease of $435.8 million in legal contingencies is due to the change in the number of claims pending and
settlements.

The recorded estimated probable liability amount of $29.4 million has been included in the accompanying financial
statements for open contractor claims greater than $100,000 and neither under appeal nor in litigation. In addition to




                                                                                      General Funds > Notes to Principal Statements
                                                                                                                                      79
     United States Air Force




     the contractor claims under appeal and the open contractor claims for an amount greater than $100,000, the Air
     Force was party to numerous other contractor claims in amounts less than $100,000 per claim. These claims are a
     routine part of the contracting business and are typically resolved through mutual agreement between the contracting
     officer and the contractor. Because of the routine nature of these claims, no requirement exists for a consolidated track-
     ing mechanism to record the amount of each claim, the number of open claims, or the probability of the claim being
     settled in favor of the claimant. The potential liability arising from these claims in aggregate would not materially affect
     the operations or financial condition of the Air Force. A reasonably possible liability is estimated at $6.5 million and is
     not included in the reported amount.

     The total estimated probable liability for claims and litigations against the Air Force handled by the Civil Law and
     Litigation Directorate, as of September 30, 2002, was valued at $72.2 million and has been included in the accompa-
     nying financial statements. As of September 30, 2002, the Air Force was party to 3,790 claims and litigation actions.
     This liability dollar amount recorded in the financial statements is an estimate based on the weighted average payout
     rate for the previous three years. A reasonably possible liability is estimated at $271.5 million and is not included in the
     reported amount. Neither past payments nor the current contingent liability estimate provides a basis for accurately pro-
     jecting the results of any individual law suit or claim. It is uncertain that claims will ever accrue to the Air Force. In addi-
     tion, many claims and lawsuits, even if successful, will not be paid out of Air Force Funds. Rather, judgements over
     $100,000 are ordinarily paid from the Judgement Fund, not from Air Force accounts even though claims were the
     result of Air Force operations. In many cases involving attorney fees, the amounts are not known until the last appeal is
     concluded.

     As of September 30, 2002, the Air Force was a party to 100 contract appeals before the Armed Services Board of
     Contract Appeals (ASBCA). The probable amount of loss from contractor claims of $99.6 million has been included in
     the financial statements. The contractor claims involve unique circumstances which are considered by the ASBCA in for-
     mulating decisions on the cases. Such claims are funded primarily from Air Force appropriations. A reasonably possible
     liability is estimated at $7.6 million and is not included in the reported amount.
     Other Disclosures
     The Legal Representation Letter describes contingent liabilities from cases that may or may not be paid from the
     Treasury’s Claims, Judgement, and Relief Acts Fund depending on the final outcome. Since Air Force appropriations do
     not necessarily pay for all judgements or settlements for cases and the probability of payments is unknown, these con-
     tingencies from pending cases are not reflected in the financial statement.
     Intragovernmental Reconciliation for Fiduciary Transactions with Department of Labor (DOL) and the Office of
     Personnel Management (OPM)
     With respect to the major fiduciary balances with the OPM and the DOL, the Air Force was able to reconcile with the
     OPM and the DOL. During these reconciliations immaterial differences were identified.




80       Notes to Principal Statements < General Funds
                                                                                      2002 Annual Financial Statements




Note 15.B. Capital Lease Liability
As of September 30,                                                      2002                                       2001
                                                                     Asset Category
                                                   Land and
(Amounts in Thousands)                                           Equipment       Other             Total            Total
                                                   Buildings
Future Payments Due:
   2003                                           $     45,433   $      167      $       0     $     45,600     $     45,683
   2004                                                 45,433          167              0           45,600           45,600
   2005                                                 45,433             0             0           45,433           45,600
   2006                                                 45,152             0             0           45,152           45,433
   2007                                                 42,056             0             0           42,056           45,152
   After 5 Years                                       192,757             0             0         192,757           234,813
   Total Future Lease Payments Due                $    416,264   $      334      $       0     $   416,598      $    462,281
   Less: Imputed Interest Executory Costs              137,152           28              0         137,180           163,857
   Net Capital Lease Liability                    $    279,112   $      306      $       0     $   279,418      $    298,424


Capital Lease Liabilities Covered by Budgetary Resources:                                      $   323,439      $    354,564


Capital Lease Liabilities Not Covered by Budgetary Resources:                                  $     93,159     $    107,132


Other Information
Relevant Information for Comprehension
The Air Force is the leasee in twelve capital leases. Eleven are for military family housing and the twelfth is for a piece
of medical equipment. Six leases were entered into prior to FY 1992 and are funded on an annual basis.
Note Reference
See Note Disclosure 1.Q, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Leases.


Note 16. Commitments and Contingencies
Disclosures Related to Commitments and Contingencies:
Relevant Information for Comprehension
The Commitments and Contingencies consist of the following reasonably possible liabilities

Contractual Actions:
Contractor Claims                                                         $6.5   million
Appeals before Armed Services Board of Contract Appeals (ASBCA)           $7.6   million
                                                                         $14.1   million
Claims and Litigation from Civil Law                                    $271.5   million
Total                                                                   $285.6   million
Note Reference
See Note Disclosure 1.S, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Contingencies and Other Liabilities.




                                                                                      General Funds > Notes to Principal Statements
                                                                                                                                      81
     United States Air Force




     Note 17. Military Retirement Benefits and Other Employment Related Actuarial
     Liabilities
     As of September 30,                                              2002                                 2001

                                     Actuarial Present
                                                          Assumed       (Less: Assets       Unfunded     Unfunded
                                         Value of
                                                           Interest     Available to        Actuarial    Actuarial
                                      Projected Plan
                                                          Rate (%)      Pay Benefits)        Liability    Liability
     (Amounts in Thousands)              Benefits

     FECA                             $    1,211,045                     $          0   $    1,211,045   $ 1,269,811



     Other Information Pertaining to Military Retirement Benefits and Other Employment-Related
     Actuarial Liabilities
     Military Retirement Health Benefits
     Assumptions. Health benefits are funded centrally at the DoD level. As such the portion of the health benefits actuarial
     liability that is applicable to the Air Force is reported only on the DoD Agency-wide financial statements.
     FECA
     Actuarial Cost Method Used. The Air Force’s actuarial liability for worker’s compensation benefits is developed by the
     DoL and provided to the Air Force at the end of each fiscal year. The liability includes the expected liability for death,
     disability, medical, and miscellaneous costs for approved compensation cases, plus a component for incurred but not
     reported claims. The liability is determined using a method that utilizes historical benefit payment patterns to predict the
     ultimate payments. The projected annual benefit payments have been discounted to present value using the OMB eco-
     nomic assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were as fol-
     lows:

                                                                        FY 2002
                                                                  5.20% in Year 1
                                                                  5.20% in Year 2
                                                                   and thereafter

     To provide more specifically for the effects of inflation on the liability for FWC benefits, wage inflation factors, cost of
     living adjustments (COLAs) and medical inflation factors (consumer price index medical or CPIMs) were applied to the
     calculation of projected future benefits. These factors were also used to adjust the methodology’s historical payments to
     current year constant dollars.

     The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:

                                                    CBY                  COLA                     CPIM
                                                   2003                  1.80%                   4.31%
                                                   2004                  2.67%                   4.01%
                                                   2005                  2.40%                   4.01%
                                                  2006+                  2.40%                   4.01%




82       Notes to Principal Statements < General Funds
                                                                                   2002 Annual Financial Statements




The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on
two tests: (1) a comparison of the percentage change in the liability amount by agency to the percentage change in the
actual payments, and (2) a comparison of the ratio of the estimated liability to the actual payment of the beginning
year calculated for the current projection to the liability-payment ratio calculated for the prior projection.


Note 18. Unexpended Appropriations
As of September 30,                                       2002              2001
(Amounts in Thousands)
Unexpended Appropriations:
   Unobligated, Available                            $     5,272,785    $   6,370,403
   Unobligated, Unavailable                                1,185,935          832,884
   Unexpended Obligations                                 33,085,130      31,803,502
   Total Unexpended Appropriations                   $    39,543,850    $ 39,006,789


Other Information Pertaining to Unexpended Appropriations
Unexpended obligations reported as a component of Unexpended Appropriations include both Undelivered Orders-
Unpaid and Undelivered Orders-Paid only for direct appropriated funds. This amount is distinct from Change in
Amount of Goods, Services, and Benefits Ordered but Not Yet Received line of the Statement of Financing, which
includes the change during the fiscal year in unexpended obligations against budget authority from all sources.


Note 19.A. General Disclosures Related to the Statement of Net Cost
Disclosures Related to the Statement of Net Cost
The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven on
understanding the net cost of programs and/or organizations that the federal government supports through appropria-
tions or other means. This statement provides gross and net cost information that can be related to the amount of out-
put or outcome for a given program and/or organization administered by a responsible reporting entity.

The amounts presented in the Statement of Net Cost (SoNC) are based on obligations and disbursements and therefore
may not in all cases report actual accrued costs. The Air Force generally records transactions on a cash basis and not
an accrual basis as is required by the generally accepted accounting principles. Therefore, the Air Force systems do not
capture actual costs. As such, information presented in the SoNC is based on budgetary obligations, disbursements and
collection transactions, as well as non-financial feeder systems; then adjusted to record known accruals for major items
such as payroll expenses, accounts payable, and environmental liabilities.

The abnormal intra-governmental net costs on the Consolidating Statement of Net Cost for Research, Development,
Test & Evaluation Program is attributable to intragovernmental revenue per Air Force seller side records being higher
than intragovernmental expenses in Air Force accounting records. This situation existed prior to adjustments for other
seller side data. Further analysis of Air Force accounting data is required.

The abnormal intra-governmental net costs on the Consolidating Statement of Net Cost for the Air Force Other
Program is attributable to seller side allocations of intragovernmental revenue that required a reclassification of AF pub-




                                                                                   General Funds > Notes to Principal Statements
                                                                                                                                   83
     United States Air Force




     lic expenses to government. This reclassification results in public revenue in excess of gross costs with the public. This
     abnormal balance was discovered after seller side data was finalized.


     Note 19.B. Imputed Expenses
     As of September 30,                                  2002        2001
     (Amount in thousands)
     Civilian (e.g.,CSRS/FERS) Retirement                $ 193,271   $ 204,481
     Civilian Health                                       340,583     365,643
     Civilian Life Insurance                                 1,184       1,153
     Judgment Fund                                          62,038      15,587
     Total Imputed Expenses                              $ 597,076   $ 586,864



     Note 19.C. Exchange Revenue
     Disclosures Related to the Exchange Revenue
     Exchange Revenue arises when a Government entity provides goods and services to the public or to another
     Government for a price, “earned revenue.” Exchange revenue includes most user charges other than taxes, i.e., regula-
     tory user charges.

     Goods and services provided through reimbursable programs to the public or another U.S. Government entity (intra-Air
     Force, intra-DoD or other federal entity) are provided at cost. Such reimbursable sales are reported as earned rev-
     enues. Costs are equal to the amount reported as earned. Since FY 2000 sales to the Foreign Military Trust Fund and
     related cost of sales have been reclassified as non-federal, transactions with the public, rather than intra-governmental
     transactions as in years prior.


     Note 19.D. Stewardship Assets
     Disclosures Related to Stewardship Assets
     Stewardship assets include Heritage Assets, Stewardship Land, Non-Federal Physical Property, and Investments in
     Research and Development. The current year cost of acquiring, constructing, improving, reconstructing, or renovating
     heritage assets; costs of acquiring stewardship land; and costs to prepare stewardship land for its intended use are
     required to be recognized and disclosed in the SoNC or the notes if occurring. Such costs, if any, are not separately
     identifiable and are not believed to be material.


     Note 19.E. Intra-governmental Revenue and Expense
     Disclosures Related to Intra-governmental Revenue and Expense
     The Air Force’s accounting systems do not capture trading partner data at the transaction level in a manner that facili-
     tates trading partner aggregations. Therefore, the Air Force was unable to reconcile intragovernmental revenue bal-
     ances with its trading partners. The Department intends to develop long-term systems improvements that will include
     sufficient up-front edits and controls to eliminate the need for after-the-fact reconciliations. The volume of intra-govern-




84       Notes to Principal Statements < General Funds
                                                                                 2002 Annual Financial Statements




mental transactions is so large that after-the-fact reconciliation cannot be accomplished with the existing or foreseeable
resources.

The Air Force’s operating expenses were adjusted based on a comparison between the Air Force’s accounts payable
and the DoD summary level seller accounts receivables. An adjustment was posted to accounts payable and operating
expenses to reflect unrecognized accounts payable and operating expenses. The operating expenses of the Air Force
were adjusted upwards in the amount of $985.1 million.


Note 19.F. Suborganization Program Costs
The Air Force identifies programs based on the nine major appropriation groups provided by Congress. The DoD is in
the process of reviewing available data and attempting to develop a cost reporting methodology that balances the
need for cost information requested by Statement of Federal Financial Accounting Standard (SFFAS) No. 4 with the
need to keep the financial statements from becoming overly voluminous.

Until costing allocating processes and expanded intra-Air Force eliminating capabilities are incorporated in the
accounting processes, the usefulness of further suborganization-reported (major commands) net cost is limited. It is for
this reason that no additional statement of suborganization costs at lower levels are presented with these statements.


Note 20. Disclosures Related to the Statement of Changes in Net Position
                                       Cumulative Results    Unexpended      Cumulative Results of        Unexpended
As of September 30,                      of Operations      Appropriations      Operations               Appropriations
                                             2002               2002               2001                      2001
(Amounts in thousands)
Prior Period Adjustments Increases
(Decreases) to Net Position
Beginning Balance:
 Changes in Accounting Standards         $              0   $            0       $      37,561,528         $             0
 Errors and Omissions in Prior Year
                                             (31,869,730)                0               1,443,798                       0
 Accounting Reports
 Other Prior Period Adjustments                         0                0                         0                     0
 Total Prior Period Adjustments          $   (31,869,730)   $            0       $      39,005,326         $             0

Imputed Financing:
 Civilian CSRS/FERS Retirement           $       193,271    $            0       $         204,481         $             0
 Civilian Health                                 340,583                 0                 365,643                       0
 Civilian Life Insurance                            1,184                0                    1,153                      0
 Judgment Fund                                    62,038                 0                   15,587                      0
 Total Imputed Financing                 $       597,076    $            0       $         586,864         $             0


Other Information
Relevant Information for Comprehension
The FY 2002 “Errors and Omissions in Prior Years Accounting Reports” line is the result of a DoDIG directed Prior
Period Adjustment made to remove the $31,869.7 million of OM&S carried on the unrestated FY 2001 Balance Sheet.
This adjustment removes retail and wholesale guided and tactical missiles, missile motors, aircraft engines and elec-




                                                                                 General Funds > Notes to Principal Statements
                                                                                                                                 85
     United States Air Force




     tronic pods previously included as OM&S on the FY 2001 Balance Sheet. These items are now considered as No-
     reportable National Defense Property, Plant and Equipment. The previous FY 2001 inclusion of balances for these items
     in the Balance Sheet as OM&S was directed by OSD.

     The restatement of FY 2001 numbers brings the Air Force’s report in line with the FY 2001 Government wide financial
     statements that did not include amounts for these types of items.

     It is Treasury, DoD and DFAS policy that only prior period adjustments of a material and infrequent nature be shown in
     the financial statements. Accordingly, Air Force has included no other amounts reported through the accounting process
     as arising from prior period adjustment of errors and omissions in the accompanying financial statements as prior peri-
     od adjustments. Such amounts have been included in current year operations reported amounts.

     The increase in donations reflects approximately $11.5 million from the Air Force Museum Foundation to the Air Force
     Gift Fund for the purpose of funding construction of a third building at the Air Force Museum located at the Wright-
     Patterson Air Force Base.

     The increase in FY 2002 Imputing Financing for Judgement Fund is due to the nature, size, dollar amount, and number
     of previously pending claims settled, that resulted in payments by the Treasury’s Judgement Fund on behalf of the Air
     Force.


     Note 21.A. Disclosures Related to the Statement of Budgetary Resources
     As of September 30,                                          2002             2001
     (Amounts in thousands)
     Net Amount of Budgetary Resources Obligated for
                                                             $ 34,775,371     $   32,552,586
     Undelivered Orders at the End of the Period


     Other Information
     Other Information Related to the Statement of Budgetary Resources
     In Fiscal Year 2002, the following two enhancements were made to the SBR to facilitate the reconciliation of informa-
     tion between the SBR, the budget execution reports (SF133) and the Budget of the United States Government:

     Separate Column for Non-budgetary Credit Program Financing Accounts. This change allows for a clear distinction
     between budgetary and non-budgetary credit program financing account information. Non-budgetary credit financing
     accounts are reported separately from the budgetary totals in the Budget of the United States Government. Separate
     reporting on the Statement of Budgetary Resources enhances the reconciliation of the two sets of information.

     Offsetting Receipts are introduced as a new line item in the SBR. These receipts are collections that are credited to the
     general fund, special fund or trust fund receipt accounts. In addition they represent offsetting receipts distributed to the
     Air Force. Offsetting receipts offset budget authority and outlays at the agency level in the Budget of the United States
     Government. Offsetting receipts must be included in the Statement of Budgetary Resources to reconcile it to information
     in the Budget of the United States Government.

     Offsetting Receipts Line. Offsetting Receipts are introduced as a new line item in the Statement of Budgetary Resources.
     These receipts are collections that are credited to the general fund, special fund, or trust fund receipt accounts. In addi-
     tion they represent offsetting receipts distributed to the Air Force. Offsetting receipts offset budget authority and outlays




86       Notes to Principal Statements < General Funds
                                                                                 2002 Annual Financial Statements




at the agency level in the Budget of United States Government. Offsetting receipts must be included in the Statement of
Budgetary Resources to reconcile it to information in the Budget of the United States Government.

The amount of direct obligations incurred and apportioned under category A is $51.3 billion, category B is $49.3 bil-
lion, and exempt is $.02 billion. For reimbursable obligations incurred and apportioned category A is $4.8 billion, cat-
egory B is $3.03 billion and exempt is $.01 billion.

Unexpended Obligations presented in the Statement of Budgetary Resources (SBR) includes Unexpended Obligations
for both direct and reimbursable funds. The Department has not fully implemented the U.S. Standard General Ledger
(USSGL) in all operational accounting systems.

The statement does not include any amounts for which the Department of Treasury is willing to accept corrections to
canceled appropriation amounts, in accordance with SFFAS Number 1. Also, negative budgetary resources of $120.5
million (relating to Offsetting Receipts of Accounts shown on the Report on Budget Execution, or SF 133) are not
included in the SBR (combined, combining or disaggregated).

Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently not
available (included in the Adjustments line on the SBR), are not included in Spending Authority from Offsetting
Collections and Adjustments line of the SBR or the Spending Authority for Offsetting Collections and Adjustments line of
the Statement of Financing.

Due to accounting system deficiencies, the proper amount of intra-agency eliminations for this statement cannot be
determined.

Accounting systems currently do not provide or capture data needed for obligations incurred and recoveries of prior
year obligations in accordance with OMB Circular A-34, “Instructions on Budget Execution” requirements. Although
DFAS Denver Center developed an alternative methodology to calculate these items, the auditors and DFAS Denver
Center concur this methodology also distorts the obligation figures. As a result, the amount of distortion cannot be reli-
ably determined, and may or may not be material.

Disaggregated SBR are included in the Required Supplementary Information section of the statements. The abnormal
balance on the Unobligated Balances – Not Available in the Procurement grouping relates to the cancelation of reim-
bursable authority at fiscal year end. The abnormal balance on the Military Personnel grouping relates to the accrual of
A/P driven by seller-side data.




                                                                                 General Funds > Notes to Principal Statements
                                                                                                                                 87
     United States Air Force




     Note 21.B. Disclosures Related to Problem Disbursements, In-transit
     Disbursements and Suspense/Budget Clearing Accounts
                                                                                                                       (Decrease)/Increase
     As of September 30,                                     Sep-00                Sep-01               Sep-02
                                                                                                                        from 2001 to 2002
     (Amounts in thousands)
     Total Problem Disbursements
         Absolute Unmatched Disbursements                $       35,143        $     23,300        $       11,685          $    (11,615)
         Negative Unliquidated Obligations                       60,839              22,722                10,232               (12,490)
     Total In-transit Disbursements, Net                 $ 1,283,127           $ 2,271,948         $ 1,320,627             $   (951,321)



     Other Information Related to Problem Disbursements and In-transit Disbursement
     The Air Force has $1.3 billion in problem disbursements and in-transit disbursements that represent disbursements of
     Air Force funds that have been reported by a disbursing station to the Department of the Treasury but have not yet been
     precisely matched against the specific source obligation giving rise to the disbursements. For the most part, these pay-
     ments have been made using available funds and based on valid receiving reports for goods and services delivered
     under valid contracts. The problem disbursements and in-transit disbursements arise when the various contracting, dis-
     bursing, and accounting systems fail to match the data necessary to properly account for the disbursement transactions
     in all applicable accounting systems.

     DFAS has efforts underway to improve the systems and to resolve all previous problem disbursements and to process all
     in-transit disbursements. As of September 30, 2002, these efforts resulted in a $24 million decrease in reported prob-
     lem disbursements. In-transits decreased $951 million since September 2001. The amount over 180 days old for
     NULOs is $1 million and for in-transits is $13 million. The absolute value of in-transit disbursements is $2.5 billion.
     Suspense/Budget
     Clearing Accounts, Net
            Account                         Sep-00               Sep-01               Sep-02           (Decrease)/Increase
            F3875                       $      17,953        $      30,874     $       398,084         $         367,210
            F3880                                (611)                    35                (62)                    (97)
            F3885                            (457,259)            (477,440)           (193,678)                  283,762


     Other Information Related to Suspense/Budget Clearing Accounts
     The Air Force has made a concerted effort to reduce balances in the suspense and budget clearing accounts, and to
     establish an accurate and consistent use of these accounts. The information presented indicates the significant reduc-
     tions (with the exception noted below) that the Air Force has achieved in the various suspense/budget clearing
     accounts.

     The large increases in F3885 for FY 2000 and FY 2001 are due to numerous OPAC transactions received during the
     last business day of September that, by established procedure, are placed in this suspense account until they can be
     assigned to a valid appropriation.

     On September 30 of each fiscal year, all of the uncleared suspense/budget clearing account balances are reduced to
     zero by transferring the balances to proper appropriation accounts using a logical methodology, such as prorating the




88       Notes to Principal Statements < General Funds
                                                                                 2002 Annual Financial Statements




amounts on a percentage basis derived by comparing the disbursements in the suspense/clearing account to total dis-
bursements.

The amounts in brackets in account F3880 represent collections.


Note 22. Disclosures Related to the Statement of Financing
Disclosures Related to the Statement of Financing:
The objective of the Statement of Financing (SoF) is to help users understand the difference between budgetary and net
cost of operations reported. The statement provides this understanding through a comprehensive reconciliation process.

Other Information Related to the Statement of Financing
The Statement of Financing was expanded to further articulate and detail the relationship between net obligations from
budgetary accounting and net cost of operation from proprietary accounting. Some items that were reported last year
as a single line were subdivided to reflect its components. Several new line items were added to separately identify and
further explain the use of resources to finance net obligations or net cost of operations. This change notes key differ-
ences between the net obligations and net cost of operations. The prior year net cost computed on the prior year
Statement of Financing presented as a comparative amount to the current year amount does not match the net cost
presented on the prior Statement of Net Cost. This difference is the result of applying the current year account classifi-
cations used for the current year statement to prior year accounts to create a prior year statement.
Intra-entity Transactions
Intra-entity transactions have not been eliminated because the statements are presented as combined and combining
statements.

Budgetary data is not in agreement with Proprietary Expenses and Asset Capitalized. This causes a difference in Net
Cost between the Statement of Net Cost and the Statement of Financing. The amount on the “Resources that finance
the acquisition of assets” has been adjusted as necessary to resolve differences. Differences between the budgetary and
proprietary data for the Air Force are previously identified deficiency.
Note Reference
The components and amount of liabilities not covered by budgetary resources are disclosed in Note 11. Liabilities Not
Covered and Covered by Budgetary Resources.


Note 23. Disclosures Related to the Statement of Custodial Activity
Not applicable.




                                                                                  General Funds > Notes to Principal Statements
                                                                                                                                  89
     United States Air Force




     Note 24.A. Other Disclosures
     Entity as Lessee—Operating Leases
     Description of Lease Arrangements
     Category 1: Medical Equipment—Operating leases are one year leases with four option years. Each year, facilities must
     specifically exercise the option to continue the lease. The operating leases that contain an option to purchase allows
     the government to purchase the equipment at fair market value at the end of the lease period.

     Category 2: Military Family Housing—The figures represent operating leased facilities in the U.S. and overseas applica-
     ble to active Air Force, Air Force Reserve and Air National Guard.

     Category 3: Motor Vehicles—Operating leases for motor vehicles are essentially one year leases funded in appropria-
     tion 3400 (O&M). Air Force expects to continue to reduce the level of owned assets, while increasing the number of
     operational leases. Where possible, Air Force will strive to displace commercial leases in favor of GSA (General
     Services Administration) leases because GSA leases are typically more economical.


     Note 24.B. Other Disclosures
     Interest Payable: DFAS Columbus has accumulated prompt payment interest of approximately $.5 million during
     FY 2002 for Air Force contracts. The interest payments were not made because the unpaid invoices are under a recon-
     ciliation process in an interest-bearing mode.

     Undistributed Collections and Disbursements: Accounts receivable and payable are adjusted for undistributed collec-
     tions and disbursements. These transactions represent the Air Force’s in-float (undistributed) collections and disburse-
     ments for transactions that were reported by a disbursing station but not recorded by the appropriate accountable sta-
     tion. Undistributed amounts are prorated by appropriation based on the percentage of distributed government and
     public receivables and payables.

     Canceled Balances: All unliquidated balances associated with closed accounts have been canceled in accordance with
     Public Law 101-510. Canceled accrued expenditures unpaid are reflected in the financial statements as unfunded lia-
     bilities. Canceled undelivered orders outstanding are not included in the financial statements; however, these orders
     may result in future expenditures. Due to systems deficiencies, canceled receivables are included in the Air Force
     Balance Sheet. Canceled-year appropriation balances for receivables and payables are not reliable.




90      Notes to Principal Statements < General Funds
                            2002 Annual Financial Statements




General Funds

Consolidating and
Combining Statements




                 General Funds > Consolidating and Combining Statements
                                                                          91
     United States Air Force




     Consolidating Balance Sheet—General Funds
     As of September 30, 2002 and 2001 ($ in thousands)

                                                                            Air Force        Air Force    Air National
                                                                             Active          Reserve         Guard
     ASSETS (Note 2)
        Intragovernmental:
           Fund Balance with Treasury (Note 3)                              45,383,242          898,471      1,661,037
           Investments (Note 4)                                                    708                0              0
           Accounts Receivable (Note5)                                         546,268           41,380        269,412
           Other Assets (Note 6)                                                 4,714               91            189
               Total Intragovernmental Assets                              $45,934,932        $939,942      $1,930,638
        Cash and Other Monetary Assets (Note 7)                                140,645                0              0
        Accounts Receivable (Note 5)                                           998,374            6,139         13,397
        Inventory and Related Property (Note 9)                             28,557,663           37,275        222,626
        General Property, Plant and Equipment (Note 10)                     20,111,388          814,019      3,321,745
        Other Assets (Note 6)                                                7,501,028            4,253         30,633
     TOTAL ASSETS                                                         $103,244,030       $1,801,628     $5,519,039
     LIABILITIES (Note 11)
        Intragovernmental:
           Accounts Payable (Note 12)                                            1,301,110       77,771        159,758
           Debt (Note 13)                                                              134            0              0
           Other Liabilities (Note 15 & Note 16)                                 2,178,086            4          1,002
              Total Intragovernmental Liabilities                               $3,479,330      $77,775       $160,760
        Accounts Payable (Note 12)                                               5,865,775      164,023        177,169
        Military Retirement Benefits and Other Employment-Related
        Actuarial Liabilities (Note 17)                                        867,587          127,741        215,717
        Environmental Liabilities (Note 14)                                  8,454,564                0              0
        Other Liabilities (Note 15 and Note 16)                              3,887,500           38,793         60,895
     TOTAL LIABILITIES                                                     $22,554,756         $408,332       $614,541
     NET POSITION
           Unexpended Appropriations (Note 18)                              37,257,950          684,574      1,601,326
           Cumulative Results of Operations                                 43,431,324          708,722      3,303,172
     TOTAL NET POSITION                                                    $80,689,274       $1,393,296     $4,904,498
     TOTAL LIABILITIES AND NET POSITION                                   $103,244,030       $1,801,628     $5,519,039




     The accompanying notes are an integral part of the financial statements.
     See notes 1 and 21.



92       Consolidating and Combining Statements < General Funds
                                                                                      2002 Annual Financial Statements




   Combined                                2002           2001 Restated       2001
     Total           Eliminations       Consolidated      Consolidated     Consolidated


    47,942,750                   0        47,942,750          44,259,788     44,259,788
           708                   0               708               1,088          1,088
       857,060             413,906           443,154             394,513        394,513
         4,994                   5             4,989             351,706        351,706
   $48,805,512            $413,911       $48,391,601         $45,007,095    $45,007,095
       140,645                   0           140,645             107,530        486,225
     1,017,910                   0         1,017,910             561,769        561,769
    28,817,564                   0        28,817,564          25,740,625     57,610,355
    24,247,152                   0        24,247,152          20,444,148     20,444,148
     7,535,914                   0         7,535,914           5,509,604      5,509,604
  $110,564,697            $413,911      $110,150,786         $97,370,771   $129,619,196



      1,538,639            413,906          1,124,733            740,585         740,585
            134                  0                134                108             108
      2,179,092                  5          2,179,087          2,257,168       2,257,168
     $3,717,865           $413,911         $3,303,954         $2,619,166      $2,997,861
      6,206,967                  0          6,206,967          4,180,417       4,180,417

     1,211,045                   0         1,211,045           1,269,811       1,269,811
     8,454,564                   0         8,454,564           7,312,942       7,312,942
     3,987,188                   0         3,987,188           4,118,979       4,118,979
   $23,577,629            $413,911       $23,163,718         $19,501,315     $19,880,010

    39,543,850                   0        39,543,850          39,006,789     39,006,789
    47,443,218                   0        47,443,218          38,862,667     70,732,397
   $86,987,068                  $0       $86,987,068         $77,869,456   $109,739,186
  $110,564,697            $413,911      $110,150,786         $97,370,771   $129,619,196




The accompanying notes are an integral part of the financial statements.
See notes 1 and 21.



                                                                           General Funds > Consolidating and Combining Statements
                                                                                                                                    93
     United States Air Force




     Consolidating Statement of Net Cost—General Funds
     For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                  Air Force     Air Force        Air National
                                                                   Active       Reserve             Guard
     PROGRAMS COST
      Military Personnel
            Intragovernmental Gross Costs                           3,533,658      172,562            252,077
              (Less: Intragovernmental Earned Revenue)               -147,963       -5,014             -6,541
                 Intragovernmental Net Costs                        3,385,695      167,548            245,536
            Gross Costs With the Public                            18,591,879      823,684          1,426,489
              (Less: Earned Revenue From the Public)                  -62,685            0             -5,543
                 Net Costs With the Public                         18,529,194      823,684          1,420,946
            Total Net Cost                                        $21,914,889     $991,232         $1,666,482
      Operation and Maintenance
            Intragovernmental Gross Costs                          15,128,682    1,046,247          2,761,451
              (Less: Intragovernmental Earned Revenue)             -1,636,738     -287,021           -774,821
                 Intragovernmental Net Costs                       13,491,944      759,226          1,986,630
            Gross Costs With the Public                            16,719,159    1,163,706          2,086,213
              (Less: Earned Revenue From the Public)                 -407,066       -1,088            -73,623
                 Net Costs With the Public                         16,312,093    1,162,618          2,012,590
            Total Net Cost                                        $29,804,037   $1,921,844         $3,999,220
      Procurement
            Intragovernmental Gross Costs                             322,021                0              0
              (Less: Intragovernmental Earned Revenue)               -153,067                0              0
                 Intragovernmental Net Costs                          168,954                0              0
            Gross Costs With the Public                            16,329,627                0              0
              (Less: Earned Revenue From the Public)                  -10,410                0              0
                 Net Costs With the Public                         16,319,217                0              0
            Total Net Cost                                        $16,488,171               $0             $0
      Research, Development, Test & Evaluation
            Intragovernmental Gross Costs                             136,733                0              0
              (Less: Intragovernmental Earned Revenue)               -865,340                0              0
                 Intragovernmental Net Costs                         -728,607                0              0
            Gross Costs With the Public                            15,364,865                0              0
              (Less: Earned Revenue From the Public)                 -113,063                0              0
                 Net Costs With the Public                         15,251,802                0              0
            Total Net Cost                                        $14,523,195               $0             $0
      Military Construction/Family Housing
                 Intragovernmental Net Costs                           3,352           359                453
                 Net Costs With the Public                           302,550        18,059             96,822
            Total Net Cost                                          $305,902       $18,418            $97,275
      Other
            Intragovernmental Gross Costs                             12,355                 0              0
              (Less: Intragovernmental Earned Revenue)                   -55                 0              0
                Intragovernmental Net Costs                           12,300                 0              0
            Gross Costs With the Public                                4,085                 0              0
              (Less: Earned Revenue From the Public)                  -7,233                 0              0
                 Net Costs With the Public                            -3,148                 0              0
            Total Net Cost                                            $9,152                $0             $0
      Total Program Costs
            Intragovernmental Gross Costs                          19,136,801    1,219,168          3,013,981
              (Less: Intragovernmental Earned Revenue)             -2,803,163     -292,035           -781,362
                 Intragovernmental Net Costs                       16,333,638      927,133          2,232,619
            Gross Costs With the Public                            67,312,165    2,005,449          3,609,524
              (Less: Earned Revenue From the Public)                 -600,457       -1,088            -79,166
                 Net Costs With the Public                         66,711,708    2,004,361          3,530,358
     NET COST OF OPERATIONS                                       $83,045,346   $2,931,494         $5,762,977

     The accompanying notes are an integral part of the financial statements.
     See notes 1 and 19.



94       Consolidating and Combining Statements < General Funds
                                                                                          2002 Annual Financial Statements




  Combined                             2002           2001 Restated           2001
    Total          Eliminations     Consolidated      Consolidated         Consolidated


    3,958,297             85,200        3,873,097         3,341,205           3,341,205
     -159,518             -6,664         -152,854          -116,341            -116,341
    3,798,779             78,536        3,720,243         3,224,864           3,224,864
   20,842,052                  0       20,842,052        17,906,083          17,906,083
      -68,228                  0          -68,228           -80,369             -80,369
   20,773,824                  0       20,773,824        17,825,714          17,825,714
  $24,572,603            $78,536      $24,494,067       $21,050,578         $21,050,578

   18,936,380          1,463,722       17,472,658        14,586,302          14,586,302
   -2,698,580         -1,541,592       -1,156,988        -1,472,775          -1,472,775
   16,237,800            -77,870       16,315,670        13,113,527          13,113,527
   19,969,078                  0       19,969,078        14,551,845          19,151,162
     -481,777                  0         -481,777          -408,044            -408,044
   19,487,301                  0       19,487,301        14,143,801          18,743,118
  $35,725,101           -$77,870      $35,802,971       $27,257,328         $31,856,645

      322,021                304          321,717           487,098             487,098
     -153,067                  0         -153,067           -36,484             -36,484
      168,954                304          168,650           450,614             450,614
   16,329,627                  0       16,329,627        16,508,176          16,508,176
      -10,410                  0          -10,410           -29,283             -29,283
   16,319,217                  0       16,319,217        16,478,893          16,478,893
  $16,488,171               $304      $16,487,867       $16,929,507         $16,929,507

      136,733                 11          136,722           246,974             246,974
     -865,340               -980         -864,360          -585,351            -585,351
     -728,607               -969         -727,638          -338,377            -338,377
   15,364,865                  0       15,364,865        14,889,595          14,889,595
     -113,063                  0         -113,063           -77,232             -77,232
   15,251,802                  0       15,251,802        14,812,363          14,812,363
  $14,523,195              -$969      $14,524,164       $14,473,986         $14,473,986

        4,164                  0            4,164             5,716               5,716
      417,431                  0          417,431         5,356,563           5,356,563
     $421,595                 $0         $421,595        $5,362,279          $5,362,279

        12,355                 1            12,354             5,164              5,164
           -55                 0               -55               -71                -71
        12,300                 1            12,299             5,093              5,093
         4,085                 0             4,085            -3,853             -3,853
        -7,233                 0            -7,233                 0                  0
        -3,148                 0            -3,148            -3,853             -3,853
        $9,152                $1            $9,151            $1,240             $1,240

   23,369,950          1,549,238       21,820,712        18,672,472          18,672,472
   -3,876,560         -1,549,236       -2,327,324        -2,211,035          -2,211,035
   19,493,390                  2       19,493,388        16,461,437          16,461,437
   72,927,138                  0       72,927,138        69,208,409          73,807,726
     -680,711                  0         -680,711          -594,928            -594,928
   72,246,427                  0       72,246,427        68,613,487          73,212,798
  $91,739,817                 $2      $91,739,815       $85,074,918         $89,674,235

The accompanying notes are an integral part of the financial statements.
See notes 1 and 19.


                                                                               General Funds > Consolidating and Combining Statements
                                                                                                                                        95
     United States Air Force




     Consolidating Statement of Changes in Net Position—General Funds
     For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                    Air Force Active               Air Force Reserve              Air National Guard

                                                             Cumulative                       Cumulative                     Cumulative
                                                              Results of      Unexpended       Results of    Unexpended       Results of    Unexpended
                                                             Operations      Appropriations   Operations    Appropriations   Operations    Appropriations
     BEGINNING BALANCES                                         63,768,582      37,344,088     1,105,902          524,914     5,857,913         1,137,787
     Prior period adjustments (+/-)                            -28,369,260               0      -496,749                0    -3,003,721                 0
     BEGINNING BALANCES, ADJUSTED                             $35,399,322      $37,344,088     $609,153          $524,914    $2,854,192        $1,137,787
     BUDGETARY FINANCING SOURCES
        Appropriations received                                          0       87,631,193            0         3,209,181            0         6,111,698
        Appropriations transferred-in/out (+/-)                          0        5,144,774            0           -84,845            0            24,874
        Other adjustments (rescissions, etc) (+/-)                       0       -1,921,556            0           -43,779            0           -97,071
        Appropriations used                                     90,940,549      -90,940,549    2,920,897        -2,920,897    5,575,962        -5,575,962
        Donations and forfeitures of cash and cash equivalents      12,681                0            0                 0            0                 0
        Other budgetary financing sources (+/-)                    500,087                0     -136,970                 0     -116,644                 0
     OTHER FINANCING SOURCES
        Transfers-in/out without reimbursement (+/-)              -973,049               0       247,138                0       752,639                0
         Imputed financing from costs absorbed by others           597,076               0             0                0             0                0
     TOTAL FINANCING SOURCES                                  $91,077,344         -$86,138    $3,031,065         $159,660    $6,211,957         $463,539

     NET COST OF OPERATIONS (+/-)                            $83,045,344                $0    $2,931,494               $0    $5,762,977                $0

     ENDING BALANCES                                         $43,431,322       $37,257,950      $708,724         $684,574    $3,303,172        $1,601,326




     The accompanying notes are an integral part of the financial statements.
     See notes 1 and 20.



96        Consolidating and Combining Statements < General Funds
                                                                                            2002 Annual Financial Statements




      Combined Total                               2002 Consolidated                            2001 Consolidated
                                                                               Restated
Cumulative                                    Cumulative                      Cumulative    Cumulative
 Results of    Unexpended                      Results of     Unexpended       Results of    Results of   Unexpended
Operations    Appropriations   Eliminations   Operations     Appropriations   Operations    Operations    Appropriation
 70,732,397      39,006,789              0      70,732,397      39,006,789     31,980,779    31,980,779      35,240,415
-31,869,730               0              0     -31,869,730               0      2,536,283    39,005,325               0
$38,862,667     $39,006,789             $0     $38,862,667     $39,006,789    $34,517,062   $70,986,104     $35,240,415

          0       96,952,072             0               0       96,952,072             0             0       3,766,374
          0        5,084,803             0               0        5,084,803             0             0               0
          0       -2,062,406             0               0       -2,062,406             0             0               0
 99,437,408      -99,437,408             0      99,437,408      -99,437,408    86,135,105    86,135,105               0
     12,681                0             0          12,681                0         5,872         5,872               0
    246,473                0             0         246,473                0     2,236,422     2,236,422               0

     26,728               0              0          26,728               0        456,260       456,260               0
    597,076               0              0         597,076               0        586,864       586,864               0
$10,320,366        $537,061             $0    $100,320,366        $537,061    $89,420,523   $89,420,523      $3,766,374

$91,739,815              $0             $0     $91,739,815              $0    $85,074,918   $89,674,235              $0

$47,443,218     $39,543,850             $0     $47,443,218     $39,543,850    $38,862,667   $70,732,392     $39,006,789




The accompanying notes are an integral part of the financial statements.
See notes 1 and 20.



                                                                                General Funds > Consolidating and Combining Statements
                                                                                                                                         97
     United States Air Force




     Combining Statement of Budgetary Resources—General Funds
     For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                       Air Force Active         Air Force Reserve
                                                                                     Non-                    Non-
     BUDGETARY RESOURCES                                           Budgetary      Budgetary   Budgetary    Budgetary
     Budget Authority
        Appropriations received                                     87,154,471            0    3,155,883           0
        Net transfers (+/-)                                          4,984,568            0      -54,845           0
     Unobligated balance
        Beginning of period                                          6,874,724            0     116,888            0
        Net transfers, actual (+/-)                                    160,206            0     -30,000            0
     Spending authority from offsetting collections
        Earned
           Collected                                                 5,601,821            0     263,074            0
           Receivable from Federal sources                              67,838            0      30,092            0
        Change in unfilled customer orders
           Advance received                                            106,457            0            0          0
           Without advance from Federal sources                         -1,201            0          -53          0
         Subtotal                                                   $5,774,915           $0    $293,113          $0
     Recoveries of prior year obligations                              939,506            0       32,446          0
     Permanently not available                                      -1,921,556            0      -43,786          0
     TOTAL BUDGETARY RESOURCES                                    $103,966,834           $0   $3,469,699         $0

     STATUS OF BUDGETARY RESOURCES
     Obligations incurred
        Direct                                                      91,598,481            0    3,062,291           0
        Reimbursable                                                 6,688,804            0      293,664           0
        Subtotal                                                    98,287,285            0    3,355,955           0
     Unobligated balance:
        Apportioned                                                  5,047,601            0       35,541          0
        Exempt from apportionment                                        4,607            0            0          0
        Other available                                                     -1            0            0          0
     Unobligated Balances Not Available                                627,342            0       78,203          0
     TOTAL, STATUS OF BUDGETARY RESOURCES                         $103,966,834           $0   $3,469,699         $0

     RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
     Obligated Balance, Net – beginning of period                   35,455,893            0     540,801            0
     Obligated Balance, Net – end of period:
        Accounts receivable                                         -1,162,423            0     -41,921            0
        Unfilled customer order from Federal sources                  -465,024            0           0            0
        Undelivered orders                                          32,167,811            0     566,282            0
        Accounts payable                                             9,109,282            0     260,366            0
     Outlays:
        Disbursements                                               93,087,390            0    3,049,544          0
        Collections                                                 -5,708,279            0     -263,074          0
        Subtotal                                                    87,379,111            0    2,786,470          0
     Less: Offsetting receipts                                        -121,154            0            0          0
     NET OUTLAYS                                                   $87,257,957           $0   $2,786,470         $0




     The accompanying notes are an integral part of the financial statements.
     See notes 1 and 21.



98       Consolidating and Combining Statements < General Funds
                                                                                       2002 Annual Financial Statements




Air Force National Guard          2002 Combined Total              2001 Combined Total
                Non-                            Non-                             Non-
Budgetary     Budgetary          Budgetary   Budgetary            Budgetary   Budgetary

 6,019,501                0       96,329,855                0      87,803,883               0
    24,874                0        4,954,597                0       4,913,418               0

   211,677                0        7,203,289                0        7,105,053              0
         0                0          130,206                0       -2,130,103              0


   686,689                0        6,551,584                0        4,875,191              0
   176,577                0          274,507                0          312,728              0

        21                0         106,478                 0         -41,657               0
        72                0          -1,182                 0          64,971               0
 $863,359                $0      $6,931,387                $0      $5,211,233              $0
    79,641                0       1,051,593                 0       1,272,122               0
   -97,071                0      -2,062,413                 0      -1,996,394               0
$7,101,981               $0    $114,538,514                $0    $102,179,212              $0




 5,961,329                0     100,622,101                 0      89,602,365               0
   867,436                0       7,849,904                 0       5,373,560               0
 6,828,765                0     108,472,005                 0      94,975,925               0

   185,036                0       5,268,178                 0       6,367,908               0
         0                0           4,607                 0           2,494               0
         0                0              -1                 0               1               0
    88,180                0         793,725                 0         832,884               0
$7,101,981               $0    $114,538,514                $0    $102,179,212              $0



 1,052,477                0       37,049,171                0      33,410,761               0

  -277,621                0       -1,481,965                0      -1,207,458               0
      -183                0         -465,207                0        -466,389               0
 1,296,610                0       34,030,703                0      32,011,469               0
   369,015                0        9,738,663                0       6,711,552               0

 6,237,130                0     102,374,064                 0      89,687,692               0
  -686,710                0      -6,658,063                 0      -4,833,534               0
 5,550,420                0      95,716,001                 0      84,854,158               0
         0                0        -121,154                 0               0               0
$5,550,420               $0     $95,594,847                $0     $84,854,158              $0




The accompanying notes are an integral part of the financial statements.
See notes 1 and 21.



                                                                            General Funds > Consolidating and Combining Statements
                                                                                                                                     99
  United States Air Force




  Combining Statement of Financing—General Funds
  For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                  Air Force
                                                                                                   Active
  RESOURCES USED TO FINANCE ACTIVITIES
  Budgetary Resources Obligated
     Obligations incurred                                                                          98,287,285
     Less: Spending authority from offsetting collections and recoveries (-)                       -6,714,421
  Obligations net of offsetting collections and recoveries                                         91,572,864
     Less: Offsetting receipts (-)                                                                   -121,154
  Net obligations                                                                                  91,451,710
  Other Resources
     Transfers in/out without reimbursement (+/-)                                                      26,776
     Imputed financing from costs absorbed by others                                                  597,076
     Other (+/-)                                                                                            0
  Net other resources used to finance activities                                                      623,852
  TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                                       92,075,562

  RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS
  Change in budgetary resources obligated for goods, services and benefits ordered but not yet
     Undelivered Orders (-)                                                                        -1,589,571
     Unfilled Customer Orders                                                                         105,256
     Resources that fund expenses recognized in prior periods                                        -599,875
     Resources that finance the acquisition of assets                                             -10,208,478
   Total resources used to finance items not part of the net cost of operations                   -12,292,668
  TOTAL RESOURCES USED TO FINANCE THE NET COST OF OPERATIONS                                      $79,782,894

  COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
  GENERATE RESOURCES IN THE CURRENT PERIOD
  COMPONENTS REQUIRING OR GENERATING RESOURCES IN FUTURE PERIODS
     Increase in annual leave liability                                                               -71,316
     Increase in environmental and disposal liability                                               1,117,408
     Other (+/-)                                                                                       62,701
   Total components of Net Cost of Operations that will require or generate resources in future     1,108,793
  COMPONENTS NOT REQUIRING OR GENERATING RESOURCES
     Depreciation and amortization                                                                  1,505,011
     Revaluation of assets or liabilities (+/-)                                                     3,715,480
     Other (+/-)                                                                                   -3,066,834
   Total components of Net Cost of Operations that will not require or generate resources           2,153,657
  TOTAL COMPONENTS NET COST OF OPERATIONS THAT WILL REQUIRE OR GENERATE
  RESOURCES IN CURRENT PERIOD                                                                      $3,262,450

  NET COST OF OPERATIONS                                                                          $83,045,346




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 22.



100   Consolidating and Combining Statements < General Funds
                                                                                      2002 Annual Financial Statements




   Air Force        Air National          2002           2001 Restated       2001
   Reserve             Guard            Combining         Combining        Combining


     3,355,955          6,828,765       108,472,005          94,975,926      94,975,926
      -325,559           -943,000        -7,982,980          -6,483,355      -6,483,355
     3,030,396          5,885,765       100,489,025          88,492,571      88,492,571
             0                  0          -121,154                   0               0
     3,030,396          5,885,765       100,367,871          88,492,571      88,492,571

           -49                  0            26,727             -17,417         -17,417
             0                  0           597,076             586,864         586,864
             0                  0                 0              -2,731          -2,731
           -49                  0           623,803             566,716         566,716
     3,030,347          5,885,765       100,991,674          89,059,287      89,059,287




      -215,960          -417,253         -2,222,784         -2,402,847      -2,402,847
           -53                92            105,295             23,314          23,314
        -6,347           -45,719           -651,941            574,535         574,535
      -166,139          -485,350        -10,859,967         -9,168,868      -4,569,551
      -388,499          -948,230        -13,629,397         10,973,866      -6,374,549
    $2,641,848        $4,937,535        $87,362,277        $78,085,421     $82,684,738




              0                  0           -71,316                  0               0
              0                  0         1,117,408                  0               0
          8,914              1,587            73,202            467,148         467,148
          8,914              1,587         1,119,294            467,148         467,148

        42,301            247,783          1,795,095          2,895,300       2,895,300
             0                  0          3,715,480            -15,771         -15,771
       238,432            576,071         -2,252,331          3,642,820       3,642,820
       280,733            823,854          3,258,244          6,522,349       6,522,349

      $289,647          $825,441          $4,377,538         $6,989,497      $6,989,497

    $2,931,494        $5,762,975        $91,739,815        $85,074,918     $89,674,235




The accompanying notes are an integral part of the financial statements.
See notes 1 and 22.



                                                                           General Funds > Consolidating and Combining Statements
                                                                                                                                    101
  United States Air Force




                                                     This page intentionally left blank.




102   Consolidating and Combining Statements < General Funds
                                   2002 Annual Financial Statements




General Funds

Required Supplementary
Stewardship Information




                 General Funds > Required Supplementary Stewardship Information
                                                                                  103
  United States Air Force




                                                      This page intentionally left blank.




104   Required Supplementary Stewardship Information < General Funds
                                                                                    2002 Annual Financial Statements




National Defense Property, Plant and Equipment
The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial Accounting
Standards No. 6 to require the capitalization of military equipment (formerly National Defense Property, Plant and
Equipment (ND PP&E)) for fiscal year (FY) 2003 and beyond and encouraged early implementation. Based on this, the
Department of Defense terminated the reporting of quantities and condition of military equipment in FY 2002.

                                                    Heritage Assets
                                        For Fiscal Year Ended September 2002


                                         Measurement   As of                                           As of
                                                                      Additions        Deletions
                                          Quantities 10/01/01                                         9/30/02
            Museums                           Each               19               0              1            18
            Monuments and Memorials           Each              151               0              0           151
            Cemeteries                        Sites              39               0              0            39
            Archeological Sites               Sites           1,518             167              0         1,685
            Buildings and Structures          Each            4,340               0            266         4,074
            Major Collections                 Each                4               0              0             4



1. Museums
The Air Force Museum, located at Wright-Patterson Air Force Base, Ohio, houses the main collection of historical arti-
facts that are registered as historical property in the USAF Museum System. The other 17 Air Force museums are con-
sidered Air Force Field Museums or Heritage Centers, which also contain items of historical interest; some however, are
specific to the general locality.

During FY 2002, the Fairchild Heritage Center closed and was deleted from the AF inventory. All remaining museums
and Heritage Centers are reported in acceptable condition.

2. Monuments and Memorials
The memorials and monuments reported above, except for 28, are all located at the Air Force Academy in the Air
Gardens and Honor Court. Most of these monuments and memorials honor specific individuals or cadet wings for vari-
ous accomplishments. The remaining 28 memorials, all with costs that exceed $100,000, are located on various Air
Force bases throughout the United States. All are reported in acceptable condition.

3. Cemeteries
The Air Force has administrative and curatorial responsibilities for 39 cemeteries on its bases. The cemeteries are main-
tained by the bases and are in good condition.

4. Archeological Sites
As of 30 September 2002, the AF has 1,685 archeological sites listed on or eligible for the National Register. The
increase over last year’s figure is a result of the completion of more archeological surveys on AF managed land. In
addition, the AF has 9,779 potentially eligible archeological sites, and 2,464 non-eligible archaeological sites, neither
are listed on this report. The numbers of archaeological sites will increase yearly as the AF completes surveys in compli-
ance with the National Historic Preservation Act. The number of archaeological sites on AF managed lands is reported




                                                                  General Funds > Required Supplementary Stewardship Information
                                                                                                                                   105
  United States Air Force




  each year in the Report to Congress on Federal Archaeological Activities (FY01 report submitted March 02). The identi-
  fied sites are maintained in an acceptable condition.

  5. Buildings and Structures
  The Air Force currently considers 4,074 buildings and structures as heritage assets. In FY 2002, the Air Force per-
  formed a closer review of its heritage asset data and refined the reporting criteria that resulted in decreasing the num-
  ber of heritage structures by 266. Most of these buildings and structures are considered Multi-use Heritage Assets, and
  as such, have been reported as general Property, plant and equipment on the Balance Sheet. The buildings and struc-
  tures are maintained by each base civil engineering group and are considered to be in good condition.

  6. Major Collections
  The Air Force has 4 significant or major collections consisting of: (a) the Air Force Art Collection, and (b) three collec-
  tions at the Air Force Academy containing historical items and memorabilia as well as distinctive works of art. The cura-
  tors for all major collections reported the contents to be in good condition. They further added that almost all of the
  materials are protected in an environment suitable for long-term storage. The overall condition of the collections in the
  museums is good; items are displayed and protected in accordance with the standards of Air Force Instruction 84-103,
  USAF Museum System.

                                                            Stewardship Land
                                        For Fiscal Year Ended September 2002 (acres in thousands)

                                      (a)                        (b)            (c)          (d)               (e)
                                   Land Use               As of 10/01/01     Additions    Deletions      As of 9/30/02
                        1. Mission                              7,734           20              26           7,728
                        2. Parks and Historic Sites                 -                                            -
                        Totals                                  7,734           20              26           7,728


  The Air Force has 7,734 acres of mission-essential land under their administration. Lands purchased by the Air Force
  with the intent to construct buildings or facilities are considered general property, plant and equipment and are reported
  on the balance sheet. All stewardship lands reported are in acceptable condition.
                                                      Nonfederal Physical Property
                                            Yearly Investment in State and Local Governments
                                           For Fiscal Years 1998 through FY 2002 ($ in millions)

                                            Categories                     FY 1999 FY 2000 FY 2001 FY 2002
                           Funded Assets:
                             National Defense Mission Related               $16.6        $6.8        $20.2   $21.3
                           Total                                            $16.6        $6.8        $20.2   $21.3



  The Air National Guard investments in non-federal physical property are strictly through the Military Construction
  Cooperative Agreements (MCCAs). These agreements involve the transfer of money only and allow joint participation
  with States, Counties, and Airport Authorities for construction or repair of airfield pavements and facilities required to
  support the flying mission assigned at these civilian airfields.




106   Required Supplementary Stewardship Information < General Funds
                                                                                     2002 Annual Financial Statements




Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
used because current DoD systems are unable to capture and summarize costs in accordance with the Federal
Accounting Standards Advisory Board Requirements.

                                      Investments in Research and Development
                                     Yearly Investment in Research and Development
                                    For Fiscal Years 1998 through 2002 ($ in millions)

                             Categories                       FY 1998 FY 1999 FY 2000 FY 2001 FY 2002
         1. Basic Research                                        $212    $206    $193    $230    $214
         2. Applied Research                                       583     562     547     582     683
         3. Development
             Advanced Technology Development                       491         483          496          522         508
             Demonstration and Validation                        1,197       1,295        1,013        1,039       1,067
             Engineering and Manufacturing Development           4,371       4,200        3,991        3,776       3,088
             Research, Development, Test and Evaluation
             Management Support                                 1,097         934          805          747         910
             Operational Systems Development                    6,798       6,810        7,062        7,377       7,815
         Totals                                               $14,742     $14,490      $14,107      $14,273     $14,285


Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena
and of observable facts without specific applications, processes, or products in mind. Basic Research involves the gath-
ering of a fuller knowledge or understanding of the subject under study. Major outputs are scientific studies and
research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by
which a recognized and specific need may be met. It is the practical application of such knowledge or understanding
for the purpose of meeting a recognized need. This research points toward specific military needs with a view toward
developing and evaluating the feasibility and practicability of proposed solutions and determining their parameters.
Major outputs are scientific studies, investigations, and research papers, hardware components, software codes, and
limited construction of, or part of, a weapon system to include nonsystem specific development efforts.

Development takes what has been discovered or learned from basic and applied research and uses it to establish tech-
nological feasibility, assessment of operability, and production capability. Development is comprised of five stages
defined below:

1. Advanced Technology Development is the systematic use of the knowledge or understanding gained from research
directed toward proof of technological feasibility and assessment of operational and producibility rather than the devel-
opment of hardware for service use. Employs demonstration activities intended to prove or test a technology or method.

2. Demonstration and Validation evaluates integrated technologies in as realistic an operating environment as possible
to assess the performance or cost reduction potential of advanced technology. Programs in this phase are generally sys-
tem specific. Major outputs of Demonstration and Validation are hardware and software components, or complete
weapon systems, ready for operational and developmental testing and field use.

3. Engineering and Manufacturing Development concludes the program or project and prepares it for production. It
consists primarily of pre-production efforts, such as logistics and repair studies. Major outputs are weapon systems
finalized for complete operational and developmental testing.




                                                                   General Funds > Required Supplementary Stewardship Information
                                                                                                                                    107
  United States Air Force




  4. RDT&E Management Support is support for installations and operations for general research and development use.
  This category includes costs associated with test ranges, military construction maintenance support for laboratories,
  operations and maintenance of test aircraft and ships, and studies and analysis in support of the R&D program.

  5. Operational Systems Development is concerned with development projects in support of programs or upgrades still
  in engineering and manufacturing development, which have received approval for production, for which production
  funds have been budgeted in subsequent fiscal years.

  The following are two representative program examples for each of the above major categories:

  Basic Research—The Air Force’s (AF) Basic Research program funded basic scientific disciplines that are core to devel-
  oping future warfighting capabilities. Funding was provided to twelve different scientific projects areas. These focused
  on atmospherics, biological sciences, chemistry, electronics, fluid mechanics, human performance, materials, mathe-
  matical and computer sciences, physics, propulsion, space sciences, and structures. (1) One example is the develop-
  ment of technology that could be the breakthrough for a new generation of computers (quantum computers). The AF
  Research Lab (AFRL) demonstrated the ability to stop light and release it again without losing any of its original charac-
  teristics. This development could lead to a breakthrough in nonlinear optics with applications from telecommunications
  to imaging, which could be useful in designing ultra-sensitive optical switches. (2) Another example, AFRL researchers
  developed a new mathematical theory that would result in a new radar wave that would aid in rapid and accurate tar-
  get identification through foliage and beneath soil, better than any radar currently in use.

  Applied Research—The AF’s Applied Research program is developing technologies to support the air and space force
  of the future. Technology developments are focused in those areas that are essential to these warfighting capabilities.
  This investment strategy allows the AF to focus on those military-relevant technologies that are not being developed by
  industry. (1) One example is the F119 turbine engine case redesign using a new casting process, with a predicted life-
  cycle cost savings of 35 percent. The redesign makes extensive use of thin-wall castings in place of the existing com-
  plex, multi-walled, and diffusion-bonded sheet metal assemblies. The AF is now looking at this technology for use on
  other aircraft engines. Example two, AFRL recently achieved a milestone in wireless Internet communications with the
  first commercial installation of the Space Communications Protocol Standards (SCPS) transport gateway over National
  Aeronautics and Space Administration’s Advanced Communications Technology Satellite. The SCPS transport gateway
  offers up to several times the bandwidth utilization efficiency of the well-known Internet protocols.

  Advanced Technology Development—The AF’s Advanced Technology Development program demonstrates, in a realis-
  tic operational environment, integrated sets of technology to prove military worth and utility. The first example was the
  AF and the Defense Advanced Research Projects Agency accomplishing the first Unmanned Combat Air Vehicle (UCAV)
  flight. This successful flight test demonstrated the command and control links between the aircraft and a mission-orient-
  ed ground station. Secondly, AFRL also demonstrated a 330 Gigahertz detector that operates at frequencies billions of
  times faster than the blink of an eye. This technology will be used to produce compact solid-state circuits operating at
  Terahertz frequencies. Likely technology application would be to enable a new generation of sensors to enhance home-
  land security.

  Demonstration and Validation—The AF’s demonstration and validation programs are comprised of system specific
  advanced technology integration efforts accomplished in an operational environment to help expedite transition from
  the laboratory to operational use. Example of the AF’s Demonstration and Validation effort is: The Command and
  Control System-Consolidated (CCS-C) program. The CCS-C will replace the aging S-Band Command and Control




108   Required Supplementary Stewardship Information < General Funds
                                                                                    2002 Annual Financial Statements




Segment (CCS) that is currently used for the command and control of Military Satellite Communications satellites (MIL-
SATCOM) by the 50th Space Wing (50SW) at Schriever AFB. The CCS-C system selected will drastically reduce the sus-
tainment costs that would have been needed to maintain the aging CCS and offers tremendous enhancements to ease
our satellite operators’ workload, enabling accurate and efficient control of MILSATCOM satellites. The system is sched-
uled to take over command and control of MILSATCOM satellites at the end of fiscal year 2004.

Engineering and Manufacturing Development—The AF’s engineering and manufacturing development (EMD) efforts
are development projects which have not received approval for full-production. Examples of AF EMD efforts are: (1) the
space Based infrared System Increment 1 Mission Control Station (MCS) achieved initial operational capability on 18
December 2001. The MCS consolidates Defense Support Program operations at Buckley AFB, Colorado, reducing
manpower by 58 Percent and operations and maintenance costs by 25 percent. Subsequent upgrades to the MCS
throughout fiscal year 2002 resulted in closure of the Air-Land Enhanced Reconnaissance and Targeting (ALERT) ground
station on 25 September 2002, consolidating all space-based strategic and theater missile warning operations, realiz-
ing additional manpower and Operations and Maintenance funds savings. (2) Another example, the Fighter/Attack
(F/A)-22 Program is developing the next generation air dominance fighter designed to penetrate enemy airspace and
achieve a first look, first kill capability against multiple targets. The F/A-22’s combination of stealth, supercruise,
maneuverability, and integrated avionics, coupled with improved supportability, represents an exponential leap in
warfighting capabilities and allows for the full realization of operational concepts that are vital to the 21st century Air
Force. The F/A-22 will replace the F-15-C as the frontline USAF air superiority fighter with initial operational capability
planned for December 2005. The F/A-22 has been in Engineering and Manufacturing Development (EMD) since 1991
and is currently meeting or exceeding all Key Performance Parameters. Significant program accomplishments in fiscal
year 2002 include:

◗   Completed full-scale airframe static testing

◗   Completed 1st full-scale airframe lifetime fatigue test

◗   Initiated 2nd full-scale airframe lifetime fatigue test

◗   Completed assembly of (EMD) aircraft #4007, 4008, and 4009

◗   Completed avionics software Black 3.0 flight testing

◗   Completed F119 production engine configuration development testing

◗   Completed live fire testing on aircraft #4001

◗   Exceeded 2000 flight test hours on the EMD aircraft fleet

Research, Development, Test, and Evaluation Management Support—The AF’s Research, Development, Test, and
Evaluation (RDT&E) Management Support efforts include projects directed toward support of installation or operations
required for general research and development use. Included would be test ranges, military construction, maintenance
support of laboratories, operation and maintenance of military construction, maintenance support of laboratories, oper-
ation and maintenance of t test aircraft and ships, and studies and analyses in support of the research and develop-
ment program. Example of Air Force RDT&E management support is: The Major Test and Evaluation Investment pro-
gram, which funds the planning, improvements and modernization for three national asset test centers having over $10




                                                                  General Funds > Required Supplementary Stewardship Information
                                                                                                                                   109
  United States Air Force




  billion of unique test facilities/capabilities operated and maintained by the AF for the Department of Defense (DoD) test
  and evaluation missions, and available to others having a requirement for their unique capabilities. The test capabilities
  and facilities are operated and maintained by the Air Force for the DoD test and evaluation missions, and are available
  to others having a requirement for their unique capabilities. Many efforts are contained within this program, but two
  examples are the Propulsion Wind Tunnel Upgrade at Arnold Engineering Development Center. This effort replaces out-
  dated data acquisition, processing, control systems and drive motors. A second example is the Threat Simulator
  Development program, which supports many of the AF Electronic Warfare Test Processes. Current projects focus on
  improved Low Radar Cross Section threat modeling and simulation, and enhanced infrared and radio frequency coun-
  termeasures testing.

  Operational Systems Development—The AF’s operational system efforts include projects in support of development
  acquisition programs or upgrades in System Demonstration and Development (SDD). Examples of operational systems
  development are: (1) AIM-9X Sidewinder project which improves seeker performance, infrared counter-countermea-
  sures, and kinematics of the AIM-9M short range air-to-air missile. Aim9X regains short, within visual range (WVR) first-
  shot, first-kill capability for the U.S. warfighter. Test and Evaluation efforts have been positive, 18 of 19 successful guid-
  ed launches with 10 direct hits to target drones. Other notable accomplishments include continuation of flight test
  activities, such as, Operations/Operational Evaluation (OPEVAL) and Developmental Test (DT) assist, and low rate ini-
  tial production (LRIP2) contract was awarded Nov 2001. (2) Another example is the Airborne Warning and Control
  System (AWACS) projects included Integrated Demand Assigned Multiple Assess (DAMA)/Global Air Traffic
  Management (GATM) Integrated Drive Generator (IDG) capability. IDG provides the AWACS system with the capabili-
  ties and certifications required to meet air traffic control requirements including Reduced Vertical Separation Minimum
  (RVSM), 8.33 KHz VHF Channel Spacing, Aircraft Collision Avoidance System (ACAS) with Mode-S Transponder, as well
  as the improved Satellite Communications (SATCOM) voice capability provided by DAMA. Initial System Development
  and Design began this year.




110   Required Supplementary Stewardship Information < General Funds
                         2002 Annual Financial Statements




General Funds

Required Supplementary
Information




                   General Funds > Required Supplementary Information
                                                                        111
  United States Air Force




  Disaggregated Statement of Budgetary Resources—General Funds
  For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                          Research,
                                                                        Development,    Operation
                                                                           Test &          and
                                                            Other        Evaluation    Maintenance
  BUDGETARY RESOURCES
    Budget Authority:
       Appropriations received                                398,770     14,868,331     32,686,841
       Net transfers (+/-)                                   -382,758         73,710      2,787,187
    Unobligated balance:
       Beginning of period                                     2,746       1,717,387       657,136
       Net transfers, actual (+/-)                                -1           7,000       -18,461
    Spending authority from offsetting collections:
       Earned
         Collected                                            10,232       2,234,907      3,885,160
         Receivable from Federal sources                      -2,448          41,117        245,627
       Change in unfilled customer orders
         Advance received                                          0          93,487         15,852
         Without advance from Federal sources                      0         -12,238         11,896
       Subtotal                                               $7,784      $2,357,273     $4,158,535
    Recoveries of prior year obligations                           0         132,143        399,990
    Permanently not available                                 -2,679        -545,039       -548,348
    TOTAL BUDGETARY RESOURCES                                $23,862     $18,610,805    $40,122,880

  STATUS OF BUDGETARY RESOURCES
     Obligations incurred:
         Direct                                               11,300      14,793,149     35,194,274
         Reimbursable                                          7,784       2,373,646      4,182,384
         Subtotal                                            $19,084     $17,166,795    $39,376,658
     Unobligated balance:
         Apportioned                                             171       1,373,329        143,695
         Exempt from apportionment                             4,607               0              0
         Other available                                           0               0              0
     Unobligated Balances Not Available                            0          70,681        602,528
     Total, Status of Budgetary Resources                    $23,862     $18,610,805    $40,122,881

  Relationship of Obligations to Outlays:
     Obligated Balance, Net – beginning of period              5,436       5,760,646      9,624,979
     Obligated Balance, Net – end of period:
         Accounts receivable                                        0       -309,599     -1,121,681
         Unfilled customer order from Federal sources               0       -300,617        -68,982

          Undelivered orders                                   3,327       5,581,213     10,733,715
          Accounts payable                                     4,732       1,239,430      3,071,582
      Outlays:
          Disbursements                                        18,909     16,555,993     35,729,491
          Collections                                         -10,232     -2,328,394     -3,901,013
          Subtotal                                             $8,677    $14,227,599    $31,828,478
      Less: Offsetting receipts                                     0              0       -121,154
      NET OUTLAYS                                              $8,677    $14,227,599    $31,707,324




112    Required Supplementary Information < General Funds
                                                                      2002 Annual Financial Statements




                               Military
                             Construction/
                Military        Family         2002           2001
Procurement    Personnel       Housing       Combined       Combined


  23,489,909    22,758,228      2,127,776      96,329,855     87,803,883
     438,813     2,028,650          8,995       4,954,597      4,913,418
                                                                       0
   4,152,063      164,878         509,077       7,203,289      7,105,053
     125,333       26,845         -10,510         130,206     -2,130,103


    181,295       232,990            7,001      6,551,584      4,875,191
     13,481       -23,269               -1        274,507        312,728

      -2,862             0              0         106,478        -41,657
        -836            -3              0          -1,182         64,971
   $191,078       $209,718         $7,000      $6,931,387     $5,211,233
     397,275       112,531          9,653       1,051,593      1,272,122
    -840,180       -85,513        -40,654      -2,062,413     -1,996,394
 $27,954,291   $25,215,337     $2,611,337    $114,538,514   $102,179,212




 24,838,698     23,927,233      1,857,447     100,622,101     89,602,365
    207,447      1,071,644          7,000       7,849,904      5,373,560
$25,046,145    $24,998,877     $1,864,447    $108,472,005    $94,975,925

   2,909,707       101,771        739,505       5,268,178      6,367,908
           0             0              0           4,607          2,494
           0             0              0              -1              1
      -1,560       114,690          7,385         793,725        832,884
 $27,954,292   $25,215,338     $2,611,337    $114,538,514   $102,179,212



  18,182,537     1,749,314      1,726,258      37,049,171     33,410,761

     -47,650        -3,036               1     -1,481,965     -1,207,458
     -95,607             0               0       -465,207       -466,389

  15,650,443       -66,323      2,128,328      34,030,703     32,011,469
   3,029,748     2,349,609         43,564       9,738,663      6,711,552

  24,281,828    24,378,681      1,409,161     102,374,064     89,687,692
    -178,434      -232,990         -7,001      -6,658,063     -4,833,534
 $24,103,394   $24,145,691     $1,402,160     $95,716,001    $84,854,158
           0             0              0        -121,154              0
 $24,103,394   $24,145,691     $1,402,160     $95,594,847    $84,854,158




                                                                General Funds > Required Supplementary Information
                                                                                                                     113
  United States Air Force




                                               General Property, Plant, and Equipment
                                              Real Property Deferred Sustainment Tables
                                                As of September 30, 2002 ($ in thousands)

                                                                           Fiscal Year 2002
                                                                         Annual Sustainment
                                    Property Type                Required          Actual    Difference
                         Buildings and Structures (O&M)             1,846,393      1,253,764    $592,629
                         Military Family Housing                      630,996        414,997     215,999
                                                                   $2,447,389     $1,668,761    $808,628

                                    Property Type                 FY 2001        FY 2002
                         Buildings and Structures (O&M)               128,740       592,629
                         Military Family Housing                      239,730       215,999
                                                                     $368,470      $808,628

                                    Property Type                 FY 2001        FY 2002      Change
                         Buildings, Structures, and Utilities     $21,200,000    21,000,000   ($200,000)

  The change in the deferred sustainment amounts reflects that in FY 2001 the O&M Sustainment actuals were estimated,
  using the FY 01 methodology of recording 85 percent of the total of all maintenance, repair, and minor construction.
  In FY 2002 the O&M required amount is based on the draft DoD Financial Management Regulation, Volume 6B,
  Chapter 12, dated June 2002, using the Facilities Sustainment Model (FSM) with FY 2004 requirements, deflated to
  FY 2002. Comparing the Deferred Sustainment amounts for these two years may be largely irrelevant from a statistical
  perspective since different methodologies were used. FY 02 Sustainment requirements were determined and pro-
  grammed based on 1% of AF plant replacement value.

  O&M Sustainment was initially underfunded for FY 02 due primarily to a Program Budget Decision which redirected
  some Sustainment funds to other Air Force readiness requirements.

  Notes
  MFH Deferred Sustainment is based upon a combination of historical expenditures for day-to-day maintenance and
  condition assessment surveys for MFH real property maintenance by contract. These requirements are part of the 1999
  Family Housing Master Plan.

  The Air Force does not maintain data on the cost to C1 for all facilities. The Installations’ Readiness Report (IRR) high-
  lights cost to C2 but that does not include the total AF backlog. Restoration and Modernization (R&M) requirements
  were therefore estimated for FY 02 and FY 01 based on the estimated Air Force backlog. This includes the total R&M
  (O&M) requirement projected for each year and non-Military Family Housing (MFH) and MFH MILCON requirements
  to C2 from the FY 01 and FY 00 IRR’s, respectively. Figures do not include requirements for Research, Development,
  Test, and Evaluation facilities, nor Working Capital Fund, Non-appropriated Fund, or other non-O&M facilities.

  Real Property Condition Information
  The readiness of Air Force facilities is assessed using the IRR. The IRR assigns C-ratings ranging from C-4 (worst) to C-1
  (best) facilities aggregated in nine facility classes. The FY 01 IRR identified that 63 percent of Air Force facility classes
  were rated C-4 or C-3 (i.e., below minimal acceptable performance).




114   Required Supplementary Information < General Funds
                                                                               2002 Annual Financial Statements




                                       National Defense Property, Plant, and
                                    Equipment Deferred Maintenance Amounts
                                   As of September 30, 2001 (Amounts in Thousands)

                                   Aircraft                              $40,487
                                   Other Weapons Systems                 113,206
                                   Total                                $153,693

The figures presented above are actual amounts for FY 02. The figures include amounts for the Active Air Force, Air
National Guard, and the Air Force Reserve. Other Weapons Systems include engines ($6.6 million); software ($72.9
million); other major end items ($5.3 million); non-Materiel Support Division ($25.4 million); area, base, and manufac-
turing support ($2.8 million); and storage ($.2 million).




                                                                         General Funds > Required Supplementary Information
                                                                                                                              115
  United States Air Force




      Schedule, Part A
      DoD Intra-governmental Asset Balances                    Treasury   Fund Balance Accounts      Loans
      ($ in thousands)                                           Index    with Treasury Receivable Receivable Investments   Other
      Unidentifiable Federal Agency Entity
                                                                  0                           $0
      (Other than DoD entities)
      Executive Office of the President                            11                      $3,493
      Department of Agriculture                                    12                      $2,095
      Department of Commerce                                       13                      $1,192
      Department of the Interior                                   14                      $5,637
      Department of Justice                                        15                     $11,340
      Navy General Fund                                            17                     $25,752
      United States Postal Service                                 18                       $515
      Department of State                                          19                     $13,007
      Department of the Treasury                                   20     $47,942,751      $2,999                   $708
      Army General Fund                                            21                     $28,109                           $2,032
      Office of Personnel Management                               24                         $18
      Social Security Administration                               28                       $181
      Department of Veterans Affairs                               36                      $2,449
      General Services Administration                              47                      $2,893
      National Science Foundation                                  49                      $1,288
      Central Intelligence Agency                                  56                       $517
      Air Force General Fund                                       57
      Federal Emergency Management Agency                          58                       $577
      Environmental Protection Agency                              68                        $66
      Department of Transportation                                 69                    $48,777
      Agency for International Development                         72                    $14,781
      Small Business Administration                                73                         $1
      Department of Health and Human Services                      75                        $37
      National Aeronautics and Space Administration                80                    $26,530
      Department of Energy                                         89                    $15,933
      Department of Education                                      91                       $489
      US Army Corps of Engineers                                   96                        $89
      Other Defense Organizations General Funds                    97                   $211,392                            $1,311
      Other Defense Organizations Working Capital Funds         97-4930                   $7,105
      Army Working Capital Fund                               97-4930.001                   $833                               $45
      Air Force Working Capital Fund                          97-4930.003                $15,060                            $1,600
      Totals might not match reports                             TOTAL    $47,942,751   $443,155          $0       $708     $4,988




116      Required Supplementary Information < General Funds
                                                                        2002 Annual Financial Statements




                                                                                     Debts/
Schedule, Part B                                                                  Borrowings
DoD Intra-governmental Entity Liabilities            Treasury     Accounts        from Other
($ in thousands)                                       Index      Payable          Agencies            Other
Department of Commerce                                   13                                             $19,636
Department of the Interior                               14                                             $26,765
Department of Justice                                    15                                                  $0
Department of Labor                                      16                                            $327,805
Navy General Fund                                        17           $60,070                              $555
United States Postal Service                             18                                                  $1
Department of the Treasury                               20                                          $1,592,696
Army General Fund                                        21           $44,640                            $5,673
Office of Personnel Management                           24          ($13,773)                          $45,971
General Services Administration                          47                                             $35,579
Department of Transportation                             69                                             $51,537
National Aeronautics and Space Administration            80                                             $38,351
Department of Energy                                     89                                              $1,364
US Army Corps of Engineers                               96              $42
Other Defense Organizations General Funds                97         $103,280              $134          $33,154
Other Defense Organizations Working Capital Funds     97-4930       $464,506
Army Working Capital Fund                           97-4930.001       $1,004
Navy Working Capital Fund                           97-4930.002      $11,688
Air Force Working Capital Fund                      97-4930.003     $453,277                                $0
Totals might not match reports                         TOTAL      $1,124,734              $134      $2,179,087




                                                                  General Funds > Required Supplementary Information
                                                                                                                       117
  United States Air Force




                   Schedule, Part C
                   DoD Intra-governmental Revenue and Related Costs          Treasury           Earned
                   ($ in thousands)                                            Index           Revenue
                   Executive Office of the President                             11               $23,602
                   Department of Agriculture                                     12                  $296
                   Department of Commerce                                        13                 $9,292
                   Department of the Interior                                    14                 $3,234
                   Department of Justice                                         15               $18,274
                   Navy General Fund                                             17              $227,187
                   United States Postal Service                                  18                  $437
                   Department of State                                           19               $68,003
                   Department of the Treasury                                    20                 $6,478
                   Army General Fund                                             21              $259,932
                   Office of Personnel Management                                24                    $31
                   Social Security Administration                                28                  $257
                   Department of Veterans Affairs                                36                 $7,682
                   General Services Administration                               47                 $6,585
                   National Science Foundation                                   49               $45,986
                   Central Intelligence Agency                                   56                   $130
                   Federal Emergency Management Agency                           58                  $119
                   Environmental Protection Agency                               68                  $405
                   Department of Transportation                                  69               $94,240
                   Agency for International Development                          72                 $7,559
                   Small Business Administration                                 73                     $1
                   Department of Health and Human Services                       75                   $196
                   National Aeronautics and Space Administration                 80              $153,401
                   Department of Energy                                          89               $49,267
                   Department of Education                                       91                  $353
                   US Army Corps of Engineers                                    96                  $334
                   Other Defense Organizations General Funds                     97            $1,194,048
                   Other Defense Organizations Working Capital Funds          97-4930             $29,590
                   Army Working Capital Fund                                97-4930.001             $1,137
                   Air Force Working Capital Fund                           97-4930.003          $119,270
                   Total might not match reports                               TOTAL           $2,327,326




                   Schedule, Part E
                   DoD Intra-governmental Non-exchange Revenues         Treasury     Transfers Transfers
                   ($ in thousands)                                       Index         In        Out
                   Navy General Fund                                        17                    $4,733
                   Army General Fund                                        21                    $9,055
                   Air Force Working Capital Fund                      97-4930.003   $40,515
                   Totals might not match reports                         TOTAL      $40,515    $13,788




118   Required Supplementary Information < General Funds
                2002 Annual Financial Statements




General Funds

Audit Opinion




                        General Funds > Audit Opinion
                                                        119
  United States Air Force




                                      This page intentionally left blank.




120   Audit Opinion < General Funds
                                                                                        2002 Annual Financial Statements




                                                      INSPECTOR GENERAL
                                                   DEPARTMENT OF DEFENSE
                                                     400 ARMY NAVY DRIVE
                                               ARLINGTON, VIRGINIA 22202-4704

                                                                                                                  January 6, 2003

                            MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                                       (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Air Force General Funds Fiscal Year 2002 Principal Financial
Statements (Report No. D-2003-041)

The Chief Financial Officers Act of 1990, as amended, requires the Inspector General of the Department of Defense to
audit the accompanying Consolidated Balance Sheet of the Air Force General Funds as of September 30, 2002 and
2001; the related Consolidated Statements of Net Cost and Changes in Net Position; and the Combined Statements of
Financing1 and Budgetary Resources. These principal financial statements are the responsibility of Air Force manage-
ment. Air Force management is also responsible for implementing effective internal control and for complying with laws
and regulations. We are also including the required reports on internal control and compliance with laws and regula-
tions.

Disclaimer of Opinion on the Financial Statements
The Air Force did not provide the financial statements on a timely basis in accordance with the terms of engagement. In
addition, as discussed in the Attachment, previously identified material weaknesses in internal control and instances of
noncompliance with laws and regulations continued to affect the current period. Because of those conditions, manage-
ment acknowledged that the financial data reported in the financial statements were unreliable. These deficiencies
would have precluded an audit opinion. As a result, we were unable to complete required audit procedures. Therefore,
the scope of our work was not sufficient to enable us to express, and we do not express, an opinion on the referenced
financial statements and other information.2

Summary of Internal Control
In planning and performing our audit, we considered the Air Force internal control over financial reporting and compli-
ance. We did this to determine our procedures for auditing the financial statements and to comply with Office of
Management and Budget guidance, but not to express an opinion on internal control. Accordingly, we do not express


1 The Office of Management and Budget requires a Consolidated Statement of Financing, instead of the Combined Statement of
Financing prepared by the Air Force.

2 Other information includes Management’s Discussion and Analysis, the Required Supplementary Stewardship Information,
Required Supplementary Information, and Other Accompanying Information.




A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time.
—Constitution of the United States, Article 1, Section 9




                                                                                                    General Funds > Audit Opinion
                                                                                                                                    121
  United States Air Force




  an opinion on internal control over financial reporting and compliance because management acknowledged at the
  beginning of our engagement that previously identified reportable conditions3, all of which are material, continued to
  exist and affect the current period. Therefore, we did not perform tests of Air Force General Fund internal control.4 See
  the Attachment for details on material internal control weaknesses. A internal weakness is a condition that precludes the
  entity’s internal control from providing reasonable assurance that misstatements, noncompliance, or losses that are
  material in relation to the financial statements would be prevented or detected on a timely basis. Our internal control
  work would not necessarily disclose all material weaknesses.

  Summary of Compliance With Laws and Regulations
  Our work to determine compliance with selected provisions of the applicable laws and regulations was limited because
  management acknowledged at the beginning of our engagement that previously reported instances of noncompliance
  continue to exist and affect the current period. Therefore, we did not determine whether the Air Force General Funds
  complied with all applicable laws and regulations related to financial reporting. See the Attachment for details on com-
  pliance with laws and regulations.

  In order for the DoD to comply with statutory reporting requirements and applicable financial systems requirements, the
  Under Secretary of Defense (Comptroller)/Chief Financial Officer is developing the DoD-wide financial management
  enterprise architecture. The DoD anticipates developing and implementing the financial management enterprise archi-
  tecture by 2007. Until the architecture is developed and implemented, the Air Force will be unable to fully comply with
  the statutory reporting requirements.

  We caution that other noncompliance may have occurred and not been detected. Further, the results of our limited pro-
  cedures may not be sufficient for other purposes. Our objective was not to express an opinion on compliance with
  applicable laws and regulations.

  Management Responsibility
  Management is responsible for:

  ◗   preparing the financial statements in conformity with generally accepted accounting principles,

  ◗   establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
      objectives of the Federal Managers’ Financial Integrity Act of 1982 are met,



  3 Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated to man-
  agement because they represent significant deficiencies in the design or operation of internal control, which could adversely affect
  the organization’s ability to initiate, record, process, and report financial data consistent with the assertions of management in finan-
  cial statements.

  4 Section 1008(d) of the FY 2002 National Defense Authorization Act requires the Inspector General of the Department of Defense
  to perform only the audit procedures required by generally accepted government auditing standards that are consistent with the rep-
  resentations made by management.

  A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time.
  —Constitution of the United States, Article 1, Section 9




122   Audit Opinion < General Funds
                                                                                        2002 Annual Financial Statements




◗   ensuring that Air Force General Funds financial management systems substantially comply with Federal Financial
    Management Improvement Act of 1996 requirements, and

◗   complying with applicable laws and regulations.




                                                       David K. Steensma
                                               Deputy Assistant Inspector General
                                                           for Auditing



Attachment
As stated




A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time.
—Constitution of the United States, Article 1, Section 9




                                                                                                    General Funds > Audit Opinion
                                                                                                                                    123
  United States Air Force




                                      This page intentionally left blank.




124   Audit Opinion < General Funds
                                                                                        2002 Annual Financial Statements




          Reports on Internal Control and Compliance with Laws and Regulations
                                                       Internal Control
Management is responsible for implementing effective internal control and for providing reasonable assurance that
accounting data are accumulated, recorded, and reported properly; and that assets are safeguarded. We did not per-
form tests of Air Force internal control over financial reporting and we did not obtain sufficient evidence to support or
express an opinion on internal control because management acknowledged at the beginning of our engagement that
material weaknesses identified in prior periods continued to exist and affect the current period.*

Previously identified reportable conditions, all of which are material, continue to exist in the following areas.

Financial Management Systems
◗   Because the Air Force had not implemented the U.S. Government General Ledger at the transaction level, internal
    control over recording transactions was not sufficient to ensure that all valid transactions were accurately recorded
    and all recorded transactions were accurately reported in the financial statements.

◗   The financial management systems could not report financial data in compliance with generally accepted account-
    ing principles and OMB Bulletin 01-09, “Form and Content of Agency Financial Statements,” September 25,
    2001, due to limitations in the financial management processes and systems.

Intragovernmental Transactions
◗   Air Force internal control was not sufficient to ensure that all intragovernmental accounts receivable, accounts
    payable, and revenue transactions were eliminated.

◗   The Air Force was unable to reconcile intragovernmental accounts receivable or accounts payable, or reconcile
    intragovernmental revenue balances with its trading partners.

Disbursements, Collections, and Obligations
◗   Internal control was not sufficient to provide obligations incurred and recoveries of prior year obligations in accor-
    dance with governing directives.

◗   Internal control over matching disbursements to respective obligations and collections to respective receivables was
    not sufficient to ensure all disbursements were valid and accounts receivable and accounts payable balances were
    accurately stated.




* Section 1008(d) of the FY 2002 National Defense Authorization Act requires the Inspector General of the Department of Defense
to perform only the audit procedures required by generally accepted government auditing standards that are consistent with the rep-
resentations made by management.




                                                                                                                        Attachment




                                                                                                    General Funds > Audit Opinion
                                                                                                                                      125
  United States Air Force




  Accounting Policies and Practices
  The Air Force had not implemented adequate procedures to support and document all journal vouchers in the Air
  Force General Funds.

  Operating Material and Supplies
  The Air Force had not recorded operating materials and supplies balances in conformance with Statement of Federal
  Financial Accounting Standards No. 3, “Accounting for Inventory and Related Property.” Internal control was not suffi-
  cient to ensure that operating materials and supplies were correctly reported. In addition, internal control was not suffi-
  cient to include all contractor-controlled, Government-furnished material.

  Depreciation
  Air Force internal control was not sufficient to accurately depreciate Special Tools and Special Test Equipment.
                                       Compliance with Laws and Regulations
  Management is responsible for compliance with existing laws and regulations related to financial reporting. Our work
  to determine compliance with selected provisions of the applicable laws and regulations was limited because manage-
  ment acknowledged at the beginning of our engagement that previously reported instances of non-compliance contin-
  ue to exist and affect the current period. Therefore, we did not determine whether the Air Force was in compliance with
  selected provisions of all applicable laws and regulations related to financial reporting. Our objective was not to
  express an opinion on compliance with applicable laws and regulations.

  Statutory Financial Management Systems Reporting Requirements. The Air Force is required to comply with the following
  financial management systems reporting requirements.

  The Federal Financial Management Improvement Act of 1996 requires DoD to establish and maintain financial man-
  agement systems that comply substantially with the Federal financial management system requirements, applicable
  Federal accounting standards, and the U.S. Government Standard General Ledger at the transaction level. In addition,
  the Federal Managers’ Financial Integrity Act of 1982 requires DoD to evaluate the systems and to annually report
  whether those systems are in compliance with applicable requirements.

  The Air Force acknowledged that many of its critical financial management and feeder systems do not comply substan-
  tially with the Federal financial management systems requirements, Federal accounting standards, and the U.S.
  Government Standard General Ledger at the transaction level. In an attempt to comply with statutory reporting require-
  ments and applicable financial systems requirements, DoD plans to develop a DoD-wide financial management enter-
  prise architecture. The architecture is intended to provide a “blueprint” of the Department’s financial management sys-
  tems and processes to initiate a comprehensive financial management reform effort. Until the architecture is developed,
  Air Force will be unable to fully comply with statutory reporting requirements. Therefore, we did not perform tests of
  compliance for these requirements.




126   Audit Opinion < General Funds
                       2002 Annual Financial Statements




Working Capital Fund

Principal Statements




                          Working Capital Fund > Principal Statements
                                                                        127
      United States Air Force
                        Force




                                                       This page intentionally left blank.




128      Principal Statements < Working Capital Fund
                                                                                  2002 Annual Financial Statements




Consolidated Balance Sheet—Working Capital Fund
As of September 30, 2002 and 2001 ($ in thousands)

                                                                              2002              2001 Restated               2001
                                                                           Consolidated         Consolidated             Consolidated
ASSETS (Note 2)
   Intragovernmental:
      Fund Balance with Treasury (Note 3)                                       463,312                 556,603               556,603
      Accounts Receivable (Note5)                                               628,025                 461,229               461,229
      Other Assets (Note 6)                                                           0                  57,320                57,320
           Total Intragovernmental Assets                                    $1,091,337              $1,075,152            $1,075,152
      Cash and Other Monetary Assets (Note 7)                                         4                       0                     0
      Accounts Receivable (Note 5)                                               15,847                 105,290               105,290
      Inventory and Related Property (Note 9)                                13,991,959              12,685,228            11,056,384
      General Property, Plant and Equipment (Note 10)                         1,320,809               1,258,047             1,258,047
      Other Assets (Note 6)                                                     530,335                 468,474               468,474
TOTAL ASSETS                                                                $16,950,291             $15,592,191           $13,963,347
LIABILITIES (Note 11)
   Intragovernmental:
      Accounts Payable (Note 12)                                                 154,696                 143,833               143,833
      Other Liabilities (Note 15 & Note 16)                                       11,384                 353,537               353,537
           Total Intragovernmental Liabilities                                  $166,080                $497,370              $497,370
      Accounts Payable (Note 12)                                               1,791,467               1,328,019             1,328,019
      Military Retirement Benefits and Other Employment-Related
      Actuarial Liabilities (Note 17)                                           247,750                  242,137               242,137
      Other Liabilities (Note 15 and Note 16)                                 3,151,129                3,111,789             3,111,789
TOTAL LIABILITIES                                                            $5,356,426               $5,179,315            $5,179,315
NET POSITION
      Cumulative Results of Operations                                       11,593,865              10,412,876             8,784,032
TOTAL NET POSITION                                                          $11,593,865             $10,412,876            $8,784,032
TOTAL LIABILITIES AND NET POSITION                                          $16,950,291             $15,592,191           $13,963,347




The accompanying notes are an integral part of the financial statements.




                                                                                          Working Capital Fund > Principal Statements
                                                                                                                                         129
      United States Air Force
                        Force




      Consolidated Statement of Net Cost—Working Capital Fund
      For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                              2002           2001 Restated       2001
                                                           Consolidated      Consolidated     Consolidated
  PROGRAMS COST
      Intragovernmental Gross Costs                            4,864,103          6,667,495      6,667,495
        (Less: Intragovernmental Earned Revenue)             -10,907,401        -11,541,277    -11,541,277
          Intragovernmental Net Costs                        -$6,043,298        -$4,873,782    -$4,873,782
      Gross Costs With the Public                              5,367,308          7,977,563      9,606,407
        (Less: Earned Revenue From the Public)                  -308,024           -434,044       -434,044
          Net Costs With the Public                           $5,059,284         $7,543,519     $9,172,363
  NET COST OF OPERATIONS                                       -$984,014         $2,669,737     $4,298,581




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 19.



130      Principal Statements < Working Capital Fund
                                  2002 Annual Financial Statements




This page intentionally left blank.




                                      Working Capital Fund > Principal Statements
                                                                                    131
      United States Air Force
                        Force




      Consolidated Statement of Changes in Net Position—Working Capital Fund
      For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                     2001
                                                                   2002                           Cumulative
                                                                Cumulative                         Results of
                                                                 Results of       Unexpended      Operations
                                                                Operations       Appropriations    Restated

  BEGINNNING BALANCES                                               8,784,032                 0     16,474,636
  Prior Period Adjustments (+/-)                                    1,628,844                 0     -3,462,470
  BEGINNING BALANCES, ADJUSTED                                    $10,412,876                $0    $13,012,166
  BUDGETARY FINANCING SOURCES
        Appropriations received                                              0           32,886              0
        Appropriations used                                             32,886          -32,886          8,375
        Other budgetary financing sources (+/-)                              0                0        -92,576
  OTHER FINANCING SOURCES
        Transfers-in/out without reimbursement (+/-)                   36,886                 0         30,218
        Imputed financing from costs absorbed by others               127,203                 0        124,432
  TOTAL FINANCING SOURCES                                            $196,975                $0        $70,447

  NET COST OF OPERATIONS (+/-)                                      -$984,014                $0     $2,669,737

  ENDING BALANCES                                                 $11,593,865                $0    $10,412,876




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 20.



132      Principal Statements < Working Capital Fund
                                                                                     2002 Annual Financial Statements




                         Prior Period
     2001                Adjustment           Prior Period           2001
  Unexpended             Cumulative           Adjustment          Cumulative             2001
 Appropriations           Results of          Unexpended           Results of         Unexpended
   Restated              Operations          Appropriations       Operations         Appropriations

                 0                       0                   0      16,474,636                      0
                 0                       0                   0      -3,462,470                      0
                $0                      $0                  $0     $13,012,166                     $0

                  0                      0                   0                   0                  0
                  0                      0                   0               8,375                  0
                  0                      0                   0             -92,576                  0

                 0                       2                   0          30,216                      0
                 0                       0                   0         124,432                      0
                $0                      $0                  $0         $70,447                     $0

                $0           -$1,628,844                    $0      $4,298,581                     $0

                $0            $1,628,844                    $0      $8,784,032                     $0




The accompanying notes are an integral part of the financial statements.
See notes 1 and 20.



                                                                                          Working Capital Fund > Principal Statements
                                                                                                                                        133
      United States Air Force
                        Force




      Combined Statement of Budgetary Resources—Working Capital Fund
      For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                                 2001
                                                                  2002        2002 Non-       Budgetary
                                                               Budgetary      Budgetary       Financing
                                                               Financing      Financing        Accounts
  BUDGETARY RESOURCES                                           Accounts       Accounts        Restated
  Budget Authority:
     Appropriations received                                       $32,886            $0          $8,375
     Contract authority                                           $362,674            $0        $503,037
  Unobligated balance:
     Beginning of period                                          $191,172            $0         $55,603
     Net transfers, actual (+/-)                                   $78,000            $0         $65,500
  Spending Authority from offsetting collections:
     Earned
        Collected                                               15,835,543                0    15,579,478
        Receivable from Federal sources                            102,158                0      -765,824
    Change in unfilled customer orders
        Advance received                                          -262,178             0                0
        Without advance from Federal sources                       591,243             0          455,715
     Subtotal                                                  $16,266,766            $0      $15,269,369
  Recoveries of prior year obligations                                   0             0            1,299
  Permanently not available                                       -140,972             0          -10,001
  TOTAL BUDGETARY RESOURCES                                    $16,790,526            $0      $15,893,182

  STATUS OF BUDGETARY RESOURCES
  Obligations incurred:
     Direct                                                         32,886             0       -2,124,484
     Reimbursable                                               16,451,794             0       17,826,492
     Subtotal                                                  $16,484,680            $0      $15,702,008
  Unobligated balance:
     Apportioned                                                   305,848             0           -8,987
     Exempt from apportionment                                           0             0          200,161
     Other available                                                    -2             0                0
  TOTAL STATUS OF BUDGETARY RESOURCES                          $16,790,526            $0      $15,893,182

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
  Obligated Balance, Net – beginning of period                    3,490,438               0     2,791,001
  Obligated Balance, Net – end of period:
     Accounts receivable                                         -1,061,380               0      -959,222
     Unfilled customer order from Federal sources                -3,798,802               0    -3,207,561
     Undelivered orders                                           5,698,622               0     5,312,691
     Accounts payable                                             2,665,736               0     2,344,528
  Outlays:
     Disbursements                                              15,777,541             0       15,311,380
     Collections                                               -15,573,364             0      -15,579,478
     Subtotal                                                      204,177             0         -268,098
  Less: Offsetting receipts                                              0             0                0
  NET OUTLAYS                                                     $204,177            $0        -$268,098




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 21.



134      Principal Statements < Working Capital Fund
                                                                           2002 Annual Financial Statements




 2001 Non-
 Budgetary            2001          2001 Non-
 Financing         Budgetary        Budgetary
  Accounts         Financing        Financing
  Restated          Accounts         Accounts

            $0          $8,375                $0
            $0        $503,037                $0

            $0         $55,603                $0
            $0         $65,500                $0


             0      15,579,478                 0
             0        -765,824                 0

             0               0                 0
             0         455,715                 0
            $0     $15,269,369                $0
             0           1,299                 0
             0         -10,001                 0
            $0     $15,893,182                $0




             0      -2,124,484                 0
             0      17,826,492                 0
            $0     $15,702,008                $0

             0          -8,987                 0
             0         200,161                 0
             0               0                 0
            $0     $15,893,182                $0



             0       2,791,001                 0

             0        -959,222                 0
             0      -3,207,561                 0
             0       5,312,691                 0
             0       2,344,528                 0

             0      15,311,380                 0
             0     -15,579,478                 0
             0        -268,098                 0
             0               0                 0
            $0       -$268,098                $0




The accompanying notes are an integral part of the financial statements.
See notes 1 and 21.



                                                                              Working Capital Fund > Principal Statements
                                                                                                                            135
      United States Air Force
                        Force




      Combined Statement of Financing—Working Capital Fund
      For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                              2002        2001 Restated     2001
                                                                                            Combined        Combined      Combined
  RESOURCES USED TO FINANCE ACTIVITIES
  Budgetary Resources Obligated
     Obligations incurred                                                                    16,484,680      15,702,007    15,702,007
     Less: Spending authority from offsetting collections and recoveries (-)                -16,266,764     -15,270,670   -15,270,670
  Net obligations                                                                               217,916         431,337       431,337
  Other Resources
     Transfers in/out without reimbursement (+/-)                                                    0           -1,928       -1,928
     Imputed financing from costs absorbed by others                                           127,203          124,432      124,432
     Other (+/-)                                                                                    -3                0            0
  Net other resources used to finance activities                                               127,200          122,504      122,504
  TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                                  $345,116         $553,841     $553,841

  RESOURCES USED TO FINANCE ITEMS NOT PART OF NET COST OF OPERATIONS
  Change in budgetary resources obligated for goods, services and benefits ordered but
  not yet provided
     Undelivered Orders (-)                                                                    -385,929        -173,540     -173,540
     Unfilled Customer Orders                                                                   329,064         455,715      455,715
     Resources that finance the acquisition of assets                                        -1,402,468       1,512,295    3,141,139
   Total resources used to finance the net cost of operations                                -1,459,333       1,920,513    3,549,357
  TOTAL RESOURCES USED TO FINANCE THE NET COST OF OPERATIONS                                -$1,114,217      $2,474,354   $4,103,198

  COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
  GENERATE RESOURCES IN THE CURRENT PERIOD:
   COMPONENTS REQUIRING OR GENERATING RESOURCES IN FUTURE PERIODS
     Other (+/-)                                                                                 5,613           43,246       43,246
   Total components of Net Cost of Operations that will require or generate resources in
   future periods                                                                                5,613           43,246       43,246
   COMPONENTS NOT REQUIRING OR GENERATING RESOURCES
     Depreciation and amortization                                                             124,590          145,844      145,844
     Revaluation of assets or liabilities (+/-)                                                      0            3,901        3,901
     Other (+/-)                                                                                     0            2,392        2,392
   Total components of Net Cost of Operations that will not require or generate resources      124,590          152,137      152,137
  TOTAL COMPONENTS OF NET COST OF OPERATIONS THAT WILL NOT REQUIRE
  OR GENERATE RESOURCES IN THE CURRENT PERIOD                                                 $130,203         $195,383     $195,383

  NET COST OF OPERATIONS                                                                     -$984,014       $2,669,737   $4,298,581




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 22.



136      Principal Statements < Working Capital Fund
                                                                             2002 Annual Financial Statements




Working Capital Fund
Footnotes to the
Principal Statements
Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the United
States Air Force, Working Capital Fund (WCF), as required by the Chief Financial Officers (CFOs) Act of 1990,
expanded by the Government Management Reform Act (GMRA) of 1994, and other appropriate legislation. The finan-
cial statements have been prepared from the books and records of the Air Force WCF in accordance with “Department
of Defense Financial Management Regulation” (DoDFMR), the Office of Management and Budget (OMB) Bulletin No.
01-09, “Form and Content of Agency Financial Statements” and to the extent possible federal generally accepted
accounting principles (GAAP). The accompanying financial statements account for all resources for which the Air Force
WCF is responsible except that information relative to classified assets, programs, and operations has been excluded
from the statement or otherwise aggregated and reported in such a manner that is no longer classified. The Air Force
WCF’s financial statements are in addition to the financial reports that are prepared by the United States Air Force pur-
suant to OMB directives to monitor and control the Air Force’s use of budgetary resources.

The Air Force WCF is unable to implement all elements of Federal (GAAP) and the OMB Bulletin No. 01-09 due to
limitations of its financial management processes and systems, including non-financial feeder systems and processes.
Reported values and information for the Air Force WCF’s major asset and liability categories are derived largely from
nonfinancial feeder systems, such as inventory systems and logistic systems. These systems were designed to support
reporting requirements focusing on maintaining accountability over assets and reporting the status of federal appropria-
tions rather than preparing financial statements in accordance with Federal GAAP. As a result, the Air Force WCF can-
not currently implement every aspect of Federal GAAP and the OMB Bulletin No. 01-09. The Air Force WCF continues
to implement process and system improvements addressing the limitations of its financial and non-financial feeder sys-
tems. A more detailed explanation of these financial statement elements is provided in the applicable footnote.

There are other instances when the Air Force WCF has reviewed the intent of the standard and applied it in a manner
consistent with the standard, but the auditors interpret the standard differently. Financial statement elements impacted
include financing payments under fixed price contracts, operating materials and supplies (OM&S), and disposal liabili-
ties.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The National
Security Act Amendments of 1949 established the Department of Defense (DoD) and made the Air Force a department
within DoD. The overall mission of the Department is to organize, train, and equip armed forces to deter aggression




                                                                           Working Capital Fund > Notes to Principal Statements
                                                                                                                                  137
      United States Air Force
                        Force




      and, if necessary, defeat aggressors of the United States and its allies. The overall mission of the Air Force is to defend
      the United States through control and exploitation of air and space.

      The stock and industrial revolving fund accounts were created by the National Security Act of 1947, as amended in
      1949 and codified in Title 10, U.S.C., Section 2208. The revolving funds were established as a means to more effec-
      tively control the cost of work performed by DoD. The DoD began operating under the revolving fund concept as early
      as July 1, 1951.

      1.C. Appropriations and Funds
      The Air Force’s funds are divided into the general, working capital (revolving funds), trust, special, and deposit funds.
      These appropriations and funds are used to fund and report how the resources have been used in the course of execut-
      ing the Air Force’s missions.

      Working Capital funds (WCF) (revolving funds) receive their initial working capital through an appropriation or a trans-
      fer of resources from existing appropriations or funds and use those capital resources to finance the initial cost of prod-
      ucts and services. Financial resources to replenish the initial working capital and to permit continuing operations are
      generated by the acceptance of customer orders. The Defense Working Capital Fund (DWCF) operates with financial
      principles that provide improved cost visibility and accountability to enhance business management and improve the
      decision making process. The activities provide goods and services on a reimbursable basis. Receipts derived from
      operations generally are available in their entirety for use without further congressional action. Air Force systems are not
      transaction-driven for budgetary accounts, therefore, in some cases proprietary and statistical accounts are used to
      develop the Report on Budget Execution, SF133 and Statement of Budgetary Resources for reporting budgetary data.
      Supply Management
      The Air Force Stock Funds were established within the DoD under 10 U.S.C. 2208, as described in DoD Financial
      Management Regulation 7000.14-R, to finance inventories of supplies. Most inventories of supplies are financed by use
      of a stock fund. Exceptions include an item financed with a procurement appropriation or when financing by other
      means has been deemed to be more economical and efficient. A stock fund operates as a revolving fund acquiring
      inventories with funds received from prior sales to customers.

      There are four active business activities in the Supply Management Activity Group (SMAG). They are: Materiel Support
      Division (MSD), General Support Division (GSD), Medical-Dental Division and Academy Division. In FY01 the Fuels
      Division was taken over by the Defense Energy Support Center, therefore all activity within the Fuels Division is residual.
      Troop Support is also a residual activity.
      Depot Maintenance
      The Air Force Depot Maintenance Activity Group performs manufacturing, development and test work as well as avia-
      tion maintenance. Primarily supporting Air Force organizations, DMAG also supports other DoD components, govern-
      ment agencies, and foreign governments. The DMAG environment is rapidly changing. Weapons systems embodying
      new material and technologies require new maintenance processes while improvements in reliability reduce the fre-
      quency of maintenance for many items. The net result requires flexibility in addressing both wartime and peacetime
      workload changes. The DMAG achieves this flexibility by employing the unique strengths of organic (in-house) and con-
      tractor repair sources.




138       Notes to Principal Statements < Working Capital Fund
                                                                             2002 Annual Financial Statements




Transportation
The unique transportation responsibilities of Air Mobility Command (AMC) include the executive travel mission and
operation of other operational support aircraft, the air weather service, AMC training, AMC base operations, tanker
operations, and other miscellaneous AMC functions. The Air Force Transportation Defense Business Operations Fund
(DBOF) was established during FY 1993 and disestablished in FY 1995 in accordance with the DWCF improvement
plan. Only residual accounting of unliquidated balances remain, with expected close-out during FY03.
Information Services
Air Force Central Design Activities
The Air force Central Design Activities (CDAs) provide software design, development, maintenance, and technical sup-
port services. As of October 1, 1995, the Air Force CDA business area transferred to DBOF. This transfer complied with
Program Budgeting Document (PBD) 433 in expanding the Information Services Business Area. Transfer procedures
were set forth in DFAS-Arlington memo dated May 3, 1995. The Central Design Activities included the Standard
Systems Group and the Materiel Systems Group. Prior to this transfer, the CDAs were funded by Air Force Operations
and Maintenance funds. During FY 1996 DFAS-Denver provided only interim accounting support because the CDAs’
accounting support was in transition to the Industrial Fund Accounting System (IFAS) and subsequent transfer to the
Pensacola Field Site. In FY 1997, the CDAs went on-line with IFAS and all financial reports, excluding the Audited
Financial Statements (AFS), are prepared by DFAS-Cleveland and forwarded to DFAS-Denver for inclusion with Air
Force WCF statements. In FY 2002, DFAS-Denver took over the responsibility of all monthly CDAs’ financial reporting
and the AFS.
United States Transportation Command (USTC)
For AFS purposes only, USTC is not reported within Air Force Working Capital Funds. The Office of the Under Secretary
Defense, Chief Financial Officer, directed in fiscal year 1999, the reporting of USTC with Other Defense Organizations
Working Capital Fund Consolidated statements submitted by DFAS-Indianapolis. The USTC remains part of the Air
Force Budget operations for all other financial reporting.
Air Force Working Capital Fund Component
The Air Force Component Activity’s purpose is to act as a balancing/adjusting column for Air Force WCF. The January
21, 1997 memorandum, “Policy and Procedures for Cash Management Working Capital Funds (DWCF),” established
the “Component Level Adjustment” column. Additional DFAS-Arlington memorandums dated January 21, 1997,
“Operating Policy and Procedures for the Management of Defense Working Capital Funds (DWCF) Fund Balance with
Treasury Management and Contract Authority,” and January 28, 1997, “Entries to Establish Defense Working Capital
(DWCF) Fund Balance with Treasury at the Air Force subnumbered Account Level,” provided specific and detailed
instructions/procedures to maintain accountability for fund balances with Treasury. Undistributed disbursements, collec-
tions, and other amounts that cannot be identified to a functional area within the respective WCF shall be reported in
this column.

Operations of the activities within the Air Force WCF are based on policies and procedures that include:

(1) Funding Authority. Prior to FY 1992, industrial fund activities were not issued funding documents. Activities now
receive obligation authority for customer orders from the Air Force Deputy Assistant Secretary, Budget (SAF/FMB). The
total costs that can be incurred are a function of the cost goals applied to the actual customer funded workload.




                                                                           Working Capital Fund > Notes to Principal Statements
                                                                                                                                  139
      United States Air Force
                        Force




      (2) Minor Construction Funding. Policy and procedures have been changed to fund minor construction projects that
      cost $100,000 or more, but less than $300,000, through a separate section of the capital budget and depreciate
      them over a 20-year period.

      (3) Software Development Costs. Policy and procedures have been changed to move the development costs of new
      software that meets capitalization requirements to the capital budget. Software will be amortized after release.

      (4) Capital Budgeting. Activity group budgets are segregated into operating and capital budgets. Any investment in
      equipment, software, minor construction, and other management improvements that meet capitalization requirements
      are funded through the capital budget and the cost depreciated/amortized over the relevant life cycle.

      (5) Asset Capitalization and Depreciation. The assets of the industrial and stock funds were transferred to DBOF and
      subsequently to WCF. The capital assets, excluding land, which exceed a unit cost of $100,000 or more, are subject to
      depreciation. In addition, capital assets previously capitalized using the established thresholds for prior years will contin-
      ue to be depreciated, if depreciation was being recorded prior to the increase to the $100,000 threshold.

      (6) Rates and Prices. All Air Force activity groups within WCF are expected to set their rates and prices based upon full
      cost recovery ensuring that cost reductions made by an activity will be passed on to the customers. Rates and prices
      normally will not change during the year of execution, but occasionally do change based on certain world situations. If
      there is a need for a price change in Depot Maintenance, the authority is requested from HQ Air Force Materiel
      Command.

      The FY 2002, Air Force DWCF operations encompass three activity groups: Supply Management, Depot Maintenance,
      and Information Services. These activity groups use their resources to finance the initial cost of products or services for
      activities of the United States government, primarily those of the DoD. Work is generated by the acceptance of cus-
      tomer orders from ordering activities.

      1.D. Basis of Accounting
      The Air Force’s Working Capital Funds generally record transactions on an accrual accounting basis as is required by
      Federal GAAP. However, some of the Air Force’s financial and non-financial feeder systems and processes are not
      designed to collect and record financial information on the full accrual accounting basis. The Air Force WCF has
      undertaken efforts to determine the actions required to bring all of its financial and non-financial feeder systems and
      processes into compliance with all elements of Federal GAAP. One such action is the current revision of its accounting
      systems to record transactions based on the United States Government Standard General Ledger (USSGL). Until such
      time as all of the processes are updated to collect and report financial information as required by Federal GAAP, some
      of the Air Force WCF’s financial data will be based on budgetary transactions (obligations, disbursements, and collec-
      tions), and non-financial feeder systems. For example, most of information presented on the Statement of Net Cost is
      based on accrued costs; however, some of this information is based on obligations and disbursements.

      Under the accrual method, revenues are recognized when earned and expenses are recognized when incurred, without
      regard to receipt or payment of cash. Budgetary accounting is accomplished through unique general ledger accounts
      to facilitate compliance with legal and internal control requirements associated with the use of federal funds. However,
      the cash basis of accounting may be followed if the reported activity and balances are not materially significant. In
      addition to the accrual basis of accounting, Depot Maintenance also uses the full absorption accounting principal.
      During FY 1996, DFAS-DE, SAF/FMB, and OSD/FM jointly agreed on the use of this principal by Depot Maintenance.




140       Notes to Principal Statements < Working Capital Fund
                                                                              2002 Annual Financial Statements




This requires that overhead costs such as depreciation and bad debt expenses are included in the cost of services sold.
The effect of known intrafund transactions are eliminated.

The Air Force uses several service-unique general ledger structures plus data converted from the Defense Business
Management System (DBMS). The financial statements depicted are derived from supply, maintenance and accounting
records utilizing the Air Force service and DBMS-unique general ledger structures. The activity groups’ general ledger
accounts are “crosswalked” to the USSGL chart of accounts to produce the financial statements.

In addition, the Air Force identifies programs based upon the major appropriation groups provided by Congress. The
Air Force is in the process of reviewing available data and attempting to develop a cost reporting methodology that
balances the need for cost information required by the SFFAS No. 4, “Managerial Cost Accounting Concepts and
Standards for the Federal Government,” with the need to keep the financial statements from becoming overly volumi-
nous.

The asset accounts used to prepare the statements are categorized as either entity or nonentity. Entity accounts consist
of resources that the agency has the authority to use, or where management is legally obligated to use funds to meet
entity obligations. Nonentity accounts are assets that are held by an entity are not available for use in the operations of
the entity.

Material disclosures are provided at Note 10.

1.E. Revenues and Other Financing Sources
The Under Secretary of Defense (Comptroller) directed, per memorandum dated January, 1992, all services to use the
percentage of completion accounting method to recognize revenue and expenses. The DoD 7000.14-R, Financial
Management Regulation, Chapter 11B, January 1995, also prescribes this method of accounting.

Each working capital activity group recognizes revenue in the following manner:

Supply Management. Air Force Supply Management revenue is recognized at the point of sale under constructive deliv-
ery terms (normally when an item is released from inventory or delivered to the customer). Foreign Military Sales (FMS)
transactions additionally require proof of shipment before revenue is recognized. Generally, Supply Management rev-
enue consists of sales at standard prices, less sales return. Sales of Materiel Support Division items are at exchange
price. The Medical-Dental division and the Air Force Academy Store add surcharges to their billings rather than include
a surcharge in the standard price. Intra-division Supply Management Sales have been eliminated. Cash discounts and
interfund retail stock loss allowances are additional revenue.

Depot Maintenance. Current revenue recognition for Organic DMAG is the Incremental Revenue Recognition (IRR)
method. This is based on completed units times the sales rate rather than the percentage of completion method.
Organic DMAG will use the percentage of completion method when the Depot Maintenance Accounting and
Production System (DMAPS) is fully operational at Ogden Air Logistics Center (ALC) in the first quarter of FY2003.
DMAPS is scheduled to be implemented at the other two ALCs, Oklahoma City and Warner Robins, by the end of FY
2003.

Revenue recognition for Contract DMAG is based on units produced times the Unit Sales Price (USP) and does not rec-
ognize IRR at this time. Contract DMAG is scheduled to close at the end of FY2004.




                                                                            Working Capital Fund > Notes to Principal Statements
                                                                                                                                   141
      United States Air Force
                        Force




      Information Services. The Information Services Activity Group (ISAG) recognizes revenue in one of two ways as a service
      type organization based on the service level agreement between the customer and the provider. ISAG uses completed
      contract and in some instances the percentage of completion method.

      1.F. Recognition of Expenses
      For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred.
      However, because the Air Force’s financial and non-financial feeder systems were not designed to collect and record
      financial information on the full accrual accounting basis, accrual adjustments are made for major items such as pay-
      roll expenses, accounts payable, and environmental liabilities. Expenditures for capital and other long-term assets are
      not recognized as expenses in the Air Force WCF’s operations until depreciated in the case of Property, Plant and
      Equipment (PP&E) or consumed in the case of Operating Materials and Supplies (OM&S). Certain expenses, such as
      annual and military leave earned but not taken, are financed in the period in which payment is made. Operating
      expenses were adjusted as a result of the elimination of balances between DoD Components. See Note 19.I
      Intragovernmental Expenses and Revenue for disclosure of adjustment amounts. Net increases or decreases in unex-
      pended appropriations are recognized as a change in net position.

      1.G. Accounting for Intra-governmental Activities
      The Air Force, as an agency of the federal government, interacts with and is dependent upon the financial activities of
      the federal government as a whole. Therefore, these financial statements do not reflect the results of all financial deci-
      sions applicable to the Air Force as though the agency was a stand-alone entity.

      The Air Force’s proportionate share of public debt and related expenses of the federal government are not included.
      Debt issued by the federal government and the related costs are not apportioned to federal agencies. The Air Force’s
      financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements
      report the source of public financing whether from issuance of debt or tax revenues.

      Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this financing
      ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since
      the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

      The Air Force’s civilian employees participate in the Civil Service Retirement System (CSRS) and Federal Employees
      Retirement System (FERS), while military personnel are covered by the Military Retirement System (MRS). Additionally
      employees and personnel covered by FERS and MRS also have varying coverage under Social Security. The Air Force
      funds a portion of the civilian and military pensions. Reporting civilian pension under CSRS and FERS retirement systems
      is the responsibility of Office of Personnel Management (OPM). The Air Force recognizes an imputed expense for the
      portion of civilian employee pensions and other retirement benefits funded by OPM in the Statement of Net Cost; and
      recognizes corresponding imputed revenue for the civilian employee pensions and other retirement benefits in the
      Statement of Changes in Net Position.

      The Department reports the assets, funded actuarial liability, and unfunded actuarial liability for the military personnel in
      the Military Retirement Fund (MRF) financial statements. The Department recognizes the actuarial liability for the military
      retirement health benefits in the Other Defense Organization column of the DoD Agency-wide statements.

      To prepare reliable financial statements, transactions occurring between components or activities within the DoD or
      between two or more federal agencies must be eliminated. However, the Air Force, as well as the rest of the federal




142       Notes to Principal Statements < Working Capital Fund
                                                                              2002 Annual Financial Statements




government, cannot accurately identify all intragovernmental transactions by customer. The Defense Finance and
Accounting Service (DFAS) is responsible for eliminating transactions between components or activities of the Air Force
WCF. For FY 1999 and beyond, seller entities within the Department provided summary seller-side balances for rev-
enue, accounts receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the
buyer-side records have been adjusted to recognize unrecorded costs and accounts payable. Intra-DoD intragovern-
mental balances were then eliminated.

The Department of the Treasury, Financial Management Service (FMS) is responsible for eliminating transactions
between the Department and other federal agencies. In September 2000, the FMS issued the “Federal
Intragovernmental Transactions Accounting Policies and Procedures Guide.” The Department was not able to fully
implement the policies and procedures in this guide related to reconciling intragovernmental assets, liabilities, revenues,
and expenses for non-fiduciary transactions. The Air Force, however, was able to implement the policies and proce-
dures contained in the “Intragovernmental Fiduciary Transactions Accounting Guide,” as updated by the “Federal
Intragovernmental Transactions Accounting Policies and Procedures Guide,” for reconciling intragovernmental transac-
tions pertaining to investments in federal securities, borrowings from the United States (U.S.) Treasury and the Federal
Financing Bank, Federal Employees’ Compensation Act transactions with the Department of Labor (DoL), and benefit
program transactions with the OPM.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the DoD Components sell defense articles and services to foreign governments and international organiza-
tions, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, the
Department has authority to sell defense articles and services to foreign countries and international organizations, gen-
erally at no profit or loss to the U.S. Government. Customers may be required to make payments in advance.

1.I. Funds with the U.S. Treasury
The Air Force’s financial resources are maintained in U.S. Treasury accounts. The majority of cash collections, disburse-
ments, and adjustments are processed worldwide at Defense Finance and Accounting Service (DFAS) and Military
Services and U.S. Army Corps of Engineers (USACE) disbursing stations, as well as Department of State financial service
centers. Each disbursing station prepares monthly reports, which provide information to the U.S. Treasury on check
issues, electronic funds transfers, interagency transfers and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by appro-
priation, on interagency transfers, collections received and disbursements issued. The Department of the Treasury then
records this information to the applicable Fund Balance With Treasury (FBWT) account maintained in the Treasury’s sys-
tem. Differences between the Air Force’s recorded balance in the FBWT account and Treasury’s FBWT sometimes result
and are subsequently reconciled.

Fund Balances with Treasury are maintained at the Air Force DWCF corporate business area today. In 1992, when the
Defense Business Operating Fund was established, the FBWT was moved from the Air Force level to the Department of
Defense level. In 1996, the DWCF was established and the FBWT was given back to the Air Force level. However, allo-
cations of FBWT was at a lower level than the level transferred out. (The cash balance had been maintained at 10 days
worth of cash, but what was allocated back was 3 days worth of cash. The days are based on the average of cash
needed to pay vendors). The fund has been “under funded” since that time.




                                                                            Working Capital Fund > Notes to Principal Statements
                                                                                                                                   143
      United States Air Force
                        Force




      Material Disclosures are provided at Note 3. Differences are caused by in-transit disbursements and unmatched dis-
      bursements (which are not recorded in the accounting offices’ detail-level records).

      1.J. Foreign Currency
      Not applicable.

      1.K. Accounts Receivable
      As presented in the Balance Sheet statement, Accounts Receivable includes Accounts Receivables, Claims Receivables,
      and Refunds Receivable from other Federal entities or from the Non-federal entities. Allowances for Loss on Accounts
      Receivable due from Non-federal entities are based upon analysis of collection experience by fund type. The
      Department does not recognize an Allowance for Loss on Accounts Receivable amounts from another Federal agency.
      Claims against another federal agency are to be resolved between the agencies. If the claim cannot be resolved by the
      agencies involved, it should be referred to the General Accounting Office. Only Supply Management allows for
      Allowance for Loss Accounts Receivable amounts based upon analysis of historical data from prior year Accounts
      Receivable balances, write-offs, and collection policy.

      Material disclosures are provided at Note 5.

      1.L. Loans Receivable
      Not applicable.

      1.M. Inventories and Related Property
      Inventory data is maintained in logistics systems designed for material management purposes. Inventories are reported
      at approximate historical cost based on Latest Acquisition Cost (LAC) adjusted for holding gains and losses. The
      Department uses the LAC method because its inventory systems were designed for material management rather than
      accounting. The systems provide accountability and visibility over inventory items. They do not maintain the historical
      cost data necessary to comply with the SSFAS No. 3, “Accounting for Inventory and Related Property.” Neither can they
      directly produce financial transactions using the United States Government Standard General Ledger (USSGL), as
      required by the Federal Management Improvement Act of 1996 (P.L. 104-208). Approximately 60% of the General
      Support Division is managed in the Standard Base Supply System using a Moving Average Cost for the value of the
      inventory. This change was effective October 2000. The remaining 40% of the GSD inventory is managed in the Stock
      Control and Distribution System using the LAC method for valuation. Within the Materiel Support Division, inventory is
      valued at either LAC or carcass. Carcass value is calculated within the pricing system.

      Inventory values reported in the financial statements are derived from logistics systems designed for material manage-
      ment purposes. The General Support Division systems do value inventory at moving average, however, the Material
      Support Division systems do not maintain the historical cost data necessary to comply with the SFFAS No. 3,
      “Accounting for Inventory and Related Property.” All the inventory systems provide management with accountability infor-
      mation and visibility over inventory items. These logistics systems support the categorization of inventory as: held for
      sale, held in reserve for future sale, or excess, obsolete, and unserviceable, yet the business practices in the supply
      community do not use these categories. Additionally, past audit results have led to uncertainties about the completeness
      and existence of the inventory quantities used to derive the balances reported in the financial statements.

      Only the Supply Management Activity Group maintains inventories. Gains and losses resulting from valuation changes
      for inventory items are recognized and reported in the Statement of Net Cost and included in the calculation of Cost of




144      Notes to Principal Statements < Working Capital Fund
                                                                              2002 Annual Financial Statements




Goods Sold. To calculate the allowances for gain or loss on inventories, an inventory worksheet is prepared monthly for
each fund code within the Supply Management Activity Group.

SFFAS No. 3 distinguishes between “Inventory held for sale” and “Inventory held in reserve for future sale.” There is no
management or valuation difference between the two USSGL accounts. Further, the DoD manages only military or gov-
ernment specific material under normal conditions. Items commonly used in and available from the commercial sector
are not managed in the DoD material management activities. Operational cycles are irregular, and the military risks
associated with stock-out positions have no commercial parallel. The Department holds material based on military need
and support for contingencies. Therefore, the Department does not attempt to account separately for items held for
“current” or “future” sale.

Related property includes Operating Materials and Supplies (OM&S) and stockpile materials. The OM&S including
munitions not held for sale, are valued at standard purchase price. The department uses the consumption method of
accounting for OM&S, for the most part, expensing material when it is issued to the end user. Where current systems
cannot fully support the consumption method, the Department uses the purchase method – that is, expensed when pur-
chased. For FY 2002, the Department reported significant amounts using the purchase method either because the sys-
tems could not support the consumption method or because management deems that the item is in the hands of the
end user.

The Department implemented new policy in FY 2002 to account for condemned material (only) as “Excess, Obsolete,
and Unserviceable.” The net value of the condemned material is zero, because the costs of disposal are greater than
the potential scrap value. Potentially redistributable material, presented in previous years as “Excess, Obsolete, and
Unserviceable,” is now included in “Held for Use” or “Held for Repair” categories according to its condition.

In addition, past audit results identified uncertainties about the completeness and existence of quantities used to pro-
duce the reported values.

Material disclosures related to inventory and related property are provided at Note 9.

1.N. Investments in U.S. Treasury Securities
Not applicable.

1.O. General Property, Plant and Equipment
General property, plant, and equipment (PP&E) assets are capitalized at historical acquisition cost plus capitalized
improvements, when an asset has a useful life of two or more years, and when the acquisition cost equals or exceeds
the DoD capitalization threshold of $100,000. Also, improvement costs over the DoD capitalization threshold of
$100,000 for General PP&E are required to be capitalized. All General PP&E, other than land, is depreciated using the
straight-line method. Land is not depreciated.

Prior to FY 1996, General PP&E with an acquisition cost of $15,000, $25,000, and $50,000 for FYs 1993, 1994,
and 1995 respectively, and an estimated useful life of 2 or more years was capitalized. These assets remain capitalized
and are reported on WCF financial statements. General PP&E previously capitalized at amounts below $100,000 were
written off General Fund financial statements in FY 1998.

When it is in the best interest of the government, the Air Force provides to contractors government property necessary to
complete contract work. Such property is either owned or leased by the Air Force, or purchased directly by the contrac-




                                                                            Working Capital Fund > Notes to Principal Statements
                                                                                                                                   145
      United States Air Force
                        Force




      tor for the government based on contract terms. When the value of contractor procured General PP&E exceeds the
      DoD capitalization threshold, such should be included in the value of General PP&E reported on the Air Force’s
      Balance Sheet. The Department recently completed a study that indicates the value of General PP&E that meets the
      capitalization requirement and presently in the possession of contractors, is not material to the Department’s financial
      statements. Regardless, the Department is developing new policies and a contractor reporting process that will provide
      appropriate General PP&E information for future financial statement reporting purposes. Accordingly, the Air Force cur-
      rently reports only government property in the possession of contractors that is maintained in the Air Force’s property
      systems.

      For entities operating as business type activities (WCFs), all PP&E used in the performance of their mission is catego-
      rized as General PP&E, whether or not it meets the definition of any other PP&E categories. National Defense PP&E,
      Heritage Assets and Stewardship Land owned/maintained on a WCF installation are reported in the Supplemental
      Stewardship Report of the applicable military department.

      Material disclosures are provided at Note 10.

      1.P. Advances and Prepayments
      Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported as
      an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and expenses when the
      related goods and services are received.

      1.Q. Leases
      Not applicable.

      1.R. Other Assets
      The Air Force conducts business with commercial contractors under two primary types of contracts-fixed price and cost
      reimbursable. To alleviate the potential financial burden on the contractor that these long-term contracts can cause, the
      Air Force provides financing payments. One type of financing payment that the Air Force makes, for real property, is
      based upon a percentage of completion. In accordance with SFFAS No 1., “Accounting for Selected Assets and
      Liabilities,” such payments are treated as construction in process and are reported on the General PP&E line and in
      Note 10, General PP&E, Net. In addition, based on the provision of the Federal Acquisition Regulations, the Air Force
      makes financing payments under fixed price contracts that are not based on a percentage of completion. The Air Force
      reports these financing payments as advances or prepayments in the “ Other Assets” line item. The Air Force treats
      these payments as advances or prepayments because the Air Force becomes liable only after the contractor delivers the
      goods in conformance with the contract terms. If the contractor does not deliver a satisfactory product, the Air Force is
      not obligated to reimburse the contractor for its costs and the contractor is liable to repay the Air Force for the full
      amount of the advance. The Department has completed a review of all applicable federal accounting standards; appli-
      cable public laws on contract financing; Federal Acquisition Regulation Parts 32, 49, and 52; and the OMB guidance
      in 5 Code of Federal Regulations Part 1315, “Prompt Payment.” The Department has concluded that SFFAS No. 1 does
      not fully or adequately address the subject of progress payment accounting and is considering what further action is
      appropriate.




146       Notes to Principal Statements < Working Capital Fund
                                                                              2002 Annual Financial Statements




1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing condi-
tion, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the Air Force. The
uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized as a lia-
bility when a past event or exchange transaction has occurred, a future loss is probable and the amount of loss can be
reasonably estimated. Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist but there is at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss
contingencies include the collectibility of receivables, pending or threatened litigation, possible claims and assessments.
The Air Force’s loss contingencies arising as a result of pending or threatened litigation or claims and assessments
occur due to events such as aircraft, ship and vehicle accidents; medical malpractice; property or environmental dam-
ages; and contractual disputes.

1.T. Accrued Leave
Civilian annual leave and military leave that have been accrued and not used as of the balance sheet date are report-
ed as liabilities. The liability reported at the end of the fiscal year reflects the current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations
represent amounts of authority, which are unobligated and have not been rescinded or withdrawn, and amounts obli-
gated but for which legal liabilities for payments have not been incurred.

Cumulative results of operations for WCF represent the excess of revenues over expenses less refunds to customers and
returns to the U.S. Treasury since fund inception.

1.V. Treaties for Use of Foreign Bases
The DoD Components have the use of land, buildings, and other facilities, which are located overseas and have been
obtained through various international treaties and agreements negotiated by the Department of State. The DoD capital
assets overseas are purchased with appropriated funds; however, title to land and improvements is retained by the host
country. Generally, treaty terms allow the DoD Components continued use of these properties until the treaties expire.
These fixed assets are subject to loss in the event treaties are not renewed or other agreements are not reached which
allow for the continued use by the Department. Therefore, in the event treaties or other agreements are terminated
whereby use of foreign bases is no longer allowed, losses will be recorded for the value of any nonretrievable capital
assets after negotiations between the United States and the host country have been concluded to determine the amount
to be paid the United States for such capital investments.

1.W. Comparative Data
Beginning in FY 2001, the Air Force presents the current and previous year’s financial data for comparative purposes.
This data is presented in the financial statements, as well as in the notes to the principal statements.

In FY 2002, the Department modified the financial statement presentation for the Statements of Net Cost, Changes in
Net Position, and Financing. As a result, the Departments’ statements during this reporting period may not always lend
themselves to comparative analysis. In some instances, amounts on the statements were reported on one financial line
in FY 2001 and split into multiple financial lines for FY 2002, in accordance with OMB’s guidance.




                                                                            Working Capital Fund > Notes to Principal Statements
                                                                                                                                   147
      United States Air Force
                        Force




      1.X. Unexpended Obligations
      The Air Force records obligations for goods and services that have been ordered but not yet received. No liability for
      payment has been established in the financial statements because goods/services have yet to be delivered.


      Note 2. Nonentity and Entity Assets
                                                                               2002                            2001
      As of September 30,                                   Nonentity       Entity             Total

      (Amounts in thousands)
      Intra-governmental Assets:
         Fund Balance with Treasury                         $       0   $     463,312     $     463,312    $     556,603
         Accounts Receivable                                        0         628,025           628,025          461,229
         Other Assets                                               0                 0                0          57,320
         Total Intra-governmental Assets                    $       0   $    1,091,337    $    1,091,337   $    1,075,152

      Non-Federal Assets:
        Cash and Other Monetary Assets                      $       0   $             4   $            4   $           0
        Accounts Receivable                                         0           15,847            15,847         105,290
        Inventory & Related Property                                0       13,991,959        13,991,959       11,056,384
        General Property, Plant and Equipment                       0        1,320,809         1,320,809        1,258,047
        Other Assets                                                0         530,335           530,335          468,474
        Total Non-Federal Assets                            $       0   $ 15,858,954      $ 15,858,954     $   12,888,195
      Total Assets:                                         $       0   $ 16,950,291      $ 16,950,291     $   13,963,347


      Other Information
      Relevant Information for Comprehension
      Assets are categorized as:

      ◗   Entity assets consist of resources that the agency has the authority to use, or where management is legally obligat-
          ed to use funds to meet entity obligations.

      ◗   Nonentity assets are assets that are held by an entity, but are not available for use in the operations of the entity.
      Note Reference
      For Additional Line Item discussion, see:

      ◗   Note 3, Fund Balance with Treasury

      ◗   Note 5, Accounts Receivable

      ◗   Note 6, Other Assets

      ◗   Note 9, Inventory and Related Property

      ◗   Note 10, General Property, Plant and Equipment




148       Notes to Principal Statements < Working Capital Fund
                                                                               2002 Annual Financial Statements




Note 3. Fund Balance with Treasury
As of September 30,                                       2002          2001
(Amounts in thousands)
Fund Balances:
  Revolving Funds                                     $   463,312   $   556,603


As of September 30,                                       2002          2001
Fund Balances Per Treasury Versus Agency:
 Fund Balance per Treasury                            $ 1,323,257   $   918,537
 Fund Balance per AFWCF                                   463,312       556,603
 Reconciling Amount                                   $   859,945   $   361,934



Explanation of Reconciliation Amount
The reconciling amount on line 2C above represents $859,945,442.45 for United States Transportation Command
(USTC) which is reported by Treasury as part of Air Force Working Capital Fund and reported as Other Defense
Organizations for AFS. See footnote 1C(2) in the USTC footnotes for further information concerning this matter.

Other Information Related to Fund Balance with Treasury
Fluctuations
Various issues caused the variance from FY02 and FY01 for line 1.E. An issue that led to a decrease in Total Fund
Balance is that in FY01 advanced billings were issued for DMAG. The AFWCF is required to maintain an operating
cash balance of at least $200 million. Prior to September 2001, the overall FBWT was approaching a critically low
level indicating a need for the advanced billings. In FY02 these advance billings were not necessary. Three issues led to
increases in Total Fund Balance. The issues are an improvement to the billing process system, increase in rates to
recoup prior year losses, and treasury warrants issued to the AFWCFs.
Note Reference
See Note Disclosure 1.I, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Funds with the U.S Treasury.


Note 4. Investments
Not applicable.




                                                                           Working Capital Fund > Notes to Principal Statements
                                                                                                                                  149
      United States Air Force
                        Force




      Note 5. Accounts Receivable
      As of September 30,                                                          2002                         2001
                                                                             Allowance For     Accounts      Accounts
                                                                  Gross
                                                                               Estimated      Receivable,   Receivable,
                                                                Amount Due
                                                                             Uncollectibles      Net           Net
      (Amounts in thousands)
      Intra-governmental Receivables:                           $ 628,025             N/A      $ 628,025    $    461,229
      Non-Federal Receivables (From the Public):                $ 15,925       $      (78)     $ 15,847     $    105,290
      Total Accounts Receivable:                                $ 643,950      $      (78)     $ 643,872    $    566,519


      Other information
      Fluctuations
      The increase of $77.3 million for total Accounts Receivable from FY 01 to FY 02 is due to:

      Intragovernmental Accounts Receivable increased by $166.8 million. DMAG discovered $118 million was erroneously
      recorded as Public in September FY01, but corrected in October FY02. The remaining $48.8 million of the increase is
      attributed to an increase in Sales in September FY02 that were collected in October FY03.

      Public Accounts Receivable decreased by ($89.5) million. FY01 included the DMAG $118 million that was incorrectly
      recorded as Public but should have been Intragovernmental. FY01 includes the normal adjustment for undistributed col-
      lections, but during FY02 $82 million of the unsupported undistributed amount was resolved.
      Abnormalities
      Non-Federal Receivables had an abnormal balance of $20 million, which was attributed to the $35 million abnormal
      balance in Component Adjustment from unsupported Undistributed Collections. The Accounts Receivable balance of all
      the AFWCF entities combined was less than the Component Undistributed abnormal amount, and therefore created an
      abnormal balance for the total Non-Federal Accounts Receivable. The $35 million was reclassified to Other Liabilities.

      Two SMAG entities, Fuels and Medical/Dental, had abnormal Accounts Receivable balances on their trial balances,
      either before or after distribution of the Undistributed Collections. Accruals were done to bring these abnormal bal-
      ances up to zero, as illustrated below. Accounts Receivable amounts include Accounts Receivable, Claims Receivable,
      and Refunds Receivable. (In the following presentation of values, parenthesis indicate credit balances. The last column
      indicates the amount of Accrued Accounts Receivable offsetting the abnormal balances.)

      The Fuels abnormal balance is caused by the Undistributed allocation to Federal Accounts Receivable. There was not
      enough in Accounts Receivable before the distribution to offset the abnormal undistributed.

      The Medical/Dental abnormal balance was caused by an abnormal balance in Non-Federal Refunds Receivable. The
      amount of the abnormal balance was erroneous reported and will be corrected in FY03.




150      Notes to Principal Statements < Working Capital Fund
                                                                               2002 Annual Financial Statements




     Distribution of Undistributed Collections for Entities with Abnormal Balances (in Thousands)
                             Beginning                                 A/R after       Accrued A/R to
                                            Accounts Receivables
                             Abnormal                                Allocation of    Offset Abnormal
                                             Before Distribution
                           Undistributed                            Undistributed         Balances
Federal
SMAG—Fuels                          (5,459)                    911            (4,548)             4,548
SMAG—Medical/Dental                       0                 22,043            22,043                  0
Federal subtotal:                  (5,459)                  22,954            17,495              4,548

Non-Federal
SMAG—Fuels                            (5,915)                 11,481                   6                         0
SMAG—Medical/Dental                         0                   (131)              (131)                       131
Non-Federal subtotal:                (5,915)                  11,350              5,435                        131
Total                               (11,374)                  34,304             22,930                      4,679


Other Information Related to Accounts Receivables
Allocation of Undistributed Collections
The total undistributed collections applied to Accounts Receivable for the AFWCF was ($280) million, and is broken out
by business area in the table below. Undistributed was allocated based solely on the percentage of government/public
for the total amount of receivables. See supplementary information in Note 24A for additional discussion of undistrib-
uted.

   Schedule of Undistributed Collections Applied to Accounts Receivable (in Thousands)
                           DMAG            ISAG     SMAG AF TRANS Component     Total
A/R prior to Undistributed 620,094        43,284   225,659      0          0 889,037
Amount of Undistributed (237,201)            713    (9,294)   617   (35,426) (280,591)
A/R After Undistributed    382,893        43,997   216,365    617   (35,426) 608,446



Elimination Adjustments
The Air Force accounting systems do not capture trading partner data at the transaction level in a manner that facili-
tates trading partner aggregations. Therefore, the Air Force was unable to reconcile Intra-governmental Accounts
Receivable balances with its trading partners. The DoD intends to develop long-term systems improvements that will
include sufficient up-front edits and controls to eliminate the need for after-the-fact reconciliations. The volume of Intra-
governmental transactions is so large that after-the-fact reconciliation cannot be accomplished with the existing or fore-
seeable resources.




                                                                             Working Capital Fund > Notes to Principal Statements
                                                                                                                                    151
      United States Air Force
                        Force




      Accounts Receivables—Aging Schedule
                                     Aged Schedule of Accounts Receivable (in Thousands)

                                                       DMAG           ISAG        SMAG         AF TRANS   Component     Total
      Federal A/R less than 180 days                   593,263         57,259 371,856                0           0 965,119
      Federal A/R over 180 days                            691              0    15,465              0           0    73,415
      Less: Eliminations                             (224,225)       (13,264) (173,020)              0           0 (410,509)
      Total Federal A/R                               369,729        43,995      214,301             0           0    628,025

      Non-Federal A/R less than 180 days                12,777               2   (11,267)            0            0      1,512
      Non-Federal A/R over 180 days                        387               0     13,331          617     (35,426)   (21,091)
      Total Non-Federal A/R                             13,164               2     2,064           617     (35,426)   (19,579)

      Total A/R                                       382,893        43,997      216,365           617     (35,426)   608,446

      Non-Federal Refunds Receivable
      The Non-Federal Refunds Receivable is not greater than 10 percent of the Non-Federal Accounts Receivable net
      amount on the Balance Sheet.
      Note Reference
      See Note Disclosure 1.K, Significant Accounting Policies, for additional discussion on financial reporting requirements
      and DoD policies governing Accounts Receivable.


      Note 6. Other Assets
  As of September 30,                                                2002             2001
  (Amounts in thousands)
  Intra-governmental Other Assets:
    Advances and Prepayments                                     $           0    $     56,322
    Other Assets                                                             0               998
    Total Intra-governmental Other Assets                        $           0    $     57,320
      Non-Federal Other Assets:
       Other Assets (With the Public)                                 530,335          468,474
      Total Other Assets:                                        $    530,335     $    525,794



      Other Information Related to Other Assets
      Fluctuations
      Intra-governmental Assets. In FY01, the Materiel Support Division buyer-side advances to others were adjusted upward
      $56 million to agree with seller-side advances from others on the books of other DoD reporting entities. In FY02,
      Materiel Support Division buyer-side advances were adjusted upward by $2.6 million, however, eliminations for AFWCF
      were in the amount of $2.6 million. This results in zero for intra-governmental advances and prepayments.

      Non-Federal Other Assets. The fluctuations to Non-federal Other Assets is caused by the account “Other assets
      accounts receivable – deliveries suspense.” An adjustment of $55 million was made to SMAG other assets accounts
      receivable – deliveries expense shown above to correct the misstatement in FY02. It has been overstated by values from
      1993 and prior years. Air Force and DFAS are aware of a material misstatement of this balance that resulted from sys-




152       Notes to Principal Statements < Working Capital Fund
                                                                             2002 Annual Financial Statements




tem problems between Financial Inventory Accounting and Billing System (FIABS ) and Security Assist Management
Information System (SAMIS). AFMC and DFAS are currently working to resolve this problem. An adjustment of $376M
was made to SMAG other assets accounts receivable – deliveries expense to correct the misstatement in FY01.
Intra-governmental Assets
The buyer-side advances to other balances were adjusted with seller-side advances from others on the books or other
DoD reporting entities.
Non-Federal Other Assets
Non-Federal Other Assets (in Thousands)
Types of Asset                                                              Amounts
Advances and Prepayments
     SMAG                                                                   $122,516
     DMAG                                                                    $53,099
Total Advances and Prepayments                                              $175,615
Other Assets
    SMAG—Other assets accounts receivable—deliveries suspense                $98,524
    SMAG—Air Force assets—other DoD foreign military sales (depot)             ($134)
    SMAG—Other assets returns to vendors pending credit                     $256,330
Total Other Assets                                                          $354,720
Total Non-Federal Other Assets                                              $530,335


Advances and Prepayments
Total advances and prepayments to contractors are $175 million. SMAG has $122 million in advances with the public.
DMAG has $53 million in advances to contractors.
Other Assets
The remaining other assets in the amount of $355 million belongs to the SMAG business area. The majority of other
assets are reported by four Air Logistics Centers as sales of Materiel Support Division (MSD) assets to foreign govern-
ments. These deliveries cannot be billed until each delivery is matched to a proof of shipment within the Security
Assistance Management Information System (SAMIS).
Note Reference
See Note Disclosure 1.R, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Other Assets.




                                                                           Working Capital Fund > Notes to Principal Statements
                                                                                                                                  153
      United States Air Force
                        Force




      Note 7. Cash and Other Monetary Assets
      As of September 30,                     2002          2001
      (Amounts in thousands)
      Cash                                   $       4     $     0



      Other Information Pertaining to Entity Cash and Other Monetary Assets
      Definitions
      Cash—The total of cash resources under the control of the Working Capital Fund, which included coin, paper currency,
      purchased foreign currency, negotiable instruments, and amounts on deposit in banks and other financial institutions.
      Cash available for agency use should include petty cash funds and cash held in revolving funds which will not be trans-
      ferred into the U.S Government General Fund.

      Foreign Currency—consists the total U.S dollar equivalent of non-purchased foreign currencies held in foreign currency
      fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000 fund account (formerly called
      FT accounts).

      Other Monetary Assets—included gold, special drawing rights, and U.S Reserve in the International Monetary Fund.
      This category is principally for use by the Department of the Treasury.
      Fluctuations
      The increase of $4 thousand was caused by undeposited collections for ISAG.
      Note Reference
      See Note Disclosure 1.J, Significant Accounting Policies, for additional discussion on financial reporting requirements
      and DoD policies governing Foreign Currency.


      Note 8. Direct Loan and/or Loan Guarantee Programs
      Not applicable.




154       Notes to Principal Statements < Working Capital Fund
                                                                                 2002 Annual Financial Statements




Note 9. Inventory and Related Property
As of September 30,                                2002            2001
(Amounts in thousands)
Inventory, Net                                  $ 12,846,841    $ 10,080,075
Operating Materials & Supplies, Net                1,145,118         976,309

Total                                           $ 13,991,959    $ 11,056,384



Note 9.A. Inventory, Net
As of September 30,                                              2002                                   2001
                                          Inventory, Gross       Revaluation       Inventory,                             Valuation
                                                                                                   Inventory, Net
(Amounts in thousands)                         Value              Allowance           Net                                  Method
Inventory Categories:
    Available and Purchased for Resale      $      24,036,173   $ (15,581,004)     8,455,169        $   5,638,689          LAC/O
    Held for Repair                                11,581,314      (8,476,492)     3,104,822            3,254,547          LAC/O
    Excess, Obsolete, and Unserviceable                     0                0             0               84,112           NRV
    Work in Process                                 1,286,850                0     1,286,850            1,102,727            AC
   Total                                    $     36,904,337     $ (24,057,496) 12,846,841    $ 10,080,075
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses    NRV = Net Realizable Value
SP = Standard Price                                                              O = Other
AC = Actual Cost



Restrictions of Inventory Use, Sale, or Disposition
There are no restrictions on the use, sale, or disposition of inventory except in the following situations: distributions with-
out reimbursement are made when authorized by DoD directives; War Reserve Material includes fuels and subsistence
items that are considered restricted; and Inventory, with the exception of safety stocks, may be sold to foreign, state and
local governments, private parties, and contractors in accordance with current policies and guidance or at the direction
of the President.

Other Information
General Composition of Inventory
Inventory includes spare and repair parts, clothing and textiles, fuels, and ammunition. Inventory is tangible personal
property that is:

◗   Held for sale, or held for repair for eventual sale

◗   In the process of production for sale; or

◗   To be consumed in the production of goods for sale or in the provision of services for a fee.

“Inventory held for repair” is damaged material that requires repair to make it usable. “Excess inventory” is condemned
material that must be retained for management purposes. The category “held for sale” includes all issuable material.
The category “held for repair” includes all economically reparable material. “Work in process” includes munitions in




                                                                               Working Capital Fund > Notes to Principal Statements
                                                                                                                                      155
      United States Air Force
                        Force




      production and depot maintenance work with its associated labor, applied overhead, and supplies used in the delivery
      of maintenance services. The USSGL does not include a separate work in process account unrelated to sales.
      Fluctuations
      In accordance with a memo from OSD dated August 12, 2002, a policy change was implemented which discontinued
      the adjustment for inventory valuation for the amount of excess, obsolete and unserviceable inventory. As a result of this
      policy change, $1.6 billion of excess inventory which was recognized as expenses in prior years was reversed as a prior
      period adjustment. The inventory allowance account was decreased by this amount, which increased the overall value
      of inventory. Also, the inventory worksheet was adjusted to indicate the deletion of the excess expense, which increased
      the inventory amount and decreased cost of goods sold expense.

      The amount recorded in the Work in Process (WIP) account represents labor, applied overhead, and supplies used in
      the delivery of maintenance services. DMAG has approximately $1.3 million recorded in WIP in note 9.A., which is an
      increase of $184 million over FY 01. This increase is attributed to the Oklahoma City ALC, Contract where sales have
      decreased and the job orders are remaining in WIP over a longer period of time than in previous years.
      Note Reference
      See Note Disclosure 1.M, Significant Accounting Policies, for additional discussion on financial reporting requirements
      and DoD policies governing Inventory and related Property.


      Note 9.B. Operating Materials and Supplies, Net
      As of September 30,                                                2002                            2001
                                                           OM&S,     Revaluation        OM&S,            OM&S,        Valuation
      (Amounts in thousands)                               Gross      Allowance          Net              Net          Method

      OM&S Categories:
        Held for Use                                   $ 1,145,118   $          0   $   1,145,118    $    976,309        O
      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                 NRV = Net Realizable Value
      SP = Standard Price                                                                           O = Other
      AC = Actual Cost


      Other Information
      General Composition of Operating Materials and Supplies
      Operating materials and supplies includes spare and repair parts, ammunition, tactical missiles, aircraft configuration
      pods, and centrally managed aircraft engines. The Operating Materials & Supplies (OM&S) data reported on the finan-
      cial statements are derived from logistics systems designed for material management purposes, i.e., accountability and
      visibility. The reported balances from these systems are not recorded at historical cost, in conformance with the valua-
      tion requirements in the Statement of Federal Financial Accounting Standard (SFFAS) No. 3, “Accounting for Inventory
      and Related Property.” Instead the Air Force uses standard price to value its operating materials and supplies without
      computing unrealized holding gains or losses. Furthermore, past audit results have led to uncertainties pertaining to the
      completeness and existence of the OM&S quantities used to derive the balances reported in the financial statements.




156       Notes to Principal Statements < Working Capital Fund
                                                                                          2002 Annual Financial Statements




For the most part, DMAG is using the consumption method of accounting for OM&S, since OM&S is defined in the
SFFAS No. 3 as material which has not yet been issued to the end user. Once issued, the material is expensed. As stat-
ed above, current financial and logistics systems cannot fully support the consumption method. According to federal
accounting standards, the consumption method of accounting should be used to account for OM&S unless: (1) the
amount of OM&S is not significant, (2) OM&S are in the hands of the end user for use in normal operations, or (3) it is
cost-beneficial to expense OM&S when purchased (purchase method). The DoD, in consultation with its auditors, is:
(1) developing specific criteria for determining when OM&S amounts are not significant for the purpose of using the
consumption method, (2) developing functional requirements for feeder systems to support the consumption method,
and (3) identifying feeder systems that are used to manage OM&S items, and (4) developing plans to revise those sys-
tems to support the consumption method. However, for FY 01, significant portions of the Air Force’s OM&S were
reported under the purchase method – expensed when purchased – either because the systems could not support the
consumption method of accounting or because management believes the items to be in the hands of the end user.
Fluctuations
The variance of $168 million is due to DMAG. Oklahoma City Contract materials on hand have not been scheduled
for use as quickly as in prior years and Materials have remained in “Held for Use” longer. Another issue that con-
tributed to the increase was a systems problem in G072D that effected all of the Air Logistic Centers in FY 00 and
FY 01 where the “Operating Materials and Supplies Intransit” were understated. Most of the corrections were accom-
plished in FY 02 to catch up the amount in that account.
Note Reference
See Note Disclosure 1.M, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Inventory and related Property.


Note 10. General PP&E, Net
As of September 30,                                                           2002                                                   2001
                                           Depreciation/                                 (Accumulated
                                                                          Acquisition                            Net Book        Prior FY Net
                                           Amortization    Service Life                  Depreciation/
                                                                            Value                                 Value          Book Value
(Amounts in thousands)                       Method                                      Amortization)

Major Asset Classes:
   Buildings, Structures, and Facilities       30           20 or 40          797,482   $     (537,925)             259,557           288,983
   Leasehold Improvements                      S/L         lease term               0                 0                   0                 0
   Software                                    S/L          2-5 or 10         427,995         (128,143)             299,852           225,315
   Equipment                                   S/L           5 or 10        2,135,379       (1,594,636)             540,743           567,684
   Construction-in-Progress                    N/A            N/A             220,657              N/A              220,657           176,065
   Total General PP&E                                                     $ 3,581,513     $ (2,260,704)      $    1,320,809      $ 1,258,047

Legend for Valuation Methods:
S/L = Straight Line    N/A = Not Applicable




                                                                                        Working Capital Fund > Notes to Principal Statements
                                                                                                                                                157
      United States Air Force
                        Force




      Other Information
      Fluctuations
      Buildings, Structures, and Facilities. The decrease to Buildings, Structures and Facilities can be primarily attributed to Air
      Force Transportation (a residual account) transferring property out to O&M in FY02. Oklahoma City (Tinker) Organic
      added two buildings & a minor construction project (on an existing structure) offsetting a portion of the decrease
      caused by the transfer in Air Force Transportation.

      Software. The increase to software can be attributed to DMAG implementation costs incurred at Ogden, Tinker, and
      Warner Robins Air Logistics Center’s (ALC’s) for the Defense Industrial Financial Management System (DIFMS). ISAG
      also incurred implementation costs for various systems at SSG and MSG.
      Construction-in-Progress
      The primary reason for the increase to construction in process was due to an increase of $42.9 million in construction
      in process for Supply Management Material Support Division. The account is overstated my $48.2M due to the improp-
      er recording of the software being placed into service. Proper recording of the transfer would have resulted in a net
      $5.3M decrease in the construction-in-progress account. AFMC is currently reviewing all of the capital purchase pro-
      gram accounts and working on a process to correct this issue.
      Other Information Related to General PP&E, Net
      In Fiscal Year 2002, real property reported by the Automated Civil Engineering System (ACES), personal property
      reported by the Air Force Equipment Management System (AFEMS), and the Information Processing Management
      System (IPMS), data has not been validated and reconciled to reported figures received from the field activities by
      DFAS; however, the Depot Maintenance ALCs and Aerospace Maintenance and Regeneration Center (AMARC) use the
      Automated Civil Engineer System (ACES) to capture the costs of real property based on preponderance of use for each
      building. They use the straight-line method for recording depreciation maintained on spreadsheets vice the ACES
      schedule. The accounting entries are recorded directly into the field level trial balances. With the full implementation of
      the Defense Industrial Fund Management System (DIFMS), ACES will be the source for all real property accounting
      entries.

      Any WCF Special Tools and Special Test equipment in the possession and control of the Air Force are reported in the
      Air Force General Funds financial statements.

      The value of Air Force General PP&E real property in the possession of contractors is included in the value reported
      above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of General PP&E person-
      al property (Major Asset Classes of Software and Equipment) does not include all of the General PP&E above the DoD
      capitalization threshold in the possession of contractors. The net book amount of such property is immaterial in relation
      to the total General PP&E net book value. In accordance with an approved strategy with the Office of Management
      and Budget, the General Accounting Office and the Inspector General, DoD, is developing new policies and a contrac-
      tor reporting process to capture General PP&E information for future reporting purposes for compliance with federal-
      wide accounting standards.

      Past audit results have identified uncertainties as to whether all General PP&E assets in the possession or control (exis-
      tence) of the Department’s are properly and accurately recorded in the system (completeness).




158       Notes to Principal Statements < Working Capital Fund
                                                                                2002 Annual Financial Statements




Note Reference
See Note Disclosure 1.N, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing General Property, Plant and Equipment (PP&E).


Note 11. Liabilities Not Covered and Covered by Budgetary Resources
As of September 30,                                              2002                                  2001
                                              Covered by       Not Covered
(Amounts in thousands)                        Budgetary        by Budgetary         Total
                                              Resources         Resources

Intra-governmental Liabilities:
   Accounts Payable                           $   154,696       $        0      $    154,696       $     143,833
   Other                                           11,384                0            11,384             353,537
   Total Intra-governmental Liabilities       $   166,080       $        0      $    166,080       $     497,370

Non-Federal Liabilities:
  Accounts Payable                            $ 1,791,467       $        0      $ 1,791,467        $ 1,328,019
   Military Retirement Benefits and Other
                                                           0        247,750          247,750             242,137
   Employment-Related Actuarial Liabilities
   Other Liabilities                            3,151,129               0         3,151,129          3,111,789
   Total Non-Federal Liabilities              $ 4,942,596       $ 247,750       $ 5,190,346        $ 4,681,945

Total Liabilities:                            $ 5,108,676       $ 247,750       $ 5,356,426        $ 5,179,315


Other Information
Liabilities Not Covered and Covered by Budgetary Resources
Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by realized budg-
etary resources as of the balance sheet date.

Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity which are covered by real-
ized budget resources as of the balance sheet date. Budgetary resources encompass not only new budget authority but
also other resources available to cover liabilities for specified purposes in a given year. Available budgetary resources
include: (1) new budget authority, (2) spending authority from offsetting collections (credited to an appropriation or
fund account), (3) recoveries of unexpired budget authority through downward adjustments of prior year obligations,
(4) unobligated balances of budgetary resources at the beginning of the year or net transfers of prior year balances
during the year, and (5) permanent indefinite appropriations or borrowing authority, which have been enacted and
signed into law as of the balance sheet date, provided that the resources may be apportioned by the OMB without fur-
ther action by the Congress or without a contingency first having to be met.




                                                                              Working Capital Fund > Notes to Principal Statements
                                                                                                                                     159
      United States Air Force
                        Force




      Other Information Related to Liabilities Not Covered by Budgetary Resources
      Line 2(B): Military Retirement Benefits and Other Employment-Related Actuarial Liabilities.
      The $247 million in Military Retirement Benefits and Other Employment-Related Actuarial Liabilities represents AFWCF
      FY 02 Workman’s Compensation.

      Amounts are broken out by business area as follows (in thousands):

                                                        SMAG            $ 22,424
                                                        DMAG            $ 214,329
                                                        ISAG            $ 10,997
      Fluctuations
      Total Intra-governmental Other Liabilities. The $342 million decrease from FY 01 to FY 02 was caused by DMAG. In
      FY 01 Fund Balance with Treasury and Unearned Revenue/Advances from Others increased by $342 from the prior
      year. In FY 01 the overall AFWCF cash balance was approaching a critically low level, and the AFWCF is required to
      maintain an operating cash balance of at least $200 million. Secretary Air Force (SAF) and HQ AFMC requested
      DMAG to advance bill their customers to bring in the cash required in the amount of $500 million. The full effect of the
      advance billings was not realized because in FY 01 the AFWCF exceeded planned net operating losses in the amount
      of $137 million. DMAG did not issue advance billings in FY 02 at the end of the year, so the DMAG Unearned
      Revenue/Advances from Others returned to its normal level.
      Note Reference
      For Additional Line Item discussion, see:

      ◗   Note 8, Direct Loans and/or Loan Guarantee Programs

      ◗   Note 12, Accounts Payable

      ◗   Note 13, Liabilities Not Covered and Covered by Budgetary Resources

      ◗   Note 14, Environmental Restoration Liabilities, and Environmental Disposal Liabilities

      ◗   Note 15, Other Liabilities

      ◗   Note 16, Commitments and Contingencies

      ◗   Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities




160       Notes to Principal Statements < Working Capital Fund
                                                                               2002 Annual Financial Statements




Note 12. Accounts Payable
As of September 30,                                             2002                                  2001
                                                              Interest,
                                               Accounts    Penalties, and
                                                                                   Total              Total
                                               Payable     Administrative
(Amounts in thousands)                                          Fees


Intra-governmental Payables:                 $   154,696               N/A       $ 154,696         $ 143,833
Non-Federal Payables (to the Public):        $ 1,791,467    $            0       $ 1,791,467       $ 1,328,019
Total                                        $ 1,946,163    $            0       $ 1,946,163       $ 1,471,852

Other Information
Intra-governmental Accounts Payable consists of amounts owed to other federal agencies for goods of services ordered
and received but not yet paid. Interest, penalties and administrative fees are not applicable to intragovernmental
payables. Non-Federal Payables (to the Public) are payments to nonfederal entities.
Fluctuations
$354 million of the total Account Payable increase from FY 01 to FY 02 is attributed to SMAG’s accrual of Non-
Federal Accounts Payable as the contra account to federal Expenses. When the AFWCF buyer business entity’s federal
Expenses were compared to the seller’s federal Revenue and a positive difference resulted, the positive difference was
treated as unrecognized federal Expenses and an upward adjustment was required. Non-Federal Accounts Payable was
used as the contra account because federal Accounts Payable had already been eliminated to the seller’s Accounts
Receivable. An upward adjustment was also required to the Non-Federal Accounts Payable.

Total ISAG Accounts Payable increased from FY 01 to FY 02 by $120 million due to an incorrect general ledger
account crosswalk to the trial balance in FY 01. In FY 01 most of the Accounts Payable general ledger accounts were
crosswalked to the Other Liabilities account on the trial balance. The crosswalk was corrected in FY 02.
Abnormalities
Three DMAG and two SMAG entities had abnormal Accounts Payable balances on their trial balances either before or
after distribution of the Undistributed Disbursements.

Warner Robins Contract abnormal balance in the amount of $4,406,622.12 resulted when a shipment of government
furnished materials from Supply to the contractor was not processed in the DMAG system correctly and Accounts
Payable was not posted. The reversal to Accounts Payable was posted when the payment to Supply was processed, and
therefore, the abnormal balance resulted. The distribution of undistributed disbursements in the amount of
$19,062,328.55 increased the abnormal balance.

Davis Monthan’s contract abnormal balance in the amount of $402,839.57 resulted from credit Expenses, Accounts
Payable as the debit account, received from the Supply system. Davis Monthan is currently awaiting the corrective post-
ings from the Supply system.

Oklahoma City Contract abnormal balance resulted from the distribution of Undistributed Disbursements.

Fuels abnormal balance resulted from the distribution of Undistributed Disbursements.




                                                                             Working Capital Fund > Notes to Principal Statements
                                                                                                                                    161
      United States Air Force
                        Force




      General Support abnormal balance resulted from the reversal of a journal voucher created in FY 01 to accrue enough
      Accounts Payable to match to trading partner’s Accounts Receivable in the amount of $576,603,791.42. The distribu-
      tion of Undistributed Disbursements increased the abnormal balance to $587,979,690.63.

      Accruals were done to bring these abnormal balances up to zero, as illustrated below. (In the following presentation of
      values, parenthesis indicate credit balances. The last column indicates the amount of Accrued Accounts Payable offset-
      ting the abnormal balances.)


                 Distribution of Undistributed Disbursements for Entities with Abnormal Balances

                                                                      Accounts          A/P after      Accrued A/P to
                                                   Undistributed   Payable Before     Allocation of    Offset Abnormal
                                                                    Distribution      Undistributed        Balances
      Federal
      DMAG          Warner            Contract            19,062             4,407            23,469           (23,469)
      DMAG          Davis             Monthan                  0               403               403               (403)
      DMAG          Oklahoma          Contract            24,054           (24,054)                0                  0
      SMAG          Fuels                                  2,721              (628)            2,093             (2,093)
      SMAG          General           Support            151,137         (263,529)         (112,392)                  0
      Federal subtotal:                                  196,974        (283,401)           (86,427)          (25,965)

      Non-Federal
      DMAG             Warner         Contract               118            (118)                 0                   0
      DMAG             Davis          Monthan              1,324            (562)               762               (762)
      DMAG             Oklahoma       Contract            18,955          (6,128)            12,827            (12,827)
      SMAG             Fuels                              22,011          (5,168)            16,843            (16,843)
      SMAG             General        Support             11,376         576,604            587,980           (587,980)
      Non-Federal     subtotal:                           53,784         564,628            618,412          (618,412)
      Total                                              250,758         281,227            531,985          (644,377)

      Other Information Related to Accounts Payable
      Relevant Information for Comprehension
      Undistributed Disbursements. Undistributed disbursements are the difference between disbursements/collections record-
      ed at the detailed level to a specific obligation, payable, or receivable in the activity field records versus those reported
      by the U.S. Treasury via the reconciled DD1329 and DD1400. This should agree with the undistributed reported on
      accounting reports (SF 133/(M) 1002/(M) 1307). Intransit payments are payments that have been made for other
      agencies or entities that have not been recorded in their accounting records. These payments are applied to the entities
      outstanding Accounts Payable balance at year-end. AFWCF Accounts Payable were adjusted downward in the amount
      of $1,367,358,931.74 for these payments.

      Intra-governmental Eliminations. For the majority of intra-agency sales Air Force Working Capital Funds (AFWCF)
      accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading part-
      ner aggregations. Therefore, the AFWCF was unable to reconcile intra-governmental Accounts Payable to the related
      intra-governmental Accounts Receivable that generated the payable.

      The DoD summary level seller Federal Accounts Receivables were compared to each buyer AFWCF business entity’s
      Federal Accounts Payable. Adjustments were posted to each AFWCF business entity Federal Accounts Payable based on




162       Notes to Principal Statements < Working Capital Fund
                                                                               2002 Annual Financial Statements




the comparison with the Federal Accounts Receivable of the DoD Components providing goods and services to each
AFWCF business entity. Positive differences were treated as unrecognized Accounts Payable and Federal Accounts
Payable were adjusted upwards. Negative differences were treated as Non-Federal Accounts Payable and Federal
Accounts Payable were adjusted downward by reclassifying to Non-Federal Accounts Payable.

When the AFWCF buyer business entity’s federal Expenses were compared to the seller’s federal Revenue and a posi-
tive difference resulted, the positive difference was treated as unrecognized federal Expenses and an upward adjustment
was required. Non-Federal Accounts Payable was used as the contra account. This also required an upward adjustment
to the Non-Federal Accounts Payable for AFWCF.

The DoD intends to develop long-term systems improvements that will include sufficient up-front edits and controls to
eliminate the need for after-the-fact reconciliations. The volume of intra-governmental transactions is so large that after-
the-fact reconciliation cannot be accomplished with the existing or foreseeable resources.

(In the following presentation of values, parenthesis indicate credit balances. The last column indicates the amount of
Accrued Accounts Payable after AFWCF intra-entity eliminations.)

   A/P Elimination Accruals after Undistributed Disbursement Distribution and Abnormal
                              Balance Accruals (in Thousands)
                                     Elimination
                                                      A/P after
                       Adjusted        Accruals                  AFWCF Intra- Consolidated
                                                     Elimination
                         A/P            and/or                   Eliminations     A/P
                                                       Accurals
                                     Adjustments
Federal
DMAG                      (84,447)       (117,534)     (201,981)        176,887           (25,094)
ISAG                     (253,523)         24,733          (620)              7              (613)
SMAG                     (897,723)        535,119      (362,604)        233,616          (128,988)
Federal Total         (1,007,523)         442,318      (565,205)        410,510          (154,695)

Non-Federal
DMAG                       (3,733)         (11,818)     (15,551)              0           (15,551)
ISAG                     (112,265)         (24,556)   (136,821)               0          (136,821)
SMAG                     (153,989)      (1,605,502) (1,759,491)               0        (1,759,491)
Component                 122,368                0      122,368               0           122,368
AFTRANS                    (1,973)               0       (1,973)              0            (1,973)
Non-Federal Total       (149,592)      (1,641,876) (1,791,468)                0       (1,791,468)
Total                 (1,157,115)      (1,199,558) (2,356,673)          410,510       (1,946,163)


Note Reference
See Note Disclosure 1.G, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing accounting for Intragovernmental Activities.


Note 13. Debt
Not applicable.




                                                                             Working Capital Fund > Notes to Principal Statements
                                                                                                                                    163
      United States Air Force
                        Force




      Note 14. Environmental Liabilities and Disposal Liabilities
      Not applicable.


      Note 15.A. Other Liabilities
      As of September 30,                                                          2002                                  2001

                                                                 Current       Noncurrent
      (Amounts in thousands)                                                                           Total             Total
                                                                 Liability      Liability

      Intra-governmental:
        Advances from Others                                     $     1,755    $          0       $        1,755    $ 347,383
        Other Liabilities                                              9,629               0                9,629           6,154
        Total Intra-governmental Other Liabilities               $    11,384    $          0       $       11,384    $ 353,537




      As of September 30,                                                           2002                                         2001

                                                               Current         Noncurrent
      (Amount in Thousands)                                                                                 Total                Total
                                                               Liability        Liability

      Non-Federal:
         Accrued Funded Payroll and Benefits               $         147,661   $               0       $       147,661     $       150,329
         Advances from Others                                          1,070                   0                 1,070               1,212
         Other Liabilities                                       3,002,398                     0            3,002,398            2,960,248
         Total Non-Federal Other Liabilities               $     3,151,129     $               0       $    3,151,129      $     3,111,789
      Total Other Liabilities:                             $ 3,162,513         $               0       $    3,162,513      $     3,465,326



      Other Information Pertaining to Other Liabilities
      Fluctuations
      Total Intra-governmental Other Liabilities. The $342 million decrease from FY 01 to FY 02 was caused by DMAG. In
      FY 01 Fund Balance with Treasury and Unearned Revenue/Advances from Others increased by $342 from the prior
      year. In FY 01 the overall AFWCF cash balance was approaching a critically low level, and the AFWCF is required to
      maintain an operating cash balance of at least $200 million. SAF and HQ AFMC requested DMAG to advance bill
      their customers to bring in the cash required in the amount of $500 million. The full effect of the advance billings was
      not realized because in FY 01 the AFWCF exceeded planned net operating losses in the amount of $137 million.
      DMAG did not issue advance billings in FY 02 at the end of the year, so the DMAG Unearned Revenue/Advances from
      Others returned to its normal level.

             Intra-Governmental—
         Other Liabilities (in Thousands)
                      FY 2002          FY 2001
      DMAG                 8,222           $5,329
      ISAG                   541              338
      SMAG                   867              487
      Total                9,630           $6,154




164       Notes to Principal Statements < Working Capital Fund
                                                                                    2002 Annual Financial Statements




Other liabilities consist of $9,630 million accrued payroll and employer contributions payable. These liabilities are clas-
sified as intra-governmental as they are provided by the Department of Labor and elimination entries are necessary.

                         Non-Federal—Other Liabilities (in Thousands)
                                                                         FY 2002        FY 2001
DMAG—Progress Billings                                                      915,608       $834,599
DMAG—WIP Accrued Expenses                                                 1,958,864      1,924,638
ISAG—Contract Services/Various Miscellaneous Items                                0        116,929
SMAG—Contract Holdbacks                                                         274           $274
SMAG—Future Purchase—Foreign Military Sales                                  92,227         83,808
Component—Reclass of Abnormal Public Accounts Receivable                     35,427              0
Total                                                                   $3,002,400     $2,960,248


The SMAG Other Liabilities related to Foreign Military Sales arrive from money that various countries have deposited
with the SMAG as a buy in on future purchases they plan to make under the foreign military sales program. These
funds are considered a liability as the funds are returned if the countries do not make future purchases. Revenue is not
recognized on these transactions until the purchase takes place.

The Component Other Liabilities is related to an abnormal Non-Federal Accounts Receivable amount. The amount was
abnormal because of Undistributed Collections. FACTS I will not accept an abnormal balance in Non-Federal Accounts
Receivable, therefore the amount was reclassified as a Non-Federal Other Liability.
Note Reference
See Note Disclosure 1.S, Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Contingencies and Other Liabilities.


Note 16. Commitments and Contingencies
Not applicable.


Note 17. Military Retirement Benefits and Other Employment Related Actuarial
Liabilities
As of September 30,                                      2002                                       2001
                             Actuarial Present   Assumed      (Less: Assets     Unfunded          Unfunded
                            Value of Projected    Interest   Available to Pay   Actuarial         Actuarial
(Amounts in Thousands)         Plan Benefits     Rate (%)       Benefits)        Liability         Liability

FECA                          $     247,750                    $          0     $ 247,750         $ 242,137



FECA
The liability for future workers’ compensation (FWC) benefits includes the expected liability for death, disability, medical,
and miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The
liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred peri-
od to predict the ultimate payments related to that period. Consistent with past practice, these projected annual benefit




                                                                                  Working Capital Fund > Notes to Principal Statements
                                                                                                                                         165
      United States Air Force
                        Force




      payments have been discounted to present value using the OMB economic assumptions for 10-year Treasury notes and
      bonds. Interest rate assumptions utilized for discounting were as follows:

                                                                   2002
                                                              5.20% in year 1
                                                              5.20% in year 2
                                                               And thereafter
      To provide more specifically for the effects of inflation on the liability for FWC benefits wage inflation factors (cost of liv-
      ing adjustments or COLAs) and medical inflation factors (consumer price index medical or CPIMs) were applied to the
      calculation of projected future benefits. These factors were also used to adjust the methodology’s historical payments to
      current year constant dollars.

      The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:

                                                     CBY          COLA                  CPIM
                                                    2003          1.80%                4.31%
                                                    2004          2.67%                4.01%
                                                    2005          2.40%                4.01%
                                                    2006          2.40%                4.01%

      The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on
      two tests: (1) a comparison of the percentage change in the liability amount by agency to the percentage change in
      actual payments, and (2) a comparison of the ratio of the estimated liability to the actual payment of the beginning
      year calculated for the current projection to the liability-payment ration calculated for the prior projection.


      Note 18. Unexpended Appropriations
      Not applicable.


      Note 19.A. General Disclosures Related to the Statement of Net Cost
      Disclosures Related to the Statement of Net Cost
      The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven on
      understanding the net cost and/or organizations that the federal government supports through appropriations or other
      means. This statement provides gross and net cost information that can be related to the amount of output or outcome
      for a given program and/or organization administered by a responsible reporting entity.

      Working Capital Funds
      While the Air Force Working Capital Funds (WCFs) generally record transactions on an accrual basis as is required by
      generally accepted accounting principles, the systems do not always capture actual costs.Information presented on the
      Statement of Net Cost (SoNC) is primarily based on budgetary obligation, disbursements, or collection transactions, as
      well as information from non-financial feeder systems.




166       Notes to Principal Statements < Working Capital Fund
                                                                            2002 Annual Financial Statements




Fluctuations
The primary reason for the decrease in revenue from sales of goods and services was because effective October 2001,
the Fuels Division reporting was transferred to the Defense Energy Supply Center (DESC). Only residual balances are
now being reported for the Fuels Division.
Prior Period Adjustments
The DFAS Arlington Prior Period Adjustment Panel, consisting of DFAS-Arlington and OSD personnel, determined the
below prior period adjustments recorded in the 1307 report to be either immaterial at the audited financial statement
level or not of an infrequent nature. The prior period adjustments were previously coordinated with applicable cus-
tomers and are material at the business area level of the 1307 report. Based upon instructions from this panel, the
prior period adjustments were reclassified and recorded as current year transactions effecting revenues and expenses
depending on which account would have been effected had the correction been made in the same year as the error.
Supply Management—Materiel Support Division
Revenues were decreased by $84,895,544.81 to correctly state Accounts Receivables balances due to posting errors in
prior years. Expenses were increased $29,733,499.94 to correct an erroneous journal voucher posted for progress
payments in a prior year.
Depot Maintenance
Overall, DMAG reclassified $12,253,038.67 from Standard General Ledger (SGL) 7400, Prior Period Adjustment, to
SGL 6100, Operating Expenses, and reclassified $1,723,577.08 from SGL 7400 to SGL 5200, Revenue.

                         Oklahoma City, Organic      $26,446,596.04 debited to Operating Expenses
                         Warner Robins, Contract     $1,264,971.39 debited to Operating Expenses
                         Warner Robins, Organic      $5,207,302.60 debited to Operating Expenses
                         Ogden, Contract             ($20,665,831.36) credited to Operating Expenses
                         Davis-Monthan               ($1,723,577.08) credited to Revenue

The net prior period adjustment for Oklahoma City and Warner Robins was due to expenses reported in FY02 that
should have been reported in FY01 and to correct the Beginning of Period Work-in-Process (WIP) value, as instructed by
HQ AFMC after auditors identified the problem.

The purpose of Ogden’s prior period adjustment was to close out the Accounts Payable Non-Federal Contract general
ledger account. The balance in that account was erroneous due to a duplicate Journal Voucher posting in FY 99, one
JV prepared by Hill and the other prepared by San Bernardino.

The net prior period adjustment for Davis-Monthan was due to an increase/adjustment in Account Receivable to reflect
the actual amount of open invoices.




                                                                          Working Capital Fund > Notes to Principal Statements
                                                                                                                                 167
      United States Air Force
                        Force




      Note 19.B. Imputed Expenses
      As of September 30,                                    2002             2001
      (Amount in thousands)
      Civilian (e.g.,CSRS/FERS) Retirement               $       48,268   $    47,613
      Civilian Health                                            78,711        76,614
      Civilian Life Insurance                                       224           204
      Total Imputed Expenses                             $ 127,203        $ 124,431



      Note 19.C. Intra-governmental Revenue and Expense
      Intra-governmental Revenue
      The Department’s accounting systems do not capture trading partner data at the transaction level in a manner that
      facilitated trading partner aggregations. Therefore, the Department was unable to reconcile intra-governmental revenue
      balances with its trading partners. The Department intends to develop long-term system improvements that will include
      sufficient up-front edits and controls to eliminate the need for after-the-fact reconciliations. The volume of intragovern-
      mental transactions is so large that after-the-fact reconciliation cannot be accomplished with the existing or foreseeable
      resources.

      Intra-governmental Expenses
      The Departments’s operating expenses were adjusted based on a comparison between the Department’s Accounts
      Payable and the DoD summary level seller accounts receivables. An adjustment was posted to Accounts Payable and
      Operating Expenses to reflect unrecognized Accounts Payable and Operating Expenses. The operating expense for the
      Department were adjusted upwards in the amount of $1,652,304 thousand.


      Note 20. Disclosures Related to the Statement of Changes in Net Position
                                                                          Cumulative       Unexpended      Cumulative       Unexpended
                                                                           Results of                       Results of
      As of September 30,                                                                 Appropriations                   Appropriations
                                                                          Operations                       Operations
                                                                                              2002            2001             2001
                                                                             2002
      (Amounts in thousands)
      Prior Period Adjustments Increases (Decreases)
      to Net Position Beginning Balance:
         Other Prior Period Adjustments                                   $   1,628,844     $          0   $ (3,462,470)   $            0

      Imputed Financing:
         Civilian CSRS/FERS Retirement                                    $      48,268     $          0   $    47,613     $            0
         Civilian Health                                                         78,711                0        76,614                  0
         Civilian Life Insurance                                                    224                0           204                  0
         Total Imputed Financing                                          $     127,203     $          0   $   124,431     $            0




168       Notes to Principal Statements < Working Capital Fund
                                                                              2002 Annual Financial Statements




Other Information
Prior Period Adjustments
In accordance with a memo from OSD dated August 12, 2002, a policy change was implemented which discontinued
the adjustment for inventory valuation for the amount of excess, obsolete and unserviceable inventory. As a result of this
policy change, $1.6 billion of excess inventory was not recognized. The prior period adjustment reversed expenses that
were recognized in prior years, and decreased the inventory allowance account, which had an overall impact of
increasing inventory. This adjustment was processed incorrectly on the 1307 report and will be corrected in FY03.


Note 21.A. Disclosures Related to the Statement of Budgetary Resources
As of September 30,                                      2002          2001
(Amounts in thousands)
Net Amount of Budgetary Resources Obligated
                                                      $ 5,698,622 $ 5,312,691
for Undelivered Orders at the End of the Period
Available Borrowing and Contract Authority at
                                                        1,444,971     1,093,918
the End of the Period


Other Information
The Department has identified the Government Performance and Results Act (GPRA) performance measures based on
missions and outputs. The Department, however, is unable to accumulate costs for major programs based on those
performance measures, because its financial processes and systems were not designed to collect and report this type of
cost information. Until the process and systems are upgraded, the Department will break out programs by its nine
major appropriation groupings.

Undelivered Orders Presented in Statement of Budgetary Resources
Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid for both
Direct and Reimbursable funds. It does not include Undelivered Orders-Paid.

Spending Authority from Offsetting Collections
Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently not
available (included in the “Adjustments” line on the Statement of Budgetary Resources), are not included in “Spending
Authority From Offsetting Collections and Adjustments” line of the Statement of Budgetary Resources or the “Spending
Authority for Offsetting Collections and Adjustments” line of the Statement of Financing.

Intra-entity transactions have not been eliminated because the statements are present as combined and combining.

Budget Authority
Depot Maintenance received an appropriation in the amount of $3,100 thousand through a Treasury Appropriation
Warrant.

Supply Management received an appropriation in the amount of $29,786 thousand through a Treasury Appropriation
Warrant.




                                                                           Working Capital Fund > Notes to Principal Statements
                                                                                                                                  169
      United States Air Force
                        Force




      Note 21.B. Disclosures Related to Problem Disbursements, In-transit
      Disbursements and Suspense/Budget Clearing Accounts
                                                                                                              (Decrease)/
      As of September 30,                                            Sep 2000        Sep 2001    Sep 2002    Increase from
                                                                                                             2001 to 2002
      (Amounts in thousands)
      Total Problem Disbursements
         Absolute Unmatched Disbursements                        $       1,000   $       4,000   $   4,000    $          0
         Negative Unliquidated Obligations                              17,000          16,000      11,000         (5,000)
      Total In-transit Disbursements, Net                        $     545,000   $     606,000   $ 538,000    $   (68,000)

      Other Information Related to Suspense/Budget Clearing Accounts
      The Air Force has $553 million in problem disbursements and in-transit disbursements that represent disbursements of
      Air Force working capital funds that have been reported by a disbursing station to the Department of the Treasury but
      have not yet been precisely matched against the specific source obligation giving rise to the disbursements. For the
      most part, these payments have been made using available funds and based on valid receiving reports for goods and
      services delivered under valid contracts. The problem disbursements and in-transit disbursements arise when the various
      contracting, disbursing, and accounting systems fail to match the data necessary to properly account for the disburse-
      ment transactions in all applicable accounting systems. Defense Finance and Accounting Service has efforts underway
      to improve the systems and to resolve all previous problem disbursements and to process all in-transit disbursements.
      As of September 30, 2002, these efforts resulted in a $5 million decrease in reported problem disbursements since
      September 2001. Intransit disbursements decreased $68 million since September 2001. The amount over 180 days old
      for NULOs is $1 million and for Intransits is $(3) million. The absolute value of intransit disbursements is $1.2 billion.


      Note 22. Disclosures Related to the Statement of Financing
      Disclosures Related to the Statement of Financing
      The objective of the Statement of Financing is to help users understand the difference between budgetary and net cost
      of operations reported. The statement provides this understanding through a comprehensive reconciliation process.

      The statement of financing was expanded to further articulate and detail the relationship between net obligations from
      budgetary accounting and net cost of operation from proprietary accounting. Some items that were reported last year
      as a single line were subdivided to reflect its components. Several new line items were added to separately identify and
      further explain the use of resources to finance net obligations or net cost of operations. This change notes key differ-
      ences between the net obligations and net cost of operations.

      Other Information Related to the Statement of Financing
      Statement of Financing Adjustments
      Budgetary data is not in agreement with Proprietary Expenses and Assets Capitalized. This causes a difference in Net
      Cost between the Statement of Net Cost and the Statement of Financing. On the Statement of Financing, resources that
      finance the acquisition of assets is adjusted in order to align the amount of net cost on the Statement of Financing with
      the amount reported on the Statement of Net Cost. Detail of adjustments follow.




170       Notes to Principal Statements < Working Capital Fund
                                                                              2002 Annual Financial Statements




     Statement of Financing
   Adjustments (in Thousands)

                  SOF Line 15
                  Adjustments
AF TRANS                      144
DMAG                    (786,219)
ISAG                     (11,771)
SMAG                    (604,276)
Total               ($1,402,123)

Intra-entity Transaction
Intra-entity transactions have not been eliminated because the statements are presented as combined and combining.


Note 23. Disclosures Related to the Statement of Custodial Activity
Not applicable.


Note 24.A. Other Disclosures
Undistributed Collections and Disbursements
Timing differences often occur between Treasury recording cash transactions and the field recording transactions in the
general ledger. The differences are accounted for in the undistributed collection and disbursements accounts, which off-
set Accounts Receivable and Accounts Payable in the accounting records. Undistributed amounts are reconciled month-
ly to ensure that they are fully supported. With the exception of the Materiel Support Division, all of the undistributed
transactions are 100% supported.

Various categories make up the total undistributed. Intransit items and uncleared interfund represent the majority of the
undistributed. The intransit category consists of transactions that are paid/collected by one entity on behalf of another
entity. The transaction is recorded at Treasury in the month of occurrence, however it generally takes 30-60 days to be
distributed to the accountable entity. Interfund transactions are Intra-governmental no check drawn transactions that are
generated by the billing activity at end of month. They are then transmitted to a central location to be distributed to the
accountable entity. Since this is an end of month process, the accountable entity does not receive the data until the next
month. Recons and suspense are also a category of undistributed. Recons are created when the cumulative disburse-
ments and collections reported by the field entities on monthly reports do not equal cumulative amounts generated
from current month transactions. When differences occur between the field-level weekly and monthly reports, the
amount is suspensed until out of balances can be researched and corrected in subsequent months. The suspense cate-
gory may also contain amounts that are not supported by voucher data, but have been reported to Treasury. Once
again, this is researched and corrected. Other miscellaneous posting errors can contribute to undistributed balances,
which are identified monthly and corrected at the appropriate location.

The Materiel Support Division currently has an unsupported balance of $48M. In FY02, the unsupported balance has
been stabilized for the most part. The accountability for this appropriation is shared between Denver and Columbus.
Denver is taking over accountability for the entire appropriation in FY03. This will bring all of the supporting informa-
tion into Denver systems and will allow complete reconciliation. ISAG currently has an unsupported balance of $16M,




                                                                            Working Capital Fund > Notes to Principal Statements
                                                                                                                                   171
      United States Air Force
                        Force




      which is also stabilized. Research is being conducted with the Cleveland DFAS center to resolve the unsupported
      amounts. Overall, the unsupported undistributed represents 10 percent of the total undistributed.

      Performance measurements are in place to ensure timely processing of AFWCF transactions. In addition, new systems
      were implemented in FY01 that should impact the time frames involved in processing transactions in future years, which
      should decrease the total undistributed.




172      Notes to Principal Statements < Working Capital Fund
                               2002 Annual Financial Statements




Working Capital Fund

Consolidating and
Combining Statements




                 Working Capital Fund > Consolidating and Combining Statements
                                                                                 173
      United States Air Force
                        Force




      Consolidating Balance Sheet—Working Capital Fund
      As of September 30, 2002 and 2001 ($ in thousands)



                                                                                Depot         Supply       Information
                                                                             Maintenance    Management       Services
  ASSETS (Note 2)
       Intragovernmental:
          Fund Balance with Treasury (Note 3)                                     309,500         92,324        47,413
          Accounts Receivable (Note 5)                                            592,181        387,297        57,260
          Other Assets (Note 6)                                                         0          2,584             0
               Total Intragovernmental Assets                                    $901,681       $482,205      $104,673
           Cash and Other Monetary Assets (Note 7)                                      0              0             4
           Accounts Receivable (Note 5)                                            13,164          2,064             2
           Inventory and Related Property (Note 9)                              2,086,779     11,905,180             0
           General Property, Plant and Equipment (Note 10)                      1,050,180        237,896        32,531
           Other Assets (Note 6)                                                   53,100        477,235             0
  TOTAL ASSETS                                                                 $4,104,904    $13,104,580      $137,210
  LIABILITIES (Note 11)
     Intragovernmental:
          Accounts Payable (Note 12)                                             200,209         362,580           619
          Other Liabilities (Note 15 & Note 16)                                   12,560             867           541
              Total Intragovernmental Liabilities                               $212,769        $363,447        $1,160
           Accounts Payable (Note 12)                                             15,551       1,759,490       136,821
           Military Retirement Benefits and Other Employment-Related
           Actuarial Liabilities (Note 17)                                        214,329         22,424        10,997
           Other Liabilities (Note 15 and Note 16)                              3,005,708        101,152         8,843
    TOTAL LIABILITIES                                                          $3,448,357     $2,246,513      $157,821
    NET POSITION
           Cumulative Results of Operations                                       656,547     10,858,067       -20,611
    TOTAL NET POSITION                                                          $656,547     $10,858,067      -$20,611
    TOTAL LIABILITIES AND NET POSITION                                         $4,104,904    $13,104,580      $137,210




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 21.



174      Consolidating and Combining Statements < Working Capital Fund
                                                                                        2002 Annual Financial Statements




                                                                                                       2001
                     Component          Combined         Intra-Entity             2002               Restated             2001
Transportation         Level              Total          Eliminations          Consolidated        Consolidated        Consolidated


          10,102             3,973          463,312                   0              463,312              556,603             556,603
              0                  0        1,036,738            408,713              628,025              461,229             461,229
              0                  0            2,584              2,584                    0               57,320              57,320
        $10,102             $3,973       $1,502,634           $411,297           $1,091,337           $1,075,152          $1,075,152
              0                  0                4                  0                    4                    0                   0
            617                  0           15,847                  0               15,847              105,290             105,290
              0                  0       13,991,959                  0           13,991,959           12,685,228          11,056,384
            202                  0        1,320,809                  0            1,320,809            1,258,047           1,258,047
              0                  0          530,335                  0              530,335              468,474             468,474
        $10,921             $3,973      $17,361,588           $411,297          $16,950,291          $15,592,191         $13,963,347


               0                1           563,409            408,713               154,696              143,833             143,833
               0                0            13,968              2,584                11,384              353,537             353,537
              $0               $1          $577,377           $411,297              $166,080             $497,370            $497,370
           1,973         -122,368         1,791,467      $           0             1,791,467            1,328,019           1,328,019

               0                0           247,750                  0               247,750             242,137             242,137
               0           35,426         3,151,129                  0             3,151,129           3,111,789           3,111,789
          $1,973         -$86,941        $5,767,723           $411,297            $5,356,426          $5,179,315          $5,179,315

          8,948            90,914        11,593,865                  0           11,593,865           10,412,876           8,784,032
         $8,948           $90,914       $11,593,865      $           0          $11,593,865          $10,412,876          $8,784,032
        $10,921            $3,973       $17,361,588           $411,297          $16,950,291          $15,592,191         $13,963,347




The accompanying notes are an integral part of the financial statements.
See notes 1 and 21.



                                                                           Working Capital Fund > Consolidating and Combining Statements
                                                                                                                                           175
      United States Air Force
                        Force




      Consolidating Statement of Net Cost—Working Capital Fund
      For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                                              2001
                                                             Combined                         2002          Restated        2001
                                                               Total        Eliminations   Consolidated   Consolidated   Consolidated
  PROGRAMS COST
   Component Level
      Gross Costs With the Public                                  -2,474              0         -2,474              0              0
          Total Net Cost                                         -$2,474              $0        -$2,474             $0             $0
      Depot Maintenance
          Intragovernmental Gross Costs                        3,313,796       2,363,856        949,940      1,064,822      1,064,822
            (Less: Intragovernmental Earned Revenue)          -6,583,720      -2,708,680     -3,875,040     -3,365,647     -3,365,647
              Intragovernmental Net Costs                     -3,269,924        -344,824     -2,925,100     -2,300,825     -2,300,825
          Gross Costs With the Public                          2,989,168               0      2,989,168      3,512,605      3,512,605
            (Less: Earned Revenue From the Public)              -128,110               0       -128,110       -103,967       -103,967
              Net Costs With the Public                        2,861,058               0      2,861,058      3,408,638      3,408,638
          Total Net Cost                                       -$408,866       -$344,824       -$64,042     $1,107,813     $1,107,813
      Information Services
          Intragovernmental Gross Costs                           27,400             66          27,334        62,041          62,041
            (Less: Intragovernmental Earned Revenue)            -607,945       -152,949        -454,996      -408,013        -408,013
              Intragovernmental Net Costs                       -580,545       -152,883        -427,662      -345,972        -345,972
          Gross Costs With the Public                            609,888              0         609,888       507,899         507,899
            (Less: Earned Revenue From the Public)               -19,885              0         -19,885             0               0
              Net Costs With the Public                          590,003              0         590,003       507,899         507,899
          Total Net Cost                                          $9,458      -$152,883        $162,341      $161,927        $161,927
      Supply Management
          Intragovernmental Gross Costs                        6,719,246       2,832,417      3,886,829      5,540,632      5,540,632
            (Less: Intragovernmental Earned Revenue)          -8,912,075      -2,334,710     -6,577,365     -7,767,617     -7,767,617
              Intragovernmental Net Costs                     -2,192,829         497,707     -2,690,536     -2,226,985     -2,226,985
          Gross Costs With the Public                          1,770,726               0      1,770,726      5,585,903      5,585,903
            (Less: Earned Revenue From the Public)              -159,209               0       -159,209       -330,077       -330,077
              Net Costs With the Public                        1,611,517               0      1,611,517      5,255,826      5,255,826
          Total Net Cost                                       -$581,312        $497,707    -$1,079,019     $3,028,841     $3,028,841
      Transportation
            (Less: Earned Revenue From the Public)                   -820              0           -820              0              0
       Total Net Cost                                              -$820              $0          -$820             $0             $0
   Total Program Costs
       Intragovernmental Gross Costs                          10,060,442       5,196,339      4,864,103      6,667,495      6,667,495
         (Less: Intragovernmental Earned Revenue)            -16,103,740      -5,196,339    -10,907,401    -11,541,277    -11,541,277
           Intragovernmental Net Costs                        -6,043,298               0     -6,043,298     -4,873,782     -4,873,782
       Gross Costs With the Public                             5,367,308               0      5,367,308      7,977,563      9,606,407
         (Less: Earned Revenue From the Public)                 -308,024               0       -308,024       -434,044       -434,044
           Net Costs With the Public                           5,059,284               0      5,059,284      7,543,519      9,172,363
  NET COST OF OPERATIONS                                       -$984,014              $0      -$984,014     $2,669,737     $4,298,581




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 19.



176      Consolidating and Combining Statements < Working Capital Fund
                                                                                         2002 Annual Financial Statements




Consolidating Statement of Changes in Net Position—Working Capital Fund
For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                             Depot Maintenance                Supply Management
                                                        Cumulative                       Cumulative
                                                         Results of    Unexpended         Results of    Unexpended
                                                        Operations    Appropriations     Operations    Appropriations
BEGINNING BALANCES                                          217,215                 0      8,447,879                 0
Prior period adjustments (+/-)                                      0               0      1,628,844                 0
BEGINNING BALANCES, ADJUSTED                               $217,215                $0    $10,076,723                $0
BUDGETARY FINANCING SOURCES
      Appropriations received                                     0             3,100               0              29,786
      Appropriations used                                     3,100            -3,100          29,786             -29,786
     Other budgetary financing sources (+/-)                      0                 0               0                   0
OTHER FINANCING SOURCES
      Transfers-in/out without reimbursement (+/-)         -80,437                  0        157,838                    0
      Imputed financing from costs absorbed by others      107,803                  0         12,408                    0
TOTAL FINANCING SOURCES                                    $30,466                 $0       $200,032                   $0

NET COST OF OPERATIONS (+/-)                               -408,866                 0        -581,312                    0

ENDING BALANCES                                           $656,547                 $0    $10,858,067                   $0




The accompanying notes are an integral part of the financial statements.
See notes 1 and 20.



                                                                            Working Capital Fund > Consolidating and Combining Statements
                                                                                                                                            177
      United States Air Force
                        Force




      Consolidating Statement of Changes in Net Position—Working Capital Fund
      (Continued)
           Information Services                   Transportation                     Component Level                Combined Total
      Cumulative                         Cumulative                           Cumulative                      Cumulative
       Results of     Unexpended          Results of      Unexpended           Results of    Unexpended        Results of    Unexpended
      Operations     Appropriations      Operations      Appropriations       Operations    Appropriations    Operations    Appropriations
          -18,144                  0          48,642                   0           88,440                 0     8,784,032                 0
                  0                0                 0                 0                  0               0     1,628,844                 0
         -$18,144                 $0         $48,642                  $0          $88,440                $0   $10,412,876                $0

                0                   0               0                    0             0                 0              0             32,886
                0                   0               0                    0             0                 0         32,886            -32,886
                0                   0               0                    0             0                 0              0                  0

                0                   0         -40,515                     0            0                 0        36,886                  0
            6,992                   0               0                     0            0                 0       127,203                  0
           $6,992                  $0        -$40,515                    $0           $0                $0      $196,975                 $0

            9,458                   0            -820                    0         -2,474                0       -984,014                 0

         -$20,610                  $0          $8,947                    $0      $90,914                $0    $11,593,865                $0




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 20.



178      Consolidating and Combining Statements < Working Capital Fund
                                                                                         2002 Annual Financial Statements




Consolidating Statement of Changes in Net Position—Working Capital Fund
(Continued)
                        2002 Consolidated Total        Restated 2001 Consolidated             2001 Consolidated Total
                     Cumulative                       Cumulative                          Cumulative
                      Results of     Unexpended        Results of    Unexpended            Results of      Unexpended
  Eliminations       Operations     Appropriations    Operations    Appropriations        Operations      Appropriations
              0        8,784,032                  0    16,474,636                  0       16,474,636                   0
              0        1,628,844                  0     -3,462,470                 0        -3,462,470                  0
             $0      $10,412,876                 $0   $13,012,166                 $0      $13,012,166                  $0
                                                                                   0
                 0             0             32,886               0                0                0                    0
                 0        32,886            -32,886          8,375                 0            8,375                    0
                 0             0                  0                                           -92,576                    0
                                                                                     0
              0          36,886                  0         30,216                    0         30,216                    0
              0         127,203                  0        124,432                    0        124,432                    0
             $0        $196,975                 $0     $2,669,737                   $0        $70,447                   $0

                 0      -984,014                 0     10,412,876                    0      4,298,581                    0

             $0      $11,593,865                $0    $10,412,876                   $0     $8,784,032                   $0




The accompanying notes are an integral part of the financial statements.
See notes 1 and 20.



                                                                           Working Capital Fund > Consolidating and Combining Statements
                                                                                                                                           179
      United States Air Force
                        Force




      Combining Statement of Budgetary Resources—Working Capital Fund
      For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                              Depot Maintenance         Supply Management         Information Services
                                                                            Non                      Non                         Non
                                                            Budgetary    Budgetary    Budgetary    Budgetary    Budgetary      Budgetary
  BUDGETARY RESOURCES
  Budget Authority:
     Appropriations received                                     $3,100          $0      $29,786           $0            $0            $0
     Contract authority                                              $0          $0     $362,674           $0            $0            $0
  Unobligated balance:
     Beginning of period                                        $39,289          $0      $17,490           $0      $43,128             $0
     Net transfers, actual (+/-)                                     $0          $0      $78,000           $0           $0             $0
  Spending authority from offsetting collections:
     Earned
        Collected                                             6,668,865          0     8,549,499           0       617,074             0
        Receivable from Federal sources                          61,155          0        (51,258)         0        10,760             0
     Change in unfilled customer orders
        Advance received                                       (262,178)          0            0           0              0             0
        Without advance from Federal sources                    559,256           0       38,894           0         (6,907)            0
     Subtotal                                                $7,027,098          $0   $8,537,135           $0     $620,927             $0
  Recoveries of prior year obligations                                0           0            0           0              0             0
  Permanently not available                                     (24,490)          0     (104,868)          0       (12,728)             0
  TOTAL BUDGETARY RESOURCES                                  $7,044,997          $0   $8,920,217           $0     $651,327             $0

  STATUS OF BUDGETARY RESOURCES
  Obligations incurred:
     Direct                                                       3,100          0        29,786           0             0             0
     Reimbursable                                             6,867,541          0     8,861,145           0       645,090             0
     Subtotal                                                 6,870,641          0     8,890,931           0       645,090             0
  Unobligated balance:
     Apportioned                                               174,357            0       29,286           0        6,238               0
     Exempt from apportionment                                        0           0            0           0             0              0
     Other available                                                 (1)          0            0           0            (1)             0
  TOTAL STATUS OF BUDGETARY RESOURCES                        $7,044,997          $0   $8,920,217           $0     $651,327             $0

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
  Obligated Balance, Net – beginning of period                 720,929           0     2,812,321           0        37,427             0
  Obligated Balance, Net – end of period:
     Accounts receivable                                       (589,645)         0      (449,282)          0       (57,262)            0
     Unfilled customer order from Federal sources            (2,442,056)         0    (1,150,833)          0      (205,913)            0
     Undelivered orders                                       1,149,293          0     4,380,637           0       163,885             0
     Accounts payable                                         2,171,441          0       467,866           0       146,824             0
  Outlays:
     Disbursements                                            6,682,128           0    8,467,227           0       631,129              0
     Collections                                             (6,406,686)          0   (8,549,499)          0      (617,074)             0
     Subtotal                                                   275,442           0       (82,272)         0        14,055              0
  Less: Offsetting receipts                                           0           0             0          0             0              0
  NET OUTLAYS                                                  $275,442          $0      -$82,272          $0      $14,055             $0




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 21.



180      Consolidating and Combining Statements < Working Capital Fund
                                                                                        2002 Annual Financial Statements




     Transportation            Component Level          2002 Combined Total         Restated 2001 Combined         2001 Combined Total
                  Non                      Non                        Non                            Non                         Non
 Budgetary    Budgetary     Budgetary   Budgetary     Budgetary    Budgetary        Budgetary     Budgetary      Budgetary    Budgetary


         $0            $0           $0           $0      $32,886               $0        $8,375             $0        $8,375               $0
         $0            $0           $0           $0     $362,674               $0      $503,037             $0      $503,037               $0

     $2,825            $0      $88,440           $0     $191,172               $0       $55,603             $0       $55,603               $0
         $0            $0           $0           $0      $78,000               $0       $65,500             $0       $65,500               $0


          0            0          105             0   15,835,543                0    15,579,478             0    15,579,478                0
          0            0       81,501             0      102,158                0      (765,824)            0      (765,824)               0

          0            0            0            0      (262,178)              0              0              0             0               0
          0            0            0            0       591,243               0       455,715               0      455,715                0
         $0            $0      $81,606           $0   $16,266,766              $0   $15,269,369             $0   $15,269,369               $0
          0            0            0            0             0               0          1,299              0         1,299               0
      1,114            0            0            0      (140,972)              0        (10,001)             0       (10,001)              0
     $3,939            $0     $170,046           $0   $16,790,526              $0   $15,893,182             $0   $15,893,182               $0




          0            0            0             0       32,886                0             0             0     (2,124,484)              0
     (1,114)           0       79,132             0   16,451,794                0             0             0    17,826,492                0
     (1,114)           0       79,132             0   16,484,680                0             0             0    15,702,008                0

      5,053            0       90,914            0       305,848               0             0               0        (8,987)              0
          0            0            0            0              0              0             0               0      200,161                0
          0            0            0            0             (2)             0             0               0             0               0
     $3,939            $0     $170,046           $0   $16,790,526              $0            $0             $0   $15,893,182               $0


      7,400            0       (87,639)           0    3,490,438                0             0             0      2,791,001               0
                                                                                              0             0
       (617)           0        35,426            0    (1,061,380)              0             0             0       (959,222)              0
          0            0             0            0    (3,798,802)              0             0             0     (3,207,561)              0
      4,807            0             0            0     5,698,622               0             0             0      5,312,691               0
      1,973            0      (122,368)           0     2,665,736               0             0             0      2,344,528               0

        123            0        (3,066)          0     15,777,541              0             0               0    15,311,380               0
          0            0          (105)          0    (15,573,364)             0             0               0   (15,579,478)              0
        123            0        (3,171)          0        204,177              0             0               0      (268,098)              0
          0            0             0           0              0              0             0               0             0               0
       $123            $0      -$3,171           $0      $204,177              $0            $0             $0     -$268,098               $0




The accompanying notes are an integral part of the financial statements.
See notes 1 and 21.



                                                                           Working Capital Fund > Consolidating and Combining Statements
                                                                                                                                                181
      United States Air Force
                        Force




      Combining Statement of Financing—Working Capital Fund
      For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                             Depot
                                                                                                          Maintenance

  RESOURCES USED TO FINANCE ACTIVITIES
  Budgetary Resources Obligated
     Obligations incurred                                                                                     6,870,641
     Less: Spending authority from offsetting collections and recoveries (-)                                 -7,027,096
  Net obligations                                                                                              -156,455
  Other Resources
     Transfers in/out without reimbursement (+/-)                                                                    0
     Imputed financing from costs absorbed by others                                                           107,803
     Other (+/-)                                                                                                     0
  Net other resources used to finance activities                                                               107,803
  TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                                                   -48,652

  RESOURCES USED TO FINANCE ITEMS NOT PART OF NET COST OF OPERATIONS
  Change in budgetary resources obligated for goods, services and benefits ordered but not yet provided
     Undelivered Orders (-)                                                                                     47,562
     Unfilled Customer Orders                                                                                  297,077
     Resources that finance the acquisition of assets                                                         -786,219
     Other (+/-)                                                                                                     0
   Total resources used to finance items not part of the net cost of operations                               -441,580
  TOTAL RESOURCES USED TO FINANCE THE NET COST OF OPERATIONS                                                 -$490,232

  COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR GENERATE
  RESOURCES IN THE CURRENT PERIOD:
  Components Requiring or Generating Resources in Future Periods:
     Other (+/-)                                                                                                 2,462
  Total components of Net Cost of Operations that will require or generate resources in future periods
                                                                                                                 2,462
  COMPONENTS NOT REQUIRING OR GENERATING RESOURCES
     Depreciation and amortization                                                                              78,906
     Revaluation of assets or liabilities (+/-)                                                                      0
     Other (+/-)                                                                                                     0
   Total components of Net Cost of Operations that will not require or generate resources                       78,906
  TOTAL COMPONENTS OF NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR GENERATE
  RESOURCES IN THE CURRENT PERIOD                                                                              $81,368

  Net Cost of Operations                                                                                     -$408,864




  The accompanying notes are an integral part of the financial statements.
  See notes 1 and 22.



182      Consolidating and Combining Statements < Working Capital Fund
                                                                                        2002 Annual Financial Statements




   Supply           Information                             Component               2002                2001              2001
 Management           Services        Transportation          Level               Combined            Restated          Combined




      8,890,931           645,090                -1,114            79,132          16,484,680         15,702,007         15,702,007
     -8,537,135          -620,927                     0           -81,606         -16,266,764        -15,270,670        -15,270,670
        353,796            24,163                -1,114            -2,474             217,916            431,337            431,337

              0                 0                     0                 0                    0             -1,928             -1,928
         12,408             6,992                     0                 0              127,203            124,432            124,432
              0                -3                     0                 0                   -3                  0                  0
         12,408             6,989                     0                 0              127,200            122,504            122,504
        366,204            31,152                -1,114            -2,474              345,116            553,841            553,841



       -423,259           -10,728                   496                 0            -385,929           -173,540           -173,540
         38,894            -6,907                     0                 0             329,064            455,715            455,715
       -604,276           -11,771                  -202                 0          -1,402,468          1,512,295          3,141,139
              0                 0                     0                 0                   0            126,043            126,043
       -988,641           -29,406                   294                 0          -1,459,333          1,920,513          3,549,357
      -$622,437            $1,746                 -$820           -$2,474         -$1,114,217         $2,474,354         $4,103,198




           3,140               11                      0                    0             5,613            43,246             43,246

           3,140               11                      0                    0             5,613            43,246             43,246

         37,986             7,698                      0                    0          124,590            145,844            145,844
              0                 0                      0                    0                0              3,901              3,901
              0                 0                      0                    0                0              2,392              2,392
         37,986             7,698                      0                    0          124,590            152,137            152,137

        $41,126            $7,709                    $0                    $0         $130,203          $195,383           $195,383

      -$581,311            $9,455                 -$820           -$2,474            -$984,014        $2,669,737         $4,298,581




The accompanying notes are an integral part of the financial statements.
See notes 1 and 22.



                                                                           Working Capital Fund > Consolidating and Combining Statements
                                                                                                                                           183
      United States Air Force
                        Force




                                                        This page intentionally left blank.




184      Consolidating and Combining Statements < Working Capital Fund
                           2002 Annual Financial Statements




Working Capital Fund

Required Supplementary
Information




                  Working Capital Fund > Required Supplementary Information
                                                                              185
      United States Air Force
                        Force




                                                          This page intentionally left blank




186      Required Supplementary Information < Working Capital Fund
                                                                           2002 Annual Financial Statements




Schedule, Part A
DoD Intra-governmental Asset Balances              Treasury   Fund Balance Accounts      Loans
($ in thousands)                                     Index    with Treasury Receivable Receivable Investments Other
Executive Office of the President                      11                          $1
Department of Agriculture                              12                          $1
Department of Commerce                                 13                     $18,512
Department of the Interior                             14                          $1
Department of Justice                                  15                        $341
Navy General Fund                                      17                     $12,878
Department of State                                    19                         $18
Department of the Treasury                             20         $463,311       $490
Army General Fund                                      21                      $9,226
General Services Administration                        47                        $122
National Science Foundation                            49                          $9
Air Force General Fund                                 57                    $453,277                           $0
Department of Transportation                           69                      $1,133
Small Business Administration                          73                          $0
National Aeronautics and Space Administration          80                      $1,223
Department of Energy                                   89                         $14
US Army Corps of Engineers                             96                          $3
Other Defense Organizations General Funds              97                     $42,761
Other Defense Organizations Working Capital Funds   97-4930                   $79,869
Army Working Capital Fund                         97-4930.001                     $53                           $0
Navy Working Capital Fund                         97-4930.002                  $8,095
Air Force Working Capital Fund                    97-4930.003
Totals might not match reports                       TOTAL       $463,311    $628,027         $0          $0    $0




                                                                                             Debts/
        Schedule, Part B                                                                  Borrowings
        DoD Intra-governmental Entity Liabilities            Treasury      Accounts       from Other
        ($ in thousands)                                       Index       Payable         Agencies          Other
        Navy General Fund                                        17             $341                              $8
        Army General Fund                                        21             $999                              $0
        Office of Personnel Management                           24                                           $9,630
        Air Force General Fund                                   57           $15,060                         $1,600
        Department of Transportation                             69                                              $18
        National Aeronautics and Space Administration            80                                               $0
        Department of Energy                                     89                                               $0
        Other Defense Organizations General Funds                97           $9,117                              $4
        Other Defense Organizations Working Capital Funds     97-4930       $119,710
        Army Working Capital Fund                           97-4930.001       $4,269                             $0
        Navy Working Capital Fund                           97-4930.002       $5,199                           $124
        Totals might not match reports                         TOTAL        $154,695                 $0     $11,384




                                                                   Working Capital Fund > Required Supplementary Information
                                                                                                                               187
      United States Air Force
                        Force




                       Schedule, Part C
                       DoD Intra-governmental Revenue and Related Costs        Treasury       Earned
                       ($ in thousands)                                          Index       Revenue
                       Executive Office of the President                           11              $775
                       Department of Commerce                                      13          $133,236
                       Department of the Interior                                  14               $87
                       Department of Justice                                       15            $2,053
                       Navy General Fund                                           17          $153,814
                       Department of State                                         19              $254
                       Department of the Treasury                                  20              $696
                       Army General Fund                                           21           $65,577
                       General Services Administration                             47              $590
                       National Science Foundation                                 49                $3
                       Air Force General Fund                                      57        $8,259,035
                       Department of Transportation                                69            $8,457
                       Small Business Administration                               73                $2
                       National Aeronautics and Space Administration               80            $5,828
                       Department of Energy                                        89              $185
                       US Army Corps of Engineers                                  96                $8
                       Other Defense Organizations General Funds                   97        $1,169,656
                       Other Defense Organizations Working Capital Funds        97-4930        $900,924
                       Army Working Capital Fund                              97-4930.001        $5,806
                       Navy Working Capital Fund                              97-4930.002      $200,415
                       Totals might not match reports                            TOTAL      $10,907,401




               Schedule, Part E
               DoD Intra-governmental non-exchange revenues                Treasury   Transfers    Transfers
               ($ in thousands)                                              Index       In           Out
               Air Force General Fund                                          57                     $40,515
               Other Defense Organizations Working Capital Funds           97-4930      $78,000          $599
               Totals might not match reports                               TOTAL       $78,000       $41,114




188      Required Supplementary Information < Working Capital Fund
                       2002 Annual Financial Statements




Working Capital Fund

Audit Opinion




                             Working Capital Fund > Audit Opinion
                                                                    189
      United States Air Force
                        Force




                                                This page intentionally left blank.




190      Audit Opinion < Working Capital Fund
                                                                                    2002 Annual Financial Statements




                                                      INSPECTOR GENERAL
                                                   DEPARTMENT OF DEFENSE
                                                     400 ARMY NAVY DRIVE
                                               ARLINGTON, VIRGINIA 22202-4704

                                                                                                                   January 6, 2003

                             MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                                       (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Air Force Working Capital Fund Fiscal Year 2002 Principal Financial
Statements (Report No. D-2003-042)

The Chief Financial Officers Act of 1990, as amended, requires the Inspector General of the Department of Defense to
audit the accompanying Consolidated Balance Sheet of the Air Force Working Capital Fund as of September 30, 2002
and 2001; the related Consolidated Statements of Net Cost and Changes in Net Position; and the Combined
Statements of Financing1 and Budgetary Resources. These principal financial statements are the responsibility of Air
Force management. Air Force management is also responsible for implementing effective internal control and for com-
plying with laws and regulations. We are also including the required reports on internal control and compliance with
laws and regulations.

Disclaimer of Opinion on the Financial Statements
The Air Force did not provide the financial statements on a timely basis in accordance with the terms of engagement. In
addition, as discussed in the Attachment, previously identified material weaknesses in internal control and instances of
noncompliance with laws and regulations continued to affect the current period. Because of those conditions, manage-
ment acknowledged that the financial data reported to the financial statements were unreliable. These deficiencies
would have precluded an audit opinion. As a result, we were unable to complete required audit procedures. Therefore,
the scope of our work was not sufficient to enable us to express, and we do not express, an opinion on the referenced
financial statements and other information.2

Summary of Internal Control
In planning and performing our audit, we considered the Air Force internal control over financial reporting and compli-
ance. We did this to determine our procedures for auditing the financial statements and to comply with Office of
Management and Budget guidance, but not to express an opinion on internal control. Accordingly, we do not express


1 The Office of Management and Budget requires a Consolidated Statement of Financing, instead of the Combined Statement of
Financing prepared by the Air Force.

2 Other information includes Management’s Discussion and Analysis, the Required Supplementary Information, and Other
Accompanying Information.




A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time.
—Constitution of the United States, Article 1, Section 9




                                                                                              Working Capital Fund > Audit Opinion
                                                                                                                                     191
      United States Air Force
                        Force




      an opinion on internal control over financial reporting and compliance because management acknowledged at the
      beginning of our engagement that previously identified reportable conditions,3 all of which are material, continued to
      exist and affect the current period. Therefore, we did not perform tests of Air Force internal control. See the Attachment
      for details on material internal control weaknesses.4 A material weakness is a condition that precludes the entity’s inter-
      nal control from providing reasonable assurance that misstatements, noncompliance, or losses that are material in rela-
      tion to the financial statements would be prevented or detected on a timely basis. Our internal control work would not
      necessarily disclose all material weaknesses.

      Summary of Compliance With Laws and Regulations
      Our work to determine compliance with selected provisions of the applicable laws and regulations was limited because
      management acknowledged at the beginning of our engagement that previously reported instances of noncompliance
      continue to exist and affect the current period. Therefore, we did not determine whether the Air Force was in compli-
      ance with all applicable laws and regulations related to financial reporting. See the Attachment for details on compli-
      ance with laws and regulations.

      In order for DoD to comply with statutory reporting requirements and applicable financial systems requirements, the
      Under Secretary of Defense (Comptroller)/Chief Financial Officer is developing a DoD-wide financial management
      enterprise architecture. DoD anticipates developing and implementing the financial management enterprise architecture
      by 2007. Until the architecture is developed and implemented, the Air Force will be unable to fully comply with the
      statutory reporting requirements.

      We caution that other noncompliance may have occurred and not been detected. Further, the results of our limited pro-
      cedures may not be sufficient for other purposes. Our objective was not to express an opinion on compliance with
      applicable laws and regulations.

      Management Responsibility
      Management is responsible for:

      ◗   preparing the financial statements in conformity with generally accepted accounting principles,

      ◗   establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
          objectives of the Federal Managers’ Financial Integrity Act of 1982 are met,



  3 Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated to man-
  agement because they represent significant deficiencies in the design or operation of internal control, which could adversely affect
  the organization’s ability to initiate, record, process, and report financial data consistent with the assertions of management in finan-
  cial statements.

  4 Section 1008(d) of the FY 2002 National Defense Authorization Act requires the Inspector General of the Department of Defense
  to perform only the audit procedures required by generally accepted government auditing standards that are consistent with the rep-
  resentations made by management.

  A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time.
  —Constitution of the United States, Article 1, Section 9




192       Audit Opinion < Working Capital Fund
                                                                         2002 Annual Financial Statements




◗   ensuring that Air Force Working Capital Fund financial management systems substantially comply with Federal
    Financial Management Improvement Act of 1996 requirements, and

◗   complying with applicable laws and regulations.




                                                 David K. Steensma
                                         Deputy Assistant Inspector General
                                                      for Auditing



Attachment
As stated




                                                                                   Working Capital Fund > Audit Opinion
                                                                                                                          193
      United States Air Force
                        Force




                                                This page intentionally left blank.




194      Audit Opinion < Working Capital Fund
                                                                                   2002 Annual Financial Statements




          Reports on Internal Control and Compliance with Laws and Regulations
                                                       Internal Control
Management is responsible for implementing effective internal control and for providing reasonable assurance that
accounting data are accumulated, recorded, and reported properly; and that assets are safeguarded. We did not per-
form tests of Air Force internal control over financial reporting and we did not obtain sufficient evidence to support or
express an opinion on internal control because management acknowledged at the beginning of our engagement that
material weaknesses identified in prior periods continued to exist and affect the current period.*

Previously identified reportable conditions, all of which are material, continue to exist in the following areas.

Financial Management Systems
◗   Supporting financial management systems did not substantially comply with Federal Financial Management Systems
    Requirements to maintain adequate subsidiary records for audit trails in Air Force and supporting Defense Finance
    and Accounting Service (DFAS) financial management systems, implement accounting systems with transaction-driv-
    en general ledgers, and provide adequate applications controls to critical Air Force feeder systems.

◗   The Air Force was unable to implement fully all elements of generally accepted accounting principles and Office of
    Management and Budget Bulletin No. 01-09, “Form and Content of Agency Financial Statements,” September 25,
    2001, due to limitations in the financial management processes and systems, including nonfinancial feeder systems
    and processes.

Intragovernmental Eliminations
◗   To prepare reliable financial statements, transactions occurring between Components or activities within DoD or
    between two or more Federal agencies must be eliminated. However, the Air Force could not accurately identify all
    intragovernmental transactions by customer.

◗   The Air Force was unable to reconcile intragovernmental accounts receivable or accounts payable balances, or
    reconcile intragovernmental revenue balances with its trading partners.

Accounting Policies and Practices
◗   Air Force financial management systems were not transaction-driven for budgetary accounts, therefore, in some
    cases, proprietary and statistical accounts were used to develop the Report on Budget Execution (SF 133) and the
    Combined Statement of Budgetary Resources.



* Section 1008(d) of the FY 2002 National Defense Authorization Act requires the Inspector General of the Department of Defense
to perform only the audit procedures required by generally accepted government auditing standards that are consistent with the rep-
resentations made by management.




                                                                                                                         Attachment




                                                                                              Working Capital Fund > Audit Opinion
                                                                                                                                      195
      United States Air Force
                        Force




      ◗   Air Force and DFAS personnel did not perform reconciliation and systems validations to verify the accuracy of
          accounts receivable from foreign military sales, progress payments to contractors, and accounts payable from the
          Materiel Support Division.

      ◗   Air Force Working Capital Fund resource managers did not always maintain adequate documentation or use trans-
          action subsidiary ledgers and special journals to support recorded trial balance accounts.

      ◗   Management controls were not adequate to ensure that all accounting entries were proper and supported. The
          DFAS Denver Center had mot implemented adequate procedures for ensuring that all journal vouchers are fully
          supportable and documented.

      Inventory
      ◗   Air Force supply management systems did not provide sufficient audit trails to confirm and value the in-transit
          inventory reported as part of inventory held for sale on the Consolidated Balance Sheet.

      ◗   Instead of using historical costs, the Air Force Working Capital Fund valued operating material and supplies based
          on standard prices and inventory using latest acquisition cost. In addition, the consumption method was not always
          used in accounting for the use of operating materials and supplies. Further, uncertainties existed regarding the exis-
          tence and completeness of the quantities used to derive the balances reported in the financial statements for inven-
          tory and operating materials and supplies.

      Revenue and Expense Recognition
      ◗   Air Force and DFAS personnel did not report Government-furnished equipment provided to depot maintenance
          contractors at no charge to the Depot Maintenance Activity Group in accordance with SFFAS No. 6, “Accounting
          for Property, Plant, and Equipment.”

      ◗   The Air Force did not recognize an allowance for estimated uncollectible amounts with other Federal agencies.

      Property, Plant, and Equipment
      ◗   Property, plant, and equipment values could not be verified.
                                                 Compliance with Laws and Regulations
      Management is responsible for compliance with existing laws and regulations related to financial reporting. Our work
      to determine compliance with selected provisions of the applicable laws and regulations was limited because manage-
      ment acknowledged at the beginning of our engagement that previously reported instances of noncompliance continue
      to exist and affect the current period. Therefore, we did not determine whether the Air Force was in compliance with
      selected provisions of all applicable laws and regulations related to financial reporting. Our objective was not to
      express an opinion on compliance with applicable laws and regulations.

      Statutory Financial Management Systems Reporting Requirements. The Air Force is required to comply with the following
      financial management systems reporting requirements.

      The Federal Financial Management Improvement Act of 1996 requires DoD to establish and maintain financial man-
      agement systems that comply substantially with the Federal Financial Management Systems Requirements, generally
      accepted accounting principles, and the U.S. Government Standard General Ledger at the transaction level. In addi-




196       Audit Opinion < Working Capital Fund
                                                                           2002 Annual Financial Statements




tion, the Federal Managers’ Financial Integrity Act of 1982 requires DoD to evaluate the systems and to annually report
whether those systems are in compliance with applicable requirements.

The Air Force acknowledged that many of its critical financial management and feeder systems did not comply substan-
tially with the Federal Financial Management Systems Requirements, generally accepted accounting principles, and the
U.S. Government Standard General Ledger at the transaction level. In an attempt to comply with statutory reporting
requirements and applicable financial systems requirements, DoD plans to develop a DoD-wide financial management
enterprise architecture. The architecture is intended to provide a “blueprint” of the Department’s financial management
systems and processes to initiate a comprehensive financial management reform effort. Until the architecture is devel-
oped, the Air Force will be unable to fully comply with statutory reporting requirements. Therefore, we did not perform
tests of compliance for these requirements.




                                                                                     Working Capital Fund > Audit Opinion
                                                                                                                            197
      United States Air Force
                        Force




                                                This page intentionally left blank.




198      Audit Opinion < Working Capital Fund
